<html>
<title> - MARKETING VIOLENCE TO CHILDREN</title>
<body><pre>[Senate Hearing 106-1144]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1144
 
                     MARKETING VIOLENCE TO CHILDREN

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation









                      U.S. GOVERNMENT PRINTING OFFICE

85-009                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 13, 2000...............................     1
Statement of Senator Abraham.....................................    18
Statement of Senator Ashcroft....................................    19
Statement of Senator Breaux......................................    21
Statement of Senator Brownback...................................    11
    Prepared statement...........................................    12
Statement of Senator Bryan.......................................    10
Statement of Senator Burns.......................................     9
Statement of Senator Dorgan......................................    19
Statement of Senator Frist.......................................    16
Statement of Senator Hollings....................................     7
    Prepared statement...........................................     8
Statement of Senator Inouye......................................    18
Statement of Senator Kerry.......................................    14
    Prepared statement...........................................    15
Statement of Senator McCain......................................     1
    Prepared statement...........................................     4
Statement of Senator Rockefeller.................................    21

                               Witnesses

Borenstein, Dr. Daniel B., President, American Psychiatric 
  Association....................................................   114
    Prepared statement...........................................   115
Boxer, Hon. Barbara, U.S. Senator from California................    34
Cheney, Lynne, Former Chairman, National Endowment for the 
  Humanities.....................................................    55
    Prepared statement...........................................    58
Cook, Donald E., M.D., FAAP, President, American Academy of 
  Pediatrics.....................................................   117
    Prepared statement...........................................   118
DeWine, Hon. Mike, U.S. Senator from Ohio........................    36
Diaz, Tom, Senior Policy Analyst, Violence Policy Center.........    94
    Prepared statement...........................................    96
Dyson, Dr. Michael Eric, Professor, Depaul University............   133
    Prepared statement...........................................   138
Fischbach, Gregory, President and Chief Executive Officer, 
  Acclaim Entertainment..........................................    73
    Prepared statement...........................................    76
Goldberg, Danny, President, Artemis Records......................    61
    Prepared statement...........................................    63
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................    43
Hatch, Hon. Orrin G., U.S. Senator from Utah.....................    22
    Prepared statement...........................................    25
Hyde, Hon. Henry, U.S. Representative from Illinois..............    27
Kohl, Hon. Herb, U.S. Senator from Wisconsin.....................    32
Lieberman, Hon. Joseph I., U.S. Senator from Connecticut.........    29
Lowenstein, Douglas, President, Interactive Digital Software 
  Association....................................................   105
    Prepared statement...........................................   108
Markey, Hon. Edward J., U.S. Representative from Massachusetts...    38
    Prepared statement...........................................    41
McIntyre, Jeff, Legislative and Federal Affairs Officer, American 
  Psychological Association......................................   130
    Prepared statement...........................................   132
Moore, Peter, President and Chief Operating Officer, SEGA of 
  America........................................................    68
    Prepared statement...........................................    71
Pitofsky, Robert, Chairman, Federal Trade Commission.............    45
    Prepared statement...........................................    47
Rosen, Hillary B., President and CEO, Recording Industry 
  Association....................................................   100
    Prepared statement...........................................   102
Valenti, Jack, President and CEO, Motion Picture Association of 
  America........................................................   122
    Prepared statement...........................................   124
Zelnick, Strauss, President and Chief Operating Officer, BMG 
  Entertainment..................................................    65
    Prepared statement...........................................    67

                                Appendix

Dunn, Hon. Jennifer, U.S. Representative from Washington, 
  prepared statement.............................................   173
Leahy, Hon. Patrick J., U.S. Senator from Vermont, prepared 
  statement......................................................   171
Peterson, Hon. Bart, Mayor, City of Indianapolis, prepared 
  statement......................................................   172




                     MARKETING VIOLENCE TO CHILDREN

                              ----------                              


                     WEDNESDAY, SEPTEMBER 13, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SH-216, Hart Senate Office Building, Hon. John McCain, Chairman 
of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. We have a very full and busy 
hearing schedule today. For the benefit of my colleagues, I 
would like to mention a couple of housekeeping items. One, as I 
understand it we may have one or more votes around 11 o'clock 
which will then, obviously, cause us some disruption. Also it 
is my intention, because of the very long day yesterday, that 
we will break around 12:30 today. Hopefully we will finish 
before then, but if not, we will break at 12:30 for one hour, 
and reconvene at 1:30.
    We have a large number of witnesses who have great interest 
in this hearing, so I would also ask my colleagues if they 
would try to make their opening statements as brief as 
possible. The purpose of this hearing is to discuss the Federal 
Trade Commission report entitled, The Marketing of Violent 
Entertainment to Children. The report examines the marketing 
practices of the motion picture, music, and video game 
industries.
    The report concludes, and I quote, ``individual companies 
in each industry routinely market to children the very products 
that have the company's own parental warnings, or ratings, with 
age restrictions due to their violent content.'' The report 
exposed, ``that extensive marketing, and in many instances 
explicit targeting of violent R-rated films to children under 
the age of 17 and violent PG-13 films to children under 13''.
    Of the 44 R-rated films studied by the Commission, 80 
percent were targeted to children under the age of 17. The 
report documents extensive market research activities, citing 
examples of studios testing rough cuts of R-rated films on 
children as young as 12 years old, and revealed that violent 
PG-13 rated movies were targeted at children 11 and younger.
    One particularly disturbing quote from a marketing plan for 
an R-rated movie sequel states, quote, ``it seems to make sense 
to interview 10- to 11-year-olds. In addition, we will survey 
African American and Latino movie-goers between the ages of 10 
and 24.'' I find this patently offensive. Studios ran ads 
heavily during the television programs such as The Simpsons, 
Buffy the Vampire Slayer, Dawson's Creek, Xena: Warrior 
Princess, Hercules, and WWF Smackdown. These programs have some 
of the highest under-17 viewership.
    Web sites like HappyPuppy.com and MTV.com are used to 
attract kids. Comic books and the schoolhouse could not even 
protect our children from the studio hacks. Quoting from the 
report, ``magazines with majority under-17 audiences such as 
Teen, D.C. Comics Teens, or Marvel Comics, contained 
advertisements for numerous R-rated films.
    ``In addition, six of the studios use print media 
distributed exclusively in schools, Planet Report, and/or Fast 
Times, to advertise R-rated movies.''
    The report notes that these periodicals are often mandatory 
reading for high school students. One studio distributed free 
movie passes to its R-rated movie at high schools, and 
distributed promotional material to youth groups such as Camp 
Fire Boys and Girls. We intend to find out which studio that 
was, and if the movie executives were here today perhaps we 
could have asked them.
    The FTC's mystery shopper survey sent kids 13 to 16 years 
old to 395 theaters, and 46 percent of the time these kids were 
able to purchase tickets to R-rated films. This fact is 
significant, because following a White House Summit on Violence 
last year, President Clinton and theater operators trumpeted a 
new zero-tolerance policy to prevent kids from buying tickets 
to restricted films. This zero tolerance policy claim, like the 
repeated claims before this Committee by the Motion Picture 
Industry that the industry is protecting our children with 
rating systems and codes of conduct, has been nothing but a 
smokescreen to provide cover for immoral and unconscionable 
business practices.
    I want to cite in detail one example that stands out as 
particularly despicable. I quote, ``At least one studio was 
thwarted in its attempt to market a PG-13 film to children 6 to 
11 on Nickelodeon, when the network concluded that it would not 
be appropriate to air advertisements for that film because the 
Nickelodeon audience is mostly children under 12, and the film 
contains situations not seen on Nickelodeon, including several 
gun battles, a couple of fight sequences, some devastating gun 
blasts, in addition to strong language and sexual suggestion.''
    The studio's advertising agency noted that it advanced 
several justifications to Nickelodeon showing the ads 
including, this film needs the audience Nickelodeon provides to 
be successful. Though the FTC report has been redacted, after 
some investigation the Committee was able to establish that the 
motion picture studio involved was Sony, and the film was an 
extraordinarily violent film named the Fifth Element, starring 
Bruce Willis. The ad agency involved was McCann-Erickson.
    There will be much said today, but thundering silence will 
be heard from motion picture executives. They have all been 
invited to testify. By some uncanny coincidence, every single 
studio executive was either out of the country or unavailable. 
I can only conclude the industry was too ashamed of or unable 
to defend their marketing practices. Their hubris is stunning, 
and serves to underscore the lack of corporate responsibility 
so strikingly apparent in this report.
    We do, however, have witnesses from the recording industry 
and the video game industry. I hope that all on the Committee 
will join me in commending their willingness to testify before 
us today. Their cooperation stands in sharp contrast to the 
motion picture industry.
    As with motion pictures, the music industry is clearly 
guilty of marketing violence to children. One marketing plan 
cited by the FTC report states, ``the team is promoting heavily 
at the local high school and colleges, and the colleges and 
high schools and community centers are the focus of our 
attack.''
    Print ads were consistently placed in magazines like 
Seventeen, Skateboarding, YM, and Vibe. These magazines have an 
under 18 readership of between 40 and 80 percent. Television 
programs like The Simpsons and Buffy the Vampire Slayer 
represent some of the highest teen audience members on TV, and 
were consistently used to market label recording products.
    Though the music labeling system is basically useless, as 
it contains no content information and no age-appropriate 
recommendations, the FTC did conduct a secret shopper survey. 
Not surprisingly, 85 percent of the time children were 
successful in purchasing labeled recordings. Given the lack of 
information provided, the only thing remarkable about this 
number is that every child was not able to make a purchase. I 
understand that the music industry has announced a series of 
steps designed to address some of these concerns. I will leave 
it to the witnesses to outline these changes.
    To their credit, the video game industry has the most 
comprehensive and informative labeling system that provides 
detailed information about content and age appropriateness. 
Unfortunately, this system did not prevent marketing to kids. 
Nearly 70 percent of the games reviewed by the Commission were 
targeted to kids under 17. One particularly shocking marketing 
report stated that, ``though the game has two ratings for teens 
only, I have asked Nickelodeon sales to help get an approval so 
that the product can air on the network. Nickelodeon airs 27 of 
the top 30 cable shows against our target demo for boys 9 to 
17.''
    I want to make clear that neither this report nor this 
Committee intends to make the case for censorship. We make no 
threat against the First Amendment. It is not my purpose to 
pass judgment on the products of your industries. We all have 
our own views on the quality and value of what will be defended 
as art, but that is not the question today.
    Defending these market practices does not defend art or 
free expression. It defends the bottom line of your 
corporations, and while as a defender of the free market I do 
not begrudge anyone's honest profits: I do not think they need 
to come at the expense of our children's well-being.
    What is in question is not Government censorship but 
industry responsibility. It is your responsibility to refrain 
from making more difficult a parent's responsibility to see 
that their children grow up healthy in mind and body into 
adults who are capable of judging for themselves the quality or 
lack thereof of your art.
    I could go on, but time is short, and the witness list is 
long. Chairman Pitofsky will provide us with the details of the 
FTC report. I want to commend the staff of the Federal Trade 
Commission on an excellent job. I want to acknowledge the 
leadership of Senator Brownback in this effort, and many 
others.
    Finally, I want to get back to the motion picture industry 
and their failure to present even one witness for this panel. 
The Committee received essentially two excuses for why studio 
executives saw fit only to send their lobbyists to represent 
them. First, they were virtually all out of the country. 
Secondly, they did not have the time to respond to the 
substance of the report.
    On the second count, the contents of this report are based 
almost entirely upon data provided by the studios themselves, 
thus I assume they are already familiar with it. In addition, 
Committee staff have been talking regularly with studio 
lobbyists for several months about a hearing in September and 
the need to present studio executives.
    Furthermore, the FTC has served a 15-day advance notice to 
all entities involved in the pending report. Finally, there has 
been an intense dialogue between the Committee and the industry 
lobbyists over the past 2 weeks.
    Yet here we are, with no direct representation by the 
motion picture industry. This is a sad commentary on corporate 
responsibility, and an affront to American families whose 
children are so clearly in the crosshairs of hundreds of 
millions of dollars in movie violence advertising. As such, I 
am announcing today that this Committee will convene another 
full Committee hearing 2 weeks from today for the sole purpose 
of hearing motion picture industry testimony in response to the 
FTC report.
    As this hearing proceeds, invitations are being delivered 
to Gerald Levin, chairman of Time Warner, Incorporated, Michael 
Eisner, chairman of The Walt Disney Company, Rupert Murdoch, 
chairman of Newscorp, Sumner Redstone, chairman of Viacom, 
Incorporated, Edgar Bronfman, chairman of Seagram, Stacey 
Snider, chairman of Universal Studios, John Calley, chairman of 
Sony Pictures Entertainment, Jim Gianopulos, president of 
Twentieth Century Fox, Jeffrey Katzenberg, Dreamworks/SKG, 
Sherry Lansing, chairman of Paramount Picture/Viacom, Barry 
Meyer, chairman of Warner Brothers, Michael Nathanson, 
president of MGM Pictures, and Harvey Weinstein, chairman of 
Miramax.
    By that time, these individuals will have had 2 full weeks 
to clear their schedules and to study the report. They will 
have no excuses for failing to appear before this Committee.
    Senator Hollings.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator From Arizona
    The purpose of this hearing is to discuss the Federal Trade 
Commission report: The Marketing of Violent Entertainment to Children. 
The report examines the marketing practices of the motion picture, 
music, and video game industries. The report concludes, and I quote: 
``individual companies in each industry routinely market to children 
the very products that have the industries' own parental warnings or 
ratings with age restrictions due to their violent content.''
    The report exposed ``extensive marketing and, in many instances, 
explicit targeting of violent R-rated films to children under the age 
of 17, and violent PG-13 films to children under 13.'' Of the 44 R-
rated films studied by the Commission, 80 percent were targeted to 
children under 17. The report documents extensive market research 
activity, citing examples of studios testing rough cuts of R-rated 
films on children as young as 12 years old, and revealed that violent, 
PG-13 rated movies were targeted at children 11 and younger. One 
particularly disturbing quote from a marketing plan for an R-rated 
movie sequel states: ``. . . it seems to make sense to interview 10- to 
11-year-olds . . . In addition, we will survey African-American and 
Latino moviegoers between the ages of 10 and 24.'' I find this patently 
offensive.
    The studios ran ads heavily during television programming such as 
The Simpsons, Buffy the Vampire Slayer, Dawson's Creek, Xena: Warrior 
Princess, Hercules, and WWF Smackdown. These programs have some of the 
highest under-17 viewership. Websites like happypuppy.com and mtv.com 
were used to attract kids. The comic books and the school house 
couldn't even protect our children from the studio hacks. Quoting from 
the report: ``Magazines with majority under-17 audiences, such as Teen 
. . DC Comics Teen, or Marvel Comics, contained advertisements for 
numerous R-rated films. In addition, six of the studios used print 
media distributed exclusively in schools--Planet Report and/or Fast 
Times--to advertise R-rated movies.'' The report notes that these 
periodicals are often mandatory reading for high school students. One 
studio distributed free movie passes to its R-rated movie at high 
schools and distributed promotional material to youth groups such as 
Camp Fire Boys and Girls.
    The FTC's ``Mystery Shopper Survey'' sent kids 13 to 16 years old 
to 395 theaters, and 46 percent of the time these kids were able to 
purchase tickets to R-rated films. This fact is significant because 
following a White House summit on violence last year, President Clinton 
and theater operators trumpeted a new ``zero tolerance'' policy to 
prevent kids from buying tickets to restricted films. This zero 
tolerance policy claim--like the repeated claims before this Committee 
by the motion picture industry that the industry is protecting our 
children with ratings systems and codes of conduct--has been nothing 
but a smoke screen to provide cover for immoral, and unconscionable 
business practices.
    I want to cite in detail one example that stands out as 
particularly despicable. I quote: ``At least one studio was thwarted in 
its attempt to market a PG-13 film to children 6-11 on Nickelodeon, 
when the network concluded that it would not be appropriate to air 
advertisements for that film because the Nickelodeon audience was 
mostly children under 12 and the film contained situations not seen on 
Nickelodeon, including several gun battles, a couple of fight 
sequences, and some devastating gun blasts (in addition to strong 
language and sexual suggestion). The studio's advertising agency noted 
that it had advanced several justifications (to Nickelodeon) for 
showing the ads, including: ``This film needs the audience Nickelodeon 
provides to be successful.'' Though the FTC report has been redacted, 
after some investigation the Committee was able to establish that the 
motion picture studio involved was Sony, and the film was an 
extraordinarily violent film named ``The Fifth Element,'' starring 
Bruce Willis. The ad agency involved was McCann/Erikson.
    There will be much said today. But thundering silence will be heard 
from motion picture executives. They have all been invited to testify. 
But, by some uncanny coincidence every single studio executive was 
either out of the country, or unavailable. I can only conclude the 
industry was too ashamed of, or unable to defend their marketing 
practices. Their hubris is stunning, and serves to underscore the lack 
of corporate responsibility so strikingly apparent in this report.
    We do, however, have witnesses from the recording industry, and the 
video game industry. I hope that all on the Committee will join me in 
commending their willingness to testify before us today. Their 
cooperation stands in sharp contrast to the motion picture industry.
    As with motion pictures, the music industry is clearly guilty of 
marketing violence to children. One marketing plan cited by the FTC 
report states that ``[t]he team is promoting heavily at the local high 
schools and colleges'' and that ``[c]olleges and high schools, and 
community centers are the focus of our attack.'' Print ads were 
consistently placed in magazines like Seventeen, Skateboarding, YM, and 
Vibe. These magazines have an under-18 readership of between 40 and 80 
percent. Television programs like The Simpsons, and Buffy the Vampire 
Slayer represent some of the highest teen audience numbers on TV, and 
were consistently used to market labeled recording products.
    Though the music labeling system is basically useless, as it 
contains no content information, and no age-appropriate 
recommendations, the FTC did conduct a secret shopper survey. Not 
surprisingly, 85 percent of the time children were successful in 
purchasing labeled recordings. Given the lack of information provided, 
the only thing remarkable about this number is that every child was not 
able to make a purchase. I understand that the music industry has 
announced a series of steps designed to address some of these concerns. 
I will leave it to their witnesses to outline those changes.
    To their credit, the video game industry has the most comprehensive 
and informative labeling system. It provides detailed information about 
content, and age appropriateness. Unfortunately, this system did not 
prevent marketing to kids. Nearly 70 percent of the games reviewed by 
the Commission were targeted to kids under 17. One particularly 
shocking marketing report stated that: ``Though [the game] has T rating 
(for teens only), I have asked Nickelodeon sales to help get an 
approval so that the product can air on the network. (Nick[elodeon] 
airs 27 of the top 30 cable shows against our target demo for boys 9-
17).''
    I want to make clear that neither this report nor this Committee 
intend to make the case for censorship. We make no threat against the 
First Amendment. It is not my purpose to pass judgement on the products 
or your industries. We all have our own views on the quality and value 
of what will be defended as art. But that is not the question today. 
Defending these market practices does not defend art or free 
expression. It defends the bottom line of your corporations. And while 
as a defender of the free market I do not begrudge anyone's honest 
profits, I do not think they need to come at the expense of our 
children's well-being. What is in question is not government 
censorship, but industry responsibility. It is your responsibility to 
refrain from making much more difficult a parent's responsibility to 
see that their children grow up healthy in mind and body into adults 
who are capable of judging for themselves the quality or lack thereof 
of your art.
    I could go on, but time is short, and the witness list is long. 
Chairman Pitofsky will provide us with the details of the FTC Report. I 
want to commend the staff of the Federal Trade Commission on an 
excellent job. I want to acknowledge the leadership of Senator 
Brownback in this effort.
    Finally, I want to go back to the motion picture industry and their 
failure to present even one witness for this panel. The Committee 
received essentially two excuses for why studio executives saw fit only 
to send their lobbyists to represent them. First, they were virtually 
all out of the country. Secondly, that they did not have time to 
respond to the substance of the report. On the second count, the 
contents of this report are based almost entirely upon data provided by 
the studios themselves. Thus, I assume they are already familiar with 
it. In addition, Committee staff have been talking regularly with 
studio lobbyists for several months about a hearing in September and 
the need to present studio executives.
    Furthermore, the FTC has served a 15-day advance notice to all 
entities involved in the pending report. Finally, there has been an 
intense dialogue between the Committee and industry lobbyists over the 
past two weeks. Yet here we are with no direct representation by the 
motion picture industry. This is a sad commentary on corporate 
responsibility, and an affront to American families whose children are 
so clearly in the cross hairs of hundreds of millions of dollars in 
movie violence advertising.
    As such, I am announcing today that this Committee will convene 
another Full Committee hearing two weeks from today for the sole 
purpose of hearing motion picture industry testimony in response to the 
FTC Report. As this hearing proceeds, invitations are being delivered 
to:

    Gerald Levin--Chairman, Time Warner, Inc.

    Michael Eisner--Chairman, The Walt Disney Company

    Rupert Murdoch--Chairman, Newscorp

    Sumner Redstone--Chairman, Viacom, Inc.

    Edgar Bronfman--Chairman, Seagram

    Stacey Snider--Chairman--Universal Studios

    John Calley--Chairman of Sony Pictures Entertainment

    Jim Gianopulos--President of Twentieth Century Fox

    Jeffrey Katzenberg--Dreamworks/SKG

    Sherry Lansing--Chairman, Paramount Picture/Viacom

    Barry Meyer--Chairman, Warner Brothers

    Michael Nathanson--President, MGM Pictures

    Harvey Weinstein--Chairman, Miramax

    By that time, these individuals will have had two full weeks to 
clear their schedules, and to study the report. They will have no 
excuses for failing to appear before this Committee.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you very much, Mr. Chairman, and I 
appreciate the fact that you are going to call that hearing 
within 2 weeks, and I will file my statement. Let me summarize 
briefly.
    In the words of our famous leader, President Ronald Reagan, 
``Here we go again.'' Chairman Hyde back in the House committee 
back in 1952 concluded that the television broadcast industry 
was a perpetuator and a deliverer of violence. In 1954, 1964, 
during that 10-year period the Senate Judiciary Committee held 
hearings conclusively, and I quote, establishing the 
relationship between television, crime, and violence, between 
1960 and 1999, 30 years, this Committee itself has had 20 
hearings, Mr. Chairman, on this particular subject.
    In 1969, Senator Pastore had extensive hearings resulting 
in the request for the Surgeon General's study, and in 1972 the 
Surgeon General reported that a causal link between viewing 
violence as a child and subsequent violent aggressive behavior.
    Of course, Dr. Leon Elder of the University of Michigan, 
who published the famous book on this particular subject, after 
a 20-year study he concluded there was a direct causal link 
between the childhood viewing of television and violent 
conduct.
    In 1982, the National Institute of Mental Health, after 10 
years of research, found the consensus among all of the 
research communities that violence on television leads to 
aggressive behavior.
    In 1990, we put in an antitrust--you see, the strategy of 
not appearing was to say, oh, wait a minute, we can do it, and 
so in 1990 this Committee, Mr. Chairman, gave the industry an 
antitrust exemption under Senator Paul Simon's bill, and after 
they had voluntarily done it in 1992 the networks issued this 
confusing standard thing, but 1993, Dr. Brandon Cantrell's 
study found the same thing, that the homicide rate doubles 10 
years after television is introduced in a country.
    And in 1995, we finally got to the safe harbor bill that 
is, excessive gratuitous violence forbidden during the periods 
9:00 in the morning to 9:00 in the evening, when the youth 
predominate the viewing audience. This is the practice, and 
proven and tried and true in Europe and Australia and down in 
New Zealand. They do not go into schools down in Australia, or 
in the countries in Europe, and shoot up the student body.
    We reported that out twice unanimously from this Committee. 
We have that same bill in this Committee, and I would ask that 
you consider, Mr. Chairman, for it to be included again on the 
markup.
    I think I conclude here by saying that in 1998 there were 
other studies, but here were the television people and the 
movie people. It was actually sponsored by the cable industry, 
but it included in the study, the National Television Violence 
Study, amongst other council members Chairman Beals of the 
Marketing Society, Belva Davis, American Federation of 
Television and Radio Artists; Charles B. Fitzsimmons, Producers 
Guild of America; Ann Marcus, Caucus for the Producers and 
Writers and Directors, Jean Reynolds, the Directors Guild of 
America, and they found conclusively that violence on 
television has been shown to have an influence on aggressive 
behavior.
    It is common sense. We know it, and like Pogo we have met 
the enemy and it is us, because I hold up--and I will just read 
three paragraphs from the history of broadcasting. They know 
violence sells. This is back in 1949, 50 years ago. Man Against 
Crime. Man Against Crime was sponsored by Camel cigarettes. 
This affected both the writing and the direction. Mimeographed 
instructions told writers, and I quote, do not have the heavy 
or disreputable person smoking a cigarette. Do not associate 
the smoking of cigarettes with undesirable scenes or 
situations, plot-wise.
    Then, moving on, cigarettes had to be smoked gracefully, 
never puffed nervously. A cigarette was never given to a 
character to calm his nerves, since this might suggest a 
narcotic effect. Writers received numerous plot instructions.
    But here is a producer's instructions 50 years ago, quote: 
It has been found that we retain audience interest best when 
our story is concerned with murder. Therefore, although other 
crimes may be introduced, somebody must be murdered, preferably 
early, with the threat of more violence to come. This is a 
history of broadcasting by the industry itself.
    For 50 years, we have known it. It is obvious. We continue 
to have hearings. We will have another hearing 2 weeks from 
now, but we have got a solution, tried and true. It is in 
Europe, down in Australia and New Zealand. It is in this 
Committee if we only could report it out and vote on it. It 
would be a privilege. Thank you.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator From South Carolina
    Mr. Chairman I commend you for holding this hearing today. The 
issue of the exposure of children to violence in the media has been 
with us for a long time. I have been involved in addressing the issue 
of television violence for several Congresses. I believe the best step 
towards protecting children is to restrict the airing of violent 
programing to hours when children are least likely to be watching.
    In 1952, a House subcommittee first looked at the issue of violence 
on radio and television. The Senate Judiciary Committee began hearings 
on this issue in 1954 and the Senate Commerce Committee began hearings 
in 1960. Since that time there have been studies that link aggression, 
violent behavior, and a desensitization to violence in children to 
their exposure to violent programming. In 1972, the Surgeon General's 
report concluded that there is a causal link between viewing violence 
as a child and subsequent violent or aggressive behavior. Even a study 
in 1998 by the National Cable Television Association conceded that 
``violence in television has been shown in hundreds of studies to have 
an influence on aggressive behavior.''
    In order to deal with this issue, the various industry segments 
have adopted ratings systems and in 1996, Congress enacted V-chip 
legislation. So far, however, ratings have not proven to be an 
effective tool. With respect to television, the Kaiser Family 
Foundation found that 79 percent of shows with violence did not receive 
a ``V'' for ``violence'' rating. A more recent survey by the foundation 
determined that 9 percent of parents of children ages 2-17 now have a 
television with a V-chip and only 3 percent of all parents have 
programmed the chip to block shows they deem unsuitable for their 
children. With regard to movies, while 90 percent of parents are 
familiar with movie ratings, children are often able to purchase 
tickets and attend movies that are not suitable for their viewership. 
On the music industry side, the ``Parents Advisory Label'' appears on 
less than one half of 1 percent of the total inventory of music stores 
and as significantly, the warnings do not appear in music videos. 
Finally, as it concerns video games, 15 percent of boys say their 
parents understand the ratings system and 90 percent say that their 
parents never check the ratings before allowing them to buy the game.
    So during these years of hearings, and studies, and ratings, 
children continue to be exposed to media violence. A child before 
completing elementary school will see 8,000 murders and 100,000 other 
actions of violence on television alone. Now we have another study 
which tells us that the industry is targeting violent media products at 
children.
    It is now time to take definitive action. Self-regulation is not 
working. Ratings are not working. Therefore, we should take a strong 
step to solve this problem by instituting a safe harbor to protect our 
children. The legislation that I have introduced and that is 
cosponsored by Senator Dorgan, requires the creation of a safe harbor 
time period during which broadcasters and other video programmers would 
not be permitted to transmit violent programming. If the industry will 
not act responsibly then Congress must act.
    Thanks Mr. Chairman for holding this hearing. I welcome the 
witnesses and look forward to hearing their testimony.

    The Chairman. Thank you, Senator Hollings. At your request 
we will place it on the markup for next Wednesday. I thank you 
for your involvement. I would earnestly solicit brief comments 
from the other Members of the Committee. I would appreciate it. 
Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you very much, Mr. Chairman, and my 
statement will be very short. It may take all day just to get 
the statements in here, but I first of all want to thank the 
FTC, for their work, and the relationship we have had with the 
FTC and this Committee and this Congress, which has been very, 
very constructive and very, very good.
    And also I noted that, just what the Chairman had noted a 
while ago, the studios are not here, and I think it is unfair. 
I think it is unfair. Now, they are sending their 
representative today, a very able and capable representative. 
It is unfair to him to make him come up and plead their case 
when they ought to be here themselves trying to do it.
    There are all kinds of pollution, and we deal with all of 
them here in the Congress, but the deadliest of all of them is 
noise and mind pollution to a society. It is the deadliest 
kind, because it tears at the very moral fiber of a Nation and 
of a society, and yet no one wants to take responsibility.
    Marketing to children--where have we heard that before, and 
not very long ago?--I am wondering if those folks who were as 
aggressive at that little exercise that happened here in 
Congress--marketing to children--will be as aggressive this 
time.
    I am not suggesting censorship or anything like that, 
because there are a lot of us that are at this table that 
served for this country and protected that First Amendment 
beyond belief, because we believe in it, but we also fought for 
this country because we were a responsible country, and that is 
not being shown here today, and to our Chairman and this 
Committee, like it should have been.
    And so the schedule of another hearing, Mr. Chairman, I 
applaud you, and I also want to applaud the work of Senator 
Brownback in this cause, but I think it was something that had 
to happen because of the kind of pollution that we are dealing 
with here today.
    Thank you very much.
    The Chairman. Thank you. Senator Bryan.

              STATEMENT OF HON. RICHARD H. BRYAN, 
                    U.S. SENATOR FROM NEVADA

    Senator Bryan. Thank you very much, Mr. Chairman, for 
convening this hearing, and I would like to preface my comments 
by commending the Federal Trade Commission, and particularly 
its very able chairman, Mr. Pitofsky.
    No one would deny that the entertainment media has an 
enormous impact on our youth and helps to shape the youth 
culture in America. The recent study found that the typical 
American child spends an average of more than 38 hours a week, 
nearly the equivalent of a full-time work week, with 
entertainment media outside of the school.
    The findings of the recent FTC report concerning the 
marketing of violent movies, music, and electronic games to 
children I find most troublesome. The rising tide of senseless 
violence in our country has shocked the American public. The 
circumstances that led to the tragedy that occurred at 
Littleton, Colorado, nearly 17 months ago has reinvigorated the 
public debate about the effects of violent entertainment, of 
the media, on youth, and while it may be impossible to show a 
causal relationship between the youth's exposure to media 
violence and violent behavior in a particular case, many 
researchers have come to the conclusion, as I have, that a 
child's exposure to violent entertainment media can be a factor 
contributing to aggression, antisocial attitudes, and violence.
    Even more troublesome and disturbing than the abundance of 
violent movies, music, and video games is the manner in which 
these games and movies and music are marketed to our youth. It 
defies rational explanation to understand how a movie studio 
can on the one hand acknowledge that an R-rated movie that it 
has produced has inappropriate content for a child under the 
age of 17 unless accompanied by an adult, and on the other hand 
employ a marketing strategy for that movie specifically 
targeted at that audience.
    This type of marketing strategy makes a mockery of the 
movie rating system, and is seemingly based on the presumption 
that most parents would be willing to take the children to an 
R-rated movie.
    Parents today have a very difficult time in raising their 
children. My wife and I have been blessed this past year with 
three little grandchildren and a fourth is on the way. They 
have responsible parents, good parents. How difficult the 
challenges are for them, much more difficult than in our 
generation in raising our own children. The actions by this 
industry are irresponsible and, indeed, unconscionable in terms 
of what it does to young people and the difficulty it presents 
to parents today.
    The current marketing techniques employed by the 
entertainment industry has the perverse effect of complicating 
a parent's job in choosing which movies, which CD's or video 
games are appropriate for their children. At a time when the 
entertainment industry should be looking at new and innovative 
ways to provide parents with tools to help parents make 
informed decisions about what type of media is appropriate for 
their children, it appears that the industry is working at 
cross-purposes and, indeed, is part of an effort to market 
inappropriate material to young people.
    Again, I thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Brownback.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman.
    Congratulations for holding this hearing, and the one 
announced in weeks, and the one yesterday, and the one 
tomorrow. You have got the Committee working hard and doing 
good work for the people.
    This is an important hearing and an important report that 
is being released on Monday. When several of us introduced 
legislation last year to authorize this FTC report, we did so 
because the anecdotal evidence was overwhelming that violent, 
adult-rated entertainment was being marketed to children.
    It has been said that much of modern research is the 
corroboration of the obvious by obscure methods. The study does 
corroborate what many of us have long suspected, and it does so 
unambiguously and conclusively. It shows, as Chairman Pitofsky 
noted, that the marketing is pervasive and aggressive. It shows 
that entertainment companies are literally making a killing off 
of marketing violence to kids.
    The problem is not just one industry, but can be found in 
virtually every form of entertainment--movies, music, video, 
and PC games. All together, they take up the majority of a 
child's leisure hours, and the message they get and the images 
they see often glamorize brutality and trivialize cruelty.
    Take, for example, popular music. The FTC report notes that 
all of the stickered music they surveyed was target-marketed to 
kids, 100 percent.
    Now, in the room we have some easels that show some 
examples of this music by listing their lyrics. This stuff is 
not for the faint-hearted, but the music industry has decided 
it is for children. Nor are these obscure songs. The lyrics 
from Eminem are from an album that is currently at number 3 on 
the Billboard chart, after spending 2 months this summer at 
number 1. He received three awards from MTV last week. The 
other two featured artists, DMX and Dr. Dre, are currently in 
the top 30 in the charts, and peaked at number 1 and 2 
respectively.
    Mr. Chairman, I would just note that as you read through 
some of the words here--I could not put all of the words up. Of 
course, I think you can get what Dr. Dre is saying based just 
on his title--one which I am not going to pronounce. How does 
it make you feel here, listening to this, looking at it, and 
knowing that 100 percent of this is targeted, marketed to 
children.
    Now, maybe I am a little more sensitive to this than others 
because I have five children, but I do not like it, and I think 
it is wrong for these companies to use millions of dollars to 
target this to children. It is especially wrong when they 
themselves say this is inappropriate for those children! I know 
it makes all of us blush and feel uncomfortable here in this 
room today, and yet it is okay for a 14-year-old? Indeed, major 
billion-dollar companies would spend millions selling this to 
these children.
    Movies are equally blatant in their marketing kits and 
appalling in their content. Movies have great power, because 
stories have great power--they can move us, change our minds, 
our hearts, even our hopes. The movie industry wields enormous 
influence, and when used responsibly the works can edify, 
uplift, and inspire--but all too often that power is used to 
exploit.
    The Chairman. Senator Brownback, you have run out of time.
    Senator Brownback. I would like to submit the rest of this 
for the record if I could, Mr. Chairman. I would also urge that 
we not stop at this, that we should ask these companies, all of 
which have issued statements about what they want to do, to 
just stop putting out some of these products.
    [The prepared statement of Senator Brownback follows:]

   Prepared Statement of Hon. Sam Brownback, U.S. Senator From Kansas
    Mr. Chairman, I appreciate the widespread interest in today's 
hearing. It's been said that every good idea goes through three stages: 
first, it is ridiculed. Second, it is bitterly opposed. And last, it is 
accepted as obvious. Over the past two years, I have chaired three 
hearings in this Committee on the effectiveness of labels and ratings, 
the impact of violent interactive entertainment products on kids, and 
the first hearing on whether violent products were being marketed to 
children. When we started out, these ideas were ridiculed. Bitter 
opposition shortly followed. And today, in reviewing the FTC report, 
the fact that harmful, violent entertainment is being marketed to kids 
is now being accepted as clear and obvious. We've come a long way.
    I appreciate the industry executives who have come here today. I 
wish that the many other executives who were invited to testify would 
have seen fit to show up. I have to say, Mr. Chairman, that many in the 
entertainment industry have shown themselves to be remarkably 
unresponsive to this Committee. At each of these three hearings on 
violent entertainment I chaired in this Committee, we invited numerous 
industry executives--including representatives of Time-Warner, 
Seagrams, Universal, Sony, Viacom, BMG, Nintendo, Hasbro, ID Software, 
Midway Games, and Interscope Records. Unfortunately, none of these 
enormous communications companies could be bothered to communicate with 
the United States Senate. And today, I see that not one single movie 
studio representative managed to show up.
    Mr. Chairman, this is disgraceful. I appreciate the industry 
executives who have made it here today; I am deeply troubled by the 
fact that so few of them choose to do so. Their absence today is a 
sharp contrast to the presence of so many concerned parents. And their 
silence on an issue of such importance to so many speaks volumes about 
their disregard both for concerned parents and vulnerable children.
    This is an important hearing, and an important report. When I 
introduced legislation last year, which was cosponsored by several of 
my colleagues here today, to authorize this FTC report, I did so 
because the anecdotal evidence was overwhelming that violent, adult-
rated entertainment was being marketed to children. It's been said that 
much of modern research is the corroboration of the obvious by obscure 
methods. This study does corroborate what many of us have long 
suspected--and it does so unambiguously and conclusively. It shows, as 
Chairman Pitofsky noted, that the marketing is ``pervasive and 
aggressive.'' It shows that entertainment companies are literally 
making a killing off of marketing violence to kids.
    The problem is not one industry, but can be found in virtually 
every form of entertainment: movies, music, and video and PC games. 
Together, they take up the majority of a child's leisure hours. And the 
messages they get, and images they see, often glamorize brutality, and 
trivialize cruelty.
    Take, for example, popular music. The FTC report notes that all of 
the stickered music they surveyed was target-marketed to kids. Around 
the room here on easels are some examples of that music. This stuff is 
not for the faint-hearted. But the music industry has decided it's for 
children. Nor are these obscure songs. The lyrics from Eminem 
(pronounced M & M) are from an album that is currently at number 3 on 
the Billboard chart, after spending two months this summer at number 1. 
He received 3 awards from MTV last week. The other two featured 
artists--DMX and Dr. Dre (pronounced ``Dray'') are currently in the top 
30 on the charts, and peaked at number 1 and 2, respectively.
    As I read over this report, I see that 100 percent ! of the 
stickered albums that the FTC surveyed were target-marketed to kids. 
This is both troubling and fairly predictable. Troubling in that the 
lyrics you see around the room are target-marketed to young kids--
mostly young boys--whose characters, attitudes, assumptions, and values 
are still being formed, and vulnerable to being warped. And predictable 
in that there are few fans of such music that are over 20.
    Movies are equally blatant in their marketing to kids, and 
appalling in their content. Movies have great power--because stories 
have great power. They can move us, change our minds, our hearts, even 
our hopes. The movie industry wields enormous influence, and when used 
responsibly, their works can edify, uplift, and inspire. But all too 
often, that power is used to exploit. I've seen some movies that are 
basically two-hour long commercials for the misuse of guns.
    The movie industry has had the chutzpah to target-market teen 
slasher movies to child audiences--and then insist that the R-rating 
somehow protects them. From reading this report, it seems clear that 
the ratings protect the industry from the consumers, not the consumers 
from the industry.
    Or take video games. When kids play violent video games, they do 
not merely witness slaughter, they engage in virtual murder. Indeed, 
the point of what are called ``first person shooter'' games--that is, 
virtually all M-rated games--is to kill as many characters as possible. 
The higher the body count, the higher your score. Often, bonus points 
are given for finishing off your enemies in a particularly grisly way.
    Common sense should tell us that positively reinforcing sadistic 
behavior, as these games do, cannot be good for our children. We cannot 
expect that the hours spent in school will mold and instruct a child's 
mind but that hours spent immersed in violent entertainment will not. 
We cannot hope that children who are entertained by violence will love 
peace.
    This is not only common sense, but a public health consensus. In 
late July, I convened a public health summit on entertainment violence. 
At the summit, we released a joint statement signed by the most 
prominent and prestigious members of the public health community--
including the American Medical Association, the American Academy of 
Pediatrics, the American Psychological Association, the Academy of 
Family Physicians, the American Psychiatric Association, and the 
Academy of Child and Adolescent Psychiatrists. I want to read you part 
of the statement, signed by all of the above organizations:
    ``Well over 1000 studies . . . point overwhelmingly to a causal 
connection between media violence and aggressive behavior in some 
children. The conclusion of the public health community, based on over 
thirty years of research, is that viewing entertainment violence can 
lead to increases in aggressive attitudes, values and behaviors, 
particularly in children.''
    There is no longer a question as to whether exposing children to 
violent entertainment is a public health risk. It is--just as surely as 
tobacco or alcohol. The question is: what are we going to do about it? 
What does it take for the entertainment industry, and its licensees and 
retailers, to stop exposing children to poison?
    There is an additional element that this generally excellent report 
fails to cover: and that is the cross-marketing of violence to kids. 
That is, there is ample proof that the entertainment industry not only 
directly targets children with advertising and other forms of 
promotion, but also markets to them via toys. Walk into any toy store 
in America, and you will find dolls, action figures, hand held games, 
and Halloween costumes based on characters in R-rated movies, musicians 
noted for their violent lyrics, and M-rated video games. Let me give 
you just a few examples . . . [Show games]
    This is an equally egregious aspect of marketing violence to 
children, and one that has not yet been adequately investigated. We 
need to do so. I look forward to working with the FTC to ensure that 
this is done.
    Another immediate step we need to take is to ensure that these 
industries can enter into a code of conduct. Consumers and parents need 
to know what their standards are--how high they aim, or how low they 
will go. I've introduced legislation, S. 2127, that would provide a 
very limited anti-trust exemption that would enable, not require, but 
enable companies to do just that.
    There are other steps we should consider, but a rush to legislation 
is not one. Frankly, imposing six-month deadlines on an industry one is 
actively fleecing for money is unlikely to bring about lasting reform. 
We need to encourage responsibility and self-regulation. We need a 
greater corporate regard for the moral, physical and emotional health 
and well-being of children.
    This report is an important step in that direction--because 
although it concentrates on the tip of the iceberg, it sheds light on 
the magnitude of the problem. It shows kids are being exploited for 
profit, and exposes a cultural externality in this market.
    Ultimately, we have asked entertainment executives to come here to 
work with us, and to appeal to your sense of citizenship, and to your 
corporate conscience. Our appeal is this: please do the right thing. 
Stop making hyper-violent entertainment which glamorizes cruelty, 
degrades women, and trivializes abuse. And stop marketing such vile 
stuff to kids. Just stop it. You don't need to do it, it is morally 
wrong to do it, and you are hurting kids. So just stop.

    The Chairman. Thank you, Senator Brownback. Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thanks for having this 
hearing. I think the FTC has done a good service and an 
outstanding job in placing before us a serious problem, which 
is the problem of potential unfair trade practice, the problem 
of not adhering to what people have said they will adhere to, 
which is the standard by which they are going to advertise and 
protect our children, and to that degree I think it is very 
appropriate that we are here.
    It is more than appropriate that we are talking about the 
recommendations they have made, specifically that we expand the 
codes prohibiting marketing to children, that we increase the 
compliance at the retail level, which is very clearly a 
problem, and that we increase parental understanding of ratings 
and try to facilitate the capacity of parents to be able to 
make choices.
    Those are things we can do legitimately, they are things we 
ought to do, and those are things which I think ought to be in 
the public dialogue front and center, in the most serious way.
    But I react a little bit like Fritz Hollings did. In the 16 
years I have been here, I have been here many times on this 
same subject. It is becoming repetitive, and that is equally 
disturbing. At the same time, we have found historically that 
this is not as clear-cut as some would like to make it.
    To the degree that there is a false advertising process, or 
that there is marketing to children, that is egregious. It is 
unacceptable, and we should all be against it, but on the other 
hand let us not assume that sort of pontificating role of 
Washington politicians where we sit here and blame it all on 
one entity. Art has always reflected life.
    I mean, Elvis Presley was unacceptable for a period of 
time. James Dean in East of Eden reflected alienated young 
people. Alienation among young people is something that is 
historical. It is part of adolescence, and we ought to be 
asking ourselves perhaps equally as seriously, as we look at 
the question of enforcing marketing to kids, I think we ought 
to ask ourselves a little bit up here why so many kids reflect 
the kind of life they reflect.
    Why are so many kids out of school in so many communities 
in the afternoon with no parents at home? Why are there no 
after-school programs? Why is there a lack of structure in 
kids' lives? Why is it that so many children are growing up at 
risk in this country at a time when we are the richest nation 
on the face of the planet?
    Those are questions that we also ought to ask here, and we 
also ought to provide some solutions to them. If you want to 
empower parents to be able to make some of these choices, 
parents need to also be able to be home and be with their kids.
    The Chairman. Senator Kerry, your time has expired.
    Senator Kerry. I think there are a lot of issues that are 
on the table here, but I could not agree more that the 
marketing against an agreed-upon set of principles, 
specifically to avoid what has been agreed upon, is obviously 
unfair, it is immoral, it is wrong, and it is appropriate for 
us to try to hold people accountable, but let us let 
accountability be passed appropriately to all quarters.
    [The prepared statement of Senator Kerry follows:]

               Prepared Statement of Hon. John F. Kerry,
                    U.S. Senator From Massachusetts
    Thank you Mr. Chairman, for holding this hearing today. The FTC has 
done an outstanding job documenting industry practices with regard to 
marketing violence to children.
    Too often lately, when we turn on the news we hear a tragic story 
of a child engaging in unfathomable acts of violence. The litany is too 
familiar; Littleton, Colorado; Jonesboro, Arkansas; Edinboro, 
Pennsylvania; West Paducah, Kentucky; Flint, Michigan to name but a few 
of the places where tragic shootings have occurred in our schools. I do 
not believe that the media is solely responsible for these sad events. 
But I do believe that when our young people are bombarded with 
shocking, graphic violent images in the movies they watch, the games 
they play, and the music they listen to, they become inured to 
abnormal, immoral levels of violence.
    We're not going to stop violent images in the media. Our First 
Amendment wouldn't let us, even if it were possible. But we do have to 
make every effort to guarantee that violent images are seen and heard 
only by adults. We have to make sure that parents understand what their 
children are watching, listening to, and playing. In particular, we 
need to make sure that the cards are not stacked against parents who 
are trying to monitor their children's activities.
    Mr. Chairman, I was very disappointed to read in the FTC's report 
that the movie, music and electronic game industries have knowingly and 
intentionally marketed to children entertainment that each has deemed 
appropriate only for mature audiences. The FTC's finding that of 35 of 
44 R-rated movies--80 percent--were directly marketed to children under 
17 is evidence that not enough is being done. And the problems are not 
exclusive to the movie industry. The FTC found direct evidence that 
children were being targeted for music containing parental advisory 
warnings and for video games deemed appropriate for mature audiences.
    Let's be clear here. What most parents most want and need is 
information about their children's entertainment choices. But if the 
ads their children are seeing are being surreptitiously placed where 
the children and not the parents will see them, the parents are 
starting with a distinct disadvantage.
    The problem starts when a young child watching Buffy the Vampire 
Slayer sees an advertisement for violent R-rated movies such as South 
Park, The General's Daughter or The Beach. The problem starts when a 
child reading Teen magazine or Marvel Comics is tempted by an ad for 
the latest rap or hip hop CD that contains explicit, violent content. 
The problem starts when a video game that features realistic shootings 
and violence against women is advertised on a Web site that is 
frequented by teens.
    The problem continues when a fifteen-year-old can buy a ticket to a 
PG-rated movie and easily slip into an R-rated movie playing at the 
same multiplex. The problem continues when the seventeen-year-old 
cashier at the record store sells a CD with a parental advisory to a 
fourteen-year-old. The problem continues when an overworked temporary 
clerk hired to handle the Christmas rush at a large department store 
sell a ``mature'' video game to a ten-year-old.
    It's a hard enough job being a parent in today's world. These kinds 
of marketing practices, which the FTC has demonstrated are all too 
common in the entertainment industry, make a parent's job that much 
more difficult.
    The entertainment industry has a responsibility to parents to make 
their jobs a little easier. The FTC makes some concrete recommendations 
regarding self-regulation and it is my hope that we will see the 
industry address some of these issues quickly and stop some of the most 
egregious acts of targeting young people for violent entertainment. I 
believe that the industry is fully equipped to regulate itself and 
alter its marketing practices to correct these problems. What I am less 
certain of is whether the industry has the proper motivation to correct 
its past wrongs. It should make every effort to do so, because if 
Congress does not see dramatic changes in the way these industries 
market their products, I have no doubt that we will be back to address 
some of these issues legislatively.
    I hope we don't have to do that. I believe that there are serious 
First Amendment issues that we would have to consider if we felt the 
need to legislate in this area. But make no mistake. I will join my 
colleagues in considering legislation if I don't see the entertainment 
industry taking steps to correct itself
    Whether we ultimately legislate in this area or not, each of us 
must recognize that this hearing and this issue should not close the 
book on our discussions of children and violence. As I said earlier, I 
do not believe that violent entertainment is the sole cause of violence 
in our schools or elsewhere. No matter how much violence our children 
are exposed to in the media, they won't go on shooting rampages if they 
don't have access to guns. I'm not going to get into the entire gun 
debate here, but I do want to address one legislative effort that I 
have been working on, along with my good friend Senator DeWine. We 
introduced legislation that will set minimum standards for gun safety 
locks. The legislation would not mandate that the locks be used, but 
would provide yet another tool for parents who want to protect their 
children and limit their access to firearms.
    Mr. Chairman, a gun lock will only keep a gun out of a child's 
hands if the lock works. There are many cheap, flimsy locks on the 
market that are easily overcome by a child. The legislation Senator 
DeWine and I introduced gives authority to the Consumer Product Safety 
Commission to set minimum regulations for safety locks and to remove 
unsafe locks from the market. Our legislation empowers consumers by 
ensuring that they will only purchase high-quality lock boxes and 
trigger locks. I hope this Committee will hold hearings on this 
legislation, because I believe that Senators will see that it is a 
simple way to make sure guns are stored safely.
    The gun safety lock legislation won't prevent every tragic 
shooting. Likewise, limiting the marketing of violent entertainment is 
not the whole answer. But both are important pieces of the bigger 
picture, and both can help parents make better decisions for the well 
being of their children.
    Thank you Mr. Chairman. I look forward to hearing from the 
witnesses.

    The Chairman. Thank you, Senator Kerry.
    Senator Frist.

                 STATEMENT OF HON. BILL FRIST, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Frist. Thank you, Mr. Chairman. Mr. Chairman, 
thanks for convening this important hearing. I say this as a 
father of a 17-year-old, a 14-year-old, a 13-year-old, who 
tries to be a good parent, they spend 8 hours in school a day, 
they all play sports, but in addition they will collectively go 
to at least 50 movies this year.
    They will see, in spite of all their other activities, 
probably 500 hours of television collectively, and probably 
listen to over 1,000 hours of music collectively together, in 
spite of trying to be a good parent, being at all their school 
functions, and them being very active. Thus, I am very 
concerned, and I am delighted we are holding this hearing, and 
delighted with the FTC report and what has come forth.
    You know, we are not talking about the slapstick of years 
past, or the Roadrunner throwing an animal again at the Coyote. 
Much of what my three boys are exposed to on television, in 
music, and in the movies is simply vulgar and violent.
    It is different than it was in the past, and culture may be 
a little bit different, but it is totally unacceptable because 
of the impressions that it leaves that I am absolutely 
convinced will affect them as individuals, their emotional 
life, their spiritual life, their happiness, their degree of 
fulfillment in the future.
    Congress has repeatedly gone, as so many people have said, 
to the entertainment industry in the past threatening Federal 
regulation, only to be reassured again and again by the 
industry that voluntary standards can be imposed, that self-
regulation is the answer.
    If we look back at the history of voluntary standards, 
which we will hear about, 1950 to 1952 to 1983, that were 
promulgated by the National Association of Broadcasters, you 
see things, and I quote, like, ``in selecting subjects and 
themes, great care must be exercised to be sure that treatment 
and presentation are made in good faith and not for the purpose 
of sensationalism or to shock or exploit the audience or appeal 
to prurient interest or morbid curiosity.''
    Or, in another quotation the standards were, ``violence, 
physical or psychological, may only be projected in responsibly 
handled contexts, not used exploitatively.'' Regardless of how 
culture is changing, standards similar to this, at least as a 
parent, as a responsible citizen today I would endorse. 
Regrettably, it is impossible--next to impossible--to find 
programs that even loosely comply with these standards today.
    Are these standards arcane, are they out of date, are they 
not in touch with the times, are they too traditional? 
Obviously, I say no, because as a parent, taking my children to 
the movies and participating with them I see what this world 
has come to in terms of the presentation.
    Research from the Kaiser Foundation finds that more than 75 
percent of the programming in the 8:00 to 9:00 p.m. family hour 
now contain, and I quote, sexually related talk or behavior, 
period, close quotation, and that is in the family hour. That 
represents, say, a fourfold increase from 1976.
    Mr. Chairman, let me just close by reading the first six 
sentences of the lead editorial in The Washington Post today, 
which captures, I believe, what this hearing needs to be about, 
and what our concern as United States Senators should be about. 
Again, this is from September 13 lead editorial, The Washington 
Post.
    ``When it comes to children, movies, and violence, it has 
always been hard to tell whether the H stands for Hollywood or 
hypocrisy. You have the studios and recording studios piously 
invoking their cultural integrity and First Amendment rights as 
they peddle stuff with no discernible redeeming virtues. You 
have the movie theater chains pretending they cannot control 
the teens who buy tickets to PG-rated films at the Multiplex, 
and then stroll in to watch R-rated movies, and you have the 
politicians like Al Gore, whose sensibilities on the matter 
seem to depend on whether the day is devoted primarily to 
soliciting money from the moguls or votes from everyone else.''
    The last sentence in this first paragraph, and then I will 
close: ``Now, the Federal Trade Commission has added a useful 
new chapter to its tale of twofacedness.'' I am delighted that 
they issued this report, and look forward to exploring it with 
them further.
    The Chairman. Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman, listening to my colleagues, I 
am obviously angered by what I have heard, but we are here to 
listen and to learn, and I hope that we will not make judgments 
too early.
    The Chairman. Thank you, Senator Inouye. I hope our 
colleagues will follow your example.
    Senator Abraham.

              STATEMENT OF HON. SPENCER ABRAHAM, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Abraham. Gee, what bad timing for me.
    [Laughter.]
    Senator Abraham. Mr. Chairman, in deference to your wish to 
move forward, I will submit my full statement for the record. * 
I will just make two observations.
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    First, I, along with several other Members of this 
Committee, have very young children. Ours are actually twins 
who are 7, and a 4-year-old, and so to some extent what we are 
here today to talk about is sort of just over the horizon for 
our family, but it is close enough to the horizon for us to be 
just as concerned as every other parent is about what to do, 
and while certainly I think that what the FTC has done helps us 
to focus very effectively on one part of the problem, I think 
we all recognize that as parents we have a responsibility, and 
as leaders we have a responsibility, to speak out and to become 
much more engaged.
    The problem is, I can do everything possible to address the 
problem in my own home, but my children want to go visit their 
friends, and their friends have older siblings who maybe 
already own some of these recordings, or have been marketed to, 
and I cannot monitor that, even though I am doing the best job 
possible. My wife and I are at least trying to do the best job 
possible, and it concerns me a lot.
    One of the things though, that does affect us, and it is a 
concern not so specifically addressed by the FTC report, is the 
fact that there has been such a dramatic increase in the 
violence that is presented in animated television programs and 
movies. Incredibly enough, the recent study by Harvard School 
of Public Health indicates there has been about a 50-percent 
increase in the violence contained and the mayhem contained in 
cartoons since the release of Snow White in 1937, and that is a 
pattern that pervades even the kind of programming that we 
think is designed for children our children's age.
    I am concerned about that as well, and I hope that as we 
move forward we can investigate that a little bit more fully, 
Mr. Chairman. I certainly intend to speak out against it, and I 
intend to address it more directly. In fact, I will be sending 
a letter today to the executives of the companies who are 
engaged in the presentation of these kinds of programmings and 
movies, because I think they really do need to hear from us on 
that level as well.
    Mr. Chairman, thanks for doing this, and I congratulate you 
for the hearing.
    The Chairman. Thank you, Senator Abraham.
    Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. First 
let me say this is not about partisan politics, certainly, and 
it is not also about censorship. This report, I think, is a 
constructive piece of evidence that there is targeting of 
violence and vulgarity to our children, and let me just read a 
sentence.
    The documents show that 35 of 44 R-rated movies studied by 
the Commission, 80 percent of them, were targeted to children 
under 17 years of age. That is what this is about.
    Now, Senator Kerry mentioned something I think important. 
It is true that art is on the cutting edge of culture, and it 
has been very important and will be very important. I also 
liked Elvis. Of course, Elvis did not sing the lyrics of Limp 
Bizkit, and probably would not have been allowed to, and 
probably should not be allowed to today if he is around some 
place.
    [Laughter.]
    Senator Dorgan. But the targeting of vulgar material, 
inappropriate material in CD's and records, the targeting of 
violence to 12-year-olds, 14- and 15-year-old kids is wrong, 
just wrong, and this report shows that it is being done 
systematically.
    Now, we ought to be able to entertain adults in America 
without injuring children. That is the issue. Again, it is not 
about censorship. I introduced the first V-chip bill in the 
Congress as a companion to the V-chip bill Congressman Markey 
offered in the House. I have been concerned about these things 
for a long time.
    I have got a couple of young children, and I am concerned 
about wanting to be a good parent in the face of all of these 
influences, but let me just, Mr. Chairman, finally say this. 
You are inviting people to come here and testify 2 weeks from 
now. I would encourage you to ask those who are profiting from 
some of these lyrics Mr. Brownback just discussed to read the 
lyrics to this Committee and tell us whether they are proud of 
the product they are profiting from, especially if they are 
targeting that product to our children. I think it might be an 
interesting thing to see whether they would want to read those 
lyrics to the Senate Commerce Committee.
    The Chairman. Excellent idea, Senator Dorgan.
    Senator Ashcroft.

               STATEMENT OF HON. JOHN ASHCROFT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Ashcroft. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    I particularly want to associate myself with the remarks of 
Mr. Dorgan. I think those are very well taken, and I want to 
thank Senator Brownback for his long-time and longstanding 
interest in these issues, and for having been a catalyst in the 
achievement of items like today's hearing and the Federal Trade 
Commission report that confirms something that parents have 
long feared and suspected.
    Many media companies in the entertainment industry are 
routinely--that is, routinely--marketing to children, and 
movies, music, and games are being marketed. They are so 
violent that children are never supposed to be allowed to watch 
them in the first place. I think the FTC report is an 
indictment of the entertainment industry for reckless 
endangerment of children. The report says violent video games 
are marketed to children as young as age 6, and the fact was 
just mentioned by Senator Dorgan, advertising for 80 percent of 
R-rated movies and 70 percent of video games targeted to 
children under 17.
    One marketing plan for a violent R-rated over-17 age film 
stated, quote, our goal was to find the elusive teen target 
audience and to make sure everyone between the ages of 12 
through 18 was exposed to the film. Hollywood targets young 
children because of money.
    The FTC confirms too many retailers make no real effort to 
restrict children's access to violent content. According to the 
FTC, half of all theaters where R-rated movies are shown admit 
children as young as 13, and 85 percent of children age 13 to 
16 who attempt to buy mature rated music and electronic games 
are able to complete the purchase--85 percent.
    It is disgraceful, targeting violent games to 6-year-old 
kids, selling R-rated movie tickets to 13-year-olds, writing 
marketing plans to expose violent R-rated films to every 
teenager under 17. There are leaders in the industry who want 
America to lose its values, want children to lose their 
innocence, want to pursue profits at the expense of principle. 
That is why parents now call Hollywood by its, perhaps rightful 
name, Hollyweird.
    As a culture, we are playing with fire. Entertaining 
children with graphic mayhem, murder, corrodes children's 
minds. To those who think otherwise, listen to what the FTC 
says, and I am quoting. The Commission's literature review 
reveals that a majority of the investigations into the impact 
of media violence on children find that, and I am still 
quoting, there is a high correlation between exposure to media 
violence and aggressive and at times violent behavior. In 
addition, a number of research efforts report that--and I am 
still quoting--exposure to media violence is correlated with 
increased acceptance of violent behavior in others, as well as 
an exaggerated perception of the amount of violence in the 
society, close quote.
    In its defense, the entertainment industry wraps itself in 
a constitutional right of free speech, but responsibilities 
accompany rights. The FTC calls on the entertainment industry 
for better self-regulation. That is the first step, the right 
first step to take, but more could be done.
    R-rated products should not be sold or marketed to 
children. Parents should monitor diligently and control what 
their children watch. Entertainment leaders should produce 
products suitable for their own children. Broadcasters should 
reduce violence aired during early evenings, when children are 
watching, and if the industry does not police itself and young 
children continue to be targets of violent promotional 
material, then Government should target the industry with false 
and deceptive----
    The Chairman. Senator Ashcroft, your time has expired. I 
thank you. Senator Breaux.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Mr. Chairman, thank you for convening these 
hearings, and also thank the patience of our colleagues who 
have been sitting out there listening to us. It seems to me the 
problem that has been identified by the FTC, which did the 
study at the request of President Clinton, is really not that 
complicated.
    It seems to me the problem is that the marketing department 
of the various industries did not get the memo from the 
executives of the industry that rated their own products, which 
clearly said that these products are not fit for a certain 
class of people. If the marketing department got the memo, they 
did not read it, or if they read it, they did not follow it.
    I think the question for this Committee, then, is, what is 
the appropriate role for Congress to help ensure that the 
marketing departments follow their own company's 
recommendations on the products that they have produced. Is 
there a legitimate role for Congress to be involved to ensure 
that they follow what their own companies have already 
previously concluded.
    The second concern I think is one that is really a larger 
concern. We have helped parents have tools to ensure that their 
own children are protected. V-chips and rating systems were 
intended to give parents the tools to protect their children.
    The real question is, are parents using those tools, and 
the information I have is that as much as 90 percent of the 
children tell us that their parents have never discussed the 
ratings with them, or 3 percent say, well, we have a V-chip and 
we use it, meaning 97 percent do not. How does Congress address 
that problem?
    So the issues are out there. I hope the hearings will help 
us resolve the problems. Thank you.
    The Chairman. Senator Rockefeller.

          STATEMENT OF HON. JOHN D. ROCKEFELLER, IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Chairman McCain, I think the points 
that John Breaux made are very important. I would differ in 
simply one respect, and that is, you never blame the marketing 
department. The buck always stops at the chief executive 
officer and the president, et cetera. Having said that, I 
understand what the Senator is saying. I find this whole thing 
really sad and deplorable.
    I mentioned we were having this hearing this morning to my 
28-year-old daughter. She said, ``Have you heard about the 
video game where they do an electrocution, and you get to turn 
on the electricity and then get to watch the person die, and 
make the sounds that the person makes, I guess, when they die 
in the electric chair?''
    But I do think the FTC report is an enormous contribution. 
I think the behavior of not just the industry but also those 
who merchandize the product, the theaters and the people who 
sell it; 85 percent are not denied. Young kids that come in are 
not denied these products.
    It is partly our fault that the Supreme Court has 
constantly ruled that we cannot get involved in these things, 
and freedom of speech is sacred in America, but on the other 
hand, so is what we are teaching our children. We talk about 
education. We spend money on education. States spend money on 
education, and this is in many ways more pervasive. Children 
spend a lot more time watching television and video games than 
they do in the classroom, so it is extremely serious.
    I think if the executives come back in 6 months not having 
acted and not having cleaned up their act, they will face a 
Commerce Committee and others that will be looking to do 
something to clear up this problem once and for all. This 
cannot happen in America.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Rockefeller. I want to 
thank our colleagues from both sides of the House and Senate, 
who have shown a great deal of patience. It is our practice on 
the Committee to go by seniority on both sides of the aisle. 
That sometimes matches the age of the witnesses, not always 
though, but I think it does in this case, and we would begin 
with the distinguished chairman of the Judiciary Committee, 
both chairmen, but we will begin with Senator Hatch.
    Senator Hatch, welcome back before the Committee.

               STATEMENT OF HON. ORRIN G. HATCH, 
                     U.S. SENATOR FROM UTAH

    Senator Hatch. Mr. Chairman, I am delighted to be before 
the Committee. I want to thank the Members of this Committee 
for the opportunity to testify on the marketing of violent 
entertainment to children. As the Chairman of the Senate 
Judiciary Committee and the father of six and the grandfather 
of 19, and as an occasional song-writer, my interest in this 
issue is not just professional, but it is personal as well. The 
Commission should be commended for its work. This is not 
insignificant amount of work.
    Unfortunately, as disturbing as some of the findings may 
be, they are hardly surprising. It is hard to feign shock at 
the notion that children, particularly teenagers, are finding 
ways to see the movies they want to see, listen to the music 
they want to listen to, or want to hear and play the video 
games they want to play.
    Only someone who has not had the exasperating privilege of 
raising teenagers might be surprised to find that kids today 
are still as talented as they have always been in manipulating 
the loopholes and the gimmicks and the restrictions that are 
imposed on their behavior.
    What is disturbing is the degree to which some commercial 
enterprises are willing to go to facilitate the manipulation of 
the few rules that do exist.
    Just as disturbing is the fact that much of the violence 
found in our popular entertainment is directed against women. 
Despite historic, bipartisan legislation that Senator Joe Biden 
and I and others authored to help States battle violence 
against women, it is stunning how much modern music glorifies 
acts of violence, sexual and otherwise, against women.
    While the First Amendment may very well protect hateful 
content, we must not ignore the fact that violent, misogynistic 
music may ultimately affect the attitudes many young men have 
toward women. The recommendations of the Commission are 
constructive, but Federal regulation and election-year speeches 
are not the final answer. You cannot regulate decency or 
legislate taste.
    The real issue is far more fundamental. Let us be honest, 
any society such as ours, where the freedom of expression is 
guaranteed in the Constitution, must recognize the fact that 
currently is not in vogue, that with freedom there must be 
responsibility and accountability, otherwise we will always be 
downed and confined by those too ready to pander to the lowest 
common denominator.
    It would be so much easier if there were only one culprit, 
one group that we could blame for our current state of 
diminished mores and vacuous principles. Some want to blame 
Hollywood, but what in Hollywood are we targeting?
    Are we angry at those who gave us Saving Private Ryan, The 
Patriot, and Schindler's List, just to mention a few, or who 
produce television shows like Touched By An Angel, or 
Providence? We revel in these shows because they trumpet the 
very ideals we desperately seek in our own daily lives--the 
importance of courage, decency, honesty, conviction, and faith.
    What about the recording industry? Do we object to the 
music and lyrics of Gladys Knight or Larry Gatlin or David 
Foster, or do we only object to the work of those with whom we 
have no cultural or personal connection?
    As one who has written gospel music only to be told that it 
was unacceptable because of my religious faith, I have seen 
both sides of this debate on a personal level. Warning labels 
on CDs and video games do help, but for many teenagers the 
parental warning code really stands for, ``Buy this thing 
now.''
    Some want to blame television stations for airing one show 
after another that portray inordinately beautiful people living 
in a violent, cynical, vapid society that fortunately is still 
alien to most of America, and I am not talking about the 
evening news. The networks counter by asking, how does one 
provide entertainment for both children and adults in a medium 
that is always available to both?
    What about the role of politicians, who seem to want to 
have it both ways? What kind of signal is being sent to the 
creative community when politicians have one hand clutched over 
their heart in righteous indignation over the prevalence of sex 
and violence in our nation's entertainment, and yet the other 
hand is wide open, palm up, in permanent solicitation of money 
and credibility from Hollywood's most glamorous?
    Does anyone believe that the same indignant speeches being 
made these last few days are also being given in the countless 
fundraisers in Los Angeles, Nashville, or New York?
    Clearly, there is no easy solution or balm that will 
miraculously solve this problem, but there are constructive 
steps we can all take to curtail our children's exposure to 
violence.
    It really is threefold. First, the entertainment industry 
must stop hiding behind the shibboleth of censorship, claiming 
any form of restraint or self-imposed, even self-imposed, is 
nothing more than a capitulation to the puritanical. Too often, 
the outrageous and shocking are little more than a cover-up for 
the lack of creativity and originality, but these artists will 
continue to flourish until the industry stops pretending that 
the permanent coarsening of entertainment is the only way to 
pay homage to the First Amendment.
    There is one constructive step that Congress can take. It 
is relatively simple, yet it could have a profound, positive 
influence by allowing the entertainment industry to begin 
making changes voluntarily. A very limited amendment to our 
antitrust laws would clarify that the respective industries can 
cooperate to develop and enforce responsible guidelines without 
any fear of liability under current antitrust laws. The Senate 
has unanimously adopted this amendment, but it has not passed 
through the Congress. We should pass it before we adjourn.
    Other industries in America recognize they have a 
responsibility for the cumulative consequences of their 
products that are being used. In Utah, we have reclaimed 
abandoned coal mines. Why can we not even acknowledge that 
there has been a mental and moral waste dump created from our 
overinfatuation with television, movies, and music? We place 
the entertainment industry on our country's highest pedestal. 
The time has come for them to exercise responsibility that 
should come with this honor.
    Second, we must recognize the responsibility----
    The Chairman. Senator Hatch, would you speed it up?
    Senator Hatch. I will try if I can, Mr. Chairman. I would 
like to make these few points.
    We must recognize the responsibility parents have in the 
marketing of violence and sex to children. We all know how 
politically sensitive this subject is, but the simple fact is 
that parents still enjoy the single most powerful weapon in the 
battle over how their children are entertained. They still have 
the power to turn off the television and stop the movies, or 
unplug the CD player.
    It is hard to say no. Anyone who has had to weather the 
extended grounding of a teenager appreciates the difficulty 
involved. There are no immediate rewards, little support, and 
intense disapproval for censoring your own children, and you 
have to live with those you have offended the most, and then 
again, there is no reward for a parent other than the beauty of 
having a well-raised adult.
    Third, we have to acknowledge the importance of faith, and 
Mr. Chairman, if I could just take one more minute, I would 
appreciate it. A society needs a moral code to survive and 
flourish. A body of jointly shared principles against which to 
measure, restrain, and encourage conduct. For many of us, the 
source of these principles is our religion, which provides a 
comparable moral compass regardless of whether you attend a 
synagogue, a church, or a mosque, yet it is not politically 
correct to be religious or even morally accountable in public.
    We live in a time when we have devalued the right to pray, 
the miracle of birth, and the integrity of the marriage 
covenant. We live in a time when fame is not a product of 
achievement as much as it is the expected consequence of 
notoriety.
    I would put the rest of my remarks in the record, and I 
appreciate having been called to be in front of this august 
Committee today. I appreciate what you are doing, Mr. Chairman 
and other Members of this Committee, to try and elevate these 
issues to public discourse so we can all do something about 
them without having the heavy hand of government come in and 
force things on the creative people in our society.
    [The prepared statement of Senator Hatch follows:]

   Prepared Statement of Hon. Orrin G. Hatch, U.S. Senator From Utah
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to testify on the marketing of violent entertainment to 
children. As the Chairman of the Senate Judiciary Committee, as the 
father of six and grandfather of 19, and--as an occasional songwriter--
my interest in this issue is not just professional but also personal.
    The Commission should be commended for its work. Unfortunately, as 
disturbing as some of the findings may be, they are hardly surprising. 
It's hard to feign shock at the notion that children, particularly 
teenagers, are finding ways to see the movies they want to see, listen 
to the music they want to hear, and play the video games they want to 
play. Only someone who has not had the exasperating privilege of 
raising teenagers might be surprised to find that kids today are still 
as talented as they have always been in manipulating the loopholes and 
gimmicks in the restrictions that are imposed on their behavior. What 
is disturbing is the degree to which some commercial enterprises are 
willing to go to facilitate the manipulation of the few rules that do 
exist.
    Just as disturbing is the fact that much of the violence found in 
our popular entertainment is directed against women. Studies show that 
modern music lyrics, in particular, have become increasingly 
misogynistic. Hatred and violence against women are widespread and 
unmistakable in mainstream hip-hop and alternative music. Consider, for 
example, the singer Marilyn Manson, some of whose less vulgar lyrics 
include: ``Who says date rape isn't kind?''; ``Let's just kill everyone 
and let your god sort them out'': and ``The housewife I will beat, the 
pro-life I will kill.''
    In 1999, I told this Committee about a new up and coming artist. 
His name? Eminem, the hip-hop artist featured frequently on MTV who 
wrote ``Bonnie and Clyde''--a song in which he described killing his 
child's mother and dumping her body into the ocean.
    Despite historic, bipartisan legislation Sen. Joe Biden and I 
authored to help states deal with violence against women, it is 
stunning how much modern music glorifies acts of violence, sexual and 
otherwise, against women. Many children are listening to this music. 
This music is marketed to our youth.
    It was argued at your 1999 hearing--and will probably be argued 
again today--that the fame and fortune of today's creators--be they 
hip-hop artists or movie directors--are the byproduct of a free market 
where consumers are free to choose. But this argument ignores that fact 
that these ``artists'' have been financially and personally embraced by 
industry. To be frank, these creators would not be as successful in the 
marketplace were it not for the power and effectiveness of Hollywood's 
production and marketing capabilities.
    If the findings of the FTC report do not convince you of the truth, 
then ask yourself the following:

  <bullet> How does industry explain a 1998 Grammy nomination for Nine 
        Inch Nails and a 1999 Grammy nomination for Marilyn Manson?

  <bullet> How does CBS/Viacom explain MTV's decision to award Eminem 
        ``Artist of the Year for 2000?''

  <bullet> It is one thing for industry to defend the constitutional 
        rights of creators to express themselves. But it's quite 
        another thing to expect society to tolerate the production and 
        marketing of filth to young people for profit. While the First 
        Amendment may very well protect hateful content, we must not 
        ignore the fact that violent, misogynistic music may ultimately 
        affect the behavior and attitudes of many young men toward 
        women.

    The recommendations of the Commission are constructive, but federal 
regulation and election year speeches are not the final answer. You 
can't regulate decency or legislate taste. The real issue is far more 
fundamental. Let's be honest. Any society, such as ours, where the 
freedom of expression is guaranteed in the Constitution, must recognize 
a fact that currently is not in vogue--that with freedom there must 
also be responsibility and accountability. Otherwise, we will always be 
bound and confined by those too ready to pander to the lowest common 
denominator.
    It would be so much easier if there were only one culprit, one 
group that we could blame for our current state of diminished mores and 
vacuous principles. Some want to blame Hollywood, but what in Hollywood 
are we targeting? Are we angry with those who gave us Saving Private 
Ryan, The Patriot, and Schindler's List, or produce television shows 
like Touched by an Angel or Providence? We revel in these shows, 
because they trumpet the very ideals that we desperately seek in our 
own daily lives--the importance of courage, decency, honesty, 
conviction and faith.
    What about the recording industry? Do we object to the music and 
lyrics of Gladys Knight, Larry Gatlin, or David Foster? Or, do we only 
object to the work of those with whom we have no cultural or personal 
connection? As one who has written Gospel music only to be told that it 
was unacceptable because of my religious faith, I have seen both sides 
of this debate on a personal level. Warning labels on CDs and video 
games do help, but for many teenagers, a parental warning code really 
stands for ``Buy this now.''
    Some want to blame television stations for airing one show after 
another that portrays inordinately beautiful people living in a 
violent, cynical, vapid society that fortunately is still alien to most 
of America--and I'm not talking about the evening news. The networks 
counter by asking, ``How does one provide entertainment for both 
children and adults on a medium that is always available to both?''
    What about the role of politicians, who seem to want to have it 
both ways? What kind of signal is being sent to the creative community 
when politicians have one hand clutched in righteous indignation over 
the prevalence of sex and violence in our nation's entertainment and 
yet the other hand is wide open, palm up, in permanent solicitation of 
money and credibility from Hollywood's most glamorous? Does anyone 
believe that the same indignant speeches being made these last few days 
are also being given at the countless fundraisers in Los Angeles, 
Nashville and New York?
    Clearly, there is no easy solution--a Gilead's Balm that will 
miraculously solve this problem. But there are constructive steps that 
we can all take to curtail our children's exposure to violence. It is 
really three-fold:
    First, the entertainment industry must stop hiding behind the 
shibboleth of censorship, claiming any form of restraint, even self-
imposed, is nothing more than a capitulation to the puritanical. Too 
often, the outrageous and shocking are little more than a cover for a 
lack of creativity and originality. But, these artists will continue to 
flourish until the industry stops pretending that the permanent 
coarsening of entertainment is the only way to pay homage to the First 
Amendment.
    There is one constructive step that Congress can take. It is 
relatively simple yet it could have a profound, positive influence by 
allowing the entertainment industry to begin making changes 
voluntarily.
    A very limited amendment to our antitrust laws would clarify that 
the respective industries can cooperate to develop and enforce 
responsible guidelines without any fear of liability under current 
antitrust laws. The Senate has unanimously adopted my amendment to do 
just that. We should pass it before we adjourn.
    Other industries in America recognize they have a responsibility 
for the cumulative consequences of their products being made and used. 
In Utah, we reclaim abandoned coal mines. Why can't we even acknowledge 
that there has been a mental and moral waste dump created from our 
overinfatuation with television, movies, and music? We place the 
entertainment industry on our society's highest pedestal. The time has 
come for them to exercise the responsibility that should come with this 
honor.
    Second, we must recognize the responsibility parents have in the 
marketing of violence and sex to children. We all know how politically 
sensitive this subject is. But, the simple fact is that parents still 
enjoy the single most powerful weapon in the battle over how their 
children are entertained--the flick of the wrist--the ability to turn 
off the television, unplug the computer or CD player, and say no to a 
movie rental. A parent cannot protect their child in every instance, in 
every activity that occurs in school, but parental supervision can 
significantly control the content and quantity of what children watch. 
It is not hard to find out what television shows your teenage children 
are watching, what movies they are seeing, or what they are doing on 
the Internet. More often than not, they tend to be the very same shows, 
films and sites that are being watched by the parents.
    But it's hard to say no. Anyone who has had to weather the extended 
grounding of a teenager appreciates the difficulty involved. There are 
no immediate rewards, little support, and intense disapproval for 
censoring our own children. And, you have to live with those you have 
offended the most. Then again, there is no greater reward for a parent 
than the beauty of a well-raised adult.
    And third, we must acknowledge the importance of faith. A society 
needs a moral code to survive and flourish, a body of jointly shared 
principles against which to measure, restrain and encourage conduct. 
For many of us, the source of these principles is our religion, which 
provides a comparable moral compass regardless of whether you attend a 
synagogue, church, or mosque. Yet, it is not politically correct to be 
religious or even morally accountable in public.
    We live at a time when we have devalued the right to pray, the 
miracle of birth, and the integrity of the marriage covenant. We live 
at a time when fame is not the product of achievement as much as it is 
the expected consequence of notoriety. We live at a time when those who 
defend our cultural institutions, beliefs and values are routinely 
ridiculed while those who desecrate them are defended and applauded. 
Well, like politicians, we can't have it both ways.
    Reducing the prevalence of violence, vulgarity and obscenity in our 
children's daily diet will occur only when we collectively decide that 
our society will benefit more from exercising responsibility than 
abdicating accountability. There has to be a national conscience, but 
you cannot have a conscience that is devoid of any values and 
principles. However it is developed, a moral compass is critical, 
because we can never truly resolve the problems caused by those who 
pander in violence, vulgarity and obscenity until we recognize that the 
responsibility for what our children are watching is not the burden of 
someone else but our own.

    The Chairman. Thank you, Chairman Hatch. Chairman Hyde.

                 STATEMENT OF HON. HENRY HYDE, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Mr. Hyde. Thank you, Mr. Chairman, Members of the 
Committee. I congratulate you for having this hearing, and 
certainly congratulate the FTC for its excellent report. The 
issue of media violence and marketing and its connection to 
youth violence demands public discussion and attention, and I 
thank you for letting me be a part of the dialogue today.
    I am deeply concerned that violence in movies, video games 
and music, which the FTC found is force-fed to vulnerable and 
impressionable children, is placing their hearts, their minds, 
and yes, their souls at risk. Violence in our schools, 
playgrounds, and neighborhoods results in part from a pervasive 
culture of violence glorified by some segments of the 
entertainment industry.
    In preparing for today's hearing, I was searching for the 
most articulate way to describe the crisis we are facing, and 
after reading a book review I realize I could not do it any 
better than Senator Joe Lieberman did in his recently published 
book, In Praise of Public Life.
    In his book--I hope I am not lifting too much from the 
statement he is about to make.
    The Chairman. I do not think he minds.
    [Laughter.]
    Senator Lieberman. Thanks for the promotion.
    Mr. Hyde. Senator Lieberman describes, and I quote: ``a 
swelling sense that much of our culture has become toxic, that 
our standards of decency and civility are being significantly 
eroded by the entertainment industry, shameless and pervasive 
promotion of violence, sex, and vulgarity, and that the 
traditional sources of values in our society such as faith, 
family, and school, are in a life and death struggle with the 
darker forces of immorality, inhumanity, and greed'', end 
quote.
    I really feel this is something that many of us are sensing 
today as we come here to discuss the FTC study. Not 
surprisingly, the study concludes that the entertainment 
industry in America is pushing their violent products, movies, 
games, and music, onto our children. They do this because they 
know it sells, and heaven forbid that any sense of decency get 
in the way of making a buck.
    Unfortunately, we know from numerous studies that continued 
exposure to violent entertainment is harmful to our children 
and leaves some of them more predisposed to violent behavior. 
This is a complex problem. There are multiple causes.
    It would be irresponsible to place all the blame on the 
entertainment industry, Senator Kerry has it exactly right, but 
it is clear that part of what is causing youth violence is that 
children have been overexposed to media violence, and this, 
coupled with a spiritual vacuum, leaves many youngsters 
desensitized to violence and unable to fully appreciate the 
consequences of their sometimes brutal actions.
    As popular entertainment becomes more and more violent, and 
depicts more and more disrespect for life and the rights and 
well-being of others, some of our kids are starting to believe 
this is acceptable behavior and this is normal behavior. They 
do not quite understand that acts of violence may have tragic 
consequences. Much of the make-believe violence kids are 
exposed to today is presented not as horror, with devastating 
human consequence, but simply as entertainment. This is 
particularly harmful to young people whose values are still 
under development.
    How do we deal with the negative influence of violent 
entertainment and its marketing to children? It is not easy, 
and maybe Federal legislation is not the answer. I personally 
believe, though, we should not dismiss that out of hand. Last 
year, I offered an amendment to the House juvenile justice 
legislation that would have created a new Federal statute to 
protect minors from explicit violent material.
    Because the Constitution permits us to restrict the type of 
sexual materials children can purchase, I believe it makes 
sense that we can also prohibit the distribution of material to 
minors that is so graphically violent that it is harmful to 
minors. In my view, that certain extremely violent movies, 
games, and music can have just as much or more of a detrimental 
effect on the mental and moral health of kids than some 
explicit sexual materials that many States currently prohibit 
from being sold to children. In other words, violence directed 
at kids can be obscenity, and this is not protected by the 
First Amendment.
    There was the predictable outcry from Hollywood in response 
to this, and I was defeated handily on the House floor. 
Nevertheless, I believe the idea still has merit and should be 
reconsidered if the industry will not help in our struggle to 
protect children from certain violent material.
    I am not saying Government should prohibit entertainment 
companies from producing these products, but I am suggesting we 
recognize there is a sharp difference between what is suitable 
for adults and what is suitable for children. Congress and the 
FTC do not have all the answers, but we have to continue to do 
what we can to help parents shield children from glorification 
of violence in so much of today's popular entertainment.
    Sometimes this means simply bringing attention to the 
excesses of the industry. Perhaps a strong public expression of 
revulsion, if we could ever muster one, will finally persuade 
the entertainment industry to wake up and take some 
responsibility. We can hope they will finally do a better job 
implementing and enforcing their own rating systems. Perhaps 
they will work more with retailers to ensure that excessively 
violent products are not sold to children.
    We have heard the empty promises before. Hopefully we can 
get a firm commitment today from the next panel. Is it too much 
to ask these companies to lend a hand to parents across America 
who are doing their level best to raise their children?
    I am nearly through, Mr. Chairman.
    I do not wish to sound hopelessly negative. Some progress 
is being made, in particular with video games as the industry 
is aggressively working with producers and retailers to enforce 
its comprehensive rating system and marketing code of conduct. 
We should closely monitor these efforts to encourage them.
    Additionally, the diligent work of Attorney General Jim 
Ryan in Illinois has led retail giants Wal-Mart, KMart, and 
Target to take steps to prevent kids from buying mature-rated 
games, and Sears and Wards have stopped selling them 
altogether. Still more, much more can and must be done.
    The bottom line is, we must do something to halt the flow 
of violent images threatening our children. Even the most 
caring and responsible parents cannot prevent all harmful 
violent influence from reaching their children. Parents need 
help. Congress and the industry should stand with them, not 
against them, because there is nothing we do in life more 
important than how we raise our children.
    Thank you for indulging me, Mr. Chairman.
    The Chairman. Thank you, Chairman Hyde.
    Senator Lieberman, before you came in I mentioned that we 
go by seniority in both the House and the Senate in order of 
our witnesses testifying, and we warmly welcome you back to the 
Committee, and we appreciate the fact that you came to discuss 
with us today this very important issue.
    Senator Lieberman.

            STATEMENT OF HON. JOSEPH I. LIEBERMAN, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman. Thanks very much, Mr. Chairman and 
Senator Hollings for giving me this opportunity. I was laughing 
to myself. In this remarkable last 5 weeks of honor and 
excitement, and opportunity and gratitude and joy, there is 
always the danger that you will take yourself too seriously. I 
count on my wife to keep me humble, but the Senate seniority 
system does that as well.
    [Laughter.]
    Senator Lieberman. I appreciate that very much. I have 
benefited from the testimony I have just heard from Senator 
Hatch and Congressman Hyde, and I must say, as full of 
excitement as the last 5 weeks have been, Mr. Chairman, I miss 
the Senate, and I miss my colleagues on both sides of the aisle 
in the Senate, even you, John.
    [Laughter.]
    Senator Lieberman. Actually, particularly you, John.
    [Laughter.]
    The Chairman. We miss you too.
    [Laughter.]
    Senator Lieberman. It is great to see you feeling well and, 
based upon your opening statement, as shy and retiring as ever.
    [Laughter.]
    Senator Lieberman. I thank you for that. I think all of the 
country feels secure and encouraged when your steadfast and 
principled advocacy is at work.
    Mr. Chairman, we are here today to talk about the threat of 
violence to our country, and in particular the troubling way 
the entertainment media are promoting and selling adult-rated 
products to our children. But we are also talking, as the two 
distinguished speakers before me have made clear and Members of 
the Committee did as well, about a broader theme, the thread of 
values that connect us as a Nation, and the growing concern 
about the impact that the popular culture is having on our 
moral fabric.
    That connection I think is critical to understanding what 
is at stake here, and I just want to take a moment to discuss 
it.
    Mr. Chairman, Senator Hollings, as you know this 
conversation has been reverberating around the country for the 
last several years. It is not new. There is widespread anxiety 
that so many of our common values are deteriorating, that our 
standards of decency and civility and safety are eroding, that 
families are weakening, and as a result that the quality of our 
lives, no matter how prosperous we are, is suffering.
    Many of us in public office, particularly Members of this 
Committee on both sides of the aisle, under your leadership and 
Senator Hollings, have tried to give voice to these concerns 
and, in particular, to the complaints of parents who feel 
locked in a losing competition with the culture to raise their 
children, our children.
    Then came Columbine, which I think was a psychic breaking 
point for our country. It was a warning that the culture of 
carnage surrounding our children may have gone too far, and 
that the romanticized and sanitized visions of violence that 
our children are being bombarded with by the media has become 
part of a toxic mix that has actually now turned some of them 
into killers.
    So we pleaded after Columbine with the leaders of the 
entertainment industry to join us at the table, along with 
parents, the gun industry, and many other groups involved in 
this problem, and work with us to reduce the risk of another 
student rampage and help us fight the larger problem of youth 
violence. That is what led to the call to the FTC to conduct an 
investigation of the entertainment industry's marketing 
practices, which concluded this week in a report that indicates 
just how far we still have to go.
    Rather than helping to shoulder the growing burden on 
parents, according to the FTC report, the entertainment 
industry too often has chosen to go behind parents' backs, 
targeting the sale of violent, adult-rated products directly to 
children. In fact, the FTC found dozens of what might be called 
smoking guns about smoking guns, internal marketing plans which 
show conclusively that the movie, music, and video game 
industries were intentionally cutting out what might be called 
the middle mom and dad and routinely, aggressively, and 
intentionally marketing violent, harmful products to our 
children.
    This practice is deceptive, I believe it is outrageous, and 
I hope it will stop. These industries have to realize they 
cannot tell parents that these products are inappropriate for 
their children in the ratings and then turn around and market 
them to those same kids. That makes a mockery of the ratings 
system that parents depend on to make the right decisions for 
their children. That greatly decreases the effectiveness of the 
warnings. And it greatly increases the odds that children will 
be exposed to materials that hundreds of studies have 
conclusively shown can be harmful to them.
    That is why, in response to the FTC report, Vice President 
Gore and I have demanded an immediate cease-fire in the 
marketing of adult-rated products to children. And it is why we 
have challenged the entertainment industry to develop their own 
uniform codes of responsibility to enforce this policy, just as 
the FTC has recommended, with real, self-enforced sanctions for 
offending companies.
    The video game industry actually has such a code, and last 
year the game-makers agreed to strengthen it and step up its 
enforcement. While I suppose you could say it has not worked as 
well as it should have, it is a step, a significant step in the 
right direction, and I think the game-makers deserve credit for 
taking it. We should expect no less of the music industry, 
which recently announced some encouraging changes in its 
parental advisory program, and of the movie industry.
    I am hopeful that these entertainment industries will now 
respond responsibly to the FTC's findings, but I must say this 
morning I am disappointed by the failure of the movie studios 
to produce witnesses here before your distinguished Committee. 
The FTC report raises serious questions, and this Committee, 
not to mention America's parents, deserve serious answers, not 
distant excuses.
    The Vice President and I believe that vigorous self-
regulation is the best solution to this problem, and we hope 
these entertainment industries will step up to the plate to do 
just that in the next 6 months. The Walt Disney Company did 
just that yesterday, issuing a strong statement that it would 
incorporate the FTC's major recommendations into its marketing 
policies, and I want to thank and commend them for that step.
    But if the entertainment industry fails to act, and if they 
market adult-rated products to kids in violation of their own 
standards, then I believe they must be held accountable. 
Specifically, if the FTC has the proper authority it should 
move swiftly to bring actions under its false and deceptive 
advertising rules. If the FTC finds those rules do not apply to 
this unique circumstance, then we should introduce new, 
narrowly-tailored legislation to augment the FTC's authority, 
with the understanding, of course, that it has to be fully 
consistent with the First Amendment and in no way regulate or 
restrict the underlying content of the movies, music, or video 
games. We are focusing on how they market, not what they make.
    The FTC report also talks about where they sell, and the 
critical role retailers must play in protecting children from 
harm. The investigation found that movie theaters and retail 
outlets at best haphazardly enforce the age-based ratings, and 
often do nothing at all. An undercover sting revealed that kids 
aged 13 to 16 were successful in buying M-rated games and 
records with the explicit lyrics label 85 percent of the time.
    Now, that kind of laxity is just unacceptable. Just as the 
FTC has done, we must challenge the retailers to adopt a tough, 
enforceable, voluntary code of responsibility prohibiting the 
sale of adult-rated products to children, complete with real, 
self-enforced sanctions for offending businesses.
    Again, as has been said, KMart, Wal-Mart, and Target just 
recently made a commitment to enforce exactly this kind of 
policy for violent M-rated video games, as had Toys ``R'' Us 
previously. I applaud those companies for lending parents a 
helping hand and setting a high standard of corporate 
citizenship, and I would urge the rest of the industry to 
follow their principled leads.
    Mr. Chairman, all of these constructive steps will not 
ultimately be effective if parents are also not engaged. This 
is a critical point that many in the entertainment industry 
emphasize, and on this one they are absolutely right. We have 
been working to give parents empowering tools to help them 
fulfill what we all agree is their primary responsibility to 
protect their children from harm--the V-chip rating systems, a 
wide array of internet blocking and filtering technologies.
    This FTC report recommends several additional worthwhile 
ways to make these rules more useful, from investing ways to 
better educate parents, providing better ratings with more 
information, and fully disclosing the reasons for those ratings 
in the ads and on the packaging. But they are not going to be 
useful if they are not used, which is why we have to challenge 
America's parents to do more to monitor their children's media 
diets.
    In the end, Mr. Chairman, what we are asking for today 
again is not censorship, but simply better citizenship. The 
same entertainment companies that we are calling on today 
contribute so much to our culture, to our economy, and to the 
American experience. They make some wonderful products that 
entertain, educate, and elevate us as a people. But they are 
also contributing to some serious national problems, and we 
need their help, cooperation and support if we are going to 
make things better.
    The FTC report and we here today, I think all of us across 
party lines, are saying to Hollywood quite simply, work with us 
and with America's parents, provide them good information to 
make good judgments, and help us meet our shared obligation to 
protect our children and our country from harm.
    Thank you very much.
    The Chairman. Thank you, Senator Lieberman. On behalf of 
the entire Committee we thank you for this important testimony 
and your continued involvement on this very important issue, 
and it is very good to see you again.
    Senator Lieberman. Thank you, Mr. Chairman.
    The Chairman. Senator Kohl.

                 STATEMENT OF HON. HERB KOHL, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Kohl. Thank you, Chairman McCain, Senator Hollings, 
and Members of this Committee for convening this hearing. The 
FTC report appropriately criticizes the entire entertainment 
industry for marketing violent content to children. I want to 
focus my remarks today on the part of the industry that I know 
best: video game producers and retailers.
    To be sure, the best of the video and computer games on the 
market are appropriate for children, and some are even 
educational. But the FTC report confirms our worst suspicions: 
too many video game companies flagrantly flout their own 
ratings systems, too many game-makers peddle violent products 
to young children, and too many retailers look the other way. 
These companies are irresponsible corporate citizens, their 
executives should be embarrassed by their actions, and the 
American people should think twice about buying their products 
until they start behaving.
    Let me give you an example of what we are talking about. 
This past weekend, I sent a member of my staff out with two 12-
year-olds to do a spot check of area stores. Our seventh-
graders walked out of Best Buy, Toys ``R'' Us, and KayBee Toys, 
three of the largest video and computer game retailers in the 
Nation, with the most violent and vulgar interactive 
entertainment that $50 can buy.
    In fact, at Toys ``R'' Us, which to its credit has a system 
in place to remind employees to check identification whenever 
an M-rated game is sold, our seventh-graders watched as the 
cashier dismissively overrode the store's own warning system 
not once, but twice. Our experience is consistent with the 
FTC's findings that 85 percent of underage children can buy 
adult games.
    Mr. Chairman, since the beginning, manufacturers have been 
equally complicit. Seven years ago, when Senator Lieberman and 
I began to investigate the interactive gaming industry, there 
was no rating system at all for video games. Parents had no way 
to know what their children were playing. But after a series of 
congressional hearings, meetings with company executives and, 
most importantly, pressure from parents, we did finally get 
manufacturers to agree to create and implement a rating system. 
It was and remains a significant accomplishment.
    Today, nearly every game sold is rated, and that rating is 
prominently displayed on the video game itself. But even as 
some in the industry take these laudable steps to prevent the 
wrong games from ending up in the wrong hands, other bad actors 
are peddling the same virtual carnage and smut specifically to 
minors. Of the three industries studied by the FTC, the video 
game industry is the only one with a legally binding code of 
conduct. Manufacturers sign a document that explicitly states, 
and I quote, companies should not specifically target 
advertising to underage consumers.
    Unfortunately, some of these very same manufacturers 
flagrantly and repeatedly ignore their own code. They advertise 
mature-rated games in magazines whose readers are predominantly 
under 17. In fact, the FTC found that 91 percent of the video 
game companies surveyed have targeted males under 17 in 
advertising campaigns for violent and M-rated games. So we are 
not talking about accidental leakage to a younger demographic, 
Mr. Chairman. We are talking about a highly sophisticated 
marketing strategy designed to make an extra buck by 
deliberately luring young kids into buying these games.
    Of course, Mr. Chairman, finding solutions is always much 
harder than identifying problems. Not all of us agree about how 
to shield our children from video game violence while 
protecting our freedom of speech and expression. But all of us 
do agree that some of these games are clearly wrong for our 
children. Do not take my word for it. Ask the industry itself. 
An executive of Nintendo actually said of a Sega game, Night 
Trap, and I quote, ``it simply has no place in American 
society.''
    Mr. Chairman, that statement was made at a hearing we held 
7 years ago. Since then, the industry has developed a more than 
adequate rating system. Unfortunately, it now appears that we 
cannot trust their executives to live up to their word. The 
video game industry has no right to play dangerous games with 
our children. Its executives have at the very least a moral and 
an ethical responsibility to treat America's families with the 
respect that they deserve.
    We ought to ask them why they have not. If we are not 
satisfied with their answers we need to bring them back again 
and again, hold them up to public scrutiny, and do everything 
in our constitutional power to improve their behavior.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kohl.
    Senator Boxer, welcome, and I appreciate your patience.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. I really learned a lot, and Mr. Chairman, I, 
too, am so glad that you are well and back, and feisty, and I 
hope you will tell me when I have used up 4 minutes and I will 
complete in the 5 minutes if you could do that.
    The Chairman. Thank you very much.
    Senator Boxer. I speak to you as your colleague, as a 
mother, a grandmother, and Senator from California, where the 
entertainment industry is sometimes getting great praise, for 
example, Saving Private Ryan, and sometimes getting great 
condemnation, as we have seen in many of your words today, and 
certainly the lyrics that were posted by Senator Brownback. My 
personal opinion is they are distressing and they are vile. I 
wish I could have had next to that the lyrics of a wonderful 
song from Sesame Street called, ``It's Not Easy Being Green,'' 
which I can attest to, and other wonderful music, the lyrics by 
the Bergmans or Senator Hatch.
    So as in most things in life there is good and bad, and 
nothing is perfect. Certainly the FTC did a sensational job, I 
think, of using documentation to show that the entertainment 
industry is not paying attention to its own rating system and 
its own warning labels, and this is wrong.
    The good news about this report is that it is very clear. 
It is very unequivocal. I have spoken to many in the industry 
and they are very ready to take steps. As Senator Lieberman 
said, the Walt Disney Company has made available to the 
Committee, in case you have not seen it, their press release. 
They are making some tremendous strides--the Touchstone 
Hollywood Pictures, Miramax Films--they are putting into place 
I think a very good system, and so I am very happy.
    Now, the entertainment industry has received criticism 
because the studio heads are not here. They decided to have Mr. 
Valenti speak for them today, and I think he will have a lot to 
offer in his testimony, so first----
    The Chairman. So you agree the studio heads should not have 
come?
    Senator Boxer. I did not say that. I just said that they 
have given Mr. Valenti the authority to speak for them, because 
I spoke to them, and they decided rather than have all the 
different voices, that is their decision, and you have every 
right not to appreciate it, and I just wanted to mention that 
they themselves----
    The Chairman. I have only been on this Committee 14 years. 
I have never seen such a thing before.
    Senator Boxer. I am sorry.
    The Chairman. Please go ahead.
    Senator Boxer. I was saying that Mr. Valenti will speak for 
them, and they, it seems to me, are taking some steps which are 
important, and I hope in 6 months' time we will see even more 
steps being taken.
    So the good news from my standpoint is, I spoke to many of 
them, and they are not defensive about this report. They want 
to take steps--do I have one minute left, Mr. Chairman?
    The Chairman. Take a couple more minutes if you like, 
Senator Boxer. You have been very patient this morning, and I 
think we should allow you to complete.
    Senator Boxer. Thank you. So the FTC report is very 
important. The marketing practices should reflect the rating 
system and the warning system, I think that is obvious, and it 
must be done. But I guess I want to ask the question, if 
everything worked out perfectly, and tomorrow all the marketing 
policies were changed, would that cure the violence problem in 
our society? The answer is clearly no.
    As H.L. Mencken said, for every problem there is a solution 
which is simple, neat, and wrong, and I think if we just look 
at the entertainment industry alone, while it is very important 
to do so, I hope we will give equal attention to other factors.
    I would call your attention to the FBI report. They just 
did a report called, The School Shooter: A Threat Assessment 
Perspective, and they tried to determine whether it is possible 
to predict and prevent school violence. The report recognizes 
that the causes of violent behavior are complex, to quote them, 
multiple, intricate, intertwined.
    They mention entertainment. They also mention weapons in 
the home, and when we took up this issue of the FTC 
investigation the last time in the Senate we, in a very 
bipartisan way, also suggested that the FTC look at the 
marketing practices of the gun companies to our children.
    Attached to my statement you will see some advertising by 
the gun companies. For example, they are advertising a handgun 
in a children's magazine when kids cannot buy handguns. They 
have statements like, ``Start 'em young,'' that shows a young 
child holding a look-alike of a handgun.
    There is a report by a very important community group that 
says Eddie Eagle, their mascot, is very much like Joe Camel, so 
I would just ask us to look at that as well.
    Two more quick points, and then I will be done. If you look 
at Detroit, Michigan, and Windsor, Canada, they are right--
separated by just a river. They get the same exact music, 
videos, everything, television. In 1997, which is the last time 
we had numbers, Detroit had 354 firearm murders. In Windsor, 
Canada, there were four, so they have the same entertainment, 
but yet this difference in murder rate, and so therefore we 
need to look at everything. We need to look at everything.
    The last point I would make would echo what Senator Hatch 
said, and I wanted to compliment him on the tone of his 
presentation. We know there is one proven fact, that the 
strongest risk factor for transmitting violent behavior from 
one generation to the next is if a child sees his father 
abusing his mother, and we have specific statistics.
    According to the National Institute of Justice an abused 
child is 53 percent more likely to be arrested as a juvenile, 
and 38 percent more likely to be arrested as an adult than a 
child who is not abused, so I think we need to look at 
entertainment, we need to look at guns, we need to look at the 
way kids are treated, and I want to just say, if we can help 
Senators Hatch and Biden pass the Violence Against Women Act it 
would be a big help, as well as the work your Committee is 
doing.
    So again, my deepest thanks to you for your patience with 
me, and we all want to ensure that our children's world is 
peaceful, that it is loving, and is not violent and full of 
hatred, and I think we all come to this with that attitude.
    Thank you very much.
    The Chairman. Thank you, Senator Boxer.
    Senator DeWine.

                STATEMENT OF HON. MIKE DeWINE, 
                     U.S. SENATOR FROM OHIO

    Senator DeWine. Mr. Chairman, thank you very much. As the 
father of 8, whose ages range from 8 to 32, not only do I have 
a personal interest, but I also think I have a little 
institutional memory, and maybe some historical perspective 
about these issues. I have examined, as we all have, the 
findings of the FTC report, and I am convinced, Mr. Chairman, 
that this industry is at war with parents. They are trying to 
get between parents and their children, and it is our children, 
Mr. Chairman, who are being harmed.
    The entertainment industry must stop its advertising and 
marketing tactics that undermine parental authority. According 
to the FTC, the entertainment industry has been engaged in a, 
quote, ``pervasive and aggressive marketing of violent movies, 
music, and electronic games to children'', end of quote.
    Now, the industry will try to tell us the voluntary rating 
system is in place to help parents make informed choices about 
the kinds of television programs, movies, and video games that 
are suitable for children, depending on their age. The industry 
will say that it is up to parents to monitor what their 
children do. It is up to parents to use these ratings as a 
guideline, but Mr. Chairman, the value of these voluntary 
rating systems is destroyed when individual entertainment 
producers go out of their way to undermine parental decisions 
by enticing children to seek out the very entertainment that 
the industry's ratings indicate is not suitable for them.
    Mr. Chairman, this is just plain wrong. Like the tobacco 
companies before them, the entertainment industry is 
encouraging children to defy and deceive their parents. That is 
something that we, as a people and as a society, simply should 
not tolerate. We cannot tolerate a widespread and aggressive 
campaign to weaken parental authority.
    So Mr. Chairman, where do we go from here? One thing the 
Federal Trade Commission can and I believe should do is provide 
Congress with an annual report on these marketing practices so 
the American people can determine if the industry is doing a 
better job.
    Now, Mr. Chairman, no doubt the entertainment industry can 
only get better at marketing. We know they will. So, today I 
challenge the entertainment industry to follow the 
recommendations of the FTC report and act less like shameless 
salesmen and more like concerned parents.
    The entertainment industry needs to regulate itself much 
more carefully and much more effectively. They need to develop 
reasonable guidelines and then actually enforce them.
    But, Mr. Chairman, we have all been down this road before, 
how many times, and I know that some in the entertainment 
industry have raised antitrust concerns as an excuse--as an 
excuse for why they cannot get together, why they cannot as an 
industry agree to more sensible rules and then actually police 
themselves.
    However, Mr. Chairman, the FTC report indicates that such 
guidelines, if carefully drafted and reinforced, will not pose 
any antitrust problem, and I must say, as Chairman of the 
Antitrust Subcommittee, I agree with that assessment. So, I 
pose this question to the industry, and to their 
representatives who are here today: Mr. Goldberg, Mr. Zelnick, 
Mr. Moore, Mr. Fischback, Ms. Rosen, Mr. Lowenstein, and Mr. 
Valenti, do you believe that individual antitrust protection is 
needed for you to implement the recommendations of the FTC 
report? Mr. Chairman, although I will not be here to ask them 
those questions, I would ask that each one of them address 
that.
    Do you have the authority today to implement those 
recommendations? If you do not, I will guarantee you, gentlemen 
and ladies, that this Congress will act very swiftly to give 
you that authority. If you believe additional protection is 
necessary, as Chairman of the Antitrust Subcommittee, I will 
work with Ranking Member Kohl; and I will work with this 
Committee; and I will work with Senator Brownback, who has been 
a leader in this area, to make sure this legislation is passed.
    Several years ago, I worked with Senator Brownback, Senator 
Kohl, Senator Lieberman, and Senator Simon on legislation 
designed to give the television industry, specifically, 
antitrust protection because some in the industry believed or 
said it might be necessary. We can do this again if you feel 
that is what is needed to enforce the FTC recommendation.
    Mr. Chairman, however, I would again address this to the 
representatives who are here: If you believe that current 
antitrust protection is sufficient to implement and enforce new 
guidelines, then just do it. Develop tough standards, implement 
them, and by all means enforce them. To borrow a well-known 
marketing phrase, just do it. There are no reasons, no excuses 
for this industry to ignore its moral responsibility to parents 
and especially to children.
    Mr. Chairman, I appreciate the indulgence of the chair. If 
I could just make one final comment, the thing that candidly 
puzzles me more than anything else, and I just do not 
understand it, is why some of these companies that are 
multimillion-dollar companies, who make a great deal of money, 
cannot just look up and say, there are just certain things we 
are not going to do. There are just certain things we are not 
going to publish. There are just certain things we are not 
going to promote. It is not a question of freedom of speech.
    But, when Senator Brownback put those words up there, how 
can anybody defend that? People should just say no--we are not 
going to do it--we have higher standards than that. It is not a 
violation of the First Amendment. It is just the right thing to 
do.
    I appreciate the indulgence of the chair.
    The Chairman. Thank you very much, Senator DeWine.
    I am pleased to welcome back an old friend from our days on 
the Interior Committee, and a person who has been involved in 
these issues for many years. We appreciate your being here, 
Congressman Markey, and appreciate your patience.

              STATEMENT OF HON. EDWARD J. MARKEY, 
             U.S. REPRESENTATIVE FROM MASSACHUSETTS

    Mr. Markey. Thank you, Senator, very much, and you, Senator 
Hollings, and all the Members of this Committee. After all, you 
have been the leaders on this issue. Almost every one of you 
has taken a role in dealing with these issues over the past 
decade, and notwithstanding some of the comments made by this 
panel already by one of my former colleagues, Al Gore and his 
wife, going all the way back to the first day I was in 
Congress, sitting next to them on the Telecommunications 
Committee in 1977, as a couple they were working on children's 
television, and the role of violence in the media. And Joe 
Lieberman, of course, who has become the conscience of 
communications over the last 10 years, working with all parts 
of the ideological spectrum to deal with that issue.
    I want to begin first by praising each of the industries 
invited this morning for the work they have done to set up a 
self-regulatory structure designed to increase the awareness to 
parents, advertisers, executives, and consumers generally of 
product material that may be inappropriate for children.
    Today's hearing should be focused rather narrowly on 
commercial, not creative processes. That, after all, is what 
the Federal Trade Commission report is all about. It deals with 
methods of marketing, not movie-making, not music-making, but 
marketing, and with respect to marketing the issue is even 
narrower.
    The FTC report deals only with marketing to audiences that 
are predominantly underage for the material being sold. This 
practice, found to be pervasive and routine by the Federal 
Trade Commission, drives parents crazy. The Federal Trade 
Commission report describes an example that parents in my 
district can relate to.
    A child asks a parent to take her to see Star Wars. She 
knows it is rated PG. The parents remember from their own 
childhood experience that this is an extraordinarily visual 
experience. They go to the movie, and while waiting for the 
feature presentation to begin they are shocked to discover that 
they have become a captive audience for a trailer for an R-
rated movie that includes graphic sexual images and other 
material. Parents feel entrapped. They pay attention to the 
rating, act reasonably, but get treated as unwitting abettors 
in the commercial scheme of others.
    That is what this hearing should be about, the detrimental 
reliance of parents on a system of warnings that is sometimes 
flaunted by some companies that adopted it. I hope we can deal 
with this problem through voluntary codes and through the 
judicious application of existing law. After all, the trade 
associations for both the recording industry and the electronic 
games industry have already taken steps to prevent advertising 
adult-content products on child-frequented media outlets, and 
also the Walt Disney Company just announced an initiative to 
prevent such marketing.
    In my own view, the Federal Trade Commission already has 
sufficient authority in the Federal Trade Commission Act to 
bring an action against a company that repeatedly flaunts such 
guidelines. Section 5 makes it unlawful to engage in deceptive 
or unfair acts or practices in or affecting commerce. I believe 
that the Commission would be upheld if it acted to rein in a 
renegade company that continues to target children with adult-
rated products even while the majority of its competitors were 
steering away from such practices. It would be deceptive 
because the target audience could not legally purchase the 
product without parental consent. It would be unfair because it 
would be the cynical exploitation of a market that other 
competitors were no longer targeting.
    The Federal Trade Commission report is silent on the scope 
of its existing authority to rein in the renegades. I sent a 
letter to the chairman asking him to provide guidance on this 
subject. I know that he has already charged his general counsel 
with reviewing the law in this area, and I look forward to his 
reply.
    But despite the common sense reaction of some industry 
players to the need to curtail the practices outlined by the 
FTC, others have leapt to the conclusion that Congress cannot 
involve itself in the area of violent entertainment without 
engaging in censorship.
    Now, censorship is a strong word, usually reserved for 
those occasions when the government tries to influence the 
content of ideas, particularly unpopular ideas. Can that word 
be applied here, assuming, we, the government, engage in 
reasonable efforts to restrain the practice of marketing to 
children entertainment products containing violence and 
intended for adults?
    It has never been the law of the land, nor will it ever be, 
that those engaged in the sale of a product that harms children 
will have an unfettered right to cause that harm. Commercial 
speech is protected by the Constitution, but not absolutely, as 
though there were no competing public good. Children in 
particular, vulnerable as they are to the inducements and 
messages of the free market, have always been viewed as a 
special class deserving of special protection from the excesses 
of the free market. Certainly they are no less a protected 
interest than the purveyors of the products. Congress has made 
this clear over and over again.
    The critics of this congressional hearing today say that we 
are using the Constitution against commerce, and that is wrong. 
In fact, what this hearing is about is commerce against 
children, and we are saying that there are constitutional 
limits upon their ability as commerce to target the child's 
audience.
    This Committee has regulated the sale of cigarettes to 
minors, alcohol to minors, guns to minors. This Committee has 
regulated commercial speech in the Children's Television Act of 
1990, Senator Hollings, and the Child Online Privacy Protection 
Act of 1998, Senator Bryan, and we have enacted to enable 
parents to cope with the tsunami of violent and sexual media 
images through the V-chip software filters and ratings, Senator 
Dorgan and you, Mr. Chairman, and many of the other Members of 
this Committee.
    The Children's Television Act of 1990 is particularly 
instructive for this Committee. In that act this Committee 
specifically limited the marketing practices of broadcasters on 
children's programming, right down to the number of minutes 
that a station can devote to marketing products on that 
programming.
    How is that constitutional? Because as the Committee stated 
at the time, even where commercial speech is entirely lawful 
and not misleading, children are a substantial government 
interest. Who made that decision? Judge Starr made that 
decision in Action for Children's Television v. The FTC in 
1987. Young children cannot distinguish conceptually between 
programming and advertising, and guidelines on the permissible 
level of commercialization is a recognition of the 
vulnerability of children to commercial exploitation.
    Unlike the Children's Television Act, where the images 
regulated were not violent, the FTC report deals with violent 
entertainment, which has been correlated with psychological and 
occasionally physical harm when beamed into the brains of 
children in massive overdoses.
    The harm does not have to rise to the level of a Columbine 
massacre to justify concern. It is beyond argument that while 
violence in the media has been found to contribute to a climate 
that makes a society less sensitive to real violence, it is 
never the sole nor even the most important contributing element 
to pathological acts that occur so frequently on America's 
streets.
    The fact that this Congress has failed to act on the gun 
show loophole, for example, is surely more directly related to 
the death toll from guns in America than any movie or song or 
video game ever written, and the fact is that real violence is 
so common today that it appears on the nightly news even in 
homes that use the V-chip.
    We are not talking about a cure-all here. We are talking 
about giving parents tools which they can use--a safety cap on 
medicine, a seat belt in a car, labeling on food. We are trying 
to help parents in a very tough world to do the best job they 
can.
    When parents are told that they have ratings that they can 
rely upon, and yet there is a marketing strategy to go right 
around those marketing promises, then deceptive and unfair 
trade practices are being engaged in.
    Does this mean the entertainment industry should continue 
to market adult fare to children? Surely not, and the sooner 
the leaders of these great industries concede that obvious 
fact, the sooner we will remedy the problem. Parents are simply 
saying, do not trick us, do not disrespect us, do not market 
behind our backs, just do what it is that you have been 
promising that you will do, when you say you will keep it away 
from the children of our country.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Markey follows:]

             Prepared Statement of Hon. Edward J. Markey, 
                 U.S. Representative from Massachusetts
    Thank you for this opportunity to testify regarding the practice of 
marketing violent adult entertainment to children.
    I want to begin by praising each of the industries invited this 
morning for the work they have done to set up a self-regulatory 
structure designed to increase the awareness of parents, advertisers, 
executives and consumers generally of product material that may be 
inappropriate for children.
    In setting up the ratings and labeling systems that are now 
routinely implemented in the movie, music, video game and television 
industries, the associations and members of these industries have 
demonstrated their concern for the unintended effects of some of their 
products on children, and have acknowledged the changing competitive 
and technological landscape that now drives American popular culture.
    This means that today's hearing can and should be focused rather 
narrowly on commercial, not creative, processes. That, after all, is 
what the FTC report is about. It deals with methods of marketing--not 
moviemaking, not musicmaking--but marketing.
    And with respect to marketing, the issue is even narrower--the FTC 
report deals only with marketing to audiences that are predominantly 
underage for the material being sold. This practice--found to be 
pervasive and routine by the FTC--drives parents crazy.
    The FTC report describes an example that parents in my district can 
relate to. A child asks a parent to take her to see Star Wars, she 
knows it's rated ``PG'', the parent remembers from his own childhood 
experience that this is an extraordinary visual experience. They go to 
the movie and, while waiting for the feature presentation to begin, are 
shocked to discover that they have become a captive audience for a 
trailer for an R-rated movie that includes graphic sexual images, rape 
and vulgar language.
    Parents feel entrapped. They pay attention to the rating, act 
reasonably, but get treated as unwitting abettors in the commercial 
schemes of others.
    In another example mentioned in the report, an action figure from a 
video game so violent that it is rated as unsuitable for 16-year-olds 
is sold in toy stores carrying the label ``Ages 4 and up.'' Again, 
parents facing this kind of cynical manipulation of an industry's own 
rating system feel betrayed.
    That is what this hearing should be about--the detrimental reliance 
of parents on a system of warnings that is sometimes flaunted by the 
companies that adopted it. I hope we can deal with this problem through 
voluntary codes and through the judicious application of existing law. 
After all, the trade associations for both the recording industry and 
the electronic games industry have already taken steps to prevent 
advertising adult-content products on child-frequented media outlets.
    It is my own view that the FTC already has sufficient authority in 
the Federal Trade Act to bring an action against a company that 
repeatedly flaunts such guidelines. Section 5 makes it unlawful to 
engage in ``deceptive or unfair acts or practices in or affecting 
commerce.'' I believe that the Commission would be upheld if it acted 
to rein in a renegade company that continues to target children with 
adult-rated products even while the majority of it competitors were 
steering away from such practices. It would be ``deceptive'', because 
the target audience cannot legally purchase the product without 
parental consent. It would be ``unfair'', because it would be the 
cynical exploitation of a market that other competitors were no longer 
targeting.
    Unfortunately, the FTC report is silent on the scope of its 
existing authority to rein in the renegades, so I have sent a letter to 
Chairman Pitofsky asking him to provide guidance on this subject. I 
know he has already charged his general counsel with reviewing the law 
in this area, and I look forward to his reply.
    But despite the common sense reaction of some industry players to 
the need to curtail the practices outlined by the FTC, others have 
leapt hysterically to the conclusion that Congress cannot involve 
itself in the area of violent entertainment without engaging in 
``censorship.''
    ``Censorship'' is a strong word, usually reserved for those 
occasions when the government tries to influence the content of ideas, 
particularly unpopular ideas.
    Can that word be applied here, assuming we, the government, engage 
in reasonable efforts to restrain the practice of marketing to children 
entertainment products containing violence and intended for adults?
    As long as the industry, not the government, decides which material 
is unsuitable for children, the answer is clearly ``NO.''
    It has never been the Law of the Land, nor will it ever be, that 
those engaged in the sale of a product that harms children will have an 
unfettered right to cause that harm.
    Commercial speech is protected by the Constitution, but not 
absolutely, as though there were no competing public good. Children, in 
particular, vulnerable as they are to the inducements and messages of 
the free market, have always been viewed as a special class deserving 
of special protection from the excesses of the free market. Certainly 
they are no less a protected interest than the purveyors of products. 
Congress has made this clear over and over again.
    We have regulated the sale of cigarettes to minors, alcohol to 
minors, guns to minors.
    We have regulated commercial speech in the Children's Television 
Act of 1990 and the Child Online Privacy Protection Act of 1998.
    And we have acted to enable parents to cope with the tsunami of 
violent and sexual media images through the V-chip, software filters 
and ratings.
    The Children's Television Act is particularly instructive. In that 
Act, we specifically limit the marketing practices of broadcasters on 
children's programming, right down to the number of minutes that a 
station can devote to marketing products on that programming. How is 
that ``constitutional?'' Because as the Committee stated at the time, 
even where commercial speech is entirely lawful and not misleading, 
children are a ``substantial government interest.'' As pointed out by 
Judge Starr in Action for Children's Television v. FCC (D.C. Cir. 
1987), young children often cannot distinguish conceptually between 
programming and advertising, and guidelines on the permissible level of 
commercialization is a recognition of the vulnerability of children to 
commercial exploitation.
    Unlike the Children's Television Act, where the images regulated 
were not violent, the FTC report deals with violent entertainment which 
has been correlated with psychological and, occasionally, physical harm 
when beamed into the brains of children in massive doses. The harm does 
not have to rise to the level of a Columbine massacre to justify 
concern. Any parent will tell you that efforts to raise a healthy child 
in America are hurt, not helped, by the flood of violent messages 
delivered routinely, daily, to America's children. It is beyond 
argument.
    It is also beyond argument that while violence in the media has 
been found to contribute to a climate that makes society less sensitive 
to real violence, it is never the sole nor even the most important 
contributing element to pathological acts that occur so frequently on 
America's streets. The fact that this Congress has failed to act on the 
gun show loophole, for example, is surely more directly related to the 
death toll from guns in America than any movie, or song, or video game 
ever written. And the fact is that real violence is so common today 
that it appears on the nightly news even in homes that use the V-chip.
    Does this mean that the entertainment industry should continue to 
market adult fare to children? Surely not, and the sooner the leaders 
of these great industries concede this obvious fact, the sooner we will 
remedy this problem.
    Thank you.

    The Chairman. Thank you, Congressman Markey. We look 
forward to continuing to work with you and appreciate all the 
great work you have done.
    Last but certainly not least, Senator Hagel.

                STATEMENT OF HON. CHUCK HAGEL, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you, and Committee 
Members, thank you for the opportunity to testify.
    Mr. Chairman, as has been noted this morning, the FTC was 
requested to conduct this investigation following the tragic 
killings last year at Columbine High School. Obviously, the 
concern over our children and the increasingly violent nature 
in their dealings with each other is the far larger issue that 
draws us here this morning.
    These issues are broad, deep, and very complicated. Are we 
creating a culture where children see violence as an acceptable 
option in dealing with others? Are our children becoming 
desensitized to violence?
    In seeking answers to these questions we should not look 
for the easy, glib, sound bite political answers. There are no 
easy answers.
    It is important that we bring some perspective to this 
matter, however, and not understate the fact that most all of 
America's young people turn out to be productive, responsible, 
contributing young adults.
    All of us in society have responsibility for our culture 
and the kind of culture our children are raised in and inherit. 
We all must do our part, parents, teachers, counselors, 
voluntary organizations, religious institutions, lawmakers, and 
yes, the entertainment industry.
    The entertainment industry cannot excuse its conduct by 
citing the constitutionally guaranteed freedoms of expression 
in the First Amendment. Yes, freedom of expression is part of 
the greatness and the goodness of America. It set our Nation 
apart at its founding, and has continued to represent the 
foundation of freedom throughout our history.
    But with freedom comes responsibility. Freedom of 
expression is not freedom from accountability. Each of us is 
accountable for our actions, our own actions, everything we say 
and do, and yes, we are also accountable for what we create.
    Some in the entertainment industry have been completely 
irresponsible for what they created, and for deliberately 
marketing this trash to our children, gratuitous violence, 
indiscriminate sex, glorification of killing, the debasement of 
virtue. What is instructive, meaningful, uplifting or, indeed, 
entertaining in this garbage?
    What message does this send not just to our children, but 
to the world? Young children and teens are impressionable, we 
know that. When they are repeatedly exposed to violence and to 
mean behavior they process it as acceptable behavior. Are we 
really surprised, then, to find that teens see violence in some 
cases, maybe many cases, an acceptable way to settle their 
differences with others? I do not think so. We are kidding 
ourselves.
    My children, like all children and adolescents, need 
boundaries. Every day, I see how they and their friends are 
exposed to things they are unprepared to deal with. They need 
positive role models from whom they can learn the difference 
between right and wrong. Children need to be grounded with a 
strong sense of right and wrong so that they will know what to 
do when parents are not around. We must help them build a 
strong foundation that will last a lifetime, but not all 
children are fortunate enough to grow up in homes with two 
parents who have the time and resources to help guide them 
through the dangerous influences in our society. These children 
are especially vulnerable. Children and adolescents who have 
dropped through the cracks of life through no fault of their 
own are the most susceptible to this mindless violence.
    Young people have always been intrigued by violence and 
sex. This is not new. Our culture was once served by an 
unwritten social code, Mr. Chairman. There is no one in this 
room who does not understand that, nor was raised by that 
unwritten social code, a public morality. Together we shielded 
our children from exposure to violence and graphic acts. That 
is how we protect children in a democracy, without resorting to 
Government interference or censorship. Today, much of that 
social code has been belittled and discarded, and the social 
fabric of our Nation is showing signs of serious fraying.
    It is not that children are sneaking in to see these 
movies, or stealing the music and computer games. The FTC has 
found that the entertainment industry is just deliberately 
marketing these products to young people, some as young as 10 
years old. At the same time, the industry pays lip service to 
ratings, labels, and parental warnings. It is deliberately 
marketing violence to our children at the same time.
    This must end, Mr. Chairman. I am not here today to 
advocate Government regulation of our entertainment industry. 
However, let me say this. The day is fast approaching when the 
American people may be willing to accept some restriction of 
freedom of expression in order to protect their children. The 
entertainment industry must understand that we are closer to 
that day than they may realize. America's parents will rise up 
to protect their children.
    Mr. Chairman, I look forward to hearing the testimony from 
representatives of the entertainment industry. I, too, share 
your dismay that the leaders of our movie industry are not here 
today. I applaud you and the Committee's efforts to bring them 
in here in 2 weeks. I hope that is done. I hope they will have 
some explanation.
    As I stated earlier, Mr. Chairman, the cultural problems 
affecting our children and our Nation are complex and we all 
are responsible, and we all must take part in changing it.
    Thank you.
    The Chairman. Thank you, Senator Hagel.
    We now will hear from Hon. Robert Pitofsky, who is the 
chairman of the Federal Trade Commission.
    And Mr. Pitofsky, as you probably know, there is a vote on, 
so the Members will be returning, but since we have two 
additional panels after you, or three additional panels, 
actually, we would like for you to begin your statement, and I 
thank you for being here. I congratulate you and the other 
members of the Commission for giving us a report that I think 
is very important to families all across America.
    Thank you.

            STATEMENT OF ROBERT PITOFSKY, CHAIRMAN, 
                    FEDERAL TRADE COMMISSION

    Mr. Pitofsky. It's a pleasure for me to appear here before 
you and this Committee, which has been so supportive of the 
work of the Commission over the years, and in particular, has 
had a keen interest in this particular project.
    As you know from our report, each of the three--movies, 
music and video games--industry segments target marketing to 
children of entertainment products with violent content that is 
pervasive and aggressive. Each industry publishes a rating 
warning, indicating material that isn't appropriate or 
warranting parental control, and then they market these very 
products to children.
    Of the movies we looked at, 80 percent were marketed to 
kids under 17; of the music recordings that we looked at, all 
of them were marketed to young people under 17. Of the 
electronic games we looked at, 70 percent were marketed to 
kids.
    I also am concerned as you are, Mr. Chairman, about some of 
these documents. Our report is essentially a summary of the 
documents that we received from the industry's own files, and 
some of the documents are very disturbing.
    You mentioned the one about movie marketers getting 
together and thinking through how they could market a sequel to 
a picture that had been R-rated, and they knew that a large 
part of the audience of the first movie had been 10-year-olds, 
and they've organized a focus group to think through--of 10- 
and 11-year-olds, to think through how they could market the R-
rated sequel.
    The Chairman. A focus group of 10- and 11-year-olds?
    Mr. Pitofsky. Exactly.
    The Chairman. Had you ever heard of such a thing?
    Mr. Pitofsky. I had not, and I confess I was very surprised 
to see that document.
    A second document had to do with video games. It referred 
to target marketing as males 17 to 34 due to the M rating, and 
then it went on to say, in parentheses, the true target market 
is males 12 to 34. Other documents talk about marketing these 
products to Boy Scout groups, Girl Scout groups, 4-H clubs, and 
other places where young people congregate. And they're not 
isolated statements.
    To the contrary, the extent and in some instances the 
brazenness of marketing to children reflected in these 
documents is striking, and obviously our concern is increased 
when we know that at the retail level, these young people can 
easily buy these products or gain access to these movies.
    We cannot help but be concerned about marketing products 
with violent material to young people. Scholars do indicate 
rather strongly that being exposed to violent material alone is 
not likely to lead someone to go out and commit a violent act.
    But we are mindful of the question that Sesella Bok raised 
in her book ``Mayhem.'' She was talking about television but I 
think it applies here, she asked: ``Is it alarmist or merely 
sensible to ask what happens to the souls of children nurtured 
as in no past society on images of rape, torture, bombings and 
massacre that are channeled into their homes from infancy?''
    Studies do indicate that this should be a matter of concern 
because there is a correlation, maybe not a causal connection 
but a correlation, between exposure to these materials and an 
insensitivity to violence, aggressive behavior and attitudes, 
and an exaggeration of the extent to which violence is present 
in our society.
    It seems to me unacceptable to continue a process in which 
advertisers and marketers seek new and more efficient ways to 
market materials they and their industry regard as violent to 
an underage audience. These practices undermine the parental 
warnings and bring into question the fundamental credibility of 
the rating and labeling system.
    The question that needs to be addressed is: What is to be 
done? The Commission report stresses that policy decisions must 
be carefully considered to avoid regulating in a way that is 
inconsistent with First Amendment protections for speech. 
That's why we have emphasized from the very beginning of our 
project a preference for self-regulation and indicated a 
willingness to work with these industry sectors to try to 
improve their self-regulatory processes.
    We've been encouraged by constructive things that have 
happened since this project was announced over a year ago. As 
several have mentioned, the Walt Disney Company announced new 
policies yesterday that appear to be constructive steps in the 
right direction.
    I believe these industries should be given a reasonable 
period of time to consider whether they are ready to commit to 
effective self-regulation. Industry codes that are not worth 
the paper they are written on will not be acceptable. Also, 
self-regulatory arrangements must extend not just to the 
creators of these products but to the retailers and 
distributors as well.
    If self-regulation does not provide an adequate answer--and 
I heard with dismay Senator Hollings' description of the 
history in this area, much of which I was not aware of myself--
if it doesn't work, I see no choice but to explore law 
enforcement under present statutes, like the statute of my own 
agency that declares illegal deceptive and unfair acts and 
practices in Commerce.
    Now a legal challenge under our statute would be a 
departure from the sort of things that we typically do. On the 
other hand, I'm not sure we can't do it, and I have asked our 
staff promptly to give us a report on the pros and cons of such 
an approach.
    The Chairman. We'd be very interested if you would share 
that with us at the appropriate time.
    Mr. Pitofsky. We certainly will, Senator.
    If it turns out self-regulation doesn't solve the problem 
and current law is inadequate, legislation, respectful of the 
First Amendment, should be considered.
    By adopting rating codes, these----
    The Chairman. Very strong words.
    Mr. Pitofsky. Well, I've thought about it for a long time. 
I hope we don't go to that. I think it would serve everyone's 
interest if the industry will come to the table and devise 
adequate self-regulation. If they don't----
    The Chairman. Is it indicative that the movie industry 
people decided not even to show up here?
    Mr. Pitofsky. It is certainly disappointing that they're 
not here, and I commend you and the Committee for setting up a 
hearing two weeks from now.
    The Chairman. Thank you, Chairman Pitofsky. I don't mean to 
interrupt, but your statement today is a very important one 
because your report is so compelling, your recommendations are 
equally as compelling.
    Please continue.
    Mr. Pitofsky. Thank you, Senator.
    Well, just very briefly, by adopting rating codes, these 
three industries recognize their responsibility to give parents 
the information they need to monitor children's exposure to 
violent entertainment materials. The challenge now is to make 
that rating process effective.
    Thank you.
    [The prepared statement of Mr. Pitofsky follows:]

    Prepared Statement of Robert Pitofsky, Chairman, Federal Trade 
                               Commission
I. Introduction
    Mr. Chairman, I am Robert Pitofsky, Chairman of the Federal Trade 
Commission. I appreciate this opportunity to discuss the Commission's 
report on the marketing of violent entertainment products to children 
by the motion picture, music recording and electronic games industries. 
\1\ The report answers two questions raised by President Clinton when 
he requested this study: Do the motion picture, music recording and 
electronic game industries promote products they themselves acknowledge 
warrant parental caution in venues where children make up a substantial 
percentage of the audience? And, are these advertisements intended to 
attract children and teenagers? After a comprehensive 15-month study, 
the Commission has found that the answers to both questions are plainly 
``yes.''
---------------------------------------------------------------------------
    \1\ The Commission vote to issue this testimony was 5-0. My oral 
testimony and any responses to questions you may have reflect my own 
views and are not necessarily those of the Commission or any other 
Commissioner.
---------------------------------------------------------------------------
    Although all three industries studied have self-regulatory systems 
that purport to rate or label their products to help parents make 
choices about their children's entertainment, the Commission found that 
members of all three industries routinely target advertising and 
marketing for violent entertainment products directly to children. The 
Commission believes that these advertising and marketing efforts 
undermine each industry's parental advisories and frustrate parents' 
attempts to protect their children from inappropriate material.
II. Background
    The FTC is the federal government's primary consumer protection 
agency. Congress has directed the FTC, under the FTC Act, to take 
action against ``unfair or deceptive acts or practices'' in almost all 
sectors of the economy and to promote vigorous competition in the 
marketplace. \2\ With the exception of certain industries and 
activities, the FTC Act provides the Commission with broad 
investigative and law enforcement authority over entities engaged in or 
whose business affects commerce. \3\ The FTC Act also authorizes the 
Commission to conduct studies and collect information, and, in the 
public interest, to publish reports on the information it obtains. \4\
---------------------------------------------------------------------------
    \2\ 15 U.S.C. Sec. 45(a).
    \3\  The Commission also has responsibility under 46 additional 
statutes governing specific industries and practices. These include, 
for example, the Truth in Lending Act, 15 U.S.C. Sec. Sec. 1601 et 
seq., which mandates disclosures of credit terms, and the Fair Credit 
Billing Act, 15 U.S.C. Sec. Sec. 1666 et seq., which provides for the 
correction of billing errors on credit accounts. The Commission also 
enforces over 30 rules governing specific industries and practices, 
e.g., the Used Car Rule, 16 C.F.R. Part 455, which requires used car 
dealers to disclose warranty terms via a window sticker; the Franchise 
Rule, 16 C.F.R. Part 436, which requires the provision of information 
to prospective franchisees; the Telemarketing Sales Rule, 16 C.F.R. 
Part 310, which defines and prohibits deceptive telemarketing practices 
and other abusive telemarketing practices; and the Children's Online 
Privacy Protection Rule, 16 C.F.R. Part 312.
    The Commission does not, however, have criminal law enforcement 
authority. Further, under the FTCA, certain entities, such as banks, 
savings and loan associations, and common carriers, as well as the 
business of insurance, are wholly or partially exempt from Commission 
jurisdiction. See Section 5(a)(2) and (6)a of the FTC Act, 15 U.S.C. 
Sec. 45(a)(2) and 46(a). See also The McCarran-Ferguson Act, 15 U.S.C. 
Sec. 1012(b).
    \4\ 15 U.S.C. Sec. Sec. 46(b) and (f). Section 46(f) of the FTC Act 
provides that ``the Commission shall also have the power . . . to make 
public from time to time such portions of the information obtained by 
it hereunder as are in the public interest; and to make annual and 
special reports to Congress. . . .''
---------------------------------------------------------------------------
    On June 1, 1999, following the horrifying school shooting in 
Littleton, Colorado, the President requested that the Federal Trade 
Commission and the Department of Justice conduct a study of whether 
violent entertainment material was being advertised and promoted to 
children and teenagers. \5\ President Clinton's request paralleled 
congressional proposals for such a study. \6\ Revelations that the 
teen-aged shooters at Columbine High School in Littleton had been 
infatuated with extremely violent movies, music, and video games 
reinvigorated public debate about the effects of violent entertainment 
media on youth. While opinions vary, many studies have led experts and 
public health organizations to believe that viewing entertainment media 
violence can lead to increases in aggressive attitudes and behavior in 
children. Although scholars and observers generally have agreed that 
exposure to violence in entertainment media alone does not cause a 
child to commit a violent act, there is widespread agreement that it 
is, nonetheless, a cause for concern.
---------------------------------------------------------------------------
    \5\ See Letter from William J. Clinton, President of the United 
States, to Janet Reno, Attorney General of the United States, and 
Robert Pitofsky, Chairman, Federal Trade Commission (June 1, 1999) (on 
file with the Commission).
    \6\ Legislation calling for the FTC and the Justice Department to 
conduct such a study was introduced in both houses of Congress 
following the Columbine incident. See Amendment No. 329 by Senator 
Brownback et al. to the Violent and Repeat Juvenile Offender 
Accountability and Rehabilitation Act of 1999, S. 254, 106th Cong. 
Sec. 511 (1999); H.R. 2157, 106th Cong. (1999); 145 Cong. Rec. S5171 
(1999). In May 1999, the U.S. Senate Committee on Commerce, Science, 
and Transportation conducted hearings on the marketing of violent 
entertainment media to children. See Marketing Violence to Children: 
Hearing Before the Senate Comm. on Commerce, Science, and Transp., 
106th Cong. (1999), www.senate.gov/commerce/hearings/hearin99.htm 
(visited July 30, 2000). Based on those hearings, in September 1999, 
the Majority Staff of the Senate Committee on the Judiciary issued a 
Committee report on this issue. See Majority Staff of the Senate Comm. 
on the Judiciary, 106th Cong., Report on Children, Violence, and the 
Media: A Report for Parents and Policy Makers (Comm. Print. 1999), 
www.senate.gov/judiciary/mediavio.htm (visited July 31, 2000).
---------------------------------------------------------------------------
III. The Commission's Study
A. Scope of the Study
    In response to the President's request, the Commission, with 
financial assistance from the Justice Department, collected information 
from the motion picture, music recording, and electronic game 
industries regarding their self-regulatory systems and marketing 
practices. \7\ The Commission requested information from the principal 
industry trade associations, as well as the major motion picture 
studios, the music recording companies, and electronic game companies. 
\8\ In addition, the Commission contacted interested government 
agencies, medical associations, academics, and parent and consumer 
advocacy groups. \9\ We reviewed a substantial amount of information 
collected from consumers through various surveys and polls, and also 
designed and conducted our own surveys for this study. \10\ 
Specifically, we conducted a survey of parents and children regarding 
their understanding and use of the rating and labeling systems, and how 
they made purchase decisions for these entertainment products. \11\ We 
also conducted an undercover survey of retail stores and movie theaters 
to see if unaccompanied children under 17 could purchase or gain access 
to products labeled as inappropriate or warranting parental guidance. 
\12\ Finally, we reviewed Internet sites to study how they are used to 
market and directly access these products.
---------------------------------------------------------------------------
    \7\ The Justice Department provided the FTC with substantial 
funding and technical assistance to enable the FTC to collect and 
analyze public and non-public information about the industries' 
advertising and marketing policies and procedures, and to prepare this 
written report and appendices. The analysis and conclusions contained 
in the Report are those of the FTC.
    \8\ The Commission received information from about 50 individual 
companies, as well as the Motion Picture Association of America (MPAA), 
the National Association of Theatre Owners (NATO), the Recording 
Industry Association of America (RIAA), the National Association of 
Recording Merchandisers (NARM), the Entertainment Software Rating Board 
(ESRB), the Video Software Dealers Association (VSDA), the Interactive 
Digital Software Association (IDSA), the Internet Content Rating 
Association (ICRA), the Software and Information Industry Association 
(SIIA), the Interactive Entertainment Merchants Association (IEMA), and 
the American Amusement Machine Association (AAMA).
    \9\ In addition to industry sources, the Commission received 
information from a wide range of consumer, medical, and advocacy 
organizations. The American Academy of Pediatrics, American 
Psychological Association, Center on Media Education, Center on Media 
and Public Affairs, Children Now, Commercial Alert, Lion and Lamb 
Project, Mediascope, National Institute on Media and the Family, 
National PTA, and Parents' Music Resource Center were among the 
organizations that provided information to the Commission.
    \10\ See Appendix E (Entertainment Industry Information Requests) 
of the Commission's report.
    \11\ See Appendix F (Mystery Shopper Survey and Parent-Child 
Survey) of the Commission's Report.
    \12\ Id.
---------------------------------------------------------------------------
B. The Entertainment Media Industry Self-Regulatory Systems
    The entertainment industries have recognized the public's concern 
about children's exposure to violent entertainment and have taken steps 
to alert parents to violent or explicit content through self-regulatory 
product rating or labeling programs. Each of these programs addresses 
violence, as well as sexual content, language, drug use and other 
content that may be of concern to parents.
    The motion picture industry uses a rating board to rate virtually 
all movies released in the United States, requires the age-related 
rating to appear in advertising, and makes some effort to review ads 
foR-rated movies to ensure that their content is suitable for general 
audiences. The music recording industry recommends the use of a general 
parental advisory label on music with ``explicit content.'' The 
decision to place a parental advisory label on a recording is made by 
the artist and the music publishing company and involves no independent 
third-party review; nor does the industry provide for any review of 
marketing and advertising. In late August 2000, the recording industry 
trade association issued a recommendation that recording companies not 
advertise explicit-content labeled recordings in media outlets with a 
majority under-17 audience. The electronic game industry requires games 
to be labeled with age- and content-based rating information and 
requires that the rating information appear in advertising. It also is 
the only industry that has adopted a rule prohibiting its marketers 
from targeting advertising for games to children below the age 
designations indicated by the rating.
IV. The Commission's Findings
    The Commission carefully examined the structure of these rating and 
labeling systems, and studied how these self-regulatory systems work in 
practice. We focused on the marketing of products designated as violent 
under these systems. We did not examine the content itself, but 
accepted each industry's determination of whether a particular product 
contains violent content.
    The Commission found that despite the variations in the three 
industries' systems, the outcome is consistent: individual companies in 
each industry routinely market to children the very products that have 
industries' self-imposed parental warnings or ratings with age 
restrictions due to violent content. Indeed, for many of these 
products, the Commission found evidence of marketing and media plans 
that expressly target children under 17. In addition, the companies' 
marketing and media plans showed strategies to promote and advertise 
their products in the media outlets most likely to reach children under 
17, including those television programs ranked as the ``most popular'' 
with the under-17 age group, such as Xena: Warrior Princess, South Park 
and Buffy the Vampire Slayer; magazines and Internet sites with a 
majority or substantial (i.e., over 35 percent) under-17 audience, such 
as Game Pro, Seventeen and Right On!, as well as mtv.com, ubl.com and 
happypuppy.com; and teen hangouts, such as game rooms, pizza parlors 
and sporting apparel stores.
    Movies. Of the 44 movies rated R for violence the Commission 
selected for its study, the Commission found that 35, or 80 percent, 
were targeted to children under 17. Marketing plans for 28 of those 44, 
or 64 percent, contained express statements that the film's target 
audience included children under 17. For example, one plan for a 
violent R-rated film stated, ``Our goal was to find the elusive teen 
target audience and make sure everyone between the ages of 12-18 was 
exposed to the film.'' Though the marketing plans for the remaining 
seven R-rated films did not expressly identify an under-17 target 
audience, they led the Commission to conclude that children under-17 
were targeted nonetheless. That is, the plans were either extremely 
similar to the plans of the films that did identify an under-17 target 
audience, or they detailed actions synonymous with targeting that age 
group, such as promoting the film in high schools or in publications 
with majority under-17 audiences.
    Music. Of the 55 music recordings with explicit content labels the 
Commission selected for its study, marketing plans for 15, or 27 
percent, expressly identified teenagers as part of their target 
audience. One such plan, for instance, stated that its ``Target 
audience'' was ``Alternative/urban, rock, pop, hardcore--12-34.'' The 
marketing documents for the remaining 40 explicit-content labeled 
recordings examined did not expressly state the age of the target 
audience, but they detailed the same methods of marketing as the plans 
that specifically identified teens as part of their target audience, 
including placing advertising in media that would reach a majority or 
substantial percentage of children under 17.
    Games. Of the 118 electronic games with a Mature rating for 
violence the Commission selected for its study, 83, or 70 percent, 
targeted children under 17. The marketing plans for 60 of these, or 51 
percent, expressly included children under 17 in their target audience. 
For example, one plan for a game rated Mature for its violent content 
described its ``target audience'' as ``Males 12-17--Primary Males 18-
34--Secondary.'' Another plan referred to the target market as ``Males 
17-34 due to M rating (the true target is males 12-34).'' Documents for 
the remaining 23 games showed plans to advertise in magazines or on 
television shows with a majority or substantial under-17 audience. Most 
of the plans that targeted an under-17 audience set age 12 as the 
younger end of the spectrum, but a few plans for violent Mature-rated 
games targeted children as young as six.
    Further, most retailers make little effort to restrict children's 
access to violent products. Surveys conducted for the Commission in May 
through July 2000 found that just over half the movie theaters admitted 
children ages 13 to 16 to R-rated films even when not accompanied by an 
adult. The Commission's surveys of young people indicate that, even 
when theaters refuse to sell tickets to unaccompanied children, they 
have various strategies to see R-rated movies. The Commission's surveys 
also showed that unaccompanied children ages 13 to 16 were able to buy 
both explicit content recordings and Mature-rated electronic games 85 
percent of the time.
    Although consumer surveys show that parents value the existing 
rating and labeling systems, they also show that parents' use and 
understanding of the systems vary. The surveys also consistently reveal 
high levels of parental concern about violence in the movies, music and 
video games their children see, listen to and play. These concerns can 
only be heightened by the extraordinary degree to which young people 
today are immersed in entertainment media, as well as by recent 
technological advances such as realistic and interactive video games. 
The survey responses indicate that parents want and welcome help in 
identifying which entertainment products might not be suitable for 
their children.
V. Conclusions
    Since the President requested this study over a year ago, each of 
the industries reviewed has taken positive steps to address these 
concerns. Nevertheless, the Commission believes that all three 
industries should take additional action to enhance their self-
regulatory efforts. \13\ The industries should:
---------------------------------------------------------------------------
    \13\ The Commission's support for enhanced industry self-regulation 
in the advertising context is motivated in part by our strong belief in 
the benefits of self-regulation, and in part by our concern that 
government regulation of advertising and marketing--especially if it 
involves content-based restrictions--may raise First Amendment issues. 
The First Amendment issues that have been raised in the context of 
restricting or limiting advertisements for media products are 
identified in Appendix C of the Commission's Report (First Amendment 
Issues in Public Debate Over Governmental Regulation of Entertainment 
Media Products with Violent Content).

    1.L Establish or expand codes that prohibit target marketing to 
children and impose sanctions for noncompliance. All three industries 
should improve the usefulness of their ratings and labels by 
establishing codes that prohibit marketing R-rated/M-rated/explicit-
labeled products in media or venues with a substantial under-17 
audience. In addition, the Commission suggests that each industry's 
trade associations monitor and encourage their members' compliance with 
---------------------------------------------------------------------------
these policies and impose meaningful sanctions for non-compliance.

    2.L Increase compliance at the retail level. Restricting children's 
retail access to entertainment containing violent content is an 
essential complement to restricting the placement of advertising. This 
can be done by checking identification or requiring parental permission 
before selling tickets to R movies, and by not selling or renting 
products labeled ``Explicit'' oR-rated R or M, to children.

    3.L Increase parental understanding of the ratings and labels. For 
parents to make informed choices about their children's entertainment, 
they must understand the ratings and the labels, as well as the reasons 
for them. That means the industries should all include the reasons for 
the rating or the label in advertising and product packaging and 
continue their efforts to educate parents--and children--about the 
meanings of the ratings and descriptors. Industry should also take 
steps to better educate parents about the ratings and labels.

    The Commission emphasizes that its review and publication of its 
Report, and its proposals to improve self-regulation, are not designed 
to regulate or even influence the content of movies, music lyrics or 
electronic games. The First Amendment generally requires that creative 
decisions about content be left to artists and their distributors. 
Rather, the Commission believes the industries can do a better job of 
helping parents choose appropriate entertainment for their children by 
providing clear and conspicuous notification of violent content. 
Industry self-regulation also should support parents' decisions by 
prohibiting the direct sale and marketing to children of products 
labeled as inappropriate or warranting parental guidance due to their 
violent content.
    Implementation of the specific suggestions outlined above would 
significantly improve the present self-regulatory regimes. The Report 
demonstrates, however, that mere publication of codes is not 
sufficient. Self-regulatory programs can work only if the concerned 
industry associations actively monitor compliance and ensure that 
violations have consequences. The Commission believes that continuous 
public oversight is also required and that Congress should continue to 
monitor the progress of self-regulation in this area.

    The Chairman. Thank you, Chairman Pitofsky.
    I want to say again that your Commission is highly regarded 
both in and out of Congress, and your report is a very 
important one, in a way courageous. So I thank you again, and 
obviously, we are going to want to work as closely together as 
possible.
    I share your reluctance to enact legislation, but I also 
share--I think I share--your view that unless there is some 
response, then Congress representing American families would 
have to examine every option.
    Many analogies have been made between the tobacco 
companies' advertising to kids and entertainment industry 
practices. Obviously, there's a huge difference in the product. 
The distinct health impact of smoking is clearly more 
significant, at least as far as physical health is concerned.
    Are the actual advertising practices employed by the 
entertainment industries to target children similar to those 
used by the tobacco industry?
    Mr. Pitofsky. It's an interesting analogy. There are some 
things that are the same and some that are different.
    You mentioned, one, the harm from smoking is more 
documented. Also, selling tobacco to kids is illegal, selling 
violent movies and rap lyrics to kids is not illegal. Finally, 
there is the First Amendment. There is no First Amendment 
protection to manufacture a cigarette. But there is----
    The Chairman. Frankly, I never heard of Joe Camel or the 
tobacco companies doing focus groups of 10- and 11-year-olds.
    Mr. Pitofsky. I did not either, and we looked at many 
tobacco industry documents as well.
    In that sense, and I think that's what you're driving at, 
there is a similarity. In some tobacco marketing and certainly 
in marketing these materials, there appears to be a seeking out 
of an audience that's inappropriate because of their age.
    The Chairman. I believe we'll hear later from the movie 
industry's lobbyist, Mr. Valenti, that not all ``R''s are 
really ``R''s. More specifically, and I quote from Mr. 
Valenti's written testimony: ``Some R-rated are hard ``R''s and 
others are soft ``R''s.''
    I have here a copy of the MPAA rating system. I don't see a 
hard R or soft R rating system. Would you comment on this 
rationale for marketing R-rated films to children and how this 
distinction without a difference might prove confusing to 
parents?
    Mr. Pitofsky. I don't think that--I'm not sure that comment 
was made as a justification rather than elaboration of the 
rating system. But the point is, when the industry calls it 
``R'' they're saying something about their own product.
    When they then go around their own rating system and end 
run it, essentially deny their own rating system and market to 
such young kids, I don't see how one can defend the marketing.
    It's not the rating system. Our report points out that most 
people think the rating systems are fairly good. It's not the 
rating system, it's the marketing that is a matter of concern.
    The Chairman. Finally, and I think I get the impression 
from your testimony that the advertising practices outlined in 
your report are deceptive or unfair?
    Mr. Pitofsky. I'm not sure about that. I'd like a little 
time to think that one through.
    Let me make one point about all of this. If we were to 
bring a case calling their marketing practices deceptive or 
unfair, given the fact that it's somewhat unprecedented, and 
there's this First Amendment background here, we'd be in the 
courts for several years.
    That's one of the reasons why I think self-regulation is 
the way to go. We're not going to sit around forever and wait 
for self-regulation, but given a period of time let's see if we 
can find some progress there. If we don't, then I think we 
ought to go to law enforcement and possibly legislation.
    The Chairman. I thank you, Chairman Pitofsky, and the other 
members of the Commission for doing an outstanding job.
    Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    I, too, want to thank you, Chairman Pitofsky, for the work 
that you've done and the work that's been done by the 
Commission. I think it's outstanding and I think it's a 
testament that so many people are interested in this hearing 
and this focus that's here today.
    I do want to draw your attention to one thing: We will have 
up after you the public health industry, that is 
representatives from places like the American Academy of 
Pediatricians and the Psychiatric Association. They have all 
signed a document, and there is a page in that document that I 
believe you and your staff have seen, which points to well over 
a thousand studies that point overwhelmingly to a ``causal 
connection between media violence and aggressive behavior in 
some children.'' I'm reading directly from the statement that 
they signed.
    ``The conclusion of the public health community, based on 
over 30 years research, is that viewing entertainment violence 
can lead to increases in aggressive attitudes, values and 
behaviors, particularly in children.'' That's the end of quote 
of what six major public health organizations agreed on, so 
it's no longer a correlation issue. There's causation.
    One of the groups that was at this public health summit 
went so far as to say that the causation link is even higher 
than that between the exposure to lead and lowering IQ, and the 
exposure to passive smoke and lung cancer.
    So these groups don't have any question about a causation 
link taking place between viewing violence and behavior.
    Today though, I have the chance to talk to you. You've 
heard some discussion here today about a code of conduct for 
each of these industry groups, in the video games, music, and 
movie industry.
    You, the Commission, would support the industries, of 
course, entering into a voluntary code of conduct and would 
even urge them to do so. Is that correct?
    Mr. Pitofsky. Yes.
    Senator Brownback. What about the concept that they used to 
have in television--a code of conduct where they set a floor 
below which they won't go. Do you think that would be helpful 
to the industry and to the American people?
    Mr. Pitofsky. I think a self-regulatory code by these three 
industries, perhaps one that was similar, so parents are not 
confused about what the different ratings mean, would be very 
useful.
    Senator Brownback. Did your study look much at the issue of 
cross-marketing of products? In the many hearings I've been a 
part of on this, one of the things that's continued to come up 
is an R-rated movie that then follows with a toy action figure 
for a 5-year-old. Did you look at the issues of cross 
marketing?
    Mr. Pitofsky. We did. We did. It's not a major element of 
our report, but we just sort of came across it because we were 
looking at marketing generally. And certainly in the video 
games industries in particular, you'll find a video game that's 
rated for a mature audience, but the characters in the game are 
then converted into a toy, and those are sold quite widely. I 
think I saw a document that indicated these toys are 
appropriate for sale to children 6 years old, something like 
that.
    Senator Brownback. In fact, I even have an example here of 
ECW Hard Core Revelation. It's a mature-rated game. So that's 
supposed to be for people over the age of 18, as I understand, 
and then here is the cross-marketed toy, ECW Extreme 
Championship Wrestling. He's got a noose around his neck. No 
limit soldiers. And it says for ages 4 and up.
    On the back, then, you have the ultimate ring in cage with 
two breakaway tables and ladder, steel cage wrestling ring gift 
set; collect them all.
    It does have one warning label on here, ``Small Parts. Not 
for children under age 3.'' So I guess there is some warning on 
this.
    But these are the sort of things that seem to illustrate 
cases of clear cross marketing, where they're going for a very 
young audience with this, using this as the driver that's 
supposed to be for an age 18 audience.
    Did you look at these, and what were your conclusions in 
cross marketing?
    Mr. Pitofsky. We saw it, and we thought it was an example 
of going around their own label and marketing to a young 
audience. I can't say we found a great deal of that, but we saw 
some of it, and I think we saw, actually, the illustration that 
you're using. And it's mentioned in our report.
    Senator Brownback. Good. Have you had a preliminary review 
by your lawyers of the possibilities of success in bringing the 
actions under false and deceptive advertising that's been 
spoken of this morning?
    Mr. Pitofsky. I just put the question to them about 3 or 4 
days ago, so it's too early for me, yes, but they are working 
on this, and I do want to get back to the Committee with our 
conclusions on whether we have the authority now.
    Senator Brownback. I, just in conclusion, again want to 
state my appreciation for your good, clear work on this topic.
    Mr. Chairman, I am one that does not want to rush to 
legislate on this topic. I've been pushing on this for some 
period of time and have always felt the best way for us to go 
at this is to shine light on what's taking place. I think we're 
getting a lot of that here today.
    I would hope that the industry would step up. One of the 
things----
    The Chairman. They haven't even bothered to appear.
    Senator Brownback. Well, that's one of the points I wanted 
to make, is one of the things I would point out is that the 
industry has not even bothered to appear, not only at this 
hearing, Mr. Chairman, but at the prior 3 years of hearings 
that we've had.
    And the second point is, in any of the proposals that have 
been put forward, nobody is saying, we ought to just stop doing 
this. It's all just a, ``Well, okay, we'll change our target; 
we won't advertise in publications where 50 percent of the 
audience is teenagers.''
    What about just saying, you know, ``some of this stuff is 
just bad. We don't have to make this much more money this 
badly, we're just not going to do it.''
    Have you heard of any of the companies saying, ``We just 
don't need to do this, and we're going to stop''?
    Mr. Pitofsky. Just not do the marketing or just not create 
the materials?
    Senator Brownback. Just not produce the product that is 
hyperviolent, sexualized violence, doing that themselves?
    Mr. Pitofsky. No, I haven't, and I think that it's a tricky 
road to go down. The companies could, of course, on a voluntary 
basis.
    Senator Brownback. That's what I'm speaking of, on a 
voluntary basis.
    Mr. Pitofsky. Yes. I haven't heard much of that. And, of 
course, I think we all agree that it would be very tricky to 
have the government defining gratuitous violence. That's 
something we want to stay away from. We want to solve this 
problem but not in that way.
    Senator Brownback. Mr. Chairman, thank you, and thank you, 
Mr. Pitofsky.
    Mr. Pitofsky. Senator, I should have said, if I may; 
Senator, you were one of the very first people that called my 
attention to this set of issues, and you've been a most 
constant supporter of this project, and I want to thank you and 
acknowledge your support.
    Senator Brownback. Thank you.
    The Chairman. As do all of us.
    We thank you, Chairman Pitofsky, and we look forward to 
seeing you again. We may call you back in a couple of weeks, 
but I hope we don't have to do that. Again, I want to thank you 
and the Commission, and we look forward to, I think this is the 
beginning rather than the end of this very difficult issue. 
Thank you.
    Mr. Pitofsky. Thank you.
    The Chairman. We now are privileged to have before the 
Committee Ms. Lynne Cheney, who's the former chairman of the 
National Endowment for Humanities.
    Some of the members are over voting, but we thought we 
would not want to impose on your time anymore and ask you to 
give your testimony. You come before the Committee not only as 
a person of sterling reputation and advocate for families all 
over America, but your previous position as chairman of the 
National Endowment for the Humanities clearly qualifies you to 
address the Committee today, and we are pleased to have you 
here.
    Please proceed.

          STATEMENT OF LYNNE CHENEY, FORMER CHAIRMAN, 
             NATIONAL ENDOWMENT FOR THE HUMANITIES

    Ms. Cheney. Thank you very much for asking me to be here, 
Mr. Chairman. I appreciate the opportunity to address this 
important issue.
    I thought I might begin today with a description. It's one 
that I owe to my good friend, Peggy Noonan. She suggests that 
we think of our children as intelligent fish swimming in a deep 
ocean. And she imagines that the TV and the video games and 
movies and recordings, she imagines them as waves that 
penetrate through the water and penetrate through our children.
    ``They go through our children again and again,'' she 
writes, ``from this direction and that. And, increasingly,'' 
she notes, ``these waves are more and more about sex and 
violence.'' She writes, ``We forget, those of us who are middle 
aged, that we grew up in a time of saner images and sounds. For 
instance, the culture of crime only begin to explode in the 
1960s. We have lived in it for 30 years, and most of us turned 
out okay, so we think our children will be all right, too. But 
they never had a normal culture against to which to balance the 
newer, sicker one. They had no reference points to the old 
boring normality. We assume they know what we know. This is not 
right. We know that. But why would they know that. The water in 
which they swim is the only water that they have ever known.''
    Well, I wanted to read that because I think it's important 
that, shocked as we all are by this FTC report, shocked as we 
all are that the entertainment industry would market to 
children items, products that they know to be inappropriate for 
children, they would market them to children, I think we are 
all so shocked at that, and I want to join in the chorus of 
outrage.
    But I think our shock at that, our shock at the way they 
market their products, shouldn't let us forget, shouldn't 
distract us from our shock at the products they market. There 
is a problem with the products they market no matter how they 
market them. It's shameful they're doing it to children, but 
let's just remember what they're marketing.
    I would like to say at the outset that I would join with 
all of those who say that any legislation is on this issue is 
fraught with peril. I have been a First Amendment advocate for 
my entire life, and I worry very much about policymakers 
legislating or regulating in a way that might threaten the 
First Amendment.
    What seems to me the proper stance here is for outraged 
citizens, policymakers included, of course, to take it as a 
duty to speak out about, to hold people who produce these 
outrageous products, to hold these people responsible for them, 
to shame them. And there's a model for this.
    Bill Bennett and Joe Lieberman a few years ago began 
distributing the ``Silver Sewer Award'' to particular 
outrageous, particularly culpable people in the industry who 
had produced particularly harmful products.
    I take that as a model. We need to be specific. My point is 
is we don't want to have blanket enunciations. They do us no 
good. Several people, I have observed here earlier today, have 
said we've been here before; we've been here before. Blanket 
enunciations do not make much progress. Let's be specific.
    And so that's what I'm here today to do, is to talk about 
how we might do it and to offer myself as an example.
    I have lately been very disturbed by the lyrics of the rap 
singer Eminem. They were displayed in this room earlier, or at 
least a part of them were. They could not be more despicable. 
They could not be more hateful in their attitudes towards women 
in particular. There are many groups that Eminem is quite 
despicable toward. But he is a violent misogynist. He advocates 
raping and murdering his mother in one of his songs. He glories 
in the same song the idea that he might murder any woman he 
comes across.
    He talks about how he will choke the women he murders 
slowly so that their screams will last for a long time.
    He talks about the painting the forest bright red, or maybe 
it's orange, I can't remember, with their blood. It is 
despicable. It is awful.
    The Chairman. Have you put yourself through the torture of 
listening to this?
    Ms. Cheney. I actually listened to it. And I will give 
Eminem this credit: You can understand every word he says. Many 
rock singers and rappers you can't understand. This is 
absolutely clear. I have lyrics from this song, which is 
called, ``Kill You,'' that I will be distributing today.
    This is dreadful, this is shameful, this is awful. So what 
to do?
    I decided that since the lyrics were so hateful to women 
what I would do is write the two women members of the Board of 
Seagram. Seagram owns Interscope, Interscope distributes and 
produces Eminem's records. So I've written to these two women. 
One is Marie-Josee Kravis, the other is Michele Hooper. And 
I've written them letters, which I will also distribute today. 
They should have received their letters yesterday, asking them 
to take up with their Board members such questions as: How can 
you reconcile corporate responsibility with such social 
irresponsibility?
    I serve on corporate boards myself, and I completely 
understand the duty that corporate directors have to 
shareholders. But aren't many of the shareholders of Seagram 
women? Is it to their benefit to distribute lyrics, to put out 
lyrics under this record label that degrade, demean women, and 
I think invite violence toward them?
    Aren't many of their shareholders parents? Don't these 
parents shudder at what Interscope and Seagram are doing to 
their children's culture, to the culture that their children 
are growing up in?
    So that's a small step I've taken, and I've encouraged 
these two women to contact me at any time, I would be happy to 
enter into a dialogue with them.
    A few years ago I wrote about another example of the 
entertainment industry's irresponsibility. I don't follow the 
entertainment industry closely in all its aspects, but every 
once in a while something like Eminem pops up. Eminem received 
three awards from the entertainment industry last week, 
including Best Male Performer at the MTV awards.
    Can you imagine that the entire industry honors this man 
whose work is so hateful?
    Well, as I say, every once in a while something pops up and 
compels my interest. A few years ago it was a film, a movie, 
called ``Kids''--I think I'm supposed to call them ``films'' 
but this is no more than a ``movie''--a movie called ``Kids'' 
that depicted very young teenagers, 13 and 14, having explicit 
sex. One of them was HIV Positive, and he had sex with as many 
of his friends, also 13- and 14-year-old girls, as he could.
    These youngsters smoked dope. They attacked strangers, and 
the whole film was presented as this is the way kids behave, of 
course this is the way kids behave. I have no doubt that many 
kids saw this film and got the idea that, well, this is the way 
kids behave, even though it did have an NC-17 rating, because 
it's very easy for kids to see a film like this.
    But even if they didn't, what is the entertainment industry 
doing to our children when they create a culture in which 
children are viewed this way? When they make it seem as though 
early adolescents are sexual objects, that early adolescents 
should be expected to take drugs and have sex and attack 
strangers?
    Well, so what to do about this film? I wrote about it in 
detail. This film was produced by Miramax. Senator Boxer made a 
good point earlier when she pointed out that there's usually a 
mixed bag here. Miramax also does some fine things. It produced 
``Shakespeare in Love.''
    Seagram has done some fine things. One of Seagram's 
artists, one of their recordings' artists is Luciano Pavarotti.
    But when these corporations do things that are so shameful 
as produce and distribute Eminem, a singer whose lyrics we 
looked at earlier, or a movie like ``Kids,'' shouldn't people 
of stature hold them to account? Shouldn't people of stature go 
to Harvey Weinstein, who is the co-Chairman of Miramax, for 
example, and ask him to pledge in the future he will not fund 
works that debase our culture and corrode our children's souls.
    I notice that two people of stature, Vice President Gore 
and Senator Lieberman, are attending a fund-raising 
extravaganza that Mr. Weinstein is holding on Thursday, and I 
would ask them, please, to deliver this message.
    There are many recommendations that can be made 
specifically about the report before us, and I certainly think 
it is important, since I've focused on the recording industry, 
that they have labels that actually mean something. A parental 
advisory label is not a very clear indication to parents of 
what the problem with the recording might be.
    Unless there is some age specificity, retailers have no way 
of knowing who should buy the product and who should not.
    Let me also recommend that the lyrics of any recording 
product that is deemed unsuitable for children be published and 
enclosed with the CD, for example.
    As I've said, one thing to Eminem's credit is you can 
understand him, but many of the rockers and rappers you have to 
listen repeatedly, as kids do. And I will tell you, the kids 
know what these people are saying. It requires repeated 
listening to understand.
    So I would also suggest that as one specific action that 
the industry might take in an effort to clean up its act and 
regulate itself, that anything that has a parental warning 
label on it should have the lyrics included.
    We are faced with a problem that stretches across the 
entire entertainment industry. I haven't meant to focus 
particularly on the recording industry or just the movie 
industry today because there are many problems. But the time 
has come, I think, to quit issuing blanket denouncements and to 
zero in and to ask people to be responsible and to be 
accountable for the products that are distributed.
    Thank you, Senator.
    [The prepared statement of Ms. Cheney follows:]

Prepared Statement of Lynne Cheney, Former Chairman, National Endowment 
                           for the Humanities
    Thank you Mr. Chairman. I appreciate being asked here to address 
this important issue, and I want to thank you and other Members of the 
Committee for your consistent leadership on protecting our children 
from sex and violence.
    It has been chilling to read about, and to hear again from 
Commissioner Pitofsky, the FTC's findings which reveal how methodically 
companies target adult entertainment products at young people. I know 
that this report will be well read, not just in Washington DC, but by 
parents who are concerned about this issue.
    This FTC report reiterates what many of us have been saying for a 
long time: that some in the entertainment industry are consistently 
failing to act responsibly. They are producing violent, sexually-
explicit material, and they are peddling it to children. They claim 
unbridled license to do so under the First Amendment; however, their 
persistent irresponsibility, ironically, threatens the First Amendment 
as their product is so objectionable that more and more good citizens 
find appealing the idea that government regulation should remove 
entertainment industry products from the public square. Let me say from 
the outset that I am opposed to such regulation.
    I want to focus on the larger picture for a moment. When I served 
as Chairman of the National Endowment for the Humanities I often 
testified before this august body about what Matthew Arnold called 
``the best that has been thought and known in the world,'' the history 
and philosophy and literature that lifts our souls and helps us 
understand our experience. I've talked about the importance of 
providing children with models of honesty and honor, of telling them 
stories of Abe Lincoln and Harriet Tubman so they can understand the 
beauty and dignity of a life lived according to high ideals.
    My friend Peggy Noonan, who is a wonderful writer, suggests that we 
understand the way our children are affected by such uplifting 
stories--as well as by stories that demean and degrade--by imagining 
little children as intelligent fish swimming in a deep ocean. The 
stories are ``waves of sight and sound, of thought and fact [that] come 
invisibly through the water, like radar; they go through [our children] 
again and again, from this direction and that.'' The waves come from 
books and movies, from music and television, and more and more they are 
about sex and violence, about hate and degradation. Noonan writes:

    LWe forget, those of us who are middle-aged, that we grew up in a 
time of saner images and sounds. For instance, the culture of crime 
only began to explode in the sixties. We have lived in it for thirty 
years, and most of us turned out okay. So we think our children will be 
all right, too. But they never had a normal culture against which to 
balance the newer, sicker one. They have no reference points to the old 
boring normality. We assume they know what we know: ``This is not 
right.'' But why would they know that? The water in which they swim is 
the only water they have ever known.

    Cleaning up the water, the ocean our children are swimming in, is, 
Noonan writes, the most important environmental issue of our time.
    But where to begin? For years now, we have talked about this 
problem at a high level. With this latest outrage, it seems to me the 
time has come to get very specific, to name names, to say exactly what 
is wrong, and to ask individuals to be accountable. So here is a name: 
Marshall Mathers, the rapper otherwise known as Eminem. And here is 
exactly what is wrong--or at least one among many things objectionable 
about his lyrics--he promotes violence of the most degrading kind 
against women. In ``Kill You,'' a song from his album ``The Marshall 
Mathers LP,'' he begins by describing the satisfaction of raping and 
murdering his mother and then goes on to imagine the joys of murdering 
any woman he might come across. ``Wives, nuns, sluts,'' whoever ``the 
bitches'' might be, he will kill them slowly, leaving enough air in 
their lungs so their screaming will be prolonged. He will paint the 
forest with their blood. ``I got the machete from O.J.,'' he shouts, 
``Bitch, I'm a kill you.''
    Eminem is not the first rapper to revel in violent misogyny, but he 
has taken hatred of women and depictions of degrading and violating 
them to such lengths that I have written to Michele Hooper and Marie-
Josee Kravis, the two female members of the board of Seagram, whose 
company, Interscope, produces and distributes Eminem. I have asked 
Hooper and Kravis to ask their fellow board members how it is possible 
to reconcile corporate responsibility with the distribution of lyrics 
that are socially irresponsible. ``I fully understand your duty to 
shareholders,'' I wrote to them, ``but can that duty be defined in 
purely economic terms? Aren't many of your shareholders women, who are 
demeaned by some of the music you distribute? Aren't many of them 
parents, who shudder at the debased and violent culture that Seagram is 
helping create?''
    I noted in my letters that the time has long passed when we can 
shrug off violence in the entertainment industry by saying that it has 
no effect, by saying it's just coincidence that Eric Harris and Dylan 
Klebold, the murderers of Columbine High, were fans of the shock 
rocker, Marilyn Manson, also distributed by Seagram. It is no longer 
credible to suggest that young people aren't affected by music, films, 
and video games that celebrate violence. The entertainment industry, 
when it claims this, sounds exactly like the tobacco industry of a few 
years ago when its leaders kept insisting that you couldn't really say 
that cigarettes cause cancer.
    Which brings us back to the shareholders of Seagram. Is it in their 
best interest for Seagram to pursue a course that may well lead to 
federal regulation? Let me reiterate that I am opposed to such 
regulation. I have long been a vocal supporter of free speech, and it 
is hard to imagine a law to regulate the entertainment industry that 
would not run afoul of the first amendment. But we have arrived at a 
situation where the entertainment industry is causing such outrage that 
regulation is being seriously proposed.
    At a minimum, I have suggested to Michele Hooper and Marie-Josee 
Kravis that Seagram ought to work with others in the music industry to 
give the current rating system more meaning by providing reasons for 
advisory labels, and specifying ages. This last would make it easier to 
recognize when music was being marketed inappropriately, which is a 
first step if the industry is to regulate this matter itself. Age-
labeling would also give retailers information they need in order to 
decide who should be able to buy certain materials and who should not. 
As the FTC report makes clear, there is confusion on this point now. 
While some music outlets let anyone buy anything, others do try to 
impose standards, but in one instance the standard will be that no one 
under seventeen can buy an advisory-labeled CD. In another, no one 
under thirteen.
    I also suggest that the industry require that music deemed suitable 
only for those over seventeen include the lyrics so that parents can 
review them and know what their children are listening to.
    Mr. Chairman, as I am sure you and other Members of this Committee 
know, Seagram is hardly the only culprit. That company may produce and 
distribute Eminem, but the entire music industry reveres him. Last 
week, he received three MTV music awards, including best male artist. 
It is truly astonishing to me that a man whose work is so filled with 
hate would be so honored by his peers.
    We are faced with a problem that stretches across the entire 
entertainment industry, including movies and video games as well as 
music. But the time has come, I think, to quit issuing blanket 
denouncements, to zero in with a bill of particulars, and to hope that 
individuals will step up and assume responsibility.
    I thank you for giving me the opportunity to testify today.

    The Chairman. I thank you very much, Ms. Cheney.
    You mentioned fund raising. The last time I checked, some 
$18 million, most of it in soft money contributions, have been 
given by the movie industry to political campaigns. It would be 
very interesting to see how that continues. Special interests, 
again, have such inordinate influence here on our legislative 
agenda.
    Senator Hollings.
    Senator Hollings. I thank the distinguished witness for her 
appearance, and I agree, if I ran the movie industry and knew 
that this was an ongoing problem for some 50 years and all you 
had to do is continue to make your contributions and nothing 
happened, I'd sort of continue to run it that way because, as 
I've pointed out, Ambassador Cheney, what happens is, and I'll 
read it again, just that one paragraph back in 1954: ``It has 
been found''--this is producer's directions--``It has been 
found that we retain audience interest best when our story is 
concerned with murder. Therefore, although other crimes may be 
introduced, somebody must be murdered, preferably early, with 
the threat of more violence to come.'' That's in the history of 
broadcasting.
    Now my distinguished colleague, Senator DeWine, says he 
just can't understand why they can't do it. They're in the 
business of making money, profit. And as long as it continues 
and they know violence, crime pays, they're going to continue 
to do it. So really it's my contention, and you'll dramatize it 
again, is that we know, you and I have been up there in 
Washington quite some time, and it's up to us to act. Like the 
Europeans, they have a safe harbor down in Australia now with 
the Olympics. They've got a safe harbor in New Zealand. But we 
just won't put it in because it'll stop it. Even though it is 
for excessive gratuitous violence.
    They mention, they go right away to Private Ryan or 
Schindler's List, and those other things. Obviously, that's 
necessary to the history. We're talking about violence that is 
gratuitous and even again violence itself, it's got to be 
excessive gratuitous violence. And that's the way they've 
tested it. We've had the Attorney General say it stands 
constitutional muster and why not try it.
    But I appreciate your appearance very much.
    Ms. Cheney. I think that there is something to be said for 
the old fashioned concept of shame. Most people like to have 
the regard of their friends, and the people who are running 
these corporations I don't suspect are different from you and 
me and everyone else in this room. I suspect they like to have 
the good regard of their friends. But they produce this stuff, 
and people don't hold them singly and individually accountable.
    That's why I've written to two women on the Seagram Board 
and asked them to be responsible and accountable. That's why I 
would suggest that Senator Lieberman and Vice President Gore 
ask Mr. Weinstein when they see him on Thursday to be 
accountable.
    That's why I would suggest that each of us, when we are 
offended by this, take note, take names and ask people to be 
responsible.
    Senator Hollings. The Chairman's going to have him up here 
in two weeks' time.
    Ms. Cheney. That's very good.
    The Chairman. I think Senator Hollings agrees with me, that 
we will not issue a subpoena. We're not going to do that kind 
of thing. We've never done that. Mr. Weinstein has time to 
attend a fundraiser, but he does not have time to come here. 
Perhaps we may be able to understand that. I don't, but maybe 
others will.
    We thank you, again, Ms. Cheney. Again, I think you bring 
some very important suggestions to this Committee, and we look 
forward to working with you, and we're very honored by your 
presence.
    Ms. Cheney. Thank you, Mr. Chairman. It's always a pleasure 
to be in any room where you are spreading your wisdom and good 
fellowship. Thank you.
    The Chairman. Thank you.
    Our next panel is Mr. Danny Goldberg, Mr. Strauss Zelnick, 
Mr. Peter Moore, and Mr. Gregory Fischbach.
    Mr. Goldberg is President of Artemis Records; Mr. Strauss 
Zelnick is the President and CEO of BMG Entertainment; Mr. 
Peter Moore is President and Chief Operating Officer of Sega of 
America; and Mr. Gregory Fischbach is the President and CEO of 
Acclaim Entertainment.
    We welcome you before the Committee, we thank you for 
coming today. We appreciate the fact that this is not the most 
comfortable time for you, but we also appreciate the fact that 
you are willing to come and address this Committee and the 
American people. We thank you.
    Mr. Goldberg, we'd like to begin with you.

                 STATEMENT OF DANNY GOLDBERG, 
                   PRESIDENT, ARTEMIS RECORDS

    Mr. Goldberg. Chairman McCain, Senator Hollings, and 
Members of the Committee, I'm pleased to have the opportunity 
to testify before you today.
    As you said, Chairman, I'm the CEO and co-owner of Artemis 
Records. It's a year-old independently owned record company. 
Our current roster includes Rickie Lee Jones, Steve Earle, 
Warren Zevon, and the Baha Men.
    We are not a member of the record industry association. But 
during the 1990s, I was president of three major labels--
Atlantic, Warner Brothers, and Mercury.
    I'm speaking not only as a long-time record executive, but 
also as a father of a 10-year-old girl and a 6\1/2\-year-old 
boy, and I do not believe that either government or any 
entertainment industry committee has any business in telling me 
and my wife what entertainment our children should be exposed 
to.
    The United States is a diverse country with hundreds of 
divergent religious beliefs, ethnic backgrounds, regional 
traditions, and different opinions about art and entertainment.
    Unlike the visual media, the record business is being asked 
to categorize and label groups of words for the same reason 
that there is no rating system for books or, for that matter, 
congressional testimony. With one narrow exception, it's 
virtually impossible to rate words.
    I agree with the idea that Lynne Cheney and the FTC said 
about making lyrics available to anyone who wants to read them, 
but all parents are not going to agree with the Committee about 
these lyrics. For example, the reason rating is so difficult, 
for example, is on the subject of violence what kind of system 
can distinguish between the words, ``I want to kill you,'' said 
in an affectionate, sarcastic or ironic way, or put into the 
mouth of an unsympathetic character from those same words being 
used literally, advocating a crime.
    Song lyrics are, by their nature, impressionistic and are 
often used symbolically. No one really thought that the words 
to ``Killing me softly with his song'' referred to murder or 
suicide.
    The one exception that I mentioned are the so-called dirty 
words, the seven dirty words or ten dirty words, and for 
fifteen years record companies, including my company, have been 
placing parental advisory stickers on albums that have a lot of 
curse words.
    Please note, Senators, distinguished from the movie 
business and contrary to the sloppy and inaccurate remarks of 
the President and the Vice President earlier this week, record 
companies have never suggested an age limit for albums with 
parental advisory stickers.
    My company has such a sticker on our current album, 
``Spit'' by the heavy metal band Kittie because the teenage 
girls in the band use several curse words over the course of 
the album. There's nothing illegal about this. Critics across 
the country and half a million people who bought it are morally 
comfortable with it as well.
    I know that there are many Americans who are offended by 
curse words and don't want children exposed to them. However, 
those people have no moral or legal right to impose such a 
standard on my family or millions of other Americans, who, like 
George W. Bush, are comfortable with cursing.
    [Laughter.]
    The parental advisory sticker informs retailers and parents 
that such words are on the album. Other than that, there's no 
universal criteria for categorizing words and lyrics. Of 
course, there are subjective criteria. It's the function of 
critics to criticize, of preachers to preach, of people like 
myself to exercise personal moral judgments about what my 
company releases.
    However, people of goodwill will often have different 
opinions about entertainment. I respect the fact that many 
parents don't want their kids to watch R-rated movie, but I 
prefer a deeper analysis of each movie, and I recently 
recommended the R-rated Erin Brockovich to our 10-year-old 
daughter, Katie, who's a passionate feminist and 
environmentalist, because I had seen the film and I knew the 
rating was only because of cursing. Others may disagree. But 
this country will cease to be free the day that one group of 
parents can tell all other parents how to raise their children.
    Song lyrics are not literal. Listening to the blues often 
makes people happy. Angry, weird songs often make adolescents 
feel less lonely and more connected to other kids. Millions of 
these teens and young adults feel ostracized when politicians 
and academics who obviously have no real understanding of their 
culture, make sweeping generalizations about their 
entertainment, conveniently overlooking the fact that every 
generation has embraced entertainment about sexual and violent 
themes.
    Gangsta rap is the direct descendent of the gangster movies 
of the 1930s and 1940s, the TV Westerns of the 1950s, and 
critically acclaimed films like the ``Godfather.''
    Mr. Chairman, I don't like every record. Spike Lee 
criticizes much of the rap culture in his new movie, 
``Bamboozled.'' Criticism and immoral argument is appropriate 
and an integral part of the entertainment culture. In an 
Internet world, there will be ever-increasing ways for parents 
to find like-minded groups who can advise them on entertainment 
through the prism of their particular values. However, so-
called self-regulation achieved by political intimidation, is 
the equivalent of censorship.
    It's become commonplace to assert that popular culture is 
popular against the wishes and values of its fans. But popular 
culture gets that way because the balance of consumers, not 
rule-makers, but everyday people enjoy it.
    Make no mistake, Members of the Committee, their tastes, 
their values, their morality are under assault today just as 
much as we executives who occupy the hot seats today.
    Washington is a culture of legislation and policy. Asking 
the FTC or the Washington media or the Congress to analyze 
popular entertainment, makes about as much sense as going to 
Hollywood to restructure Medicare.
    From Ralph Nader to Pat Buchanan, Washington political 
leaders, in my opinion, are out of touch with the real dynamic 
of the ways young people process entertainment and they condemn 
youth culture.
    The only result of demonizing pop culture is to drive 
millions of young people away from politics. In the last 
congressional election, less than 17 percent of 18- to 25-year-
olds voted, less than half the rest of the population.
    I believe that 15 years of youth culture, entertainment 
bashing in Washington has greatly contributed to alienation and 
apathy on the part of young people from politics.
    Mr. Chairman and Members of the Committee, please help stop 
this trend of pushing young people away from politics.
    The Chairman. Thank you, Mr. Goldberg.
    [The prepared statement of Mr. Goldberg follows:]

    Prepared Statement of Danny Goldberg, President, Artemis Records
    Chairman McCain, Senator Hollings, and Members of the Committee. I 
am pleased to have the opportunity to testify before you today.
    I am the CEO and co-owner of Artemis Records a year old 
independently owned record company. Our current roster includes Rickie 
Lee Jones, Steve Earle, Warren Zevon, and the Baha Men. During the 
nineteen-nineties I was the President of three major record labels, 
Atlantic, Warner Bros, and Mercury.
    I am speaking not only as a long time record executive, but also as 
a father of a ten year old girl and a six and a half year old boy. I do 
not believe either government or any entertainment industry committee 
has any business in telling me and my wife what entertainment our 
children should be exposed to.
    The United States is a diverse country with hundreds of divergent 
religious beliefs, ethnic backgrounds, regional traditions, and 
opinions about art and entertainment. Unlike the visual media, the 
record business is being asked to categorize and label groups of words. 
For the same reason there is no ratings system for books, or for that 
matter Congressional testimony, with one narrow exception, it is 
virtually impossible to ``rate'' words.
    For example, on the subject of violence, what kind of system can 
distinguish between the words ``I want to kill you'' said in an 
affectionate, sarcastic or ironic way from those same words being used 
literally? Song lyrics are by their nature impressionistic and are 
often used symbolically. No one really thought that the words to 
``killing me softly with his song'' referred to murder.
    The one exception are the so called seven dirty words and for 
fifteen years, record companies, including my independent company 
Artemis Records, have been placing ``parental advisory'' stickers on 
albums that have a lot of curse words. Please note Senators, 
distinguished from the movie business and contrary to the sloppy and 
inaccurate remarks of the President and Vice-President earlier this 
week, record companies have never suggested an age limit for albums 
with ``parental advisory'' stickers. We placed such a sticker on our 
current album Spit by the heavy metal band Kittie because the teenage 
girls in the band use several curse words over the course of the album. 
There is nothing illegal about this and I and critics across the 
country and the half a million people in the U.S. who have bought the 
album are morally comfortable with it as well. I know that there are 
many Americans who are offended by curse words and don't want children 
exposed to them. However, those people have no moral or legal right to 
impose such a standard on my family or the millions of other Americans 
who, like George Bush, are comfortable with cursing.
    The parental advisory sticker informs retailers and parents that 
such words are on the album. Other than that there is no universal 
criteria for categorizing words in lyrics, books, magazines, 
newspapers, etc. There are, of course, subjective criteria. It is the 
function of critics to criticize, of preachers to preach and of people 
like myself to exercise personal moral judgments about what my company 
releases. However people of good will often have different opinions 
about entertainment. I respect the fact that many parents don't want 
their kids to watch R-rated movies but I prefer a deeper analysis of 
each movie and I recently recommended the R-rated Erin Brockovich to 
our ten year old daughter Katie who is a passionate feminist and 
environmentalist because I had seen the film and knew the rating was 
because of cursing. Others may disagree but this country will cease to 
be free the day that one group of parents can tell all other parents 
how to raise their children.
    Song lyrics are not literal. Listening to the blues often makes 
people happy. Angry weird songs often make adolescents feel less lonely 
and more connected to other kids. Millions of these teens and young 
adults feel ostracized when politicians and academics who obviously 
have no real understanding of their culture make sweeping 
generalizations about their entertainment, conveniently overlooking the 
fact that literally every generation has embraced entertainment with 
sexual and violent themes. Gangsta rap is the direct descendent of the 
gangster movies of the thirties and forties, the TV westerns of the 
fifties, and critically acclaimed films like The Godfather.
    Mr. Chairman, I don't like every record. Spike Lee criticizes much 
of the rap culture in his new movie Bamboozled. Criticism and immoral 
argument is appropriate and an integral part of the entertainment 
culture. In an internet world, there will be ever increasing ways for 
parents to find like minded groups who can advise them on entertainment 
through the prism of their own particular values. However so-called 
self-regulation achieved by political intimidation is the equivalent of 
censorship.
    It has become commonplace to assert that popular culture is popular 
against the wishes and values of its fans. But popular culture gets 
that way precisely because the balance of consumers--not record makers, 
not rule makers, but everyday people--enjoy it.
    Mr. Chairman, make no mistake, their tastes, their values, and 
their morality are under assault every bit as much as the entertainment 
executives who occupy the hot seat today.
    Washington is a culture of legislation and policy. Asking the FTC 
or the Washington media or the Congress to analyze popular 
entertainment makes about as much sense as going to Hollywood to re-
structure Medicare. From Ralph Nader to Pat Buchanan, Washington 
political leaders, who are out of touch with the real dynamic of the 
ways young people process entertainment, condemn youth culture. The 
only result of demonizing pop culture is to drive millions of young 
people away from politics. In the last Congressional election in 1998, 
less than 17% of 18-25-year-olds voted, less than half the rest of the 
population. I believe that fifteen years of youth culture entertainment 
bashing in Washington has greatly contributed to alienation and apathy 
on the part of young people from politics.
    Mr. Chairman and Members of the Committee, please help to stop this 
trend of pushing young people away from politics.

    The Chairman. Mr. Zelnick.

  STATEMENT OF STRAUSS ZELNICK, PRESIDENT AND CHIEF OPERATING 
                   OFFICER, BMG ENTERTAINMENT

    Mr. Zelnick. Chairman McCain, Senator Hollings, and Members 
of this Committee, I'm here to testify as the father of four 
children, as a concerned citizen, and as the Chief Executive 
Officer of a leading entertainment company.
    I welcome the opportunity to discuss the obligation that we 
all share to strengthen the social fabric of our country.
    I want to address this issue, and I trust that you do, too, 
in the spirit of mutual respect and mutual responsibility.
    All of us who are raising children understand what Senator 
McCain, Senator Lieberman, and others inside and outside this 
chamber have said. Certain of the messages that pervade our 
society make it difficult to teach our children the difference 
between right and wrong. And, yes, popular culture plays a role 
in creating our moral climate. But there is significant room 
for doubt that entertainment is a cause of violence in America.
    Popular culture may be made here, but it's consumed 
everywhere, and presumably our movies, our music, and our video 
games have the same impact everywhere. Yet, our country is more 
violent than any other advanced society. Our homicide rate is 
five times greater than the United Kingdom's, six times greater 
than Germany's, eleven times greater than Japan's.
    When it comes to our children, the numbers are even more 
shocking. In 1995, firearms killed a total of 185 children in 
the United Kingdom, Germany, France, and Japan combined, but 
that same year 5,285 children were killed by guns in America.
    In this regard, what makes America unique is not its 
possible culture but our relative ease of access to guns.
    Today, over 40 percent of households in America have 
firearms. That's far more than almost any other advanced 
nation, and our regulations with regard to the licensing, 
registration, and authorization of their use are among the most 
relaxed.
    Still, guns aren't the only explanation for crime and 
violence among young people. There is, among other factors, the 
sense of hopelessness among some of the very poor, the sense of 
meaninglessness among some of the very wealthy, and the long 
hours that many parents must work just to provide for their 
families.
    And, yes, we in the media, do share in shaping our nation's 
culture. We may not change what people think, but we create a 
vernacular for those thoughts. We, as an industry, must 
recognize our role and play it responsibly. None of this means, 
however, that the government should serve as the censor of our 
art and the regulator of our speech.
    Yes, violence is a terrible problem, but government 
interference with free expression is a cure that's worse than 
the disease.
    As lawmakers, you understand better than anyone that the 
First Amendment protects speech of all kinds. Yet agreeing that 
government censorship is wrong, should not be the end of our 
discussion, it should be the beginning.
    It's up to each and every one of us to do the things we 
should do, not because the government coerces us but because 
our consciences command us.
    In America today, our consciences command us to action 
against violence.
    I have acknowledged and addressed this responsibility in a 
talk earlier this year at the National Academy of Recording 
Arts and Sciences Entertainment Law Interview, as well as with 
leaders in our industry and executives of my company.
    I'd like to share with the Committee my specific views.
    The record business and we at BMG do not condone violence, 
and yet violence is part of the world that creates, buys, and 
is influenced by our music.
    Many of our artists legitimately express and comment on the 
problems of our society. We need to ensure that those voices 
are heard. I believe it's far better to provide an outlet for 
expression than to close one; far better to promote agitation 
in art than violence in life.
    While we therefore sometimes explore challenging themes, we 
must not exploit them. What matters most is not exercising 
taboo topics but exercising personal, artistic, and moral 
judgment.
    We cannot set hard and fast rules for what is creative, 
versus what has exploited it. Rather, we try to distinguish one 
from the other, artist by artist, lyric by lyric, and case by 
case.
    Every time we release a record, we make a choice. As the 
CEO of BMG, I am ultimately responsible for what my company 
produces. It's as simple as that. I stand by our art, just as I 
stand by our sense of taste and restraint. We're not always 
successful in this regard. We've made mistakes. But with the 
freedom to choose, comes the accountability for our choices, 
both the good ones and the bad ones.
    As long as artistic excellence is our most enduring value, 
we won't go far wrong. And make no mistake about it, the 
ultimate responsibility for deciding what music young people 
listen to rests with parents in their homes not public 
officials.
    For many years, BMG and the rest of our industry have 
voluntarily labeled records with advisories providing parents 
with the information they need to make personal and moral 
judgments for their families. The system is intended to help 
parents decide what music is appropriate for their children 
based on their values.
    Yet, we must ask ourselves, are we doing enough. Does the 
information we offer help parents make appropriate decisions? 
Can we and should we be doing more?
    On these issues, we might all benefit from a national 
discussion and exchange of ideas with parents and educators, 
religious leaders and artists, business people, and law 
enforcement officials.
    We might also benefit from a public service advertising 
campaign, led by artists of all types and from all backgrounds, 
sending a clear antiviolence message to our children.
    In the end, the solutions will be found in our homes and in 
our studios, not in a one-size-fits-all approach mandated by 
our government. The answer lies in returning to first 
principals not revising the First Amendment.
    If parents, artists and business people take responsibility 
together, we will live out the lyrics of a song from my own 
youth, ``Teach your children well.'' And we will have kept 
faith with our nation's heritage of freedom tempered by 
responsibility.
    Thank you.
    The Chairman. Thank you, Mr. Zelnick.
    [The prepared statement of Mr. Zelnick follows:]

 Prepared Statement of Strauss Zelnick, President and Chief Operating 
                       Officer, BMG Entertainment
    Chairman McCain, Senator Hollings, and Members of this Committee: I 
am here to testify as the father of four children, as a concerned 
citizen, and as the chief executive officer of a leading entertainment 
company.
    I welcome the opportunity to discuss the obligation that we all 
share to strengthen the social fabric of our country. I want to address 
this issue--and I trust that you do, too--in a spirit of mutual respect 
and mutual responsibility.
    All of us who are raising children understand what Senator McCain, 
Senator Lieberman and others inside and outside this chamber have said: 
certain of the messages that pervade our society make it difficult to 
teach our children the difference between right and wrong. And, yes, 
popular culture plays a role in creating our moral climate.
    But there is significant room for doubt that entertainment is a 
cause of violence in America.
    Popular culture may be made here. But it is consumed everywhere. 
And presumably our movies, our music, and our videogames have the same 
impact everywhere.
    Yet our country is more violent than any other advanced society. 
Our homicide rate is 5 times greater than the United Kingdom's, 6 times 
greater than Germany's and 11 times greater than Japan's.
    When it comes to our children, the numbers are even more shocking. 
In 1995, firearms killed a total of 185 children in the United Kingdom, 
Germany, France, and Japan combined. But that same year, 5,285 children 
were killed by guns in America.
    In this regard, what makes America unique is not its popular 
culture but our relative ease of access to guns. Today, over 40% of 
households in America have firearms--that's far more than almost any 
other advanced nation--and our regulations with regard to the 
licensing, registration, and authorization of their use are among the 
most relaxed.
    Still guns aren't the only explanation for crime and violence among 
young people. There are, among other factors, the sense of hopelessness 
among some of the very poor; the sense of meaninglessness among some of 
the very wealthy; and the long hours that many parents must work just 
to provide for their families.
    And yes, we in the media do share in shaping our nation's culture. 
We may not change what people think, but we create a vernacular for 
those thoughts. We as an industry must recognize our role and play it 
responsibly.
    None of this means, however, that the government should serve as 
the censor of our art and the regulator of our speech.
    Yes, violence is a terrible problem. But government interference 
with free expression is a ``cure'' that is worse than the disease.
    As lawmakers, you understand better than anyone that the first 
amendment protects speech of all kinds.
    Yet agreeing that government censorship is wrong should not be the 
end of our discussion. It should be the beginning.
    It is up to each and every one of us to do the things we should 
do--not because the government coerces us but because our consciences 
command us.
    In America today, our consciences command us to take action against 
violence.
    I have acknowledged--and addressed--this responsibility in a talk 
earlier this year at the National Academy of Recording Arts and 
Sciences' Entertainment Law Initiative as well as with leaders in our 
industry and executives at my company.
    I would like to share with this Committee my specific views.
    The record business--and we at BMG--do not condone violence. But 
violence is part of the world that creates, buys, and is influenced by 
our music.
    Many of our artists legitimately express and comment on the 
problems of our society. We need to ensure that their voices are heard. 
I believe it is far better to provide an outlet for expression than to 
close one, far better to promote agitation in art than violence in 
life.
    While we therefore sometimes explore challenging themes, we must 
not exploit them. What matters most is not exorcising taboo topics but 
exercising personal, artistic and moral judgment. We cannot set hard 
and fast rules for what is creative versus what is exploitative; 
rather, we try to distinguish one from the other, artist-by-artist, 
lyric-by-lyric, and case-by-case.
    Every time we release a record, we make a choice. As the CEO of 
BMG, I am ultimately responsible for what my company produces. It is as 
simple as that.
    I stand by our art, just as I stand by our sense of taste and 
restraint. We are not always successful in this regard. We've made 
mistakes. But with the freedom to choose comes the accountability for 
our choices--both the good ones and the bad ones.
    As long as artistic excellence is our most enduring value, we won't 
go far wrong.
    And make no mistake about it: the ultimate responsibility for 
deciding what music our young people listen to rests with parents in 
their homes, not public officials.
    For many years, BMG and the rest of our industry have voluntarily 
labeled records with advisories providing parents with the information 
they need to make personal and moral judgments for their families.
    This system is intended to help parents decide what music is 
appropriate for their children based on their own values.
    Yet, we must ask ourselves: are we doing enough? Does the 
information we offer help parents make appropriate decisions? Can we--
and should we--be doing more?
    On these issues we might all benefit from a national discussion--an 
exchange of ideas with parents and educators, religious leaders and 
artists, business people and law enforcement officials.
    We might also benefit from a public service advertising campaign, 
led by artists of all types and from all backgrounds, sending a clear 
anti-violence message to our children.
    In the end, the solutions will be found in our homes and our 
studios--not in a one-size-fits-all approach, mandated by our 
government.
    The answer lies in returning to first principles, not revising the 
first amendment.
    If parents, artists, and business people take responsibility 
together, we will live out the lyrics of a song from my own youth: 
``teach your children well.'' And we will have kept faith with our 
nation's heritage of freedom tempered by responsibility.
    Thank you very much.

    The Chairman. Mr. Moore, welcome.

    STATEMENT OF PETER MOORE, PRESIDENT AND CHIEF OPERATING 
                    OFFICER, SEGA OF AMERICA

    Mr. Moore. Thank you, Mr. Chairman, Members of the 
Committee. My name is Peter Moore, President and Chief 
Operating Officer of Sega America.
    I am very glad to have volunteered to be here today as we 
work together to address the concerns of the public and the 
consumer market. I see these as two distinct groups comprised 
of the same people, made different only by the gap and 
perceptions of government and private industry.
    So I am pleased to offer the experiences of Sega and to 
listen to your concerns so that the interest of the consumer 
market and public are both addressed and gap in perceptions is 
narrowed.
    Further, I am also glad to be here as the parent of three 
young children. One of them, my 14-year-old son Tyler, is an 
avid gamer. The issues that the Committee is addressing today 
are the issues my wife and I, like most parents, must address 
everyday, as we decide channel by channel, film by film, and 
game by game how we want our children spending their 
entertainment time.
    I'm sure you will agree with me that parental 
responsibility and choice are key to protecting the interests 
of the children of our country.
    To start, I'd like to offer background on Sega. Sega is 
almost 50 years old and was started by former U.S. Army 
officers manufacturing and distributing pinball machines to the 
U.S. troops abroad through the 1960s and 1970s. In fact, the 
name Sega, is created from the words SErvice GAmes.
    Sega broke new ground in entertainment in the 1980s by 
developing the first simulation-type video games. In 1998, 
Sega's historic role in leading video game development was 
recognized by the Smithsonian Institution during an exhibit on 
innovation where the world's first three-dimensional 
interactive video games, Virtua Fighter, was on display.
    Continuing our cutting edge in home gaming entertainment, 
Sega sells a game console, the Sega Dreamcast. We also develop 
our own games for use on Dreamcast.
    Our newest service, SegaNet, is an Internet-based video 
gaming network that gives gamers the opportunity to play their 
Dreamcast and PCs against their friends through the Internet. 
It was kicked off only last week, with gamers playing football 
against rivals across the country. Another first for the 
entertainment industry.
    For the industry overall, the U.S. market is by far the 
world leader, earning over $7 billion last year in software and 
console sales.
    Sega of America is one of the top software publishers and 
advertisers in this industry. Because Sega has historically 
been at the vanguard of video game innovation, we are pleased 
to begin a dialogue with you in the last few days of the 106th 
Congress.
    Just as you feel a responsibility to the people who elected 
you, we at Sega also feel a responsibility to the people who 
spent almost $7 billion last year on video games. Because many 
of your constituents are our customers, you and I have a mutual 
interest in building a more complete understanding of this 
community.
    I speak of my responsibility as a parent and of Sega's 
responsibility as a corporation because, for me, as president 
of the company, the two are intertwined.
    Just as I am responsible for choosing the entertainment for 
my children, I feel strongly that it is Sega's responsibility 
to educate parents so that they can make informed decisions. I 
know this firsthand. Toward fulfilling that responsibility, 
Sega in 1993, introduced a voluntary rating system for our 
products, which was the forerunner of the Entertainment 
Software Rating Board, or E.S.R.B., the independent 
organization that develops the age range and content rating 
system for video games.
    Fulfilling its commitment to consumer protection, the 
E.S.R.B. unveiled last year the Advertising Review Council, 
which serves to ensure that industry ads are appropriate, 
responsible, truthful, and accurate, and market appropriately 
to the correct audiences.
    Over the past few months, Sega has worked closely with the 
FTC to share information on our products and marketing 
programs. We are glad to have participated in this endeavor as 
it offers mutual opportunities for both my company and the FTC.
    First: It allows Sega an opportunity to educate the 
Commission on our business practices.
    Second: It allows the FTC to share its concerns with us.
    The report's findings show that over the past year, the 
electronic gaming industry self-imposed regulations have had 
great success. This effort includes industry members following 
careful age and content rating procedures implemented by the 
E.S.R.B., carefully and clearly labeling our products, not in 
code but in plain English.
    The FTC survey this year showed that 54 percent of parents 
are at least slightly familiar with the system believe it to be 
excellent or good. That's a substantial increase in only one 
year, when from a 1999 survey, 20 percent of parents thought 
their rating system helpful.
    That success is due directly to our hard work and efforts 
to serve and educate our consumers.
    Although many marketing plans for M-rated games in the 
report stated primary or secondary audiences as being 12- to 
17-year-olds, that is simply a practice that we do not condone. 
I assure you that we are working to ensure that such instances 
do not happen in the future.
    I do feel, however, as I read the section of the FTC report 
that addresses marketing, that their expectations and 
criticisms are based on unrealistic assumptions.
    For example, in the analysis of the industry's print 
advertising and gaming publications, I find it extremely 
difficult to justify banning M-rated game titles from a 
magazine that has over half its readership age 17 or older.
    It is neither practical nor fair to imply that we should 
bypass advertising media targeted to the gaming enthusiast 
simply because of the possibility of spillage to a younger 
demographic.
    I also take issue with the portion of the report addressing 
television advertising, saying that simply because we advertise 
during such widely popular shows as The Simpsons, The X-Files, 
and Baywatch, that our plans are--and I quote from the report--
``strongly suggesting that children under 17 were being 
targeted.'' The information in the report is misleading.
    For example, according to the Nielsen ratings for the 2000 
television seasons, many popular programs have audiences that 
are significantly over 18 years old. The Simpsons has 71 
percent over 18; Malcolm in the Middle at 70 percent over 18; 
Friends in cable syndication has 79 percent 18 years or above.
    This type of speculation is substantiated in a document 
that has all the appearance of a scientific survey.
    In any industry that markets its products, there's always 
the challenge to break through the clutter of messages that 
bombard people every day. Even more difficult is to silo 
messages to only one demographic group without having any 
unintended spillage into another.
    Having said that, I also want you to know that we are 
thoughtful and sensitive to the fact that children may be 
unintentionally receiving messages meant for an older audience. 
In recognition of such a situation, Sega and the IDSA both 
enjoy close relations with our retail partners and continually 
work with them to develop new programs to educate consumers 
about the appropriateness of the content.
    I am troubled by part of this report and similar innuendo 
and political stump speeches that generalize that the industry 
routinely and overtly markets to audiences younger than 
designated by the E.S.R.B. ratings.
    Such sweeping generalizations oversimplify and 
sensationalize the issue and unfairly indict companies such as 
Sega for the isolated mistakes of others.
    Mr. Chairman, Members of the Committee, I know we all want 
the same goal. We want every child and every family to be 
involved in daily decisions. We in the electronic gaming 
industry have proven ourselves committed to that goal, and we 
intend to push further.
    We want to work with you, we want you to understand our 
business practices based on fact, not assumptions. We want to 
learn of your concerns and thoughts.
    We are an industry that is served by some of the most 
artistic and creative people ever, but we know that no one 
corners the market on creativity. We are open to suggestions, 
but suggestions based on reality not speculation.
    I want to thank you for this opportunity to offer our 
significant experience as we work together to address concerns 
of the public we both serve. Thank you.
    The Chairman. Thank you.
    [The prepared statement of Mr. Moore follows:]

   Prepared Statement of Peter Moore, President and Chief Operating 
                        Officer, SEGA of America
    Good morning Mr. Chairman and Members of the Committee. My name is 
Peter Moore, President and Chief Operating Officer of Sega of America. 
I am very glad to have volunteered to be here today as we work together 
to address the concerns of the public and the consumer market. I see 
these as two distinct groups comprised of the same people, made 
different only by the gap in perceptions of government and private 
industry. So, I am pleased to offer the experiences of Sega and to 
listen to your concerns so that the interests of the consumer market 
and public are both addressed, and the gap in perceptions is narrowed.
    Further, I am glad to be here as the parent of three young 
children: the oldest, Tara, is 17 years old; my 14-year-old son Tyler 
is an avid gamer, and his younger sister, Tony Marie, is 8 years old. 
The issues the Committee is addressing today are issues that, like most 
parents, my wife and I must address everyday as we decide channel-by-
channel, film-by-film and game-by-game how we want our children 
spending their entertainment time. I'm sure you will agree with me that 
parental responsibility and choice are key to protecting the interests 
of the children of our country.
    To start, I'd like to offer background on Sega. Sega is almost 50 
years old and was started by former U.S. Army officers, manufacturing 
and distributing pinball machines to the U.S. troops abroad through the 
1960's and 70's. In fact, the name Sega is created from the words 
SErvice GAmes.
    Sega broke new ground in entertainment in the 1980's by developing 
the first simulation type video games. In 1998, Sega's historic role in 
leading video game development was recognized by the Smithsonian 
Institution during an exhibit on innovation where the world's first 3-
dimensional interactive video game, Virtua Fighter, was on display.
    Continuing our cutting-edge innovations in home gaming 
entertainment, Sega sells a game console with the highest-speed 
processor on the market today, the Sega Dreamcast system, which offers 
users phenomenal, realistic graphics. We also develop our own games for 
use on Dreamcast. Additionally, third-party publishers also produce 
games for Dreamcast.
    Our newest service, SegaNet, is an Internet-based video gaming 
network that gives gamers the opportunity to play their Dreamcasts and 
PCs against their friends through the Internet. It was kicked off only 
last week, with gamers playing football against rivals, across the 
country. Another first for the entertainment industry.
    For the industry overall, the U.S. market is by far the world 
leader, earning over 7 billion dollars last year in software and 
console sales. Sega of America is one of the top software publishers 
and advertisers in this industry.
    Because Sega has historically been at the vanguard of video game 
innovation, we are pleased to begin a dialogue with you in the last few 
days of the 106th Congress.
    Just as you feel a responsibility to the people who elected you, we 
at Sega also feel a responsibility to the people who spent almost 7 
billion dollars last year on video games. Because many of your 
constituents are our customers, you and I have a mutual interest in 
building a more complete understanding of this community.
    I speak of my responsibility as a parent and of Sega's 
responsibility as a corporation because, for me as President of the 
company, the two are intertwined. Just as I am responsible for choosing 
the entertainment for my children, I feel strongly that it is Sega's 
responsibility to educate parents so they can make informed decisions. 
I know this first-hand.
    Toward fulfilling that responsibility, Sega in 1993 introduced a 
voluntary rating system for our products which was the forerunner of 
the Entertainment Software Rating Board, or E.S.R.B., the independent 
organization that develops the age-range and content rating system for 
video games.
    Building upon the E.S.R.B.'s commitment to protecting the consumer, 
within the past year have unveiled the Advertising Review Council, 
which sets guidelines for all video game advertising content. The 
A.R.C.'s mandate is to ensure that industry ads are appropriate, 
responsible, truthful and accurate and marketed appropriately to the 
correct audiences.
    Over the past few months, Sega has worked closely with the Federal 
Trade Commission to share information on our products and marketing 
programs. We are glad to have participated in this endeavor as it 
offers mutual opportunities for both my company and the FTC. First, it 
allows Sega an opportunity to further educate the Commission on the 
consumer market that we serve as well as our business practices within 
that market. Concurrently, it allows us the opportunity to hear the 
concerns that the Commission carries in its effort to address questions 
from the public.
    The results of this dialogue and information sharing, as outlined 
in the FTC's report released Monday, show that over the past year, the 
electronic gaming industry's self-imposed regulations have had great 
success. This effort includes industry members following careful age- 
and content-rating procedures implemented by the E.S.R.B., carefully 
and clearly labeling our products--not in code, but in plain English. 
These efforts are positively impacting parental education about the 
rating system.
    The FTC's survey this year showed that 54% of ``parents are at 
least slightly familiar with the system'' believe it to be excellent or 
good. That's a substantial increase in only one year, when from a 1999 
FTC survey, 20% of parents thought the rating system helpful. That 
success is due directly to our hard work and efforts to serve and 
educate our consumers.
    Although many marketing plans for M-rated games in the report 
stated primary or secondary audiences as being 12- to 17-year-olds, 
that is simply a practice that we do not condone. I assure you that we 
are working to ensure that such instances do not happen in the future.
    I do feel, however, as I read the section of the FTC report that 
addresses marketing, that their expectations and criticisms are based 
on unrealistic assumptions. For example, on page 47's analysis of the 
industry's print advertising in gaming publications, I will find it 
extremely difficult to justify banning M-rated game titles from a 
magazine that has over half of its readership aged 17 or older. It is 
neither practical nor fair to imply that we should bypass advertising 
media targeted to the gaming enthusiast simply because of the 
possibility of spillage to a younger demographic.
    I also take issue with the portion of the report addressing 
television advertising, saying that simply because we advertise during 
such widely popular shows as, The Simpsons, The X-Files, and Baywatch, 
that our plans are--and I quote this from the report--``strongly 
suggesting that children under 17 were being targeted.'' Unfortunately 
this information in the report is misleading.
    For example, according to the Nielsen ratings for the 2000 
television season, many popular programs have audiences that are 
significantly over 18-years-old: The Simpsons has 71% over-18; Malcolm 
in the Middle at 70% over-18; Friends in cable syndication has over 79% 
18-years or above.
    This type of speculation is unconscionable in a document that has 
all the appearance of a scientific survey. These TV shows have wide, 
mainstream appeal, and as such, they inevitably capture some younger 
and older consumers than the shows' core audiences.
    In any industry that markets its products, there's always the 
challenge to not only reach your target audience, but also to break 
through the clutter of messages that bombard people everyday. Even more 
difficult is to silo messages to only one demographic group without 
having any unintended spillage into other demographic groups.
    Having said that, I also want you to know that we are thoughtful 
and sensitive to the fact that children may be unintentionally 
receiving messages meant for an older audience. In recognition of such 
a situation, Sega and the IDSA both enjoy close relations with our 
retail partners and continually work with them to develop new programs 
to educate consumers about the age and content suitability of video 
games.
    Sega, the I.D.S.A., E.S.R.B. and retailers are all working together 
in a very tight, very well thought-out and very well-managed system. I 
troubled by this report, and similar innuendo in political stump 
speeches, that overlooks our positive efforts and instead generalizes 
that the industry routinely and overtly markets to audiences younger 
than designated by E.S.R.B. ratings. Such sweeping generalizations 
over-simplify and sensationalize the issue, and unfairly indict 
responsible companies such as Sega for the isolated mistakes of others.
    Aside from my position at Sega, as a father of three young 
children, I am angered that, based on a handful of instances, 
government officials point an accusing finger at an entire industry as 
the cause of all youth violence. Any responsible parent knows that 
there are a multitude of factors involved in childhood development. The 
more time our government spends scape-goating one of the thousands of 
impressions made everyday on children, the less time is spent on real, 
sustainable solutions.
    Mr. Chairman, Members of the Committee, I know we all want the same 
goal: we want every child and every family to be informed and involved 
in daily decisions. We in the electronic gaming industry have proven 
ourselves committed to that goal and we intend to push further. We want 
to work with you. We want you to understand our business practices, 
based on fact, not assumptions. We want to learn of your concerns and 
thoughts. We are an industry that is served by some of the most 
artistic and creative people ever, but we know that no one corners the 
market on creativity. We are open to suggestions, but suggestions based 
on reality, not speculation.
    I want to thank you for this opportunity, to offer our significant 
experience as we work together to address concerns of the public we 
both serve.
    Thank you.

 STATEMENT OF GREGORY FISCHBACH, PRESIDENT AND CHIEF EXECUTIVE 
                 OFFICER, ACCLAIM ENTERTAINMENT

    Mr. Fischbach. Thank you, Mr. Chairman.
    I would like to address some comments to Mr. Brownback.
    I have some prepared remarks, however, with respect to a 
game that we released called ECW Hardcore Revolution.
    ECW, like WWF and WCW, is an organized wrestling league. It 
appears on TNN every Saturday evening between six and seven. It 
also uses Pay-Per-View as a vehicle for marketing itself. It 
does personal appearances around the country, most of them east 
of the Mississippi.
    The M-rating on the product was chosen because of the 
language content in the product. We felt it appropriate that 
the product was rated ``M'', and that we marketed it 
accordingly as an M-rated product.
    The action figures that you displayed, I believe----
    Senator Brownback. Here, I'll hand it to you, if you'd like 
to have it.
    Mr. Fischbach. --yes, were marketed, they did not come from 
our company. They came from the ECW League themselves. They 
licensed that product themselves. It was not licensed by us.
    Senator Brownback. So they didn't have to get any 
permission from you to use----
    Mr. Fischbach. No, we actually----
    Senator Brownback. --to put it on.
    Mr. Fischbach. --had to get permission from them to use 
their wrestlers in our product. So in this particular instance, 
we tried to stay within the guidelines, and we tried to market 
the product accordingly, and I really didn't recall that there 
were action figures in the marketplace at this point.
    So it was not part of our marketing practices, and we 
focused our marketing for that particular product, according to 
the ratings and according to the rules of ARC.
    So if I may proceed now?
    The Chairman. Please.
    Mr. Fischbach. Thanks.
    Our company was established in early 1987 and publishes 
software for all of the leading hardware systems. I am the Co-
Chairman, CEO and one of the cofounders of the organization.
    As a veteran in the video game industry, I am a long-time 
supporter of the IDSA. That's our industry organization, and 
currently serve as chair of the IDSA Board of Directors.
    In addition, I strongly support and endorse the work of the 
E.S.R.B. All of our software carries an E.S.R.B. rating.
    Furthermore, Acclaim complies with all E.S.R.B. advertising 
standards and guidelines, including the placing of rating icons 
and content information on packaging and in advertising.
    In this hyperaccelerated, new media world, think back a 
minute. The first video games were developed in the mid-1970s. 
The ability of a consumer to control the movement of an object 
on the screen was considered revolutionary at the time.
    In 1977, the introduction of the hugely-popular Atari 2600, 
the game called PONG, created a new generation called video 
gamers. Today, the original gamers who grew up playing their 
Atari machines and hardware that followed, are now an average 
age of 30, and they are still gamers.
    At the same time the game machines were improving, the user 
demographics broadened. Software wasn't just aimed at a 12- to 
18-year-old male audience. Today, video games are as mainstream 
as CDs, and games are being developed for people of all ages, 
from Pokeman and Mary Kate and Ashley to ECW Hard Core 
Revolution.
    The issue, as I understand it, is appropriately marketing 
video game entertainment at a time when the demographics of 
gaming is broadening so rapidly.
    I believe we are making great strides with the E.S.R.B. 
rating system, the new E.S.R.B. Advertising Review Council and 
its principals and guidelines for responsible advertising 
practices.
    However, as an industry, we need to continually work at and 
evolve with the changing business environment in which we 
operate.
    Video game publishers must take direct responsibility for 
how and to whom we market our games. As our demographics 
continue to expand, so must we expand our efforts to ensure 
that the marketing of our products is responsible.
    I am pleased that the FTC recognized in its report that the 
electronic entertainment industry is taking important steps to 
make its existing codes that prohibit target marketing to 
children even more effective.
    And we are not only encouraging our colleagues in the 
retail sector to enforce rating systems, we are also escalating 
our efforts to make parents aware of the video game rating 
system. In this regard, we are proud that golfer Tiger Woods 
filmed the PSA for the E.S.R.B. last fall urging parents to 
check the ratings to determine which games are right for them.
    Eighty-three percent of all parents are involved in the 
purchase of video games for their children. But as an industry, 
Senator, we need to do more. We as publishers need to take 
steps to ensure that we comply with the established Code of 
Conduct, including the anti-targeting provisions, and we 
definitely need to work further to elevate parents' awareness 
and understanding of the rating system.
    It's an ongoing process, and I believe we are committed as 
an industry to improving it.
    Acclaim presently publishes very few M-rated games. For 
those titles that we do publish, we are careful to target our 
marketing efforts to appropriate audiences. We strictly adhere 
to the IDSA guidelines. For example, we confine our print 
advertising, the publications that cater to our core audience, 
and we do not advertise in the mass market books.
    For TV advertising, we restrict our media buys to after 10 
o'clock p.m.
    In terms of the advertising media, our primary advertising 
vehicle is print. Naturally, we choose print publications that 
cover our industry and our products. These are magazines that 
review the very products that we're talking about today.
    The highest circulation amongst those publications reached 
a mere 500,000 consumers. Definitely not mass market. Mass 
media, like television is becoming less important for us. It 
has become too hard to target a particular demographic, 
rendering TV both inaccurate and ineffective. It is also hard 
to control who is viewing our TV ad content, regardless of 
which time slots or programs we purchase.
    Having said all that, we know from research what leads 
consumers to their purchase decisions. According to a recent 
study conducted by the FairField Research, the number one 
factor in making the purchase decision is game rental, followed 
in order by playing a friend's copy, trying the game in a 
store, reading magazine reviews, word of mouth, and reading 
game packaging.
    Then follows print advertising, TV advertising, point-of-
sale advertising, and web site information. So while magazine 
advertising is important to us, it is not, in fact, the primary 
driver in our marketing plans, which leads me to my last point.
    Perhaps the most outstanding revelation about this youth 
culture is that they admire their parents and the opinions of 
their parents. Ninety-four percent of today's youth trust their 
parents. Similarly, parents must understand that they not only 
have the responsibility but the opportunity, as the FTC said, 
``To be involved in the entertainment decisions of their 
children.''
    The variety and complexity of today's entertainment options 
may have become too unwieldy a task for any parent alone. 
Between books, magazines, music, movies, cellular phones, TV, 
and the Internet, many parents need assistance in making 
intelligent choices for their children.
    Because of our prominent role in the electronic 
entertainment industry, Acclaim not only supports strong self-
regulation, we are setting an example for our industry. We are 
committed to continually reexamine our own and our industry's 
efforts to ensure that we are getting the job done.
    Thank you very much for the opportunity to participate.
    [The prepared statement of Mr. Fischbach follows:]

Prepared Statement of Gregory Fischbach, President and Chief Executive 
                     Officer, Acclaim Entertainment
    Good Morning, My name is Gregory Fischbach, and I am the founder, 
co-chairman, and CEO of Acclaim Entertainment, one of the leading 
independent software publishers in the video game industry.
    Acclaim Entertainment was established in early 1987 and publishes 
software for all of the leading hardware systems. In addition, Acclaim 
also publishes comic books and strategy guides.
    Acclaim's corporate offices are located in Glen Cove, New York, and 
our other domestic offices are located in Salt Lake, Cincinnati, San 
Francisco and Austin. Acclaim software is distributed worldwide through 
an international organization that maintains marketing, sales and 
distribution facilities in all of our major markets.
    As a veteran in the video game industry, I am a long time supporter 
of the Interactive Digital Software Association (IDSA), our industry's 
trade organization and currently serve as Chair of the IDSA Board of 
Directors. In addition, I strongly support and endorse the work of the 
Entertainment Software Rating Board (ESRB). The ESRB was established in 
1995 with the primary purpose of establishing and maintaining a 
universal rating system for entertainment software.
    All Acclaim software, whether published internally or only 
distributed by our company, carries an ESRB rating. Furthermore, 
Acclaim complies with all the ESRB advertising standards and 
guidelines, including placing of rating icons and content information 
on packaging and in advertising.
    Five years ago, Acclaim established a website to support the sales 
and marketing of our software. This site carries the ESRBi seal of 
approval which means it is actively monitored by the ESRBi, complying 
with all of its standards.
    In this hyper-accelerated new media world, think back a minute. The 
first video games were developed in the middle 70's. The ability of a 
consumer to control the movement of an object on the screen was 
considered revolutionary at that time.
    In 1977, the introduction of the hugely popular Atari 2600 and a 
game called PONG created a new generation called video gamers. The 
Atari machine's price initially targeted it towards older kids; but as 
the technology improved, prices came down, the games became more 
sophisticated, and the audience broadened.
    Today, the original gamers who grew up playing their Atari machines 
and the hardware that followed are now an average age of 30. And they 
are still gamers. As the game machines progressed, the games and the 
game play features became more intricate, and the plots and game play 
became more immersive.
    At the same time the game machines were improving, the user 
demographics broadened. Software wasn't just aimed at the 12- to 18-
year-old male audience. Today, video games are as mainstream as CD's 
and games are being developed for people of all ages and genders. From 
Pokemon to Who Wants to be a Millionaire, there's something for 
everyone.
    The issue, as I understand it, is appropriately marketing video 
game entertainment at a time when the demographics of gaming is 
broadening so rapidly. I believe we are making great strides with the 
ESRB rating system, the new ESRB Advertising Review Council and its 
Principles and Guidelines for Responsible Advertising Practices. 
However, we need to continually work at it and evolve with the changing 
business environment in which we operate. Video game publishers must 
take direct responsibility for how and to whom we market our games. As 
the demographics continue to expand, so must we expand our efforts to 
ensure that the marketing of video game entertainment is responsible.
    I am pleased that the FTC recognized in its report the electronic 
entertainment industry is taking important steps to make its existing 
codes that prohibit target marketing to children even more effective. 
And we are not only encouraging our colleagues in the retail sector to 
enforce rating systems, we are also escalating efforts to make parents 
aware of the video game rating system. In this regard, we are proud 
that golfer Tiger Woods filmed a PSA for the ESRB last fall urging 
parents to ``check the ratings'' to determine which games are right for 
them.
    But we need to do more. We, as publishers need to take steps to 
ensure that we comply with the established code of conduct, including 
the anti-targeting provisions and we definitely need to work further to 
elevate parents' awareness and understanding of the ratings system. 
It's an ongoing process, and I believe we are all committed to 
improving it.
    Just who is the younger generation that we're talking about? There 
are 60 million 5-20 year olds; three times larger then Generation X, 
and the biggest blip on the American economic screen since the baby 
boom. They are very independent, have a strong sense of self worth and 
are active in environmental and social causes. Throughout their entire 
young lives, they have been bombarded with information from TV, radio, 
the Internet and print. This media-saturated generation is extremely 
marketing savvy.
    Acclaim begins its marketing plans at the initial stages of product 
development. We develop games for a variety of different interests, and 
attempt to develop titles that best satisfy those demands. We do this 
by collaborating with our retailers to gauge what their customers want 
as well as by conducting our own research to determine what types of 
games consumers are interested in. This is the basis on which we 
develop our tactical marketing plans on building awareness and interest 
in our products.
    Acclaim presently publishes very few M-rated games; but for those 
titles we do publish, we are very careful to target our marketing 
efforts to the appropriate audience. We strictly adhere to IDSA's 
guidelines and work closely with the publications, websites, TV and 
radio stations to evaluate the advertising beforehand and make changes 
where necessary. For example, we confine our print advertising to the 
publications that cater to our core audience and do not advertise in 
mass market books. For TV advertising, we restrict our media buys to 
post-10:00 pm programming and conform the commercials in collaboration 
with the specific cable and network clearance departments.
    In response to the FTC request for information from our company, we 
uncovered a marketing plan that did recommend targeting of a Mature 
game to persons for whom it was not appropriate. In fact, we never 
implemented the plan, but we have nonetheless taken steps internally to 
make sure our marketing plans are properly prepared.
    In terms of the advertising media, our primary advertising vehicle 
is print. Naturally we choose publications that cover our industry and 
our products. The highest circulation amongst these publications 
reaches a maximum of 500,000 consumers. Definitely not mass market. 
Mass media like television is becoming less important for us. It has 
become too hard to target a particular demographic, rendering TV both 
inaccurate and ineffective. It is also hard to control who is viewing 
our TV ad content regardless of which time slots or programs we 
purchase. On the other hand, we can place content more efficiently on 
the Internet and can also control who is viewing our information more 
effectively.
    Having said all that, we know from research what leads consumers to 
their purchase decisions. According to a recent study conducted by 
FairField Research, the number one factor in making a purchase decision 
is game rental followed in order: by playing a friend's copy, trying 
the game in store, reading magazine reviews, word of mouth and reading 
game packaging in store. Then follows print advertising, TV 
advertising, point of sale advertising and website information. So 
while magazine advertising is important to us, it is not, in fact, the 
primary driver in our marketing plans. Which leads me to my last point.
    Perhaps the most outstanding revelation about this youth culture is 
that they admire their parents and the opinions of their parents. 
What's more, 97% of them actually say--out loud and proud--that they 
like their parents and consider them confidants and friends. While the 
Baby Boomers' mantra was ``Don't trust anyone over 30,'' 94% of today's 
youth trust their parents and 8 out of 10 state they often have 
``really important'' talks with their parents. Game publishers and 
marketers must understand the importance and value of this core 
relationship as it relates to home entertainment. Similarly, parents 
must understand that they not only have the responsibility, but the 
opportunity, as the FTC said, to be involved in the entertainment 
decisions of their children.
    The variety and complexity of today's entertainment options may 
have become too unwieldy a task for any parent alone. Between books, 
magazines, movies, music, cellular phones, TV and the Internet, many 
parents need assistance in making intelligent choices for their 
children. Because of our prominent role in the electronic entertainment 
industry, Acclaim not only supports strong self-regulation; we are 
setting an example for our industry. We are committed to continually 
re-examine our own and our industry's efforts to ensure that we're 
getting the job done.
    Thank you for the opportunity to participate in this effort.

    The Chairman. Thank you very much, Mr. Fischbach.
    You and Mr. Moore present views that are very interesting 
and, contrast with those of Mr. Goldberg and Mr. Zelnick about 
the importance of informing parents of the content and also the 
overall issue of the rating system.
    Obviously, Mr. Goldberg in his statement, and Mr. Zelnick 
to a lesser degree, view this as some sort of coercion or 
censorship. I do not. I want to thank you for your commitment, 
both you and Mr. Moore, for improving from the situation as it 
exists today. As outlined by the FTC, nearly all the game 
companies have marketed violent, M-rated games to children in 
violation of the IDSAs anti-targeting provision.
    Mr. Goldberg and Mr. Zelnick, I'd like to engage in a 
little colloquy with you, and since I would feel free to 
interrupt you, please feel free to interrupt me. Seriously.
    [Laughter.]
    I think that's the only way I think we can have an honest 
exchange of views here, because I am concerned about some of 
the things that you stated in your written testimony.
    First of all, could I mention, Mr. Goldberg, I think that 
young people are not involved in the political process simply 
because they don't believe they're represented anymore here. I 
think they believe that the special interests and the big 
money, the proliferation of huge amounts of money, are 
unbelievable. I know you and Mr. Zelnick are both very wealthy. 
You could have purchased a ticket to a fund raiser for $500,000 
recently, and I'm sure you would have only done that in the 
interests of good government, and yet average citizens are 
unable to do that.
    Mr. Goldberg. I completely agree with you about that. I 
support McCain-Feingold.
    The Chairman. Yes. So I really feel that is the reason why 
these young people are not participating is because they're not 
represented anymore.
    Mr. Goldberg. But they're not represented here today, 
either, Chairman.
    The Chairman. Go ahead. Why not?
    Mr. Goldberg. There's no young people testifying today. 
There's no groups of fans or consumers or group people have 
been invited, so they're also not represented in a proceeding 
like this.
    The Chairman. Well, I would be glad to do that, but we were 
reviewing a study of marketing practices as opposed to 
purchasing practices. The whole purpose of this hearing was to 
review the FTC report. But I do agree with you, perhaps we 
should have more young people come testify before Congress.
    But I'll tell you what a lot of them would say, it doesn't 
make any difference, because I couldn't afford the $500,000 
ticket fundraiser.
    So I'd be glad to hear--again, please feel free to 
interrupt. So I disagree with you as to why young Americans 
aren't involved in the political process.
    Second of all, on the issue of labeling, it's my view that 
any family member or any person who walks into a retail 
establishment and wants to buy a product, that that person 
should have the right to know what the content of the product 
is. If it's a can of soup, we should know what goes into it.
    I'm talking about labeling as a way of informing both 
consumers and families as to what the content is so that they 
will be informed in their purchases. That's the whole 
rationale, in my view, behind labeling.
    I'll be glad to hear your response to that statement 
because, Mr. Goldberg, especially you view it as some form of 
forced censorship. Please respond.
    Mr. Goldberg. Well, we do label curse words because you can 
have objective criteria. Either those words are on an album or 
they're not, and I think the companies, our company included, 
does label records with those words. That's exactly what we've 
been doing for 15 years.
    Other than curse words----
    The Chairman. But if I could interrupt, and please 
interrupt me, the label I'm talking about is mature audiences, 
really suitable for certain--go ahead.
    Mr. Goldberg. I don't believe that there's universal 
criteria even in this country that all 14-year-olds are the 
same. A 14-year-old in one family, their parents may not want 
to expose them to something, and in my family maybe we do. We 
have no idea----
    The Chairman. But shouldn't we----
    Mr. Goldberg. --how to categorize words.
    I do agree, as I said, with making all the lyrics available 
for parents who want to read them. I'm happy to do that, 
subject to the copyright owners' permission to do so, and I 
think that would be a good way. And I think with the Internet, 
that's going to happen.
    But in terms of categorizing a simple M, V, X, these kinds 
of things, other than the dirty words, I don't understand the 
criteria that could be used to create those categories.
    As someone who has thought about this for a long time and 
lived with lyrics, the same way book publishers don't do it, 
magazines, newspapers, words don't lend themselves to those 
kind of categories, except for profanity, which we do label.
    Senator Dorgan. Mr. Chairman, might I interrupt just for a 
moment?
    The Chairman. Everybody interrupt. Mr. Zelnick, you have 
been strangely silent. Go ahead.
    Senator Dorgan. Just on that point, we had testimony 
previously this morning by Lynne Cheney, and she described, for 
example, the Eminem album about the lyrics about the 
satisfaction of raping and murdering his mother, et cetera, et 
cetera. There may not be dirty words--there's dirty words in 
that song, but in those phrases, there may not be dirty words, 
but do you think that kind of lyric is appropriate for 10- 12-
year-old children?
    I don't think it's just about words itself. I don't think 
that's what the Chairman's asking about.
    Mr. Goldberg. Well, I think that different families will 
have different opinions of what age. I don't have that album in 
my house, my oldest kid is 10, and we've talked about why we 
don't want that labeling in our house.
    The Chairman. But this brings us back to labeling. In other 
words, shouldn't your family and other families know that there 
are lyrics in here that talk about rape and murder without ever 
using a dirty word?
    Mr. Goldberg. I think reviewers and the media explain these 
things to people, but there could be an anti-rape song. There 
have been books, novels, written in the first person of 
murders. ``Crime and Punishment,'' I think. Or Richard Wright's 
``Native Son,'' where a murderer is speaking in the first 
person and yet clearly the intent of that is to de-legitimize 
and make ugly the murderer.
    There are people who use these themes in a humorous, 
sarcastic way, symbolically, not really meaning to do it, and 
different people of goodwill, even different people in this 
room, may interpret some of these things differently. That's 
not my record so I didn't analyze them, discuss it with the 
artist. But it's very hard to have clear criteria.
    The debate of reviewers and discussions is the right way 
for parents to get not simplistic labeling. That's my point.
    The Chairman. I frankly recoiled at the lyrics that Senator 
Brownback put up there. Isn't that pretty clear that something 
like that should be labeled?
    Mr. Zelnick, speak.
    [Laughter.]
    Mr. Zelnick. I'm not a big fan of interrupting people, Mr. 
Chairman.
    The Chairman. I don't call it interrupting, I call it a 
dialogue. And I appreciate, because you represent one of the 
largest part of your industry, and it's important that we hear 
from you.
    Mr. Zelnick. As you can see, I'm here for that exact 
reason, Senator.
    The Chairman. Yes.
    Mr. Zelnick. And I believe I'm the only CEO of a major 
entertainment company that's here today.
    The Chairman. And that is very much appreciated by this 
Committee.
    Mr. Zelnick. As I said in my remarks, I'm in favor of 
rating systems, voluntary rating systems.
    You may not know this about my background. I started in the 
television business, then I ran a video company. For four 
years, I was president of 20th Century Fox, and I was a member 
of the Board of the MPAA, where we discussed this exact topic 
at a time when we revised our rating system.
    I was a founding member of the Board of the IDSA, where we 
discussed ratings, and Greg and I discussed them together then, 
when I was in the video game business, and now my parapetetic 
career has led me to record in the music business. I'm on the 
Board of the RAA, and one of the first topics I discussed at my 
first RAA Board meeting six years ago was our rating system.
    In my testimony today, I acknowledged the fact that perhaps 
we need to do more in our system. The research shows, the FTC 
report shows, that three-quarters of the parents served feel 
that the music rating system does give them sufficient 
information.
    And while BMG doesn't put out very many explicit 
recordings, we put out some that are labeled, about 4 percent 
of our releases, and in the six years I've been CEO of the 
company, we've not received one complaint from a parent on 
something being inappropriately labeled.
    That doesn't mean that the system is perfect, and we have 
an open mind as to how we can improve that system. It is hard 
for one company to do it in isolation. I think it is important 
for the industry to act together and reasonable people can 
disagree on a topic.
    But my personal view, frankly, is that there's nothing 
wrong with considering and perhaps adopting a more robust 
system.
    The Chairman. I thank you for that.
    I want to emphasize, Mr. Goldberg, I don't believe that I, 
and I can't speak for other Members of this Committee, want to 
resort to censorship.
    I'd be glad to do it if I knew where it ended. It's easy to 
go down that path, but you never know where the end is. So I 
certainly am not speaking to you as an advocate for censorship. 
But what I believe is important and I think the message that 
I've heard from all the Members of the Committee who have 
participated, is that we work together to try to remove and 
eradicate a problem that's been identified by a respected 
agency of government.
    Did you want to respond?
    Mr. Goldberg. I would love to censor people that I disagree 
with and don't like, but I agree with you. There's no way of 
stopping it, and who would we empower to do so.
    I think, to answer your question, Senator Dorgan, about the 
Eminem album, it is--it definitely has a sticker. I just know 
that from reading about it, even though it's not a record I'm 
involved with. The problem is a lot of people like it anyway, 
and I realize that everybody here didn't like reading lyrics 
isolated, disconnected from music, disconnected from context, 
and you might have hated hearing the whole album and even 
meeting the artist, but millions of people like it.
    And in a free society, what do you do about that, except 
tell your opinion and the clash of ideas in the marketplace of 
ideas.
    And I think you also have to recognize that young people 
have language that they use, different symbols, and have a 
different feeling about this. Most young people I know feel 
that's a human record not a violent record. You may disagree 
with them but it might be good to hear them and hear their 
point of view, the actual fans of this music, instead of 
assuming how they interpret it.
    The Chairman. By the way, we're going to try and bring 
some--we will bring some young people up to discuss MP-3 and 
some of this music downloading issue, which is obviously 
another issue of concern to the panel.
    Senator Hollings.
    Senator Hollings. No, thank you, Mr. Chairman.
    The Chairman. Senator Brownback.
    Senator Brownback. Thank you, Mr. Chairman.
    I want to follow up on this line of questioning.
    Mr. Goldberg, as I understood what you said a little bit 
earlier, you're willing to work on a disclosure system that 
discloses fully everything of all the lyrics in music? I want 
to make sure that I get that correct?
    Mr. Goldberg. I'm in favor of it and willing to do it 
subject to the legalisms. In other words, record companies 
don't own the copyrights to the lyrics, so we have to get 
permission if our artists don't write the songs.
    We usually make all the lyrics available except when we're 
not permitted to, and my guess is that this could be something 
that could develop as a universal thing with cooperation of the 
music publisher.
    I'm in favor of it because I think instead of having 
simplistic ratings for lyrics, people and parents who are 
interested could read all of the lyrics and make their 
decisions about whether or not they want it in their house, but 
I don't think you'd like all of the decisions that all of the 
parents make.
    Senator Brownback. I'm not concerned about that. I'm 
concerned about decisions my wife and I make for our children.
    I'm also concerned that when we get up in the morning, 
we're eating food, and we can see the product label about how 
much fat content, what's the carbohydrates in the food, etc. I 
like having that information to decide. But with any of the 
lyrics or the music, you just don't have that. You have a 
sticker on a product, but that doesn't really tell you much of 
anything about it.
    And, Mr. Zelnick, as I understand, you are agreeable to 
this as well, but you want it to be an industry-wide effort of 
disclosure of lyrics; is that correct?
    Mr. Zelnick. My point is that the recorded music industry 
has to have a common standard, and I think the FTC itself 
acknowledges that for each company to have a different rating 
system within one specific industry would be disruptive, and 
might actually make it hard for consumers to make choices.
    But, Senator, I respectfully disagree. I don't think you 
can analyze a creative product, a work of art, the same way you 
can analyze a breakfast cereal. And the fact is that there are 
subjective elements. What we try to do with our explicit 
warning label now is make it clear that there, indeed, is 
explicit material, as I understand it.
    Senator Brownback. No, I understand that part of it. But I 
thought you were saying to me that you were willing to work on 
an industry-wide disclosure of all the words in the lyrics as 
it came forward, as long as the effort is industry-wide, which 
is what Mr. Goldberg said he's willing to do.
    Mr. Goldberg. First of all----
    Senator Brownback. And as a parent, I would think you would 
find that helpful if you knew all the words that were in the 
lyrics.
    Mr. Goldberg. First of all, we have no issue with 
disclosing of the lyrics in any case.
    Senator Brownback. Good.
    Let me ask each of you about marketing plans because that's 
why we're here, about marketing plans.
    The Chairman. Can I also interrupt one second?
    And I appreciate your commitment at least to work with us 
and others in trying to better the system.
    Go ahead. I'm sorry.
    Senator Brownback. Yes. I appreciate your willingness to 
show up. We've been fighting for a long time to get somebody to 
show up, and this is a good, positive step.
    All of you are involved, and each of you are involved with 
the final marketing plans of your major products that come out; 
is that correct?
    Mr. Moore: Sure.
    Senator Brownback. Mr. Zelnick, you're not shaking your 
head. You're not involved in the marketing plan?
    Mr. Zelnick. Well, we put out 1,500 releases a year. So it 
would be inaccurate to say that I review each marketing plan. 
However, I establish policy, and I stand behind the policy, so 
I am responsible in that sense.
    Senator Brownback. All right. And the other three of you 
are directly responsible or directly involved in marketing 
plans?
    Mr. Moore. As Presidents of companies, I think we all take 
accountability regardless of whether we're involved or not.
    Senator Brownback. All right. Because that's the point of 
the hearing. We can talk about censorship, we can dive 
different places here. The point of it is the marketing that's 
taking place with the products, and that's been the concern 
here.
    I want to go particularly at the game industry, if we could 
look at that, because the FTC study says that of its 118 
electronic games with mature ratings for violence that the 
Commission selected for its study, 83 or 70 percent targeted 
children under 17. That's the FTC wording within this.
    Marketing plans for 60 of these or 51 percent, expressly 
included children under 17 and their target audience.
    Have either of you been involved in a mature-rated video 
game that has been marketed towards children?
    Mr. Fischbach. We supplied certain documents. This is 
volumes and volumes of documents to the FTC, and when I was 
briefed before the hearing, I was shown three different 
documents with basically plans--not execution and plans, plans 
of what somebody had proposed within our organization.
    And on the top of the plan it said, ``M-12 to 24'', so 
immediately you know that that draws a flag because ``M'' is 
not 12 to 24, ``M-17 to 24'' or ``17 to wherever.''
    I can tell you in the execution of those plans, like with 
ECW, and we may disagree with respect to the action figures and 
where they fit, we did not market those products to children. 
We marketed those products to the appropriate audience, and 
specifically with respect to the ECW campaign, it was very 
specifically focused at an older audience, and we limited our 
advertising to an older audience, so we didn't try to pick up 
and do something that we weren't supposed to do.
    Senator Brownback. So, Mr. Fischbach, you have not been 
involved in any discussions, in any marketing plans, or under 
any age----
    Mr. Fischbach. I didn't say that.
    Senator Brownback. Well, I'm asking you if you have or you 
haven't, and that's--have you?
    Mr. Fischbach. No, we haven't.
    Senator Brownback. So you have not?
    Mr. Fischbach. No.
    Senator Brownback. Have you, from Sega's point of view, 
been involved in any marketing plans where there was discussion 
of taking a mature product and marketing it to an underage 
audience?
    Mr. Moore. Absolutely not. Absolutely not. I think the 
interesting thing, when I read the report, Senator, is the 
differentiation between a marketing plan, a marketing execution 
was not brought up.
    If I read the Commission's report accurately, and read the 
assertions they were making about the plan to market to 6 year 
olds or 12 year olds, and I'm a marketer by profession, is my 
background, then I would see Sports Illustrated For Kids, 
Highlights for Children, magazines of that nature be 
proliferated with print advertising of M-rated games, that is 
simply not the case.
    What the Commission's issue is manufacturing, such as 
ourselves marketing M-rated games in gaming enthusiasts 
magazines.
    As Mr. Fischbach has stated in his testimony, those 
magazines are very focused. The biggest one is 500,000. And 
that may seem like a lot, but in the world it's minuscule.
    It is our ascertion that at least 50 percent, if not more, 
were 17 years and older as regards readership, and that, 
obviously, from our perspective is a legitimate vehicle for us 
to be able to market our products.
    If we felt, if we truly felt that that was an inappropriate 
vehicle for marketing our products, we simply wouldn't do it.
    Senator Brownback. If I could on this point.
    Mr. Moore. Sure.
    Senator Brownback. Anybody in your industry that has a 
mature rated product and goes ahead and approves a marketing 
plan that overtly markets to children under the age of 17, you 
would say, ``That's wrong, that's bad; we, as an industry, want 
to stop this?''
    Mr. Fischbach. Let me just respond. The answer is yes, but 
not only that we've established a Council within our 
organization, within E.S.R.B. that does review it and does have 
sanctions and penalties for those kinds of infractions.
    Senator Brownback. Has anybody been sanctioned or 
penalized?
    Mr. Moore. I will bring it right back to Sega's case. Last 
week we launched two TV commercials. Now these were for E for 
Everyone games. These were actually football games. But we fell 
foul of the limitations that the ARC puts in our advertising, 
and we were wrong.
    What we didn't do, which we agreed to do in writing to the 
advertising review council of the E.S.R.B., was actually have a 
voice over for the rating of that game that was featured in 
that commercial.
    Even though at the start of that game commercial, had the 
logo ``E for Everyone'', we neglected in our rush to get that 
commercial to broadcast, to have a voice-over which says, this 
game is rated ``E for Everyone.'' We were wrong.
    We were notified the very next morning by the ARC in 
writing, and we had rectified that within 24 hours.
    Now I'm not talking about an M-rated game, I'm talking 
about an NFL game, which represents 35 percent of our sales--
football, sports games in general.
    But the ARC works, it watches us, they have the power to be 
punitive. We were wrong. We recognize we were wrong, and we 
rectified it within 24 hours.
    Senator Brownback. What your stating is contrary to the 
study.
    Mr. Moore. In my testimony, Senator, I had issues with the 
study.
    Senator Brownback. Well, let me go, if I could on this 
question, and this will be the last one I put forward at this 
time.
    Mr. Goldberg, if I could ask you, you state that the 
parental advisory sticker is supposed to help inform parents 
that that's what the product is about, and yet the FTC report 
states that parents have no say in whether an album is 
stickered or not, have no way of knowing why it was stickered, 
have no way of finding the lyrics, and have no recourse if they 
disagree with the manufacturer's decision as to whether to 
sticker or not.
    Is there any reason why parents are kept so powerless in 
this system?
    Mr. Goldberg. Well, I also feel there are major flaws in 
the report. I don't know of any example where a parent has 
asked for a copy of lyrics where they were not given them in 
the companies that I ran, which were big companies. Now I have 
a very small company, so we have fewer people we're dealing 
with. But I don't think there's any intent to keep lyrics away 
from parents.
    The only criteria we've been able to establish, in my 
experience, and my colleagues may do it differently, but my 
experience in trying to figure out whether or not to put on 
stickers, if there were curse words on it, we stickered it 
because that was a specific objective criteria.
    And our artists also would live with that. Our artists have 
contract rights in terms of the way that they work.
    Other than letting parents know the lyrics themselves or 
whether or not there are so-called dirty words on them, I can't 
think of any other criteria that would be rational for the same 
reason that book publishers, magazine publishers, newspaper 
publishers, don't have those kinds of ratings.
    To me, the best answer is let the consumers have access to 
the lyrics and express themselves as parents about whether or 
not they want them in their homes.
    Senator Brownback. I think we're going to have to work on a 
system where they can be because they don't know how to get a 
hold of lyrics presently. They don't know how to get a hold of 
you, although I'd be happy to publish your name and address.
    Mr. Goldberg. Once again, the study itself said that three-
quarters of parents are happy with the parental advisory 
sticker system, so I don't think you can discount three-
quarters of the parents surveyed by the study that you, 
yourself, are appraising.
    Senator Brownback. Thank you, Mr. Chairman.
    The Chairman. I thank you.
    Could I, before turning to Senator Dorgan, announce that 
there's going to be a vote at 1:45, an important vote on 
tabling the Thompson Amendment. So we would have to, after 
Senator Dorgan finishes his questions to the panel, adjourn 
until 2:00 this afternoon, at which time we will have the final 
panel.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.
    The Chairman. Again, I want to thank the witnesses for 
being here.
    Senator Dorgan. Mr. Chairman, thank you very much. Never 
have I heard so much credit given to people who just show up.
    [Laughter.]
    Senator Dorgan. But let me also say thanks for being here. 
And, Mr. Goldberg, you produced some lively testimony and said 
at the end of it that we were out of touch, and you've had to 
join a long line in order to make that charge, as a matter of 
fact.
    But I would say if you held a town meeting in Arizona or 
Kansas or North Dakota, I think you would find expressions of 
most of the people who came to that town meeting very similar 
to the expressions you hear today on this panel about pop 
culture, about children, about lyrics, about violence on 
television, and so on.
    This is about target advertising, and let me just ask the 
question in a manner similar to the way Senator Brownback asked 
it.
    The FTC says that the documents they have developed show 
that on R-rated films a substantial number of them have been 
shown to--for example, 10-year-olds, 12-year-olds, 15-year-olds 
in market testing.
    So with films, market testing to young teens, music, video, 
is the same way. I mean, I assume that gives you some pause, 
would it not? I mean, I assume that if we have a general 
understanding of what we're trying to do here that a disclosure 
that there is market testing of R-rated movies on 12- , 14-
year-olds kids would give you pause? Would you disagree with 
that, Mr. Zelnick?
    Mr. Zelnick. No.
    Senator Dorgan. All right. Mr. Goldberg, does it give you 
some pause?
    Mr. Goldberg. Gotta wait two weeks for the movie people to 
tell you that. We're not in the movie business.
    Senator Dorgan. But how about music? CDs? Same thing.
    Mr. Goldberg. We don't have age descriptions on our CDs. 
The report was wrong about that. And all of the descriptions of 
the music business have been wrong about that because, for some 
reason, the FTC chose not to acknowledge that the record 
business has always said that we can't come up with a specific 
age criteria the way movies do. We don't have pictures, we 
don't have nudity, we don't have blood. We have words.
    Senator Dorgan. I understand.
    Mr. Goldberg. And so all we can do is label the so-called 
dirty words and, frankly, all teenagers are not the same. 
There's a big difference between a 13-year-old and a 16-year-
old.
    There's a difference between the way a 16-year-old in 
Greenwich Village might be raised, where I live, compared to a 
16-year-old maybe in your home state. There's real diversity in 
this country, and there's not a possibility of universal 
criteria. Therefore, the marketplace of ideas, the clash of 
ideas, is how the culture is created.
    We do give information about the curse words and we're 
happy to make the lyrics available, but you're not going to 
like all the records.
    Senator Dorgan. Mr. Goldberg, I don't think there's a 
difference between those who live in Boston or Bismarck about 
whether they think a 12-year-old would not be harmed, in the 
opposite, by listening to a CD that talks about murdering and 
raping your mother. I think there's generally----
    Mr. Goldberg. What about if it's against murdering and 
raping your mother and condemning that sort of attitude but 
illustrating it through an unsympathetic character?
    Senator Dorgan. Well, you know, the First Amendment is 
industry. The First Amendment is not equivocal. It protects 
repulsive and vulgar speech.
    I happen to vote against those who want to change the 
Constitution to prohibit flag desecration, because I believe 
the First Amendment is very important. We haven't mastered that 
for 200 years, and I don't see too many Thomas Jeffersons and 
Madisons and Masons hanging around.
    So I think it's important to protect that First Amendment, 
and this is not about censorship. This hearing is not about and 
will never be about censorship. But it is about some important 
issues.
    Let me try to get at this a slightly different way.
    My assumption is that all four of you have some general 
notion in your own minds about what kind of products you will 
produce and what you won't produce.
    Mr. Zelnick. Senator, let me address that.
    I have a specific notion, which is what I discussed in my 
testimony, but that very specific notion has to do with what my 
company will do.
    Senator Dorgan. Correct.
    Mr. Zelnick. That may not be something that Danny's company 
agrees with, and I respect Danny's right to disagree.
    We have no issue, however, about providing information to 
parents and providing disclosure. We also don't have any 
concern about taking responsibility because the buck stops on 
my desk and I take that responsibility.
    I think since we're talking about marketing, we should just 
establish a couple of facts.
    The first is that less than 10 percent of marketing 
expenditures in the record business actually go to consumer 
marketing. We don't market the same way the movie business 
does. I know because I ran a major movie company. We don't 
market the same way the video game business does. One size does 
not fit all.
    Of the 10 percent of our expenditures that go to consumer 
marketing, virtually none of that goes to traditional 
television or print media, with the rare exception of very 
straight ahead family programming. Why is that? Not only 
because it would be inappropriate to market explicit material 
to children, but also because the economics of our business 
only allow for that type of consumer marketing for which 
there's a very broad audience.
    Senator Dorgan. But it's especially the former, I hope? If 
you think it's inappropriate to market to children----
    Mr. Zelnick. Senator, in my view, it's absolutely the case. 
However, there's no reason not to bring some facts into the 
discussion. In this case, the fact is that the record business 
does precious little consumer marketing, and it does virtually 
no consumer marketing of explicit material.
    In the case of BMG, of the 2,300 major releases we've put 
out in the last two years, fewer than 100 were explicit, and 
more than half of those had an edited version available, and 
none of those were marketed to children. That's a fact.
    Senator Dorgan. Well, when you talk about bringing some 
facts, the implication is there aren't that many facts here. 
The FTC report is based on a set of facts, an investigation 
they did. I guess I reject the notion that this isn't based on 
a foundation of findings that relate to what has been 
happening, what companies are doing.
    Mr. Zelnick. I think if you take a look at what we've heard 
this morning, and I've been here all morning, a great deal of 
time has been spent on people's criticism of the content of 
what we do, and that's what Danny and I specifically reject. We 
take responsibility for the content of what we do.
    We don't choose to market explicit material to minors, we 
don't believe in it.
    And I think you'll get a good deal of assent in our 
industry, even among people who are not like-minded that that's 
inappropriate, and that we largely agree that there ought to be 
specific standards that prevent that.
    Where I think you lose this constituency, is when people 
venture opinions about specific material and decry it as 
shameful or not artistic.
    That, in my view, is not the purview of the legislature of 
this country.
    Senator Dorgan. Well, the First Amendment applies not just 
to our constituents but to those of us who serve in Congress. 
If I choose to quote something that Lynn Cheney described here 
from Eminem and say I happen to agree with her description of 
that, I think it's disgusting. I have a 13-year-old son, a 
wonderful young guy, and an 11-year-old daughter. You've got 
children. Sam Brownback has children. We're all concerned about 
trying to protect these children.
    My son was given a CD by a group I'd have heard of, Limp 
Bizkit, and my wife listened to the CD on the way to work one 
day just to make sure, before she let him open it, and she came 
back and she said, ``My God.'' And she told me what the CD was 
about. Well, obviously he didn't listen to it because they 
apparently had two versions of that, and whoever gave it to him 
gave him the version with all of the vulgarity, and it's an 
extraordinarily vulgar piece.
    I looked at that CD. I don't see many CDs these days, but I 
looked at it, and it wasn't very easy to see that there was a 
rating on it--by the way; it wasn't very easy to see--I mean, I 
didn't see it at first glance, but it was there.
    I mean, I have a right as a parent to make a judgment about 
that, and I hope you agree that you want to help parents all 
across this country make sensible judgments about content. I 
hope you want to do that.
    Mr. Zelnick. We agree----
    Senator Dorgan. You have a right to produce it----
    Mr. Zelnick. --and we've said that.
    Senator Dorgan. And I was going to ask you more about this 
issue of what are your lines. I mean, you draw a line about 
what you want to produce and what you're proud of producing, 
and what you're proud of making a profit on. All of you do 
that, I guess. What are the lines?
    If you draw those lines, especially with relationship to 
children, I'd be interested in knowing what those lines are. 
And you say it's individual per company, that's fine. I'd just 
be interested in knowing what your company's individual line 
is. How do you, as a CEO, draw that line?
    Mr. Goldberg. Artist by artist. Record by record. There's 
not simplistic one-sentence or one-paragraph or one-page 
answers as to how you evaluate an artist. You have to analyze 
all of what they're doing. You have to meet the artist. You 
have to have everybody in your company analyze how you think it 
will affect people.
    And there are all sorts of things that I and all of my 
colleagues refuse to put out on moral grounds, some of them 
that we can make money with.
    There are also things that we choose to put out that would 
be offensive to a lot of people, including people in this room 
that we still think have a valid place in the marketplace and 
are works of arts. And it's always been thus with 
entertainment. There's always been entertainment that's very 
offensive to some people and very popular with others.
    I don't think any two of us have exactly the same criteria. 
There are records that Strauss would put out that I wouldn't, 
and vice versa. But we have to go with our own conscience and 
with the sensibility of the people around us, and we certainly 
are happy to inform parents and other consumers and retailers 
about the nature of the content.
    But we're not going to get a consensus about cursing, about 
whether or not violence should be depicted in entertainment or 
sex depicted in entertainment. These are cosmic questions that 
have been debated for hundreds of years.
    Senator Dorgan. That's a fair point and the four of you are 
articulate in making your points. I would just ask one 
additional question.
    Senator McCain, I think, asked about labeling. I was 
involved early on trying to make sure that everything you buy 
in a grocery store is labeled so that consumers know what 
they're buying. And I think you, Mr. Goldberg, or someone made 
the point, there's a difference between string beans and ideas, 
or whatever the term you used.
    And that's a fair point, except that in both cases labeling 
with respect to content is designed to accomplish certain 
purposes. If we in this country would like, if parents want to 
be empowered, and if we would like to have some basic content 
labeling, don't you think there's an appropriate way to agree 
on, generally speaking, what is appropriate for 10-year-olds or 
12-year-olds or 14-year-olds?
    Now Jack Valenti does it. I frankly think those standards 
are changing rather quickly having seen a PG-13 last weekend 
that had words in it that would not have been in some while 
ago.
    But Jack Valenti in the movie industry has done it for 30 
years, and if they can do it--``R'', ``PG'', ``PG-13''--why 
cannot we do it in virtually every other area?
    This report here suggests there's, despite the ratings, 
explicit marketing by these filmmakers to kids, which is wrong, 
and we're going to talk about how to deal with that. But why 
can't we do that?
    Mr. Goldberg. Words are different from pictures. Pictures, 
there's nudity or there's not nudity; there's blood or there's 
not blood. He can talk far more eloquently than me about how 
they do their ratings. Words have been categorized the way 
you're suggesting. It doesn't exist for books, for magazines, 
or for newspapers or for congressional testimony.
    All that you can do is identify if certain dirty words are 
there or not. There's no other history of categorizing words, 
and I think it would be a very dangerous path to ask any 
industry or any group in this society to go down. I think 
better to make the words available and let each family make 
their own decision about them.
    And that's produced a vibrant culture that, all over the 
world, people admire us for our popular culture. As much as 
we're seeing the dark side of it, the same freedom that creates 
that ugliness creates a lot of brilliance, and I'm not so sure 
you can get rid of the stuff you don't like and still keep all 
the stuff that inspires you.
    Mr. Zelnick. But, Senator, our goal in fact was to do what 
you did with that album that you and your wife listened to; 
which is to advise you when there's explicit material. In most 
cases, in the few cases we put out a record like that, we put 
out an edited version as well, and to encourage parents to take 
responsibility to do exactly what you did.
    And the Advisory, by the way, is mandated by our trade 
association. In most instances, the FTC report shows that we 
do, in fact, comply with the placement of the logo, which is 
generally quite vivid, at least from my perspective. So that 
is, in fact, the goal.
    And I agree with Danny, that particularly in the case of 
music and words, standards can differ. One of the watch words 
of the First Amendment has been certainly with regard to 
obscenity discussions, which we all remember from law school, 
actually, many of us remember from law school, is community 
standards apply, and people can have different points of view 
in different communities, just as what's right for my 18-year-
old may be quite different than what's right for your 13- or 
14-year-old or, indeed, if you have an 18-year-old.
    I think the point of view is to give people appropriate 
information and not to market to children, and that's the 
position that we take.
    To address your earlier question about standards, while the 
results may be different, I think Danny and I approach it the 
same way; just last weekend there was a release in question. I 
spent most of the weekend reading lyrics, which were lengthy, 
listening to music, and having discussions with the creative 
executive in charge of an album, the label executive in charge 
of that executive's group of releases, and colleagues of mine 
at the corporation before we decided to release a record.
    So we take this very seriously, and I've taken it seriously 
for the 17 years I've been in the entertainment business; I 
haven't just taken it seriously for the 5 days that I knew I'd 
be appearing before Congress.
    The Chairman. Mr. Moore, you wanted to make a comment?
    Mr. Moore. Senator, our business is a little more complex, 
obviously, because we are interactive and it is visual, and so 
as a result the E.S.R.B. actually breaks our ratings into five 
separate ratings to inform parents.
    We have Early Childhood, ``EC'', which is suitable for ages 
three plus. Everyone ``E'', 6 plus. Teen ``T'', 13 plus; ``M'' 
Mature, 17 plus. On the very rare occasion that a title is 
befitting, we have ``AO'', Adults Only.
    But the challenge is that the descriptors below inform 
parents.
    But it brings me back to something that Senator Brownback 
was saying, is that we all wander around supermarkets. And this 
weekend I was in a supermarket at home in San Francisco, where 
I live, and I watched a woman study a cereal box, $1.99 cereal 
box for the nutritional value. And it strikes me if parents 
would spend as much time scrutinizing the entertainment diet of 
their child as they do the nutritional diet, many of these 
issues wouldn't occur today. Everything is there for them to be 
informed.
    Senator Brownback. I would disagree that everything is 
there for them to--
    Senator Dorgan. Let me tell you, as a parent, you can watch 
the most benign programming in the world and discover 
advertising that comes on during that programming pushing a 
whole range of other kinds of programming that in many ways is 
fairly disgusting.
    Again, let me say, the First Amendment gives people the 
right to produce these issues. The issue here is targeting 
inappropriate things to children. I think all of us agree 
that's inappropriate.
    Where it's happening, it ought to stop. And we can find 
mechanisms to stop it, we ought to use those mechanisms without 
resorting to censorship, and I think this kind of a hearing, as 
I appreciate very much the Chairman for calling it. As I 
indicated earlier, I introduced the first V-chip legislation in 
the Senate when Congressman Markey introduced it in the House 
because that empowers parents as well. I wish more parents used 
it. I want to empower parents.
    But I'll tell you, it's very hard sometimes. Turn on the 
radio. With what's happening in the concentration of radio 
these days, you've got something being run out of Texas 
someplace, or a thousand radio stations, and you're using words 
and various approaches on the radio that never used to be on 
the radio, and you've got your 11-year-old daughter in the car 
driving down the road with you, I'm horrified by it sometimes. 
And I bet Senator Brownback is as well.
    There are a whole series of standards that are of great 
concern, and I think parents all across the country express 
this concern.
    I will only say this: You're right. You travel around the 
world and you discover the influence of culture from--this pop 
culture--from this country especially, it's influence around 
the world. You can go deep in the mountain jungles of Nicaragua 
and find T-shirts on campesinos that come to the helicopter, 
and you'll find the influence of what the arts in this country 
have been.
    I'm somebody who supports the National Endowment for the 
Arts. Go to Europe and find out what's left of the 16th Century 
in Europe, its wonderful art and the legacy of that art.
    But by the same token, you can't do this in a vacuum. You 
can't say that what I do, I have the freedom to do and nobody 
else has anything to say about it.
    Families and parents in this country will have something to 
say, perhaps, hopefully through the marketplace some say. But I 
also hope, Mr. Zelnick, you've indicated several times now and 
I appreciate it and others have as well, that you will help us 
find ways to provide more information to parents to help them 
become good parents and be better parents in dealing with all 
of these influences that head the way the American families 
entertainment is.
    Sam, did you have anything?
    Senator Brownback. The Chairman stated that we would go 
into recess until 2:00.
    I would pose to each of you, though, is there anything, any 
image, any word that you could state now you would not put 
forth in music or a video game?
    Mr. Fischbach. Our products, cost between $40 and $50 and 
$60 retail, and when you talk about a child going in to buy the 
product, the child has to have some sort of parental consent in 
order to do that, because he's not going to be able to pull out 
a Mastercard or Visa or the $40 because he can't make it.
    So when you're looking at games and you're looking at 
informing them, we're doing all the things within our industry 
to inform the parent to make correct decisions, that parent is 
making the choice for the child.
    Senator Brownback. You're not helping them in some cases, 
but I understand we have a difference of opinion.
    But can any of you state anything that right now you would 
not----
    Mr. Goldberg. Ninety-nine percent of the things submitted 
to me I don't put out, many of them for moral reasons.
    Senator Brownback. Could you state anything there? Any 
word, any image, that you would not put out?
    Mr. Goldberg. I wouldn't state any individual word that no 
matter how it was used. There's no one word. Not in terms of an 
individual word.
    Senator Brownback. There's no image, pedophiles, anything 
you wouldn't?
    Mr. Goldberg. I didn't say that, Senator. That's not----
    Senator Brownback. No, but I'm asking you. Would you state 
here today any----
    Mr. Goldberg. Well, if somebody put----
    Senator Brownback. --image or any words that you would not 
put forward in music or video games?
    Mr. Goldberg. Any individual word?
    Mr. Fischbach. I think you have to look at the totality of 
the game and what it is, and I think that----
    Senator Brownback. It's only yes or no.
    Mr. Fischbach. --we make individual choices.
    Mr. Goldberg. Is there any individual word that I would bar 
from my label? No, there's no such individual word.
    Senator Brownback. Is there any image that you would create 
with the words, that you would create on video screen that you 
could say here today that we would not put forth?
    Mr. Fischbach. Yes, absolutely.
    Mr. Goldberg. Yes, absolutely.
    Mr. Fischbach. There are images we refuse to put out all 
the time, and there are also words that are offensive that we 
don't put out also.
    Senator Brownback. And what are those?
    Mr. Zelnick. You can't be specific about it, and certainly 
this isn't the forum to be specific about it. But I can tell 
you there's plenty of stuff that crosses my desk to which I say 
no.
    Senator Brownback. You cannot articulate anything of any 
words or any images in the country that you wouldn't do?
    Mr. Zelnick. Senator, I can articulate it easily and I can 
articulate it inside the company.
    Senator Brownback. Please.
    Mr. Zelnick. I'm not going to articulate in these chambers 
the basis for these artistic and moral and ethical decisions. 
It's inappropriate. The responsibility lies inside my company. 
It does not lie here. It's an inappropriate question.
    Senator Brownback. You wouldn't----
    Mr. Zelnick. But to your question, are there things we 
won't----
    Senator Brownback. It is not an inappropriate question----
    Mr. Zelnick. --put out?
    Senator Brownback. --and we've asked you----
    Mr. Zelnick. May I please finish?
    Senator Brownback. --for some time.
    Mr. Zelnick. Are there things that we will not put out? You 
bet there are. There are things we don't put out.
    Senator Brownback. And what are those?
    Mr. Zelnick. Things that we feel are offensive and cross 
the line and are no longer art.
    Senator Brownback. Can you describe any of that?
    Mr. Zelnick. I can describe in the way that I just did: 
They are offensive, they offend our consciences and we don't 
believe they're art.
    Senator Brownback. I take it the answer is ``no.''
    Mr. Zelnick. No, the answer is not ``no,'' Senator.
    Senator Brownback. Well, maybe you could write it to me and 
submit it, then, so that we could understand. What we've asked 
for some time is for a code of conduct for the industries, 
wherein you would articulate, here's a floor below which we 
will not go. We don't seem to have reached that yet. We're 
just--we're asking.
    Mr. Fischbach. I think as the floor changes and our culture 
changes----
    Senator Brownback. On this one here today we've had the 
marketing plans that have been put forward by a number of 
companies, so that's what we're trying to get at, and 
apparently we're still not quite there.
    Thank you all very much for coming here. We'll be in recess 
until 2:00.
    The Chairman. The hearing will come to order. We will 
reconvene. I would like to reconvene this afternoon.
    There's a vote going on on the floor of the Senate as we 
speak, and I expect other members to arrive shortly.
    Meanwhile, our fourth and final panel is Mr. Tom Diaz, who 
is the Senior Policy Analyst at the Violence Policy Center; Ms. 
Hillary Rosen, who's the President of the Recording Industry 
Association; Mr. Douglas Lowenstein, who is the President of 
Interactive Digital Software Association; Mr. Daniel 
Borenstein, President of the American Psychiatric Association; 
Dr. Donald Cook, who's the President of American Academy of 
Pediatrics; Mr. Jack Valenti, President of the Motion Picture 
Association, and Mr. Jeff McIntyre, President of the American 
Psychological Association.
    And I want to thank all of the witnesses for being here.
    Mr. Diaz.

         STATEMENT OF TOM DIAZ, SENIOR POLICY ANALYST, 
                     VIOLENCE POLICY CENTER

    Mr. Diaz. Thank you, Mr. Chairman.
    In keeping with some of the former autobiographical 
introductions, I'd like to say I'm the father of two, 
grandfather of one, a former gun nut, a former member of the 
NRA, and I may still be an expert pistol shot. But one thing I 
am not is President of the Violence Policy Center. I'm the 
senior policy analyst.
    The Chairman. I apologize, Mr. Diaz. We'll correct the 
record. Senior Policy Analyst at the Violence Policy Center. 
Thank you.
    Mr. Diaz. Thank you.
    The Federal Trade Commission's report on target marketing 
violent images to kids in the entertainment media is important, 
and we applaud your work.
    But we feel we should worry more about kids who are the 
targets of real bullets and not media images. We should worry 
at least as much about how easy it is for children to get real 
guns as how many pictures of guns they see, and we should worry 
twice as much about the gun industry's, to use a phrase from 
the FTC report, pervasive and aggressive marketing of guns to 
kids.
    So we urge that, along with looking at the entertainment 
industry's target marketing of violent images, you also 
investigate the gun industry's target marketing of real guns to 
kids.
    Senator Hollings said this morning that there have been 29 
hearings in the history of this Committee on the entertainment 
industry. There has never been a hearing in either house of the 
Congress on the gun industry as a civilian gun industry. There 
have been hearings on profit-making during wartime and on 
specific aspects, but never a hearing on the industry itself.
    We feel that America's parents should know what the gun 
industry big wigs are doing to sell real guns to their kids as 
much as what entertainment executives are doing to lure them 
into the movies.
    Movies and video games may inspire violent fantasies, but 
real killing happens when children get real guns. Sick dreams 
are one thing, but real guns turn violent fantasies into 
murder, and that is the core of our problem today.
    Even though the causes of violence by and against young 
people in America are complex, one single thread runs through 
youth violence, and that bloody marker is not movies, it is not 
video games, it is not competing cliques of jocks and nerds, it 
is guns.
    It is no accident that America's children are awash in 
guns. Kids have been in the gun industry's sights for a long 
time. We recoil at the blood of children shot down by firearms, 
but to the gun industry, children are the lifeblood of the gun 
industry, and it makes no secret about it.
    The gun industry has suffered declining demand for decades 
in its primary market, which is older white males. So gun 
industry executives have begun to target kids, along with--and 
you mentioned this this morning, Mr. Chairman--targeting blacks 
and Latinos.
    The gun industry is also doing that in marketing firearms.
    The gun industry has launched a children's crusade to 
enlist kids into the ranks of the gun culture. It has a well 
coordinated strategy, that is well documented, to recruit kids 
to guns, and gun makers, importers and dealers spend millions 
of dollars to implement that target marketing strategy.
    This crusade reflects an important fact, that except for 
tobacco, the gun industry is the only consumer product left in 
America that is not regulated for health and safety. The gun 
industry is truly the last and wildest bunch in America.
    I feel that if you investigated the industry and looked at 
how it's changed in, say the last 40 or 50 years, certainly 
from the time when I learned to shoot in the Boy Scouts in 
Mississippi, you will find that the mix of products that the 
industry sells has changed dramatically.
    In 1946, handguns made up 8 percent of the market; in 1994, 
they made up 54 percent of the market, and they now regularly 
make up about 50 percent of the market.
    This is a little toy Smith & Wesson puts out. It's a teddy 
bear that it sells through its marketing program. This teddy 
bear, under the existing law, is more heavily regulated than 
any of the firearms Smith & Wesson makes. If they put buttons 
on this, these little eyes, all of this is regulated as a 
consumer product, but the firearms Smith & Wesson makes are 
not.
    Here's another little cammie jumper that Smith & Wesson 
makes. It's called the Little Smith, all of this designed to 
recruit kids into the gun culture.
    Now if movies were truly the source of the epidemic of 
youth violence in America, we believe we'd see similar violence 
in other countries where the same films are shown but the 
record does not bear this out. I won't bore you with the 
details.
    Allusion was made to that this morning. But it's quite 
clear that the United States stands alone in terms of firearm 
related deaths. Among U.S. children, 14 years and younger, our 
firearms deaths are 12 times higher than the same rate among 
children in 25 other industrialized countries combined.
    American kids are not more evil than kids in other 
countries. The difference is not movies or cliques of jocks and 
nerds, the difference is guns. And we feel real progress cannot 
be made until we take on this industry, stop the easy access to 
firearms by children, and stop particularly, which is related 
to the FTC report, the gun industry's aggressive marketing of 
firearms to kids.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Diaz.
    [The prepared statement of Mr. Diaz follows:]

Prepared Statement of Tom Diaz, Senior Policy Analyst, Violence Policy 
                                 Center
    Thank you, Mr. Chairman, for the opportunity to present the views 
of the Violence Policy Center--a non-partisan, non-profit institute 
dedicated to the study of firearms violence in America--on the roots of 
violence among youth in this country. The Federal Trade Commission's 
report addresses one aspect of youth violence. However, it is crucial 
that we look at all facets of this issue, the gravity of which is 
beyond question.
    The horrible events at Columbine High School in Littleton, 
Colorado, last year snapped matters into focus for all Americans. 
Whether overall violence in our schools is up, down, or sideways became 
beside the point. No sane society can accept its children being gunned 
down in its very halls of learning. No caring society can accept a 
Columbine--much less a Columbine plus a Springfield, Oregon . . . a 
Jonesboro, Arkansas . . . a West Paducah, Kentucky . . . a Pearl, 
Mississippi, and more. These are merely the better known school 
shootings in the United States within the last three years alone.
    As horrible as these school shootings are, their deeper importance 
is as a warning signal of a pervasive problem festering in our society, 
the growing entanglement of children and firearms. In 1998, the last 
year for which data is available, 2,887 children--that is, young people 
18 years of age and under--were killed by firearms. That number of 
deaths, in a very ordinary year in America, is the equivalent of 206 
Columbine shootings.
I. We Must Address Easy Access to Guns as Well as Exposure to Violent 
        Images
    The causes of this epidemic of violence by and against young people 
in America are varied and complex. The FTC report addresses one of 
them. But one other single thread runs like a blood red marker through 
all of this youth violence. That bloody marker is not movies. It is not 
day care. It is not competing cliques of jocks and nerds, nor is it any 
of the score of other sophisticated ``reasons'' advanced to explain 
these shootings every time one occurs. The single constant factor is 
the unique availability of firearms to young people in the United 
States. Short of war, no other country in the world, and perhaps no 
other society in history, has given its children such unrestrained 
access to so many weapons capable of so much violence.
    Yes, our children are bombarded from infancy with images of violent 
behavior. These images--increasingly explicit and realistic in movies, 
videos, and computer games--may inspire actual violent behavior among 
some children and among some adults. But whatever deviant urges these 
images inspire would be much less lethal if our children did not have 
the ready access to firearms that our society indulges today.
    This raises fundamental questions for the policy debate you are 
engaged in. For example, which makes more sense? To try to change an 
entire culture's imaginative arts, to regulate its literature, and 
control its expressive freedoms? Or to more intelligently regulate the 
single thing that we know is involved over and over and over again in 
youth violence--the gun? Does it make sense to sacrifice real First 
Amendment rights while tiptoeing around putative rights under the 
Second Amendment, rights that the National Rifle Association and the 
gun lobby have grossly inflated?
    In short, we need to worry more about how easy it is for our 
children to get real guns than about how many pictures of guns they 
see.
II. The Gun Industry Actively Markets Firearms to Children and 
        Juveniles
    It is no accident that America's children are literally awash in 
guns. The gun industry has worked hard to make it that way. It pours 
millions of guns into our society every year and aggressively seeks to 
attract children to using those guns.
    We recoil at the blood of children shot down by firearms. But the 
gun industry sees children as the lifeblood of the firearms business.
    The hard economic fact is that the gun industry has been faced with 
declining demand for three decades in its primary gun-buying market--
older white males. So it has launched a crusade to recruit children 
(along with women and members of minority groups) into the ranks of the 
gun culture, what it euphemistically calls ``the shooting sports.'' The 
industry has exerted enormous effort to develop a well-coordinated 
strategy, and spends millions upon millions of dollars to implement 
that strategy by recruiting young people into its heavily armed 
children's crusade. It works hand-in-hand with the gun lobby and with 
gun fanzines, and exploits youth-oriented magazines and other outlets, 
to promote guns to children.
    The industry's primary objective is to recruit future customers to 
shore up its declining markets. It knows that a person exposed to 
firearms as a child is about three times more likely to buy guns as an 
adult than one who is not exposed to firearms. The industry and the gun 
lobby are also recruiting foot soldiers in the ongoing social and 
political debate about the proper role of and limits on firearms in our 
society.
    However, the gun industry's techniques are not restricted to simply 
conditioning children to be future customers as adults. It goes so far 
as to market firearms directly to kids who are too young to buy them. 
The attitude of the industry is illustrated by a 1993 column by Grits 
Gresham in the National Shooting Sports Foundation's S.H.O.T. Business 
(distributed free of charge to manufacturers, dealers, and 
distributors) which observed:

    LKids can't buy guns, you say? Well, yes and no. It's true that 
most students from kindergarten through high school can't purchase 
firearms on their own. But it's also true that in many parts of the 
country, youngsters (from preteens on up) are shooting and hunting. Pop 
picks up the tab. Whether they continue to shoot and hunt depends, to a 
great degree, on whether or not the desire is there. That's where you 
come in. Every decade there is a whole new crop of shining young faces 
taking their place in society as adults. They will quickly become the 
movers and shakers. Many of them can vote before leaving high school, 
whether they do or not. You can help see that they do. . . . Are you in 
for the long haul? If so, it's time to make your pitch for young minds, 
as well as for the adult ones. Unless you and I, and all who want a 
good climate for shooting and hunting, imprint our positions in the 
minds of those future leaders, we're in trouble. . . . \1\
---------------------------------------------------------------------------
    \1\ National Shooting Sports Foundation, SHOT Business (September/
October 1993).

    Gresham raised here a key point in the industry strategy. Kids 
cannot buy guns legally, but they can possess them. This is a 
reflection of the patchwork nature of gun laws regulating firearms 
possession by juveniles. (These loopholes are addressed below in this 
statement). The industry has continuously and vigorously taken 
advantage of these facts to market guns to children.
    What about guns in movies, television, and electronic games? Here 
we know that gun companies work to place specific firearms in such 
media in order to stimulate demand for that product. This should not 
surprise us. If so-called ``product placement'' works for makers of 
cigarettes (Lark in License to Kill) computers (Apple in Independence 
Day), running shoes (Reebok in Ghost and Nike in Forrest Gump), 
automobiles (BMW in Goldeneye), and alcoholic beverages (Budweiser in 
Flipper and Tin Cup), it should also work for guns.
    The gun industry at least thinks that product placement works. One 
gun maker, Smith & Wesson, was reported to have paid International 
Promotions, a specialized product placement firm, to help get its guns 
into the movies. But such direct expenditures seem to be the exception. 
Instead, gun companies work closely with so-called ``prop houses'' to 
cast their guns as costars.
    The president of a Long Island company that supplies weapons and 
pyrotechnics to movies told me last year that gun manufacturers 
``sometimes reach out to us if they have a new product and they think 
it will be hot.'' He said that manufacturers are ``more than happy to 
provide us with what we need, or loan or give us a discount.'' A gun 
handler at the premier gun prop house in California confirmed this 
practice in a separate conversation with me. ``Manufacturers express 
their wish to us,'' he said. ``We work closely with most everybody. We 
have a long term relationship that works both ways.''
    The list of specific guns and gun makers that have benefitted from 
their few minutes on the screen range from Smith & Wesson's .44 Magnum 
Model 29 revolver, wielded by Dirty Harry, to Glock and Beretta 
semiautomatic pistols in several score movies, to so-called ``Desert 
Eagle'' Magnum pistols and endless varieties of shotguns and assault 
weapons.
    Don't think that children attracted to guns do not know the brand 
differences among guns. They do.
    Having said all that, however, the key point remains this: 
fascination with a given gun may be disturbing to some in the abstract. 
But it becomes lethal when children can get their hands on the guns 
that turn violent fantasies into mass killings. That is the core of our 
problem today.
    If you think the problem has gone away, think again. According to a 
1999 CDC survey of youth risk behavior, one out of every 20 high-school 
students (grades 9 thru 12) had brought a gun to school with them in 
the past month. And for males, it was even higher, nearly one out of 
every 10 had brought a gun to school. Kids know where to get the tools 
to implement their fantasies. We make it easy for them.
III. Kids' Access to Guns is the Result of Lack of Regulation of the 
        Gun Industry
    It is not a coincidence that the gun industry feels free to market 
its products to children. Nor is it a coincidence that the gun industry 
has completely restructured the civilian gun market in the last 50 
years from one that was primarily sporting and recreation oriented to 
one that now emphasizes what an NRA official candidly admitted is the 
``Rambo factor''--high-capacity, high-powered handguns and military 
style assault weapons, designed and primarily useful for engaging other 
human beings in mortal combat.
    The reason is simple. Unlike every other consumer product in 
America, excepting tobacco, firearms are not regulated for health and 
safety. This deadly immunity from basic product health and safety 
regulation is the biggest loophole in our nation's gun laws. It is 
worth noting that no committee of either house of Congress has ever 
held a hearing on the civilian gun industry--although it has closely 
scrutinized the health and safety aspects of the tobacco industry, the 
entertainment industry, the airline industry, and even the funeral 
industry.
    Free from such basic regulation and rudimentary scrutiny, the gun 
industry over the last three decades has deliberately enhanced its 
profits by increasing the lethality--the killing power--of the products 
it sells. Lethality is the nicotine of the gun industry. Time and time 
again, the gun industry has injected into the civilian market new guns 
that are specifically designed to be better at killing and, not 
incidentally, to jolt lagging markets to life. The industry has relied 
on greater ammunition capacity, higher firepower in the form of bigger 
caliber, increased concealability, or all three to create demand for 
its products.
    We regularly see the effects of this orgy of increased killing 
power all around us. Here are just a few of many examples:

  <bullet> The explosion of handguns. In 1946, handguns accounted for 
        only 8 percent of the civilian gun market in the United States. 
        In 1994, they accounted for 54 percent! No wonder that more 
        than two out of three of the one million Americans who have 
        died by firearms violence since 1962 were killed with handguns, 
        the perfect tool for killing a human being at close range.\2\ 
        In 1998, handguns were used in 82 percent of the homicides by 
        juvenile offenders who used a firearm. Overall, 63 percent of 
        victims of homicides by juvenile offenders were murdered with a 
        handgun that year.
---------------------------------------------------------------------------
    \2\ Data sources: Fatal Firearm Injuries in the United States 1962-
1994. Violence Surveillance Summary Series, No. 3, 1997. Deaths: Final 
Data for 1995, Deaths: Final Data for 1996, Deaths: Final Data for 
1997. National Vital Statistics Report.

  <bullet> The growth of military-style semiautomatic assault weapons. 
        In the 1980s the gun industry introduced military-style assault 
        weapons to the civilian market. The consequences of the 
        unrestrained marketing of such killing machines can be seen in 
        events like the massacre at Columbine High School, where the 
        teenaged gunmen, armed with an assault pistol and a high-
        capacity carbine, were able to engage an armed security guard 
---------------------------------------------------------------------------
        in a gun battle--and win!

  <bullet> The promotion of ``pocket rockets.'' The gun industry has 
        lately been heavily promoting what it calls ``pocket rockets,'' 
        which are very small (palm-sized) high caliber, easily 
        concealed handguns. These guns are ideal for stuffing into a 
        child's back pack. After self-proclaimed white supremacist 
        Buford O. Furrow, Jr. shot up the North Valley Jewish Community 
        Center in Granada Hills, California, last year, he used a Glock 
        pocket rocket to kill a postal employee, who happened to be a 
        Filipino-American, as a ``target of opportunity.''\3\
---------------------------------------------------------------------------
    \3\ ``Alejandro Mayorkas Holds Briefing With Others on the Furrow 
Case,'' FDCH Political Transcripts (August 12, 1999).

    It happens that proposed legislation, S. 534, the Firearm Safety 
and Consumer Protection Act, would help solve this problem by ending 
the gun industry's exemption from basic health and safety regulation.
    There are other loopholes in existing law that help make it easier 
for children to get access to firearms.
A. Lack of Uniform Age Restrictions Makes it Easier for Kids to Get 
        Guns
    Federal law on guns and youth is currently a patchwork. There are 
no uniform federal restrictions on sales to minors or possession of 
guns by minors. Instead, the law treats different classes of guns 
differently and contains major loopholes, even within the restrictions. 
For example:

    L1. Handguns. Federal law prohibits anyone under 21 years old from 
buying a handgun from a federally licensed firearms dealer (FFL). And, 
nominally, federal law prohibits handgun possession by anyone under the 
age of 18 years old--although the law contains numerous exemptions.\4\ 
In other words, federal law has created a dangerous ``grey zone'' 
regarding youth and handguns. It is illegal for anyone under the age of 
21 to buy a handgun at a gun store. But it is legal for those over the 
age of 18 to possess a handgun. This leaves a dangerous gap for youth 
between the ages of 18 and 21.
---------------------------------------------------------------------------
    \4\ The Violent Crime Control Law Enforcement Act of 1994 made it 
illegal for any person, with some exceptions, to sell or transfer a 
handgun or handgun ammunition to anyone under 18 years of age. The 
exceptions include: temporary transfer or possession or use to a 
juvenile in the course of employment, target practice, hunting, safety 
instruction, and with prior written consent of the juvenile's parent or 
guardian who is not prohibited from possessing a firearm; juveniles who 
are members of the Armed Forces of the United States or the National 
Guard; a transfer by inheritance of title (but not possession) to a 
juvenile; and, possession taken in self-defense or for other persons 
against an intruder into the residence of a juvenile or a residence in 
which the juvenile is an invited guest. It also made it unlawful for a 
juvenile, with the same exceptions, to possess a handgun or handgun 
ammunition.

    LThis gap is reflected in the following statistic: In 1997, 18-, 
19-, and 20-year-olds ranked first, second, and third in the number of 
gun homicides committed. Of all gun homicides where an offender was 
identified, 24 percent were committed by 18- to 20-year-olds.\5\ And 
handguns are the most common type of gun recovered from the 18-to-20 
age group (85 percent according to the ATF's 1998 Youth Crime Gun 
Interdiction Initiative report).
---------------------------------------------------------------------------
    \5\ The Department of the Treasury and The Department of Justice, 
Gun Crime in the Age Group 18 to 20 (Washington D.C.: U.S. Government 
Printing Office, 1999), 2.

    L2. Long Guns (Shotguns and Rifles) Federal law prohibits juveniles 
under 18 from buying rifles and shotguns from FFLs. But possession of 
shotguns and rifles by juveniles is regulated solely at the state 
level. In many states it is legal for juveniles to possess both 
shotguns and rifles, although other states regulate or prohibit 
possession of either of these long guns. A 1998 poll conducted by The 
New York Times and CBS News found that 15 percent of American youths 
owned their own gun.\6\
---------------------------------------------------------------------------
    \6\ Laurie Goodstein, ``Teen-Age Poll Finds a Turn to the 
Traditional,'' The New York Times, 30 April 1998, A1.
---------------------------------------------------------------------------
B. Gun Show Loophole Makes it Easier for Kids to Get Guns
    One of the most notorious loopholes is that which allows sales of 
all kinds of firearms at gun shows without background checks. These 
sales are made by so-called ``hobbyists,'' many of whom are for all 
intents and purposes, other than a purposively blind federal law, 
simply unlicensed gun dealers. This loophole allowed a friend to buy 
two shotguns and one rifle for Columbine shooters Klebold and Harris 
with no background check. The friend later testified before the 
Colorado legislature that she would not have bought the guns if she had 
had to face a background check.
    The Senate has passed an amendment that would close this gun show 
loophole. The Lautenberg amendment to S. 254 (juvenile justice 
legislation) would require that all firearm sales at gun shows be 
transacted by a federally licensed firearms dealer. The licensed dealer 
would be required to conduct a background check of the purchaser and 
keep records of the gun sales carried out at the gun show.
IV. International Comparisons Show Access to Guns is the Key
    If movies were truly the source of our epidemic of youth gun 
violence, we would expect to see similar results in other countries 
where the same films are shown. But the record does not bear this 
premise out. In fact, the contrary is true. The devastating effect on 
American children of the ready availability of firearms is graphically 
illustrated when one compares gun death rates among U.S. children to 
children who live in other countries.
    The international gross sales of violent movies is often close to 
and in some cases (such as True Lies and Die Hard: With a Vengeance) 
greater than U.S. gross. Although children in other countries are 
exposed to the same movies, videos, and music as American children, a 
recent CDC study showed that the overall firearm-related death rate 
among U.S. children aged 14 years and younger was nearly 12 times 
higher than among children in 25 other industrialized countries 
combined!
    The firearms homicide rate in the U.S. was nearly 16 times higher 
than that of the other 25 countries. The firearms suicide rate was 
nearly 11 times higher than that of the other 25 countries. The 
unintentional firearms death rate was nine times higher than the other 
25 countries.
    The difference is not movies or cliques of jocks and nerds. The 
difference is guns. The United States has unparalleled rates of firearm 
ownership. According to one study published in Popular Government, 
Winter 2000, 28 percent of households in the United States have 
handguns. The next highest rate of handgun ownership is Switzerland 
with 12 percent. Most industrialized countries such as Canada and 
France have handgun-owning households in the low single digits (4.8 
percent for Canada, 5.5 percent for France).
    In summary, Mr. Chairman, the Violence Policy Center strongly 
believes that little real progress can or will be made on the problem 
of juvenile violence unless and until we grapple directly with the 
underlying problem of easy access to firearms by children and the 
promotion of the gun culture by the gun industry itself.

    The Chairman. Ms. Rosen, welcome.

       STATEMENT OF HILLARY B. ROSEN, PRESIDENT AND CEO, 
                 RECORDING INDUSTRY ASSOCIATION

    Ms. Rosen. Thank you, Mr. Chairman.
    I am president of the RIAA. It's the trade association of 
America's record companies. Our membership is as diverse as the 
music they produce.
    I speak for thousands of people in the recording industry 
whose views on youth violence and culture are similar to this 
Committee's, not just informed by our industries, but by our 
families and our community.
    I am proud to be a member of an industry that has worked 
with artists to create the most diverse music in the world, 
with an amazing mix of musical styles, lyrical imagination, and 
cultural experiences.
    And we're also proud of our 15-year track record of helping 
parents make informed choices about their kids' music 
listening.
    I'm not going to go on long. It's been a long hearing 
today, Mr. Chairman, and I obviously will associate myself with 
the remarks of Mr. Goldberg and Mr. Zelnick this morning. I 
promised I'd get them here, I didn't promise you'd agree with 
everything they said, Mr. Chairman.
    The Chairman. I think we've had a very good exchange of 
views.
    Ms. Rosen. I think so, too.
    I would ask that my full statement go in the record of the 
hearing.
    The Chairman. Without objection.
    Ms. Rosen. I have a couple of other things that I would ask 
be a part of this record as well, two white papers that we 
submitted to the FTC in their examination; a media coalition 
report called Shooting The Messenger, which I think informs the 
issues a lot about media and violence and a survey on what 
young people have been saying on this issue.*
---------------------------------------------------------------------------
    *The information referred to has been retained in the Committee's 
files.
---------------------------------------------------------------------------
    The Chairman. Without objection, it will be a part of the 
record.
    Ms. Rosen. I'd like to go to the FTC report with respect to 
music because, despite a lot of the fire, those who have read 
the report, will see that in terms of marketing, music really 
has been sort of unique.
    I don't want to minimize the importance that people place 
on the report, but the marketing of music really was not a 
significant issue in the FTC report.
    I think that the FTC findings can be summed up in a few 
sentences: Parents are satisfied with the industry's ratings 
system even though the FTC wasn't. Seventy-four percent of 
parents said that they were. And the majority of CDs that were 
stickered were also available in edited form.
    And as far as I can tell, there were really one or two 
instances of advertising in any place where there was a 
majority underage audience. So while there's a lot of things to 
be said for what's in the report, I think with respect to these 
different industries, they should be looked at with some 
detail.
    We also have a situation in the music industry that made 
the report's conclusions difficult, which is that since so much 
of the music available is available in an edited version, those 
three or four instances, the FTC found, where there might have 
been a younger teen audience that had a marketing plan aimed 
towards it, there's no mention of whether or not that was an 
edited version of the music available. Perhaps the FTC knows 
that, but that's not in the report.
    The principal and I think most accurate criticism in the 
FTC report, which I acknowledge, is that record retailers each 
handle the sale of stickered product to young people in 
different ways.
    Some simply don't sell any stickered products at all. Wal-
Mart and K-Mart are the known examples.
    Others will sell to most anybody. And then there are other 
retailers all along the line in between.
    I understand that this is viewed as an enforcement problem, 
but in reality there really is nothing that prevents or, in my 
view, can prevent retailers from determining their own policies 
based on their own local community standards for themselves and 
their customers.
    In any event, this really is something over which record 
companies don't have nor, to be honest, do we want to have any 
control over.
    The FTC recommends three things that all of our industries 
should do: The first is establish guidelines for advertising. 
We've done that.
    The second is increase compliance at retail. They're going 
to make their own decisions.
    And the third is increase parental awareness of the label. 
Seventy-seven percent of parents, the FTC acknowledges, are 
already aware of it, but we can do a better job and we will do 
that.
    The Chairman. You're saying that the first recommendation 
you're doing? The first recommendation of the FTC?
    Ms. Rosen. We have advertising guidelines. The FTC report 
actually----
    The Chairman. You have--all right, go ahead. Please.
    Ms. Rosen. Well, I'll explain that.
    The FTC report acknowledges that their conclusions came out 
prior to seeing revised guidelines that they then appended to 
their report.
    The Chairman. They weren't reviewing your guidelines, they 
were reviewing your practices, your marketing practices.
    Ms. Rosen. Well, what I'm saying is they found four 
instances, and they were all vague.
    The Chairman. It's not their conclusions, but we'll have 
that.
    Ms. Rosen. I understand. Is my time up or do I get a few 
minutes?
    The Chairman. No, no. Go ahead. Please.
    Ms. Rosen. Okay. A survey by Garin-Hart shows that there is 
somewhat of a disconnect about generations on this issue of 
culture. They surveyed parents who said that they thought that 
the most influential thing for their children were television, 
movies, the Internet, games, their friends, other things like 
music.
    When they asked children the same thing, the number one, 
two, and three most important influences that teenagers said 
was their parents, their teachers, and their churches. And so I 
am sympathetic with parents who feel that their children are no 
longer under their moral authority or control, but in practice 
is just not that case.
    I think that ascribing too much power to culture is a 
danger for all of us, and that the test of commitment to our 
young people is not how strongly each of us in this discussion 
can defend our papers or defend our positions but whether 
everybody is working together to address the complex issues, 
the truly complex issues that our young people are facing 
today.
    I think we've done a good bit of our part of that in the 
last 15 years, and I'm confident that we'll do so in decades to 
come.
    Thank you.
    The Chairman. Thank you, Ms. Rosen.
    [The prepared statement of Ms. Rosen follows:]

 Prepared Statement of Hillary B. Rosen, President and CEO, Recording 
                          Industry Association
    I am President and CEO of the Recording Industry Association of 
America. RIAA is the trade association of America's record companies. 
Our membership is as diverse as our music.
    I speak for thousands upon thousands of people in the recording 
industry. Our views on youth violence and culture--just like those of 
Members of this Committee and others who testify before it--are not 
informed by their professional capacities alone.
    They are informed by our dreams for our own kids--our concerns 
about our community--and our commitment to our country.
    We are proud to be members of an industry who work with artists to 
create the most diverse music in the world filled with a multitude of 
musical styles, lyrical imagination and cultural experiences. And we 
are also proud of our 15-year track record of helping parents make 
informed choices about their children's entertainment.
    Throughout that period, the issue of how entertainment affects 
children has wandered back and forth between the headlines from the 
back pages. But we have been consistent.
    Today, as the issue finds itself back on the front pages again, we 
are proud to speak with you just as authoritatively and every bit as 
passionately as we have for each of the last 15 years.
    Today, Mr. Chairman, I want to explain how the recording industry's 
system works, how it has been improved and attempt to specifically 
address some of the FTC's criticisms.
    I am somewhat hampered in the latter task. The public or Members of 
this Committee may not realize this but while some (including this 
Committee's staff) were apparently briefed on the report a few weeks 
ago Mr. Chairman, we only received it two days ago. The FTC had over 
one year to do all of its analysis, compile a hundred page report and a 
250 or so page annex with thousand of footnotes containing significant 
detail and assumptions and we have had 48 hours to look at it before 
this hearing.
The Recording Industry's Voluntary Program
    The premise of our system is to balance an artist's right of self-
expression with a parents' need for information to make choices based 
on their children's individual situation and their own values.
    In 1985, we reached agreement on that approach with the National 
Parent Teacher Association and the Parents Music Resource Center. 
Within months, music releases with explicit lyrics, whether about 
violence or sex, were identified.
    I should add that despite the emphasis at these hearings on 
recordings with explicit content, they comprise a relatively small 
proportion of our industry's output and the themes and language 
contained in all of our music is a part of today's society.
    In an average retail store with 110,000 titles, about 500 will 
carry the Parental Advisory logo. That's less than one-half of one 
percent of that store's total inventory. And the major labels produce 
clean versions of nearly all recordings that carry the logo.
    And let me assure you, Mr. Chairman, that this industry is a very 
tough customer. Recently a story in The New York Times carried this 
headline: ``Recording Industry's Strictest Censor Is Itself.''
    Is this system perfect? Of course not. Even if it had been, 
entertainment is a constantly evolving industry.
    So where our system was imperfect, we have tried to improve it. 
Where entertainment media evolved, we have tried to adapt to them.
    Some thought we hadn't gone far enough--that parents couldn't spot 
the advisory easily.
    So in 1990, we established a uniform, universally recognizable 
Parental Advisory logo. It is one inch by a half-inch on cassettes and 
CD jewel boxes.
    We have launched extensive marketing campaigns to educate both 
parents and retailers about the system.
    With the advent of the Internet, we recently created standards for 
applying the Parental Advisory logo to online sales.
    We worked with retailers to use the logo in the way they feel best 
squares with their own values and needs. Some retailers, for example, 
chose not to sell recordings carrying the Parental Advisory logo to 
minors. We cooperate with this decision.
    Indeed, we welcome it as an indication that this system is working 
precisely as we intended it--by giving people the information they need 
to make their own decisions based on their own values.
    Our most recent attempt to fine-tune this system will take effect 
just over two weeks from now, on October 1, with the implementation of 
RIAA's new guidelines for the Parental Advisory label.
    The revised guidelines cover the following areas.
    First, they provide uniform standards to guide a label and artist 
in deciding whether to apply the Parental Advisory logo. They advise 
that this decision be made by weighing contemporary cultural morals. 
They clarify that the logo should be applied to single-track recordings 
when they are commercially released as well as full albums.
    Second, these guidelines indicate that the Parental Advisory logo 
should be applied in all advertising of a recording that carries the 
logo.
    Finally, we created Internet guidelines for the first time. These 
guidelines call for a specific display of a parental advisory logo for 
on-line sales. The Parental advisory should be visible from the catalog 
pages all the way through to the shopping basket.
    Today, the recording industry's system has taken root in the public 
mind and the popular culture. They are instantly recognized. And 74% of 
parents say they are effective.
So What Did the FTC Find?
    From what I can tell, the FTC's findings can be summed up in few 
sentences. Parents are satisfied with the industry's rating systems to 
the extent that 74% said so, but the FTC is not. The majority of CD's 
that carried the sticker were also available in edited form. As far as 
I can tell, there was one--I repeat one--specific incident of a 
television program where this music was advertised with a majority 
under 17 years of age audience and three more that were questionable. 
Hardly a sweeping industry condemnation. Indeed, since our guidelines 
are only voluntary and have never contained any age specific 
restrictions, there is nothing wrong with these companies leaving the 
decision to parents to determine what their kids should own.
    There were a few instances where an album was seemingly marketed to 
younger teens (the actual specifics are not in the report) although 
since the FTC report does not delineate whether or not those albums had 
edited versions available, it is impossible to draw the conclusion that 
younger teens were subjected to anything that might have been 
inappropriate.
    The report also says that all of its conclusions were reached prior 
to having the revised guidelines issued by the RIAA, which addresses 
these concerns.
    The principle and most accurate criticism in the FTC report with 
regard to music is that record retailers each handle the sale of 
stickered product to young people in different ways. Some don't sell 
any stickered product at all and others will sell to most anyone. I 
understand that this is viewed as an ``enforcement'' problem but in 
reality, there is nothing that prevents retailers from determining 
their own policies based on their own local community standards for 
themselves and their customers. In any event, it is not something over 
which record companies have or want to have any control.
    The FTC recommends three things that all of the industry should do:

    L1. Establish guidelines for advertising--we have

    L2. Increase compliance at retail--retailers make their own 
decisions

    L3. Increase parental understanding of the label--77% of the people 
have said that they are aware but we can always do more education
Music Is Just Music
    Those whose concern for our children is most sincere have the 
greatest interest in ensuring the problem violence is tackled at its 
real source. And Mr. Chairman, music recordings are not that source.
    I wish it were possible to alter depression or anger through 
musical lyrics. If it were, you would see a flood of songs urging kids 
to seek help.
    But the American Academy of Child & Adolescent Psychiatry lists 14 
signs to look for in a suicidal violent child. Music choices are not 
among them.
    The Committee will hear today from experts who posit a correlation 
between violent behavior and explicit lyrics. That is to say that both 
occur at the same time--that some youth who listen to music with 
explicit lyrics also behave violently.
    I leave it to people whose expertise in psychology and psychiatry 
exceeds my own to pontificate on the subject but there simply are no 
factual correlative studies. We have done the research. In fact, so has 
the FTC. They said so in this report.
    Indeed, the best evidence is experience, and experience in this 
case is clear. Behind me, Mr. Chairman, are two charts. One shows music 
sales rising by 4% between 1994 and 1999, and the other shows violent 
crime among youth falling 27% over the same period. They are not 
related and that is the point.
    Another statistic that is not on a chart but is well know to any 
elected official is that voting among young people is at an all time 
low. I have spent much of my career encouraging young people to get 
involved in the political process. To stand up for their future and to 
talk to politicians about issues they care about. But young people are 
a smart and cynical bunch today. They don't like it when their culture 
is attacked even when it is in the guide of corporate responsibility.
    A bipartisan survey by Garin-Hart Research and American Viewpoint 
showed this disconnect among the generations on the issue of culture. 
When parents were asked what most influenced their kids, they said, 
television, movies, the Internet, games, music and their friends. When 
teenagers were asked, they said overwhelmingly, parents, teachers and 
their church were the most important influences on their lives.
    I am sympathetic with parents who feel that their children are no 
longer under their moral control. But it just isn't the case.
    When we take culture that we don't understand and ascribe power and 
motivation to it that is well beyond how its audience receives it we do 
a disservice to young people. Young people who continue to need the 
guidance and leadership of adults in their lives. It is simply wrong to 
suggest that any government regulatory action can substitute for such 
involvement, particularly when it comes to art.
    This debate over music keeps coming back to the same thing. Despite 
all of the trappings and new ways to look at the issue, the fact is 
that some people just don't like the music. And that, is a freedom of 
expression issue.
    The Committee is concerned about violent and sexual lyrics. As a 
parent, so am I. But I want to apply my own values--the needs of my 
individual children--to decide what sources of entertainment are 
appropriate for them.
    If we attempt to apply any other standard, no bonfire will be tall 
enough to burn the centuries of art that will have to go up in flames.
    If violence is inherently demeaning to culture, then Verdi's 
Rigolletto--in which he opens a sack to find it contains his dying 
daughter--belongs on the pyre. So does Strauss's Salome--in which Herod 
presents Salome with the head of John the Baptist on a platter. For 
that matter the recent Dixie Chicks song where a wife exacts revenge 
for an abusive spouse by poisoning his food is in theory equally 
violent. A new Steve Earle song talks about a death row killer and his 
crimes and the value of life and death.
    Incidentally, nobody has asked for an advisory label on those CD's.
    I fully understand those who with utter sincerity feel there is a 
difference between rap lyrics and grand opera or country music. But 
there really isn't.
    But remember that these artists were criticized in their day. So 
were others like them, from Picasso to Stravinsky, Flaubert to James 
Joyce, Charlie Chaplin to Lenny Bruce to George Carlin to Imus--were 
also dismissed in their time. Classics are rarely recognized in the 
momentary heat of controversy.
    And remember that the distinction between high art and the low road 
is deeply rooted in individual values and perspectives.
    For each person who believes rap lyrics portray a foreign world, 
there is another who finds them deep and powerful because that world is 
all too real.
    And above all, we must remember this: In our country, expression is 
not required to pass any test of validity, or even propriety, to be 
both permitted and protected.
    After all, the test of whether America allows free speech is not 
whether it grants freedom to those with whom we mildly disagree. It is 
whether we protect the freedom of those whose views--and language--make 
us apoplectic.
    Still, I testify today in a spirit of confidence and cooperation--
because I speak here as both an executive and a parent.
    I care as deeply and passionately about my own children as I know 
you do about your own. So do my colleagues in the recording industry, 
from artists to executives.
    The real test of commitment to our youth is not how strongly each 
participant in this discussion can defend its positions or papers, but 
whether every party can work together to address the complex blend of 
challenges facing our children.
    The last 15 years have proven that we can. And I am confident that 
we can do so for decades to come. Thank you.

    The Chairman. Mr. Lowenstein, I welcome you. And I want to 
emphasize the importance of your appearance here as we go 
through a change in America where more and more Americans are 
going to be attaining their entertainment and their music from 
the Internet and with new technologies. So we are especially 
pleased to have you here.
    Mr. Lowenstein. I'm honored to be here, Mr. Chairman.

          STATEMENT OF DOUGLAS LOWENSTEIN, PRESIDENT, 
            INTERACTIVE DIGITAL SOFTWARE ASSOCIATION

    Mr. Lowenstein. I originally wrote my testimony as a ``Good 
morning,'' and I'll change it to a ``Good afternoon.'' I'm 
thankful that I haven't had to change it to a ``Good Evening.''
    The Chairman. We're not through with you yet.
    Mr. Lowenstein. That's true.
    [Laughter.]
    Mr. Lowenstein. I am pleased to be here representing the 
Interactive Digital Software Association, the trade body which 
represents the computer and video game software industry in the 
United States.
    In reference to your point, our members are also the 
leading companies that will be the leading edge of publishing 
games for use on the Internet.
    Our industry generated $6.1 billion in retail sales in 
1999. In keeping with----
    The Chairman. Up from what?
    Mr. Lowenstein. Well, it you go back five years, just to 
give you a frame of reference, sales were about $3 billion. So 
sales have about doubled. In over the five-year period, they've 
been increasing on a double-digit rate pretty much every year.
    Like almost everybody who's been here today, I have two 
children--two daughters aged 18 and 14. I also lost an uncle 20 
years ago to gun violence. A mentally deranged individual 
acquired a gun, crossed state lines, shot my uncle in his 
office.
    So I don't take a back seat to anybody here when it comes 
to concerns about violence.
    I do want to start my remarks by dispelling some myths 
about our industry. One myth is that video games are played 
predominately by teenage boys. The fact is that the average age 
of computer and video game players is 28, and 61 percent of all 
game players are over 18, and 35 percent are over the age of 
36.
    And if you think back to Gregory Fischbach's comments, that 
reflects the maturing of a generation that began playing 
interactive entertainment 20 and 25 years ago.
    Better than 6 out of 10 of the most frequent users of 
electronic entertainment are also over 18.
    A second myth is that kids buy most video games on their 
own, and parents are out of the picture. In fact, both the FTC 
and the IDSA report that in at least 8 out of 10 cases in the 
case of the FTC, 83 percent, and as high as 9 out of 10 parents 
in the case of our own research, are involved directly in the 
purchase, in the buying of electronic entertainment.
    These games cost $40 to $60, typically. It is very 
different from the cost of a music CD or going to movies, and 
there's a fundamental economic issue that makes it much more 
difficult for children to buy Interactive entertainment.
    The FTC put it well when it said in its report: ``It is 
clear that most parents are able to play a watchdog role when 
they choose to do so. This level of parental involvement, 
either at the point of selection or purchase means that most 
parents have the opportunity to review rating information or to 
check the product packaging to determine whether they approve 
of the game's content.''
    A third and final myth is that most games are rated Mature 
and contain significant levels of violence. Once again, the 
facts say otherwise. The Entertainment Software Rating Board 
that you've heard discussed this morning, and even critics like 
Senator Joe Lieberman have complimented that system for its 
accuracy and reliability.
    Under the E.S.R.B., over the seven years it's been in 
business, and 7,500 titles it's rated, only 9 percent carry a 
Mature rating, indicating significant violent content.
    Seventy percent are rated for everyone over six.
    In 1999, only 100, 100 out of 1,500 video games released, 
were rated Mature, and they represented just five percent, five 
percent of the total sales to the video game industry last 
year.
    So far this year, of the top 20 best selling games, only 
two are rated Mature and 16 are rated ``E'' for everyone, the 
others are rated ``Teen.''
    As to an epidemic of Mature-rated advertisements bombarding 
kids, just 10 percent of all game ads placed in the 16 leading 
game magazines since February were for M-rated product, and 
virtually all were in magazines with a majority, or close to a 
majority, of readers over 17.
    In short, this industry has seen its sales double since 
1995, and the bulk of that growth has been fueled by consumers 
over the age of 18 and by games whose content has brought 
appeal.
    The video and PC game industry has a proven commitment to 
effective self-regulation and responding to concerns about the 
small number of our products that contain significant violence, 
from establishing the E.S.R.B., to creating an advertising 
code, to investing and promoting the E.S.R.B.
    You've heard about the PSA we did last year with Tiger 
Woods; other paid media efforts that we're committed to, 
efforts to encourage retailers to enforce our ratings.
    In recent days, mass market retailers such as KMart, Wal-
Mart and Target have all joined Toys ``R'' Us in enforcing the 
E.S.R.B. ratings, and we're very supportive of their 
commitment.
    Most recently, in September of 1999, the IDSA Board took 
the far-reaching step of asking the E.S.R.B. to create an 
Advertising Review Council. The ARC began operations in 
February by opening a dialogue with people in the publishing, 
game publishing and magazine business, and actually effectively 
began its operations in June.
    They will not only enforce new industry content standards 
covering areas such as violence, sex, and language, but also 
have expanded and more dedicated resources to enforce 
compliance with the ad code, including the anti-targeting 
provisions.
    Let me now very briefly turn to the FTC report.
    We appreciate the fact that the FTC complemented the 
comprehensiveness of our existing self-regulatory regime and 
IDSA's efforts to ensure its efficacy. I appreciate your 
comments this morning, Mr. Chairman, as well as the comments of 
Senator Lieberman and Congressman Hyde, who all made reference 
to our industry's efforts.
    It's clear, though, that the FTC did uncover individual 
company marketing plans that violate our longstanding industry 
guidelines, barring the marketing of games rated Mature for 
young users. We do not condone this conduct. And through 
initiatives such as the ARC, launched well before the FTC 
findings became public, we began taking steps to end such 
practices.
    Having said that, we do strongly disagree with the FTC's 
fundamental and arbitrary determination that game magazines, 
with what it calls a majority under 17 readership are not 
appropriate outlets for advertising.
    I just have about another 30 seconds, Mr. Chairman.
    The Chairman. Please take the time you need.
    Mr. Lowenstein. Thank you.
    We disagree with the FTC's standard that they use in their 
report. They also said web sites and TV shows that, by their 
definition, were quote, ``popular'' with teens, with kids, are 
similarly inappropriate outlets for advertising.
    Now I agree that placing an ad for a Mature-rated product 
in Sports Illustrated for Kids or Nickolodeon Magazine is 
improper, but we do not believe that ads and outlets that have 
some noteworthy percentage of young readers or viewers, but a 
substantial and perhaps even dominant share of older viewers is 
inappropriate.
    However, we are mostly in accord with the FTC's 
recommendations. In fact, we've already implemented most of 
them. I'll be happy to go into some detail if that would be 
helpful. And we will meet with the FTC and our industry to 
assess whether there are additional steps we can take to 
enhance our self-regulatory system. It's clearly not perfect. 
We have work to do.
    We have proven, though, that with or without the FTC, our 
efforts to enhance self-regulation are unwavering.
    Let me say in closing that we acknowledge our industry's 
obligation to market and label products appropriately. Clearly, 
the FTC has found and it's indisputable, this has not always 
been done, and we do not excuse these lapses, and we're 
committed to ending them.
    But the fact remains, as the FTC itself points out, the 
parents are almost always involved in getting purchases. They 
remain the first, last and best offense against children 
obtaining inappropriate products. Unfortunately, according to 
the FTC itself, 45 percent of parents who are aware of the 
video game rating system say they do not use it.
    Now I submit to you that no one has yet conceived of a law 
that can mandate sound parenting. I hope, though, we can all 
work together to ensure that consumers do use the tools 
available to them to make informed entertainment decisions.
    Thank you for your indulgence.
    The Chairman. Thank you.
    [The prepared statement of Mr. Lowenstein follows:]

   Prepared Statement of Douglas Lowenstein, President, Interactive 
                      Digital Software Association
    Good morning, and thank you for inviting me to testify today on the 
Federal Trade Commission's report on entertainment industry marketing 
practices. I am testifying today on behalf of the Interactive Digital 
Software Association\1\, the trade body representing U.S. video and 
computer game software companies. Our members publish games for use in 
the home. In 1999, the industry generated $6.1 billion in retail 
software sales. IDSA's 32 members account for 90% of the edutainment 
and entertainment software sold in the US.
---------------------------------------------------------------------------
    \1\ IDSA's members publish software only for the home. The arcade 
game business is a different sector with its own representatives.
---------------------------------------------------------------------------
    We believe the issues raised by the FTC, and its recommendations, 
deserve serious and open-minded discussion, both here in Congress and 
within our own industry.
    To that end, I would like to divide my testimony into three 
sections: first, a discussion offering some critical and important 
background about our industry, our markets, and our products; second, a 
review of self-regulatory initiatives we have taken over the years to 
ensure the responsible labeling and marketing of video and computer 
games to consumers; and third, comments on the FTC's findings and 
recommendations.
Industry Background
Majority of Game Players are Adults, not Kids
    First, let me address two of the great myths about the video game 
industry, to wit: 1) video games are played predominantly by teenage 
boys and 2) most video games are rated Mature and have significant 
levels of violence. Both are wrong.
    In fact, the primary audience for video games is NOT adolescent 
boys. According to research by Peter D. Hart Research Associates 
earlier this year, the average age of computer and video game players 
is 28 years old, and 61 percent of all game players are age 18 and 
over. A remarkable 35% of game players are over 35 years old, and 13% 
are over 50; 43% of the 145 million Americans who play computer and 
video games are women. IDSA's own consumer research reveals that 70% of 
the most frequent users of computer games and 57% of the most frequent 
users of video games are also over 18.
    Unlike other entertainment products, most newly released video 
games cost anywhere from $40-60. Thus, it's not surprising, when you 
add this to the fact that a majority of consumers are adults, that IDSA 
research finds that nine out of every ten video games are actually 
purchased by someone over 18. Furthermore, 84% of the kids who do buy 
games say they have the permission of their parents to do so. 
Similarly, in a survey completed by Peter Hart last fall, 83% of 
parents said they ``try to watch or play at least once every game that 
their child plays to determine whether it is appropriate.''
    Notably, the FTC's own survey confirms these findings. ``It is 
clear that most parents are able to play a watchdog role when they 
choose to do so . . . . According to parents' responses, even more 
parents (83%) are involved in the actual purchase transaction; 38% 
report that they usually purchase or rent the games, and another 45% of 
parents do so together with the child.''
    So any discussion of how our industry markets its products take 
into account the fact that a majority of those who buy and use our 
products are adults, not kids, so parents are still almost certainly 
going to be involved in the actual purchase. As the FTC said,

    L``This level of parental involvement, either at the point of 
selection or purchase, means that most parents have the opportunity to 
review rating information or to check the product packaging to 
determine whether they approve of the game's content.''

    This does not mean our industry does not have an obligation to 
market products responsibly and to label them accurately. But it does 
mean that parents are the first, last, and best line of defense against 
products that are not appropriate for their children.
70% Of Games Appropriate for Everyone; only 9% Are Rated Mature
    With the demographics of the industry changing rapidly, so too has 
the type and mix of products published by game companies. Contrary to 
popular perceptions, most games do not contain significant levels of 
violence. In fact, the video game rating system the industry 
voluntarily set up six years ago, and which Sen. Joe Lieberman has 
repeatedly praised, has rated over 7,500 titles of which only 9% carry 
a Mature rating. Seventy percent are rated for Everyone over six. In 
1999, only 100 out of 1,500 titles released were Mature games, and 
these represented just 5% of total sales.
    Not only are most games appropriate for everyone, but also most of 
the best sellers are not violent. For example, in the last six months, 
the top selling games have been Pokemon, Who Wants to be a Millionaire, 
SimCity 3000, and racing and skateboarding games. So far in 2000, only 
two of the top selling PC and video games are rated M, and 16 are rated 
Everyone. What this reflects is the fact that video games are now mass 
market entertainment and the range and diversity of products has 
widened, resulting in a substantial market for casual games like 
puzzle, board, and card games, and hunting and fishing titles, in 
addition to staples like racing, football, and action games.
    In short, this industry has seen its sales double since 1995. The 
bulk of that growth has been fueled by consumers over the age of 18 and 
by games whose content has broad appeal.
Commitment to Effective Self-regulation
    The video and PC game industry has been committed to effective 
self-regulation since the formation of the IDSA in 1994. We have 
consistently and continuously sought to respond to concerns about the 
small number of our products that contain significant violence, 
balancing our absolute commitment to creative freedom with our 
commitment to empowering consumers to make informed choices. We are 
guided by our belief that the ultimate responsibility for controlling 
the games that come into the home lies with parents--not industry, not 
Congress, and not federal or state governments. According to the FTC, 
45% of parents who are aware of the video game rating system say they 
do not use it. I submit to you that no one has yet conceived of a law 
that can mandate sound parenting.
Initiatives on Game Ratings
    In 1995, the IDSA created the Entertainment Software Rating Board, 
or ESRB, which uses teams of independent, demographically diverse 
raters to review each and every video game. ESRB issues ratings 
suggesting--and that is a key word ``suggesting'' but not dictating--
the age appropriateness of a title. In addition, ESRB ratings provide 
simple but clear information about the content that influenced the 
rating, such as animated violence, strong language, or suggestive 
themes. The philosophy underpinning the ESRB system is to give parents 
the tools to make informed choices, but not to attempt to dictate to 
them what is right for their families. At the same time the ESRB was 
created, IDSA voluntarily created an Advertising Code of Conduct 
requiring that the ratings and content information issued by ESRB be 
placed on packaging and in advertising. The Ad Code also contained a 
provision advising that ``companies must not specifically target 
advertising for entertainment software products rated for Teen, Mature, 
or Adults Only to consumers for whom the product is not rated as 
appropriate.''
    Starting in 1995, the ESRB maintained an active program to provide 
information on the ESRB to retailers and consumers. It established a 
toll free number which has logged millions of calls since its 
inception, created a multilingual web site where consumers can get 
information on the age and content rating of over 6,000 video games, 
and distributed millions of Parent Guides to ESRB Ratings to retailers 
and advocacy throughout the country, as well as to the Attorney General 
of Illinois.
    In 1997, recognizing the emergence of the Internet, the ESRB 
launched a new rating service called ESRB Interactive, or ESRBi. 
Through this service, ESRB offers companies the opportunity to rate 
their websites and video games distributed on line. More and more 
companies are now rating online games and game websites with ESRBi.
    In May 1999, in the weeks after the Columbine tragedy, I appeared 
before a hearing of this Committee chaired by Sen. Sam Brownback, and 
made a series of new commitments in response to renewed concerns about 
entertainment violence. Specifically, IDSA said:

    L1. it would launch a stepped up campaign to educate consumers 
about the rating system;

    L2. we would reach out more aggressively to retailers to encourage 
them to both increase the amount of rating information available in 
stores and enforce the ESRB ratings; and

    L3. we would examine industry advertising practices and explore 
ways we could address concerns in this area, both as to the content of 
ads and the targeting of these ads.

    We have redeemed every commitment made that day.
Consumer and Retailer Education and Enforcement
    Last fall, ESRB launched an extraordinary campaign to raise 
awareness and use of its ratings, with the centerpiece being a PSA 
featuring Tiger Woods urging parents to ``Check the Rating'' of games 
they buy. ESRB purchased advertising in major national publications 
with significant parent readership, such as Good Housekeeping, 
Parenting, and Newsweek. ESRB placed pull-out flyers in major parent-
oriented publications, such as Child Magazine. It redesigned its 
consumer brochures and distributed millions to leading retailer; and it 
reached out to leading national grassroots organizations with ties to 
schools and parents, such as Mothers Against Violence in America and 
the PTA seeking ways to partner with them to get the word out to 
consumers, especially parents, about ESRB ratings and how to use them.
    Furthermore, the IDSA sent letters to major national retailers 
asking them to make a commitment to consumers to use their best efforts 
not to sell Mature rated games to persons under 17, a step we had also 
taken in October 1998. As you know, Toys ``R'' Us was the first 
retailer to adopt this policy and in the last week KMart, Wal-Mart, and 
Target have done so as well. IDSA supports those efforts. We believe 
other retailers will soon follow suit.
    In addition to all these steps, the IDSA Board this past July 
renewed its commitment to another paid media campaign this holiday 
season to promote the ESRB, and offered to fund 50 percent of the cost 
of producing in-store educational materials on the ESRB for use by 
retailers.
    Yet another voluntary self-regulatory step came as a result of 
discussions that began at the White House Summit on Violence. The IDSA 
and ESRB completed an agreement with AOL in which AOL adopted the ESRB 
ratings as the standard for games on its service. ESRB and AOL have 
also formed a Task Force to promote the ESRB ratings with other leading 
Internet sites.
Initiatives on Advertising and Marketing
    In September 1999, the IDSA Board took the extraordinary and far 
reaching step of asking the ESRB to create a new Advertising Review 
Council (ARC) within the ESRB. The ARC is empowered both to ensure that 
all advertisements by those who use ESRB ratings adhere to strict 
content standards covering such areas as violence, sex, and language, 
and to enforce compliance with all other provisions of the industry ad 
code, including the anti-targeting provision. In addition, the IDSA 
shifted responsibility for the ad code and its enforcement from the 
association to the new ESRB ad council, and provided a major increase 
in resources to support expanded staffing and more aggressive 
monitoring and enforcement of advertising standards. This initiative 
was undertaken long before the FTC report was completed, and reflected 
our own judgment that our industry needed to revamp and step up our 
approach to monitoring and enforcing our advertising standards. The ARC 
unit began operations February 1--coincidentally the cutoff date by the 
FTC's of its monitoring effort--and one of its first successes was 
convincing virtually every top game enthusiast magazine--the primary 
advertising vehicle for our industry--to adopt the ARC principles and 
guidelines as their own. In addition, Ziff-Davis, IDG, and Imagine, the 
three top publishers of game magazines, sit on the ARC Board of 
Directors. Since February, ARC has been meeting extensively with IDSA 
members to educate them on the ad code and ensure compliance.
The FTC Report
    We appreciate the fact that the FTC described our industry's 
overall self-regulatory program as ``the most comprehensive of the 
three industry systems studied by the Commission'' and that it 
recognized that ``it is widely used by industry members and has been 
revised repeatedly to address new challenges, developments, and 
concerns regarding the practices of our members.'' The FTC also pointed 
out that quite the opposite of standing by idly, we have been 
aggressive in seeking compliance with our standards. As it put it, ``to 
its credit, the IDSA has taken several steps to encourage industry 
members to comply with'' the industry's various ratings and advertising 
requirements. Also perhaps lost in the hubbub over the report is the 
recognition by the FTC that the independent rating system used by the 
video game industry ``appears to be helpful to those parents who 
actually use it'' and that a majority of these parents say it does an 
excellent or good job in advising them on the levels of violence in our 
products.
    In this regard, Peter Hart completed a new survey this past July 
seeking to gauge whether consumers themselves believe that ESRB ratings 
are accurate. The research involved mall-intercept interviews with 410 
adults nationwide, including 246 parents who were shown videotapes of 
game clips and asked to rate them based on the ESRB standards. The 
survey found that ``in 84% of all instances, games are rated equal to 
or less strictly than the official ESRB rating.'' Hart found that the 
ESRB is ``twice as likely to be more conservative than the public'' in 
rating decisions. With respect to the content descriptors, the survey 
found ``participants are generally in agreement with the ESRB on 
violence descriptors, and in instances in which there is disagreement, 
they are usually less strict than the ratings board.'' In short, the 
ESRB ratings are reliable and effective.
    It is clear, though, that the FTC uncovered individual marketing 
plans that indicate that some of our members, in violation of long 
standing industry guidelines, planned to market, and may have marketed, 
games rated for Mature users to young people. Let me make it clear to 
this Committee that the IDSA does not condone or excuse the marketing 
of Mature rated products to persons under-17 and, indeed, we condemn 
it. As I noted, six years ago and long before the recent outcry over 
media violence, we ourselves voluntarily created an advertising code of 
conduct, which contained an anti-targeting provision.
    But it also must be pointed out that we have some legitimate 
business disagreements with the FTC's analysis of industry practices 
and the impression the report conveys of our industry's markets and 
marketing. Thus, let me take a moment to address several facts ignored 
by the FTC.
    According to statistics collected by the ESRB's new Advertising 
Review Council, since February 1, 2000, the 16 leading game enthusiast 
magazines, noted by the FTC as the primary vehicles for industry 
marketing, ran a total of 1,830 ads for games. Of these, only 188, or 
about 10%, were for Mature rated product. The most M-rated ads in a 
single issue was 7, and typically, each issue contains only 3 or 4 ads 
for Mature rated products. This relative paucity of ads for M-rated 
product reflects the fact, as I pointed out earlier, that M-rated games 
are actually a small portion of the overall game market both in total 
releases and retail sales. The question of whether those ads should or 
should not appear in these publications is a fair point of discussion, 
but let's all understand that any suggestion that companies are 
flooding consumers with ads for Mature rated product is simply not 
accurate.
    One of our major quarrels with the FTC report is the apparent 
assumption that magazines with what it calls ``a majority under-17 
readership'' are not appropriate outlets for advertising of Mature 
rated games, and that websites or TV shows that are ``popular'' with 
kids are similarly inappropriate outlets for advertising Mature 
product. We agree that placing an ad for a Mature rated product in a 
publication that is clearly and squarely aimed at young readers, such 
as Nickelodeon or SI for Kids, is a violation of our standards. But we 
reject the FTC's operating assumption that ads in publications that 
happen to have some noteworthy percentage of young readers, but a 
substantial and perhaps even dominant share of older readers and users, 
is inappropriate. We do not think it is unreasonable for a company to 
place an ad for a game in GamePro magazine where the average age of the 
readers is 18. We do not feel it is inappropriate to place an M ad in 
Electronic Gaming Monthly where, according to the magazine, 59% of its 
readers are 17 and over. The FTC, by the way, in some apparent zeal to 
make its point, says its standard for review for game magazines are 
those with a majority of subscribers age 17 or under. The problem with 
this, of course, is that an M-rated game is appropriate for persons 17 
and older so the FTC should have used an under 17 cutoff. It's hard to 
know how this skews its data but it is clear that in the case of EGM, 
it makes a dramatic difference.
    In the same vein, FTC's use of a ``popularity'' test to rule out 
other advertising outlets is restrictive and commercially impractical. 
``Popularity'' is not much of a bright line standard. Using this 
guidepost, virtually every game website and sites like mtv.com would be 
off limits to advertisers of Mature products even though a majority of 
viewers may be in the appropriately targeted demographic group. This is 
unreasonably restrictive.
    It's easy to lose sight of the fact, in all the rhetoric and 
political posturing, that video games are entertainment products for 
people of all ages, that they are constitutionally protected products, 
and that at best, the scientific evidence linking them to harmful 
effects is weak and ambiguous at best, and at worst does not exist. 
Indeed, that's exactly what The Government of Australia concluded last 
December after an exhaustive evaluation of all the available research 
on violent video games.
    The Australian Government report concluded: ``After examining 
several attempts to find effects of aggressive content in either 
experimental studies or field studies, at best only weak and ambiguous 
evidence has emerged. Importantly, these studies have employed current 
games or concerned contemporary young players who presumably have 
access to the latest games. The accumulating evidence--provided largely 
by researchers keen to demonstrate the games' undesirable effects--does 
indicate that it is very hard to find such effects and that they are 
unlikely to be substantial.''
    I know this Committee will hear testimony from some medical groups 
announcing that the debate is closed, but these groups make the 
unscientific leap of treating video games as parallel entertainment to 
TV and films even as they acknowledge that there is little research to 
support the claim that video games are harmful. As Jeff McIntyre, 
Senior Legislative Assistant for the American Psychological Association 
said in The Baltimore Sun on June 26, 2000, ``Interactive media are so 
new, scientists are uncertain how they affect young people . . . We are 
not sure about it, we are real involved in getting research funded to 
get some ideas about that . . . The social community is really 
struggling with these issues.''
The FTC Recommendations
    While we do have some issues with the FTC findings, we are mostly 
in accord with its recommendations. In fact, in virtually every 
instance, IDSA has already implemented these recommendations, in some 
cases as many as six years ago. This does not mean our job is done. We 
will carefully review all of the recommendations, and will meet with 
the FTC, representatives of our industry, and advertising outlets to 
explore whether there are reasonable and practical ways to enhance the 
efficacy of our self-regulatory system.
    With respect to the specific recommendations and our position, the 
FTC recommends that:

    L1. Industries establish or expand codes to prohibit target 
marketing to children and impose sanctions for violations. IDSA 
Response: The FTC notes that the IDSA has ``crafted a code to address 
this issue.'' We did that six years ago. But in addition, a year ago, 
we recognized that our industry needed to take more proactive steps to 
address concerns about marketing as our industry grew and became more 
sophisticated. To that end, as I have mentioned, we created a new 
Advertising Review Council, or ARC, in the ESRB, increased both the 
funding and personnel dedicated to monitoring and enforcing industry ad 
guidelines. For the first time ever, ARC drafted and is implementing 
guidelines governing the content of game ads in such areas as violence, 
sex, and language. ARC took the additional step of linking compliance 
with the ad code to securing a rating. Thus, any company that gets an 
ESRB rating is legally obligated to comply with the ad guide and 
failure to do so could trigger a range of sanctions including 
revocation of the rating (which would force the product off the shelf) 
to legal action for trademark infringements to referring violators to 
the FTC or other appropriate agencies.

    L2. The FTC called for increased compliance with ratings at the 
retail level. IDSA Position: We have urged retailers for several years 
to take steps to uphold ESRB ratings at the point of sale. Last fall, 
we asked retailers to sign a Commitment to Consumers pledging to use 
their good faith efforts to restrict the sale of M-rated products to 
persons under 17. We are pleased that in recent weeks KMart, Wal-Mart, 
and Target have all joined Toys ``R'' Us in adopting restrictive sales 
policies and believe other retailers will follow suit in some manner.

    L3. FTC called on industries to include the reasons for the rating 
in advertising and product packaging and continue efforts to educate 
parents. IDSA Position: When ESRB created the video game rating system 
it included from the start information on both age appropriateness and 
content that influenced a rating. From the inception of the ESRB, 
companies have been required to put a content descriptor box on the 
back of packaging showing any content flagged by the ESRB as 
noteworthy. In addition, a year ago, the industry amended its ad code 
to require that the content descriptors be included in all print 
advertising. On the promotion front, we have been quite aggressive. The 
highlight was a PSA filmed for the industry by Tiger Woods last fall 
that was offered for play to every major TV network and every local TV 
station in the nation's top markets. In addition, ESRB took out paid 
ads in magazines such as Good Housekeeping, Parenting, and Newsweek to 
educate parents about the ESRB ratings. Most recently, our Board 
reaffirmed its commitment to a new paid media campaign this Fall, as 
well as offering to fund fifty percent of the cost of producing 
educational pieces for use by retailers in their stores.
Conclusion
    Mr. Chairman, I will not tell you our industry has been perfect 
either in its conduct or its implementation of our own standards. I 
will tell you we have shown a genuine commitment to the principle of 
informing consumers about the content of our products and regulating 
how these products are marketed. We have proven that with or without 
the FTC, with or without the heat of a presidential campaign, our 
efforts to continue to enhance our self-regulatory regime are 
unwavering.
    At the same time, we must acknowledge that we do live in a world 
where media is incredibly complex, where the Internet spans the globe, 
where consumers, young and old, have access to information in ways 
never before imagined. In this environment, it is simply not possible 
or realistic to create an air-tight system where young people do not 
hear about, or even obtain, games that are not appropriate for them. To 
the extent this occurs due to industry's unambiguous effort to target 
kids to buy M-rated products, it is not defensible. But to the extent 
it happens as a result of the information and media explosion flooding 
over all of us, it is unfair and unrealistic to point fingers.
    Where does this leave us? About where the FTC said when it 
commented on parents' awareness of the rating system. ``It is clear 
that most parents are able to play a watchdog role when they choose to 
do so . . . . [The] level of parental involvement, either at the point 
of selection or purchase, means that most parents have the opportunity 
to review rating information or to check the product packaging to 
determine whether they approve of the game's content.''
    In the final analysis, we all must work cooperatively to ensure 
that parents know about and make use of the rating systems. In a world 
where nearly half say they do not even pay attention to the efforts our 
industry already makes, it seems to me that is a goal we all can work 
towards.
    Thank you.

            STATEMENT OF DR. DANIEL B. BORENSTEIN, 
          PRESIDENT, AMERICAN PSYCHIATRIC ASSOCIATION

    Dr. Borenstein. Good afternoon, Chairman McCain and 
distinguished Members of the Committee. I am Dr. Daniel B. 
Borenstein, President of the American Psychiatric Association. 
Our 40,000 psychiatric physicians are dedicated to caring for 
those who suffer from mental illness and advocating for the 
mental health of adults and children. My testimony is on behalf 
of the American Psychiatric Association (APA) and the American 
Academy of Child and Adolescent Psychiatry (AACAP).
    We thank you for the opportunity to testify and for your 
commitment to children's health and well being. I ask that my 
full written statement be included in the record.
    The Chairman. Without objection.
    Dr. Borenstein. Parents today face the overwhelming burden 
of monitoring not only their children's television viewing, but 
also video games, interactive media and music. Our children are 
awash in a tidal wave of electronic violence. We are convinced 
that repeated exposure to entertainment violence in all its 
forms has significant public health implications. As documented 
by multiple studies, we know that video game play correlates 
with aggression. The case against violent interactive 
entertainment is building rapidly. Dr. Michael Brody, a noted 
children's media researcher says, ``the negative impact may be 
significantly more severe than that wrought by television, 
movies, or music.'' In the face of such data, we are alarmed 
and concerned about the FTC report findings that the industry 
is deliberately marketing this kind of violent entertainment to 
young children. (APA and AACAP support the recommendations in 
the FCC report.) I would like to comment specifically on the 
recommendation for an improved labeling and rating system. In 
1996, we declined to endorse the MPAA proposed rating system, 
deeply concerned it did not provide sufficient information to 
parents. Regrettably--regrettably--we are here again today 
because the media industry has not taken comprehensive, 
responsible steps to consistently and accurately identify 
violent content in its products, and continues to market 
violence as entertainment to children.
    We continue to strive for a much stronger and clearer media 
rating system. When parents buy cereal for their child, they 
look on the box to check the specific ingredients. But what 
goes into a child's mind is just as important as what goes into 
his stomach.
    Parents want to know what is inside the TV program or video 
game. They deserve clear and simple information. An effective 
media rating system should describe content as to language, 
sex, and/or violence. An informative, uniform guideline system 
will help parents decide what is appropriate for their 
children. Guidelines should not assume that children are 
incapable of understanding double entendres, nor assume that 
these situations are not harmful simply due to the child's 
chronological age. (We would be glad to work with the 
entertainment industry and others in strengthening the rating 
system.) APA and AACAP are not suggesting that entertainment 
violence is the sole, or even the most important factor 
contributing to youth aggression, anti-social attitudes, and 
violence. Family breakdown, peer influences, the availability 
of weapons, and numerous other factors all contribute to these 
problems. A public dialogue, parental involvement and clear 
information about media content through an effective ratings 
system are keys to enhancing the health and well being of 
America's children.
    We must help parents protect their children from violent 
programming in the same way we help parents protect their 
children from infectious disease.
    Mr. Chairman, on behalf of the American Psychiatric 
Association and the American Academy of Child and Adolescent 
Psychiatry, I thank you for the opportunity to testify. I will 
be happy to respond to any questions.
    The Chairman. Thank you. Could I ask the size of the 
membership of your organization that you speak for?
    Dr. Borenstein. Forty thousand members of the American 
Psychiatric Association. The American Academy of Child and 
Adolescent Psychiatry has 6,000 members.
    The Chairman. Thank you, very much. You make a very strong 
statement.
    [The prepared statement of Dr. Borenstein follows:]

  Prepared Statement of Dr. Daniel B. Borenstein, President, American 
                        Psychiatric Association
    Good morning, Chairman McCain and distinguished Members of the 
Committee. I am Dr. Daniel B. Borenstein, President of the American 
Psychiatric Association, the nation's oldest medical specialty 
organization which represents over 40,000 psychiatric physicians 
dedicated to caring for those who suffer from mental illness and 
advocating for the mental health and welfare of adults and children. My 
testimony is on behalf of the American Psychiatric Association (APA) 
and the American Academy of Child and Adolescent Psychiatry (AACAP).
    We thank you for the opportunity to testify on the impact of media 
violence on children and youth, and for your commitment to their health 
and well being. I ask that my full written statement be included in the 
record.
    Parents today face the overwhelming burden of monitoring not only 
their children's television viewing--now estimated at an average of 28 
hours a week--but also video games, other interactive media on the 
Internet and music. As a nation--we are awash in a tidal wave of 
electronic violence. Not long ago, one of my patients brought me this 
video game, and asked what the APA cold do to keep this material out of 
the hands of his 12-year-old son. And so I feel I am representing him 
today, as well as the APA and AACAP.
    Our organizations have been involved in the debate over media 
violence since the Surgeon General's Report issued in 1973. We are 
convinced that repeated exposure to entertainment violence in all its 
forms has significant public health implications. We know that video 
game play correlates with aggression, the primary emotional response to 
playing. While less research is available on the impact of violent 
interactive entertainment, the case against it is building rapidly. Dr. 
Michael Brody, a children's media researcher says that, ``Preliminary 
studies indicate that the negative impact may be significantly more 
severe than that wrought by television, movies, or music.'' In the face 
of such emerging data, we are alarmed and concerned about the recent 
FTC report findings that the industry is deliberately marketing this 
kind of violent entertainment to young children.\1\
---------------------------------------------------------------------------
    \1\ ``Marketing Violent Entertainment to Children: A Review of 
Self-Regulation and Industry Practices in the Motion Picture, Music 
Recording and Electronic Game Industries: A Report of the Federal Trade 
Commission'' September 2000. Federal Trade Commission Report. http://
www.ftc.gov/opa/2000/09/youthviol.htm.

---------------------------------------------------------------------------
    The FTC Report found:

  <bullet> 70% of the games studied by the FTC were marketed to 
        children ages 16 and younger despite ratings on the games that 
        indicated that they were suitable for those at least 17 years 
        old. 10 video game producers released documents to the FTC 
        indicating that boys younger than 17 were the primary or 
        secondary target audiences for mature-rated games.

  <bullet> Hollywood has systematically marketed violent, adult-
        oriented films, video games and music to children, using 
        popular cartoon shows and children's shows to do it.
    Also, a substantial body of research has demonstrated the 
association of violence or aggressive behaviors with repeated exposure 
to televised violence.\4\<SUP>,</SUP> \5\ Simply put, the more violent 
programming children view, the more likely they are to behave violently 
or aggressively. Children exposed to violence are also likely to fear 
being a victim of violence.
    The data are clear, convincing, and overwhelming.\2\<SUP>,</SUP> 
\3\<SUP>,</SUP> \4\<SUP>,</SUP> \5\<SUP>,</SUP> \6\ The repeated 
exposure to violent imagery desensitizes us to violence and greatly 
increases the risk that we will manifest violence in our own behavior. 
We must educate parents to the health risk of exposure to violent 
entertainment products in the same way we educate them to the health 
risk of exposure to infectious diseases.
---------------------------------------------------------------------------
    \2\ Bandura, A., Ross, D., & Ross, S. Transmission of aggression 
through imitation of aggressive models. Journal of Abnormal and Social 
Psychology, 1967, 63, (pp 575-582).
    \3\ Mediascope, Inc. (1996). National Television Violence Study 
Executive Summary 1994 1995. Los Angeles, CA: Author.
    \4\ American Medical Association. (1996). Physician Guide to Media 
Violence. Chicago, IL: Author.
    \5\ Singer, D.G., & Singer, J.L. Television viewing and aggressive 
behavior in preschool children: A field study. Forensic Psychology and 
Psychiatry. Annals of the New York Academy of Sciences, 1980, 347, (pp. 
289-303).
    \6\ National Institute of Mental Health. (1982). Television and 
Behavior: Ten Years of Scientific Progress and Implications for the 
Eighties Vol. 2: Technical Reviews. (p. iii) Rockville, MD: Author.
---------------------------------------------------------------------------
    In 1996, the Motion Picture Association of America presented a 
proposed television rating system to the American Psychiatric 
Association. At that time, both the APA and AACAP declined to endorse 
the rating system, deeply concerned it did not provide sufficient 
specific information to parents. Regrettably, it appears we are here 
again today because the media industry has not taken comprehensive, 
responsible steps to consistently and accurately identify violent 
content in its products and continues to market violence as 
entertainment to children in the face of voluntary industry guidelines.
    The American Psychiatric Association and American Academy of Child 
and Adolescent Psychiatry maintains their resolve to strive for a much 
stronger and clearer media rating system. When parents go to the 
supermarket to buy cereal for their child, they pick up the box and 
look on the side panel to check the ingredients. The label does not 
say, ``This package may contain some oats, may contain some rice, may 
contain some wheat, and it might be nutritious for you.'' Quite the 
contrary. Simply and precisely, the package indicates what is inside. 
In the same manner, parents want to know what is inside a TV program or 
a video game. They deserve the same clarity and simplicity of 
information. After all, what goes into a child's mind is just as 
important as what goes into his stomach.
    An effective media rating system should, in a relatively straight 
forward manner, communicate content issues as to language, sex, and/or 
violence. An informative, uniform guideline system will assist parents 
in making judgements as to what is appropriate for their children. 
Guidelines should not assume that children are incapable of 
understanding double entendres with sexual or violent implications, nor 
assume these situations are not harmful simply due to the child's 
chronological age.
    In addition to issues of content, the APA and AACAP are concerned 
about the process by which the ratings and content descriptions will be 
applied and reviewed. We would be glad to work with the industry and 
other organizations in assisting the entertainment industry in this 
endeavor.
    APA and AACAP are not suggesting that entertainment violence is the 
sole, or even most important factor contributing to youth aggression, 
anti-social attitudes, and violence. Family breakdown, peer influences, 
the availability of weapons, and numerous other factors all contribute 
to these problems. A public dialogue, parental involvement and clear 
information about media context through an effective ratings system are 
keys to enhancing the health and well being of America's children.\7\
---------------------------------------------------------------------------
    \7\ ``Joint Statement of Public Health Groups on Media Violence'' 
August 2, 2000. American Psychiatric Association, www.psych.org/
publicpolicy.htm.
---------------------------------------------------------------------------
    Mr. Chairman, on behalf of the American Psychiatric Association and 
the American Academy of Child and Adolescent Psychiatry, I thank you 
for the opportunity to testify before this Senate Committee. I would be 
happy to respond to any questions.

    The Chairman. Dr. Cook, welcome.

 STATEMENT OF DONALD E. COOK, M.D., FAAP, PRESIDENT, AMERICAN 
                     ACADEMY OF PEDIATRICS

    Dr. Cook. Thank you. Mr. Chairman, Members of the 
Committee, thank you for this opportunity to testify about the 
effect of media violence on the health of children and 
adolescents. As president of the American Academy of Pediatrics 
and as a practicing pediatrician for over 40 years from the 
state of Colorado, I am testifying today on behalf of the 
nation's pediatricians.
    For several decades, pediatricians have been increasingly 
concerned about media violence and its effect on the physical 
and mental health of children and adolescents. America's young 
people are being exposed to increasing amounts of extremely 
graphic violence through movies, video games, and popular 
music.

    Research

    Since the 1950s, more than 3,500 research studies in the 
United States and around the world have examined whether there 
is an association between exposure to media violence and 
subsequent violent behavior. All but 18 of these studies have 
shown a positive correlation between media exposure to violence 
and violent behavior.
    Children learn the ways of the world by observing and 
imitating. They cannot help but be influenced by the media. 
Exposure to media violence results in an increased acceptance 
of violence as an appropriate means of conflict resolution and/
or problem solving. Media exaggerate the prevalence of violence 
in the United States and the world and offer strong motivation 
to protect oneself by carrying a weapon and being more 
aggressive. Perhaps the most insidious and potent effect of 
media violence is to desensitize viewers to ``real life'' 
violence. The more realistic, comic, or enjoyable the media 
violence, the greater the desensitization felt by the children.

    Child Development

    Research in a variety of circumstances and settings has 
shown that the single strongest correlate with violent behavior 
in young children is previous exposure to violence. Before age 
8, children cannot discriminate between real life and fantasy. 
On-screen violence is as real to this group of children as is 
the violence they witness in their home or the community. From 
childhood's magical thinking and impulsive behavior, 
adolescents must develop abstract thought and social controls 
to prepare them to deal with adult realities. If this 
development process occurs in a violent environment, it can 
become distorted or changed. Media have a great potential for 
shaping the hearts, the minds, and the behavior of America's 
young people and we all need to understand and accept this 
potential very seriously.
    The causes of violence are complex. Entertainment is not 
the sole or even the most important factor contributing to 
youth aggression, antisocial attitudes and violence. Family 
breakdown, peer influences, community problems, the 
availability of weapons and numerous other factors may all 
contribute to these problems. But entertainment violence does 
contribute. It is an area of clear risk that we as a 
compassionate society can address.
    Entertainment media are a major industry in the United 
States and our number one export to the rest of the world. 
Media not only serve as educational tools, but also deliver 
powerful messages, messages of who we are, how we live and what 
we dream.
    Media are a powerful tool too that we should not use 
casually. As medical professionals, pediatricians want parents 
and the entertainment industry to understand that films, video 
games, music, TV programs and the Internet can have and do have 
powerful effects on child health and behavior. They can be used 
to teach wonderful, enlightening and entertaining lessons to 
children, but can also show graphically violent, cruel and 
terrifying images that can lead to aggressive behavior in some 
children.
    We invite the entertainment industry to join us voluntarily 
in our efforts to reduce youth exposure to violence, none of 
which has to do with bans, censorship or restriction on 
creative activities. We do want our children to be less exposed 
to the continual violence that pervades the media at this time. 
Though many producers and consumers of entertainment media 
express helplessness to change the flood of violence, the 
problem will best be solved through caring people in both 
communities deciding to reject media violence.
    In conclusion, we are all in this together and we should 
seek a collective solution. We are a society with great 
resources, economic and human. The entertainment industry can 
and should respond to the FTC report findings and stop or 
decrease the marketing of violence to our youth.
    Given the overwhelming body of research indicating the 
danger posed by media violence to the normal, healthy 
development of our human resources, we need to focus on 
nurturing and preserving those resources, our children and our 
nation's future. Thank you.
    The Chairman. Thank you, Dr. Cook. How many physicians do 
you represent?
    Dr. Cook. About 55,000, sir.
    The Chairman. And how long have you been in the practice of 
medicine?
    Dr. Cook. I have practiced for 44 years.
    The Chairman. We thank you for appearing here today.
    Dr. Cook. Thank you for asking.
    Senator Hollings. He ought to take a rest.
    [Laughter.]
    Dr. Cook. I always keep saying next year.
    The Chairman. We many times have special interests 
represented here before this Committee and that is 
understandable. What you and Dr. Borenstein represent I think 
should have enormous credibility with anyone who observes your 
testimony. And we thank you both for taking the time to be 
here.
    [The prepared statement of Dr. Cook follows:]

 Prepared Statement of Donald E. Cook, M.D., FAAP, President, American 
                         Academy of Pediatrics
    Good morning Mr. Chairman, Members of the Committee. Thank you for 
the opportunity to testify today about the effect of media violence on 
the health of children. My name is Dr. Donald Cook, president of the 
American Academy of Pediatrics. I am also a clinical professor of 
pediatrics at the University of Colorado School of Medicine, Denver and 
practice at the Monfort Children's Clinic in Greeley, Colorado. It is 
my pleasure to testify on behalf of 55,000 primary care pediatricians, 
pediatric medical subspecialists and pediatric surgical specialists 
dedicated to the health, safety and well-being of infants, children, 
adolescents and young adults.
    For several decades, pediatricians have been increasingly concerned 
about media violence and its effects on the physical and mental health 
of children and adolescents. America's young people are being exposed 
to increasing amounts of media violence through television, movies, 
video games, and popular music. Video game violence, children's 
cartoons, and music lyrics have become increasingly graphic. Action 
films depict anatomically precise murder, rapes and assaults and video 
games detail bodies being blown apart, splattering blood and body parts 
on walls and floor. One of this year's best-selling music CDs contains 
a song in which the protagonist lovingly puts his baby to bed and 
engages in a fight with the child's mother, which ends in him slitting 
her throat, her screams of fear subsiding in the gurgle of blood.
    On Monday, the Federal Trade Commission issued a report on the 
marketing of violence to children by the entertainment industry. As a 
pediatrician, I would like to present research on media violence and 
its effects on children and adolescents, examine the nature of child 
development, and show why entertainment violence can affect the health 
of some children.
Research
    Since the l950s, more than 3,500 research studies in the United 
States and around the world using many investigative methods have 
examined whether there is an association between exposure to media 
violence and subsequent violent behavior. All but 18 have shown a 
positive correlation between media exposure and violent behavior. Some 
findings:

  <bullet> Epidemiologists studying a broad array of factors associated 
        with violence, including poverty, racial discrimination, 
        substance abuse, inadequate schools, joblessness and family 
        dissolution, found that exposure to violent media was a factor 
        in half of the 10,000 homicides committed in the United States 
        the previous year.

  <bullet> Numerous studies indicate that a preference for heavy metal 
        music may be a significant marker for alienation, substance 
        abuse, psychiatric disorders, suicide risk, sex-role 
        stereotyping, or risk-taking behaviors during adolescence.

  <bullet> Research to date indicates that interactive media have an 
        even more potent and lasting effect on violent behavior than 
        passive media forms like television and movies. Several studies 
        have shown that after playing violent video games, children and 
        adolescents become desensitized to violence, have increased 
        levels of aggressive thoughts and behavior, and act hostile 
        toward others.

  <bullet> Studies designed to test the theory that experiencing media 
        violence leads to a catharsis, a reduction in actual aggression 
        due to the vicarious release of hostility, actually found 
        increased overt aggression because of lowered inhibitions after 
        experiencing media violence.

  <bullet> Meta-analysis, a process by which the results from many 
        different research studies are analyzed as a whole, shows that 
        the strength of the correlation between exposure to media 
        violence and aggressive behavior is larger than that of condom 
        non-use and sexually transmitted HIV, lead exposure and lower 
        I.Q., passive tobacco smoke and lung cancer or calcium intake 
        and bone mass, relationships which pediatricians accept as fact 
        and on which we routinely base preventive medicine.

    Children learn the ways of the world by observing and imitating--
they cannot help but be influenced by media. Exposure to media 
violence, particularly violence perpetrated by dramatic heroes or, in 
the case of video games, the children themselves, results in an 
increased acceptance of violence as an appropriate means of conflict 
resolution. Media exaggerate the prevalence of violence in the world 
and offer strong motivation to protect oneself by carrying a weapon and 
being more aggressive. Perhaps the most insidious and potent effect of 
media violence is that it desensitizes viewers to ``real life'' 
violence and to the harm caused its victims. The more realistic, comic, 
or enjoyable the media violence, the greater the desensitization--video 
games that reward killing with points and higher levels of play are 
using better graphics capabilities to increase the gore, showing 
spraying blood and mangled body parts, or to personalize games with 
digital images such as recognizable faces on victims.
    The etiology of violence is complex and multi-factorial. 
Entertainment violence is not the sole factor contributing to youth 
aggression, anti-social attitudes and violence. Family breakdown, peer 
influences, the availability of weapons, and numerous other factors may 
all play a part. But entertainment violence does contribute. The media 
are an area of clear risk that we, as a compassionate society, can 
address. Overwhelming scientific evidence has demonstrated that when 
young people are exposed to media violence, they learn aggressive 
attitudes and behaviors, develop fear of being victimized by a ``mean 
world'', and become desensitized to violence. We need to recognize 
these effects and take this knowledge into consideration when we choose 
the media our children will use.
Child Development
    Research in a variety of circumstances and settings has shown that 
the strongest single correlate with violent behavior in young people is 
previous exposure to violence. Before age 8, children cannot 
discriminate between real life and fantasy. On-screen violence is as 
real to them as violence that they witness at home or in their 
community. From childhood's magical thinking and impulsive behavior, 
adolescents must develop abstract thought and social controls to 
prepare them to deal with adult realities. If this development process 
occurs in a violent environment, it can become distorted. Media, with 
which children spend more time than with parents or teachers, have 
great potential for shaping the hearts, minds, and behaviors of 
America's young people--and we need to take this potential very 
seriously.
What Can Be Done?
    Today, 99 percent of American homes have a television and 87 
percent a VCR, 54 percent of children have a television and video games 
in their bedrooms, and watching videos is America's favorite leisure 
activity. The average American child consumes media for 6 hours and 43 
minutes each day, spending twice as much time each year with media as 
they do in school. Video games generate $10 billion in earnings a year, 
more than the motion picture industry. Children average 90 minutes of 
video gaming per day and fantasy violence games are the most popular 
among children from the fourth grade on. Given what we know through 
research, why is violence marketed to children? To quote Dr. David 
Walsh, author of Selling out America's Children, ``Violent 
entertainment is aimed at children because it is profitable. Questions 
of right or wrong, beneficial or harmful, are not considered. The only 
question is `Will it sell?' ''.
    Entertainment media are a major industry in the United States and 
our number one export to the rest of the world. The entertainment 
industry is not only economically important, but it carries powerful 
messages, messages of who we are, how we live, and what we dream. It 
represents the spirit and culture of America--to ourselves, to the 
world, and to history. It is a powerful tool, a tool that we should not 
use casually. As medical professionals, pediatricians want parents and 
the entertainment industry to understand that films, video games, 
music, television programs and the Internet can have powerful effects 
on child health. They can be used to teach wonderful, enlightening and 
entertaining lessons to children but also can show graphically violent, 
cruel, and terrifying images that can lead to aggressive behavior in 
some children and nightmares, fearfulness or other emotional 
disturbances in others.
    Free speech and open discussion of society's concerns protect our 
liberty. We do not want censorship, which is both unconstitutional and 
ultimately unsuccessful in a free society. However, as U.S. House of 
Representatives Speaker Dennis Hastert (R-Ill.) asserted, ``Free 
expression does not necessarily have to lead to moral chaos. Let us 
join together in finding ways to help parents raise their children to 
be good, productive citizens.'' We must approach the media and their 
potential health effects on children as a reality of contemporary life. 
With this in mind, we need to decide what sort of life we want that to 
be.
    Parents, health professionals, policymakers and the entertainment 
industry each bear some responsibility. For example, parents should 
ensure that their children are thoughtful, critical consumers of media. 
They should set content and time limits on media use, monitor and 
discuss the media their children consume, and take TVs and video games 
out of the children's bedrooms. Health care professionals need to 
recognize the effects of media on child health and ask about media use 
as part of their evaluation of health risks. Pediatricians should alert 
and educate parents when positive media opportunities arise, either 
educational or informational. Policymakers need to enforce and in some 
cases, strengthen laws and regulations that protect children as media 
consumers. They should increase the funding available for media 
research and support media education programs in American schools that 
have been demonstrated to be effective.
    Lastly, the entertainment industry needs to acknowledge that it is 
an important and powerful force in American society, one that affects 
all of us in many ways. Its products have both positive and negative 
effects on children and their health. Too often scientific research on 
the effects of media on children and adolescents is ignored or denied 
by some in the entertainment industry. Yet the leading medical groups 
in this country, including the American Academy of Pediatrics, American 
Medical Association, American Psychiatric Association, American 
Psychological Association, American Academy of Family Physicians, and 
the American Academy of Child and Adolescent Psychiatry--representing 
more than half a million health professionals--all echo the same 
conclusion. In July, these organizations issued a joint statement on 
the impact of entertainment violence on children. The conclusion, based 
on decades of research, is that viewing entertainment violence can lead 
to increases in aggressive attitudes, values and behavior, particularly 
in children. It is time for everyone in the entertainment industry to 
join us in protecting and promoting the health of our children.
    If the entertainment industry accepts our invitation, we can start 
talking about reasonable and practical solutions, none of which has to 
do with bans, censorship or restrictions on creative activities. For 
example, pediatricians in California volunteer their time to work with 
writers and producers in conveying child health issues accurately and 
appropriately in television shows and movies. We hope media producers 
will use the American Academy of Pediatrics' Media Resource Team's 
offer to serve as a resource for accurate information on pediatric 
medicine and child and family health and well-being. Many in the 
entertainment industry are parents, grandparents, aunts or uncles 
themselves. As individuals they care deeply about children and youth. 
We are simply asking them to take their personal values into the 
workplace as they pursue their business of selling movies, games and 
music. Though many producers and consumers of entertainment media 
express helplessness to change the flood of violence, this problem will 
only be solved through caring people--media producers and media 
consumers--deciding to reject violent media. As the entertainment 
audience, we must focus on what we want our young people to learn and 
how we want them to behave. To do so, we must support positive 
entertainment products and reject negative and dangerous media 
products. To extend the philosophy of a wonderful movie, Field of 
Dreams, ``If you do not come, they will not build it.''
Media Matters
    In order for children and adolescents to be protected from the 
damaging effects of media, they must learn to ``read'' and understand 
media messages for what they are, rather than passively accepting them 
at face value. If they are media literate, young people can consume and 
enjoy media, embracing positive content and rejecting negative, 
hurtful, or dangerous material. Media education teaches us to be 
selective, critical viewers who make informed choices and can evaluate 
and modulate media's effect on ourselves and on society.
    Media Matters, a national public education campaign launched three 
years ago by the American Academy of Pediatrics, helps pediatricians, 
parents and children become more aware of the influence that media have 
on child and adolescent health. Through lecturing at medical schools, 
speaking to families, visiting elementary schools, and addressing 
community groups, AAP members have been raising important issues of 
concern such as the media's relationship to violent behavior and 
aggression, substance abuse, obesity and poor body-image.
Conclusion
    Ultimately, we are all in this together and we should seek a 
collective solution. Parents, health professionals, the entertainment 
industry and policymakers have critical roles in discussing and 
addressing the increasing amount of media violence in society, 
particularly when it comes to the health of children and adolescents. 
We are a society with great resources, economic and human. We have been 
very successful at developing and preserving our economic resources. 
The American entertainment industry has plenty of creativity, 
innovation and vision. They can respond to the FTC report findings and 
stop the marketing of violence to our youth. They can make socially 
responsible entertainment and they can make money, preserving economic 
resources. Given the overwhelming body of research indicating the 
danger posed by media violence to the normal, healthy development of 
our human resources, we need to focus on nurturing and preserving those 
resources, our children and our nation's future.

    The Chairman. Mr. Valenti.

 STATEMENT OF JACK VALENTI, PRESIDENT AND CEO, MOTION PICTURE 
                     ASSOCIATION OF AMERICA

    Mr. Valenti. Before you start the clock ticking, Mr. 
Chairman, may I explain the absence of the movie executives 
which permeated this morning's session which I listened to and 
perhaps I could offer a response to that. Is that possible?
    The Chairman. Absolutely.
    Mr. Valenti. About a week ago, I did discuss with Mr. Buse 
and Mr. Crane of your staff about the hearing. The 13th was an 
inflexible date and I understand why that you could not move 
it. But at that time, we did not have the report and the report 
was not in our hands until 10 o'clock on Monday morning, the 
11th.
    Meanwhile, I got in touch with the people that your staff 
wanted to have invited. That is the heads of the motion picture 
divisions of each of the major studios. I got in touch with 
every one of them. One of them at this moment is in London with 
a worldwide meeting of his parent corporation. Another is in 
Australia for a long delayed meeting there. Another one is on 
maternity leave. Another is in the middle of an important 
meeting appointed to a Commission by the Governor of 
California. And I had one who would be here, Stacy Snyder. But 
at the last minute, she said she did not want to appear by 
herself.
    Later on, on Monday I think it was, I talked to Mr. Buse--
who by the way has been most forthcoming and I am grateful to 
Mark for being so hospitable in all of my clamorous demands. I 
told him that I lamented and I was sad about this. I felt 
deeply sorrowful about it. And I said if you would give us 
maybe five or six weeks' notice, I will produce in front of 
Senator McCain and whoever else is on the Committee.
    The Chairman. Five or six weeks' notice?
    Mr. Valenti. Well, that is what I told him, Mr. Chairman. 
And I said I would produce those people and I will. Now, I 
understand you want to have a meeting in two weeks and people 
will be there. But I want to say the fact that these people are 
not here is not because they are ducking and running. Because I 
told them that is impossible to do. It is because they 
literally had other things on their schedule that they simply 
could not erase.
    Now, having said that, you can start the clock if it is all 
right.
    The Chairman. Thank you, sir. Please proceed.
    Mr. Valenti. But I am glad to be in this meeting room and 
see so many of my friends and so few of my supporters I have 
asked Mr. Buse to give me a blindfold and cigarette and then I 
will be very happy. And I am glad Dr. Borenstein is here. 
Because as soon as this hearing is over, I am going to seek him 
out for professional counseling.
    This is a serious hearing and it should be responded to 
seriously. Let me tell you precisely what I pledge you I will 
do. And I think some of the people in this room like Senator 
Hollings and Senator Inouye know that in all my long years when 
I pledge something to a Senator or a Congressman or to a 
committee, I redeem that pledge. This is what I pledge you. I 
am immediately going to California tomorrow and begin a series 
of meetings with our studios in California to address seriously 
the three recommendations that have been made by the Federal 
Trade Commission which I think is an objective and non-strident 
report. And I also want to confer with my colleagues on the 
National Association of Theater Owners who are our partners in 
the rating system and who are responsible for enforcement. And 
we will from those meetings give you and your members a 
catalogue of what we intend to do. Though I think we are doing 
a lot right now.
    It appears from the report that some marketing people 
stepped over the line where reasonable becomes unacceptable. 
And I am talking specifically about 10 and 12-year-olds in a 
focus group. That is wrong. It is unassailably wrong. And there 
is no excuse to sustain it.
    But I wanted you to know that when we draw lines in the 
creative world, those lines are ill lit and hazily observed. We 
are not dealing here with Euclidian geometry where the formulas 
are explicit and pristine. We are dealing with the irregular 
passions of what I call subjective judgments. And I promise you 
and you know subjective judgments vary widely.
    I think this Committee ought to understand the rostrum 
which springs our movie rating system. All R-rated movies are 
not alike. You made mention of that today. And what I meant was 
not for marketing. I am talking about the range, the ``R'' 
range and the ``PG-13'' range and the ``PG'' range, the ranges 
within those categories. The ``R'' rating does not mean for 
adult only. That is the province of the NC-17 rating.
    What the ``R'' rating says is Mr. & Mrs. Parent, we are 
giving you an advance cautionary warning. We are telling you 
that before you take your children to see this movie--and 
children are admitted to R-rated movies if accompanied by a 
parent or adult guardian--before you do that, find out some 
more about this film. Because there may be some violence or 
sensuality, language or theme that you may not want your young 
children to see. Many parents take their children to R-rated 
films. Many parents allow other adults to take their children 
to R-rated films.
    So again, what the ``R'' rating says, it is an advanced 
cautionary warning. We are giving it to you in advance, Mr. & 
Mrs. Parent. But the decision making authority of whether or 
not your children enter that theater is yours and yours alone 
to make.
    Now, I happen to believe that the movie industry is 
probably more attentive to the needs of parents in this country 
than any other business enterprise. Now, let me count the ways 
when I say that. For almost 32 years, we have had a rating 
system that tells parents in advance cautionary warnings so 
that they can make judgments on their own about what movies 
they want their children to see or not to see. It is their duty 
to exercise that power and their duty alone. For almost 32 
years, we have been monitoring the reaction of parents to this 
movie rating system. We have a national survey that is taken 
every year since 1969 under strict market research protocols. 
Just two weeks ago, this latest survey was unveiled. Eighty-one 
percent of all the parents in this country with children under 
13 say this rating system is ``very useful'' to ``fairly 
useful'' in helping them decide what movies their children 
ought to see.
    Two things to glean from that. One, nothing lasts 32 years 
in this volatile marketplace unless it is providing some kind 
of a benefit to the people it aims to serve--in this case 
parents.
    And number two, I do not think that only a few members of 
Congress who have an 81 percent voter approval. It is a pretty 
high endorsement.
    Now, something else I think I ought to bring up. I know 
that--or maybe you do not know that is it not a fact that 
American movies are hospitably enjoyed and joyfully received by 
every nation, creed and culture on this earth. Is it also not a 
fact that American movie industry is viewed by expanding envy 
of every developed and undeveloped country on this earth.
    And finally, it is also the fact that the intellectual 
property returns to this country, billions of dollars in 
surplus balance of payments at a time when this nation is 
hemorrhaging from trade deficits. I think that needs to be 
brought to this Committee's attention.
    And finally, I really think the Congress ought to feel an 
immense pride in this unique creative asset and of the 
contributions that the movie people make to this nation's art 
and commerce and to being attentive to the needs of parents.
    Now, I am rather enchanted with what I am saying up here. 
But I am going to stop at this point and I thank you very much.
    The Chairman. Thank you, Mr. Valenti.
    [The prepared statement of Mr. Valenti follows:]

 Prepared Statement of Jack Valenti, President and CEO, Motion Picture 
                         Association of America
    The FTC Report is both objective and non-strident for which 
Chairman Pitofsky and his colleagues deserve much applause. The Report 
makes three recommendations, one, entertainment companies should not 
target the very young in their advertising, two, enforcement of ratings 
should be strengthened at the retail level and, three, more information 
should be offered to parents about ratings.
    It is my intention to meet one on one with each of my member 
companies, as well as the National Association of Theater Owners, so 
that we can address each of the FTC's recommendations.
    Do we make mistakes in the movie industry? Of course we do. We are 
not perfect, nor is anyone else, in public or private life. The person 
who declares himself to be innocent does so with reference to a witness 
and not his own conscience.
    Is it suitable to `target' very young children in advertising R-
rated films as reported in the FTC study of movie advertising. No, it 
is not. But if I have one regret about the Report it is this: It makes 
no claim to distinguishing between different kinds of movies for 
different audiences, nor does it specify why certain TV programs are 
certified by the FTC as ``youth oriented.''
    The FTC cites TV programs which it claimed ``were most popular 
among the under-17 group,'' such as Xena: Warrior Princess, and South 
Park. For example, Zena: Warrior Princess's audience is 77% ``18 and 
over.'' South Park's prime audience is 79% ``18 and over.'' Which means 
that the percent of audience ``under 17'' is quite small. Indeed of all 
the TV programs catalogued by the FTC as ``popular among teenagers,'' 
all of them (save one) have an ``18 and over'' audience ranging from 
79% to 63%. Therefore, with only one exception, not any of the cited TV 
programs, from which flows the FTC's charges, can by any stretch be 
labeled ``for under-17s.'' Yet, this description of ``popular for 
under-17s'' programs is the platform on which the FTC places much of 
its case and is at odds with the realisms of the TV marketplace. (One 
interesting item in the FTC citation of ``popular for under-17s'' is 
that the show which has the second highest under-17 audience of all the 
TV programs mentioned in the Report is WWF Wrestling! See Appendix 1 of 
the Report). A TV program with 70%+ viewers 18-and-over may attract 
young viewers under 17. The reality is that in a TV/cable/satellite 
landscape avalanched with available programming, it is well nigh 
impossible to exile young viewers from any of them.
    Perhaps marketing people stepped over that line where 
``reasonable'' becomes, to some people, ``unacceptable.'' But the 
location of that line, where what is right becomes wrong, is ill lit, 
hazily observed. Who among the critics has a magic surveyor's rod to 
precisely say ``this is the place where the line is drawn?'' We are not 
dealing with Euclid's geometry where the equations are pristine and 
explicit. Not at all. We are dealing here with the irregular passions 
of subjective judgments, which vary widely.
    Every creative work is brimming over with subjectivity. Each person 
who watches or reads or listens absorbs the essentials of that creative 
work through his or her personal prism. Therefore there can be no 
irretrievable finality about what is good and what is bad creatively. 
The nature of the human condition is that we don't all use the same 
gauge to measure music or paintings or poetry or novels or films or TV 
programs. What some account to be unwholesome and unworthy, others may 
judge to be innovative and inventive. There is no all-seeing, elite, 
self-designated authority in art, movies, music, literature, TV 
programs, etc. who can, with Olympian clarity, say ``this is suitable, 
this is not, this is alright, this is not.'' I believe that every 
citizen in this free and loving land understands with great clarity 
that the government cannot enter where the First Amendment stands 
guard, for that Amendment is the guarantor of the Constitution itself.
    In 1999, there was a total of 461 films released in the 
marketplace. Of this total, the seven major studios distributed 133 
films. Their subsidiaries (many of which operate with full creative 
autonomy) released 85, for a total of 218 for the major studios and 
their subsidiaries. The non-major distributors released 243 movies. Not 
all of these films merited the designation ``a very fine film.'' 
Between the idea and the finished print so much can go wrong and often 
does. And with so many movies entering the marketplace, is it not 
conceivable that some mistakes were made, in the script, in the actual 
production, in the distribution and marketing design?
    The Committee must understand the rostrum from which springs our 
voluntary movie rating system. Not all R-rated films are alike. We are 
not dealing here with bananas or canned beans. Some R-rated movies are 
`hard' R's, that is at the top of the R scale, and others are `soft' 
R's, at the bottom of the scale.
    Moreover, the ``R'' rating does not say ``for adults only,'' which 
is the province of the NC-17 rating. It plainly states that children 
are admitted to R-rated pictures if accompanied by a parent or adult 
guardian. Therefore, if children see or read an ad for an ``R'' film, 
it is not a violation of the rating system. Not at all. Many parents go 
with their children to ``R'' films. Other parents allow their children 
to see such a film with other adults. The ``R'' rating offers an 
advance cautionary warning to parents, with the clear understanding 
that the decision-making choice belongs to parents and parents ONLY.
    The men and women who inhabit the movie and television industry are 
mostly parents, who love their country and their community, who care 
deeply about their children, who work hard every day to teach their 
children God's commandments so that their future will be furnished with 
all the assets which provision the life of good and decent citizens. 
They try harder to be more attentive to the needs of parents than any 
other enterprise in the fifty states.
    Let me count the ways.
    For almost 32 years, through our voluntary movie rating system, we 
have been offering advance cautionary warnings to parents about 
individual films so that parents can more watchfully and carefully make 
their own decisions about the films they want their children to see or 
not to see. Only parents should have that power and it is their duty to 
exercise it.
    For almost 32 years, we have been monitoring parents' reaction to 
movie ratings. In the latest of annual surveys conducted by the Opinion 
Research Corporation of Princeton New Jersey, with 2,300 respondents, 
the rating system got an all-time high in parental endorsement.
    This year some 81% of all parents with children under 13 found the 
movie rating system ``Very Useful'' to ``Fairly Useful'' in helping 
them choose the films they want their children to see or not to see. 
Nothing lasts 32 years in this volatile marketplace unless it is 
providing a benefit to the people it aims to serve.
    Moreover we make ratings available to parents in many different 
locales. All advertising carries the rating and a legend that defines 
that rating category. We have web sites: (1) `filmratings.com' which 
allows a parent to get specific reasons for ratings, (2) 
`parentalguide.org' which offers to parents a guide to ratings systems 
for movies, TV programs, videogames and music, (3) `MPAA.org' gives 
specific reasons for ratings, (4) `Moviefone.com' gives specific 
reasons for ratings, (5) Weekly bulletins which catalogue movies rated 
that week along with reasons for the ratings are sent to magazine, 
newspaper and TV movie critics. Reviews of just about every movie 
released appear in publications and on television. There is no scarcity 
of ratings advice for parents. But we are going to try to do more.
    For almost 32 years the movie industry has been the only segment of 
our national marketplace, including all business enterprises, that 
voluntarily turns away revenues in order to redeem the pledge we have 
made to parents. No other non-entertainment American enterprise can 
make that statement.
    But the question before this Committee is one that has not been 
asked, and therefore not answered. The Question is: Is there a problem?
    Is it the moral decay which critics insist that entertainment 
inflicts on the American family? If the critics are correct then crime 
in America should be mightily on the rise. That has to be the 
melancholy result if the experts are right.
    Yet what the critics offer is vastly different from the facts. The 
latest FBI statistics reported last week revealed a 10% drop in crime 
last year. Crime is down all over the country, a decline which has been 
on a descending line over the past seven years, and is now at the 
lowest point since the FBI began recording detailed crime data.
    During the last five years there has been a 28% drop in juvenile 
crime! Today, 16/100 of one percent of all juveniles in this country 
are involved in serious crime though not necessarily convicted, and of 
that percentage almost half are recidivists, chronic criminals. That 
means that 99-and-84/100 percent of all juveniles are NOT involved in 
serious crime.
    Is it a fact that American movies and TV programs are joyously and 
hospitably received by every other country, creed and culture in the 
world? The answer is YES.
    Is it a fact that our movie and TV industry is viewed with 
expanding envy by every nation on this planet? The answer is YES.
    Is it a fact that intellectual property is America's greatest trade 
export, the largest jewel in America's trade crown, returning billions 
of dollars in surplus balance of trade while our nation bleeds from 
trade deficits? The answer is YES.
    Indeed the Congress should feel an immense pride in this unique 
American creative asset and the daily contributions of the movie and 
television industry to this nation's art and commerce and the endurance 
of its responsibility to American parents.

    To conclude:

    We are going to continue to honor our obligation to parents, an 
obligation which we publicly pledged to redeem almost 32 years ago. To 
this very hour we have demonstrably kept our promise.
    We are going to examine how we advertise and conduct research so 
that we do not deliberately seek out the very young in the promotion of 
``R'' rating films.
    We are going to work closely with the National Association of 
Theater Owners, our long-time partners in the voluntary movie rating 
system, to increase the effectiveness of ratings enforcement. I might 
add it is my judgment the theater owners have done and are doing a good 
job in a most difficult area.
    All this we pledge.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The Chairman. Mr. McIntyre.

  STATEMENT OF JEFF McINTYRE, LEGISLATIVE AND FEDERAL AFFAIRS 
          OFFICER, AMERICAN PSYCHOLOGICAL ASSOCIATION

    Mr. McIntyre. Thank you. Good afternoon, Mr. Chairman and 
Members of the Senate Commerce Committee. I am Jeff McIntyre, 
the Legislative and Federal Affairs Officer for the American 
Psychological Association. I am honored to be here to represent 
that group before you.
    I have years of work on children and the media as a 
negotiator for the development of a television ratings system, 
as an advisor to the Federal Communications Commission's V-Chip 
Task Force, as a member of an informal White House Task Force 
on Navigating the New Media, as a member of the steering 
committee for the upcoming Decade of Behavior Conference on 
Digital Childhood, and most importantly, as a representative of 
the research and concerns of the over 161,000 members and 
affiliates of the American Psychological Association.
    With the issuance of Monday's Federal Trade Commission 
report on the marketing of violence to children, we come to the 
heart of a matter long addressed by psychological research--the 
detrimental effects of the repeated exposure of children to 
violence.
    Foremost, the conclusions drawn on the basis of over 50 
years of research by American Psychological Association 
members--including the Surgeon General's report in 1972, the 
National Institute of Mental Health's report in 1982, and the 
industry funded, three-year National Television Violence Study 
in the 1990's--shows that the repeated exposure to violence in 
the mass media puts children at risk for:

  <bullet> increases in aggression;

  <bullet> desensitization to acts of violence;

  <bullet> Land unrealistic increases in fear of becoming a 
        victim of violence, which results in the development of 
        other negative characteristics, such as a mistrust of 
        others.

    If this sounds familiar, it is because this is the 
foundation upon which the public health community, in 
coordination with the leadership of Senator Brownback, issued a 
joint consensus statement on what we absolutely know to be true 
in the public health community regarding children's exposure to 
violence in the media.
    While the industry has sought refuge in obscure arguments 
over the semantics of methodological language, certain 
psychological facts remain well-established in this debate. As 
APA member Dr. Rowell Huesmann stated before this Committee in 
May of last year--just as every cigarette you smoke increases 
the chances that someday you will get cancer, every exposure to 
violence increases the chances that, some day, a child will 
behave more violently than they otherwise would.
    Hundreds of studies have confirmed that exposing our 
children to a steady diet of violence makes our children more 
violence prone. The psychological processes here are not 
mysterious. Children learn by observing others. Mass media and 
the advertising world provide a very attractive window for 
these observations.
    The excellent children's programming (such as Sesame 
Street) and the pro-social marketing (such as that around 
bicycle helmets) that exists is to be commended and supported. 
It is, however, the basic psychological principles in quality 
children's programming that raises the concerns here today. 
Psychological research shows that what is responsible for the 
effectiveness of good children's programming and pro-social 
marketing is that children learn from their media environment. 
If kids can learn the positive behaviors via this medium, they 
can learn the harmful ones.
    The role of ratings systems, in this discussion merits 
attention. The APA has supported valid efforts such as Senator 
Holling's ``Safe Harbor'' bill, and continues to advocate for 
more accessible content information to be made available to 
families. There continues to be consistent concern over the 
ambiguity and implementation of current ratings systems. It 
appears now that ratings systems are being undermined by the 
marketing efforts of the very groups responsible for their 
implementation and their effectiveness. That, Chairman McCain 
and Members of the Committee, is a significant lack of 
accountability and should be considered when proposals for 
industry self-regulation are discussed.
    Also undermined here are parents and American families. As 
the industry has shown a lack of accountability in the 
implementation of existing ratings system, parents have 
struggled to manage their families' media diet against 
misleading and contradictory information. (For instance, 
marketing a rated R film to children under 17.) While the 
industry has made some information regarding the ratings 
available, more information regarding content needs to be made 
more accessible. As with nutritional information, the content 
labeling should be available on the product and not hidden on 
web sites or in the occasional pamphlet.
    Generally speaking, most adults see advertising as a 
relatively harmless annoyance. However, advertising directed at 
children, especially at young children, that features violence 
generates concern. The average child is exposed to 
approximately 20,000 commercials per year (this is only for 
television and does not include print or the Internet). Much of 
this is during the weekend morning or weekday afternoon 
programming. Most of the concern stems not from the sheer 
number of commercial appeals but from the inability of some 
children to appreciate and defend against the persuasive intent 
of marketing, especially advertising featuring violent product.
    The recent Federal Trade Commission report heightens these 
concerns. Recently as a result of the ``Children's On-Line 
Privacy Protection Act,'' the Federal Trade Commission ruled 
that parents have a right to protect their children's privacy 
from the unwanted solicitation of their children's personal 
information. We would argue that, based on the years of 
psychological research on violence prevention and clinical 
practice in violence intervention, parents also have the right 
to protect their children from material that puts them at risk 
of harm. With the considerations in place for children's 
privacy, the precedent for concern about children's health and 
safety is well-established.
    In conclusion, parents have the right to not have their 
children specifically targeted by those selling violent 
product. Decades of psychological research bear witness to the 
potential harmful effects on our children and our nation if 
these practices continue. Chairman McCain and Committee 
Members, thank you for your time.
    The Chairman. Thank you.
    [The prepared statement of Mr. McIntyre follows:]

 Prepared Statement of Jeff McIntyre, Legislative and Federal Affairs 
              Officer, American Psychological Association
    Good morning Mr. Chairman and Members of the Senate Commerce 
Committee. I am Jeff McIntyre and am honored to be here to represent 
the American Psychological Association before you.
    I have years of work on children and the media as a negotiator for 
the development of a television ratings system, as an advisor to the 
Federal Communications Commission's V-Chip Task Force, as a member of 
an informal White House Task Force on Navigating the New Media, as a 
member of the steering committee for the upcoming Decade of Behavior 
Conference on Digital Childhood, and most importantly, as a 
representative of the research and concerns of the over 161,000 members 
and affiliates of the American Psychological Association.
    With the issuance of Monday's Federal Trade Commission report on 
the marketing of violence to children, we come to the heart of a matter 
long addressed by psychological research--the detrimental effects of 
the repeated exposure of children to violence.
    Foremost, the conclusions drawn on the basis of over 30 years of 
research by American Psychological Association members--including the 
Surgeon General's report in 1972, the National Institute of Mental 
Health's report in 1982, and the industry funded, three-year National 
Television Violence Study in the 1990's--shows that the repeated 
exposure to violence in the mass media puts children at risk for:

  <bullet> Lincreases in aggression;
  <bullet> Ldesensitization to acts of violence;
  <bullet> Land unrealistic increases in fear of becoming a victim of 
        violence, which results in the development of other negative 
        characteristics, such as mistrust of others.

    If this sounds familiar, it is because this is the foundation upon 
which the public health community, in coordination with the leadership 
of Senator Brownback, issued a joint consensus statement on what we 
absolutely know to be true in the public health community regarding 
children's exposure to violence in the media.
    While the industry has sought refuge in obscure arguments over the 
semantics of methodological language, certain psychological facts 
remain well established in this debate. As APA member Dr. Rowell 
Huesmann stated before this Committee in May of last year--just as 
every cigarette you smoke increases the chances that someday you will 
get cancer, every exposure to violence increases the chances that, some 
day, a child will behave more violently than they otherwise would.
    Hundreds of studies have confirmed that exposing our children to a 
steady diet of violence makes our children more violence prone. The 
psychological processes here are not mysterious. Children learn by 
observing others. Mass media and the advertising world provide a very 
attractive window for these observations.
    The excellent children's programming (such as Sesame Street) and 
pro-social marketing (such as that around bicycle helmets) that exists 
is to be commended and supported. It is, however, the basic 
psychological principles in quality children's programming that raises 
the concern. Psychological research shows that what is responsible for 
the effectiveness of good children's programming and pro-social 
marketing is that children learn from their media environment. If kids 
can learn positive behaviors via this medium, they can learn the 
harmful ones.
    The role of ratings systems in this discussion merits attention. 
The APA has supported valid efforts such as Senator Holling's ``Safe 
Harbor'' bill, and continues to advocate for more accessible content 
information to be made available to families. There continues to be 
consistent concern over the ambiguity and implementation of current 
ratings systems. It appears now that ratings systems are being 
undermined by the marketing efforts of the very groups responsible for 
their implementation and effectiveness. That, Chairman McCain and 
Members of the Committee, is a significant lack of accountability and 
should be considered when proposals for industry self-regulation are 
discussed.
    Also undermined here are parents and American families. As the 
industry has shown a lack of accountability in the implementation of 
the existing ratings system, parents have struggled to manage their 
families' media diet against misleading and contradictory information. 
(For instance, marketing a rated R film to children under 17.) While 
the industry has made some information regarding the ratings available, 
more information regarding content needs to be made more accessible. As 
with nutritional information, the content labeling should be available 
on the product and not hidden on websites or in the occasional 
pamphlet.
    Generally speaking, most adults see advertising as a relatively 
harmless annoyance. However, advertising directed at children, 
especially at young children, that features violence generates concern. 
The average child is exposed to approximately 20,000 commercials per 
year (this is only for television and doesn't include print or the 
Internet). Much of this is during the weekend morning or weekday 
afternoon programming. Most of the concern stems not from the sheer 
number of commercial appeals but from the inability of some children to 
appreciate and defend against the persuasive intent of marketing, 
especially advertising featuring violent product.
    The recent FTC report heightens these concerns. Recently as a 
result of the ``Children's On-Line Privacy Protection Act'', the 
Federal Trade Commission ruled that parents have a right to protect 
their children's privacy from the unwanted solicitation of their 
children's personal information. We would argue that, based on the 
years of psychological research on violence prevention and clinical 
practice in violence intervention, parents also have the right to 
protect their children from material that puts them at risk of harm. 
With the considerations in place for children's privacy, the precedent 
for concern about children's health and safety is well established.
    In conclusion, parents have the right to not have their children 
specifically targeted by those selling violent product. Decades of 
psychological research bear witness to the potential harmful effects on 
our children and our nation if these practices continue. Chairman 
McCain and Committee Members, thank you for your 
time . . .

    The Chairman. I think it is worthy to note before we turn 
to Mr. Dyson that representatives in the American Psychiatric 
Association, the President of the American Academy of 
Pediatrics, the American Psychological Association, all are in 
agreement that the present ratings system is both inadequate 
and not sufficient information to parents. That is a pretty 
strong indictment of the present system in my view. And I think 
the respect with which these three professions are held by the 
American people might be instructive to the industry.

    STATEMENT OF DR. MICHAEL ERIC DYSON, PROFESSOR, DEPAUL 
                           UNIVERSITY

    Dr. Dyson. Thank you, Senator McCain. I am Dr. Michael Eric 
Dyson, the Ida B. Wells Barnette University Professor at DePaul 
University. And I am honored to be here. Senator Brownbeck and 
I have shared time on ``Meet the Press.'' And though we 
disagreed, we are committed in common to the future of our 
children. And, Mr. McCain, you with your blistering brilliance 
on the campaign trail really won the imagination of many 
Americans even like myself to the left of you. But we 
appreciate the fire and plainspokenness with which you 
negotiated your time in the spotlight.
    The Chairman. Thank you.
    Dr. Dyson. So I would like to, taking a cue from Mr. 
Valenti, ask for 15 minutes to preach my sermon. And then on 
the official 5 minutes spread the hat to collect money for my 
sermonizing here today. I am an ordained Baptist minister as 
well, but do not hold that against me.
    The Chairman. Thank you, Mr. Dyson. And you make a 
compelling argument. Take the time you need, sir.
    Dr. Dyson. Thank you, sir. That is dangerous, but I will do 
so. I think what we have heard today is very compelling in 
terms of the necessity for an equally shared responsibility 
about the violence of American society and how that violence is 
packaged, shaped, redistributed on the open market. And the 
marketing of violence, the seduction of violence, the 
titillations that are associated with violence, the erotic 
sheen that often accompanies violence is something that is 
deeply problematic to many of us who are parents, like I am of 
three children, who are concerned about shaping the egos, 
shaping the mindset, shaping the perspectives of young people 
in order to deter them from a life that is fruitless and to 
redirect them into paths and channels that are very productive.
    But the problem I have with so much of the discourse 
surrounding this issue of violence is that implicitly there is 
a function of censorship. We know that there is no explicit 
censorship. We know that all of us share in common the 
development of responses that defend the First Amendment. But 
there is an implicit censorship that goes on when we begin to 
give the voice and microphone to some groups of people and not 
to others.
    So what I am concerned about--I will make three very quick 
points and end here. What I am concerned about is the necessity 
to hear from those young voices, those very powerful voices, 
sometimes admittedly angry voices, sometimes bitter voices, 
sometimes voices that are dipped into the deep pools of 
profanity, sometimes vulgarity. But I am not so much concerned 
about the curse words as the cursed world they occupy and what 
hurt they experience in order to produce some of the deeply 
reflective, deeply self-critical and also deep problematic 
lyrics that they put forth.
    So I think first of all, what is important about hearing 
from those young people--a disproportionate number of whom, by 
the way, happen to be African American and Latino voices. First 
of all, is that they tell truths about their situations that 
are avoided in textbooks and schools and, we dare say, in the 
United States Senate at some points, in synagogues and so on.
    The reality is that the violence is old and it has been 
around a long time. But the reality also is that we have not 
really attacked certain forms of violence as equally as we have 
done others. So that the Duke, John Wayne, would not be brought 
before a Senate Committee to, in one sense, give a mea culpa 
for the way in which he romanticized and idealized this kind of 
romantic western machismo that dare we say has informed even 
the Senate careers of some of our colleagues here today. But at 
the same time, Snoop Doggy Dog is brought front and center 
rhetorically and symbolically, if not literally, to talk about 
why it is that he chooses to make a living by telling the truth 
about what he understands. So violence in John Wayne is 
acceptable. Violence in Snoop Doggy Dog is not acceptable.
    Number two. Violence matters most when it occurs in the 
mainstream and not so-called outside of the mainstream. This is 
why we applaud President Clinton for having the FTC put forth 
this report after Columbine. But the reality is violence 
pervaded America way before Columbine. It struck Latino and 
African American communities in disproportionate numbers. And 
yet, the reality is that rapper L.L. Cool J, by no means a hard 
core rapper, released an album yesterday that contains these 
lyrics: ``I don't mean this in a disrespectful way. But 
Columbine happens in the ghetto everyday. But when the crap 
goes down, you all ain't got nothing to say.''
    Now, this is from a person who is well-received as an actor 
and as an entertainer in society, but he understands that there 
has been a targeting of vicious specificity locating itself 
within African American communities when it comes to violence, 
and Latino communities. Those forms of violence are seen to be 
much more pathological and naturalized in a way that is 
destructive. And the violence of the larger society is not 
taken seriously until that violence happens in a mainstream 
white community where now it becomes a national problem and a 
public health problem and a plague. And the reality we have to 
ask then is that why is it that these voices that have been 
locked out, that have been marginalized, see as a necessity to 
articulate their understanding of the world and sometimes 
violently so to make a point, and a very powerful point.
    Number three. If we are really concerned about the lives of 
kids, then we have got to not shred the safety net in terms of 
welfare reform. That targets poor, black and Latino and poor 
white kids in very specific ways. Because if there is 
diminished capacity for providing health care and providing 
child care for your children, that is much more destructive 
than a rap lyric that may or may not lead to a violent 
behavior.
    Number four. We have got to stop this war on drugs that 
really has translated, as Lani Guinier said, into a war on 
black and Latino youth. And as you know, Mr. McCain, the 
reality is that a report was issued earlier this year that the 
human rights of many African American and Latino youth are 
being violated in an international report from Amnesty and 
other forces unleashed this report saying that the American 
government ought to be ashamed of itself for the way in which 
it has stigmatized black and Latino youth in disproportionate 
fashion, leading to their imprisonment and their arrest and 
therefore stigmatizing their lives for the duration of their 
time in this nation.
    Furthermore, I heard this morning about the Senator 
expressing outrage about the video game that deals with the 
electrocution of a human being. And as repulsive as that is, 
the reality is that in Texas 130 some odd people have been 
legally executed on capital punishment and a capital crime. And 
the reality is a disproportionate number of those people happen 
to be black and Latino men. So I do not want to get rid of a 
game that may push our buttons in very problematic and 
provocative ways until we get rid of the practices themselves 
that the game points to.
    Finally, I think that----
    The Chairman. Mr. Dyson, I would agree with you if we still 
held public executions.
    Dr. Dyson. Well, it is not about public executions. It is 
about if we do it in private, Senator McCain. The reality is 
that the horrible shame that is going on in private that is not 
publicly talked about, the horrible shame is not simply the 
exposure of the executions. It is the numbers of black and 
Latino men who are being subjected to this form of I think 
racially motivated legal lynching so to speak. So I think that 
you are absolutely right in terms of the publicity. But the 
reality is that it is more shameful that it is not made more 
public so that more people can be outraged by it.
    Two more points and thank you so much for your indulgence. 
Another reason that these young people have to be heard from, 
and we ought to hear their voices, is that they bear witness to 
the invisible suffering of the masses. And this is what I mean 
by publicity. We have to hear what they are talking about. We 
have to be confronted with what they are talking about. Even if 
we find it personally repulsive and reprehensible.
    So that for me stigmatizing blacks and avoiding the 
collective responsibility for the drug war is something that 
needs to be talked about. Master P said ``I don't own no plane. 
I don't own no boat. I don't ship no dope from coast-to-
coast.'' So we know that the flooding of black communities, 
whether intentionally or not, inadvertently and Latino 
communities with drugs is not talked about as deeply and 
systematically as it needs to be. And yet, the stigmatization 
of those who abuse drugs who happen to be non-violent offenders 
who end up in jail need to be talked about as well and it is 
talked about much in rap music.
    Finally, in terms of racial profiling, the late rapper 
Tupac Shakur said, ``You know, just the other day I got lynched 
by some crooked cops. And to this day, those same cops on the 
beat getting major pay. But when I get my check, they taken tax 
out. So we paying the cops to knock the blacks out.''
    Now, here is a problem for Commerce. The subsidization of 
your own oppression through tax dollars that lead to the 
imprisonment of your own people. That is something that needs 
to be talked about. And were it not for these R-rated lyrics 
that, yes, contain repulsive narratives about rape, murderous 
fantasies that really are deeply destructive. But what is even 
more destructive is the environment in which they operate, the 
world in which they exist and the world that curses them in a 
very serious and systematic fashion.
    I will end here. We need to hear those voices because as 
Mr. Goldberg said earlier, and as you have already alluded to 
very brilliantly, Senator McCain, many of these young people 
are disaffected from the political process. And one of the 
reasons they are disaffected from the political process, we can 
look here today. They are not being represented. We can look 
here today. They are not being represented. With all due 
respect to the ingenuity of the Senate, for the most part, Mr. 
Inouye and others to be exceptions, this is a white male club. 
And if those people felt that they could have their own 
viewpoints, perspectives and sensitivities respected in a 
profound way and a kind of empathy that says that the person 
sitting across the board from me is really concerned about me 
because he or she has been through what I have been through. 
And therefore, they know the circumstances under which I have 
existed, then we would have much more faith in the political 
process that would at least alleviate some of the suffering and 
the pain.
    So for me, the reality is that many of these young hip 
hoppers certainly need to be talked to and talked about, but 
more importantly we should listen to them. Because the messages 
that they often put in our faces that we do not want to hear 
because they make us uncomfortable are the messages that we 
need to hear.
    The political process can only be enhanced. The American 
democratic project can only be strengthened. And the 
citizenship of America can only be deepened with a profound 
engagement with some of the most serious problems that these 
young people represent and they tell us about.
    This is why--and I will end here--Nah said--a young 
rapper--``it's only right that I was born to use mikes. And the 
stuff that I write, it's even tougher than Dice.'' Absolutely 
true. And the reason it is tougher than dice because they are 
rolling their dice in a world where they are taking a gamble 
that their voices can be heard, that their viewpoints can be 
respected, and that their lives can be protected. Thank you 
very kindly.
    The Chairman. Thank you very much for a very strong 
statement and a very eloquent one, Mr. Dyson. It is the 
intention of this Committee to try to get testimony from and 
representation from young Americans, especially when we are 
talking about some issues that are coming up such as this 
business of MP3, Napster and the music and who is going to get 
what, and what accessibility are young people going to have to 
that music.
    But again, I would argue to you these young people do not 
have the $500,000 to buy a ticket--by the way, Mr. Valenti, 
even though at least one of your witnesses could not be here, I 
notice that he is able to host a big multi-million dollar soft 
money fundraiser, had the time to do that, but not to appear 
before this Committee. And these young people will not 
obviously think it matters whether they would take the time or 
effort if there is no resonance to their views and their hopes 
and their dreams and their aspirations.
    And you mentioned my presidential campaign. The one thing I 
heard from young Americans all over this country, they do not 
feel they are represented here. So why should they be involved? 
Why should they take the time to come and testify before this 
Committee? When it is the money, the $18 million that Mr. 
Valenti's industry has already contributed to political 
campaigns. Well, obviously they are going to keep giving 
because there are three major fundraisers scheduled in the next 
few days. So I do not think they want their money back or they 
would not be attending these. Go ahead, Mr. Dyson.
    Dr. Dyson. I think that not withstanding--and, of course, I 
have been a severe critic of corporate capitalism and the way 
in which it has disproportionately affected the American 
political process. And I think that we would not simply point 
our finger at Hollywood. My God, if we are going to talk about 
the way in which corporate capitalism has undermined the best 
interest of the citizenry, we have got to start with the United 
States Senate. And I think that what these young people 
understand is that--and not just the Senate, but Congress and 
local municipalities and governments--Because justice is being 
bought. I think your point is absolutely right in bringing it 
and brave by the way.
    But this is what I want to say. They are not concerned 
about--they do not even know about a $500,000 per ticket soiree 
that might be held.
    The Chairman. I disagree with you. I disagree with you, 
sir. I talked to them. They know there is something wrong.
    Dr. Dyson. No, no. I agree with you.
    The Chairman. They know there is something wrong, Mr. 
Dyson.
    Dr. Dyson. They do. They do. But I am saying that about the 
soiree.
    The Chairman. They may not know that it is $500,000, but 
they know there is something wrong.
    Dr. Dyson. No, they know. Absolutely right, Senator McCain. 
I do not disagree with you. I am just saying that they do not 
know specifically the details about a $500,000 soiree. But they 
do know, as you have said, that money is corrupting the 
political process. But they do not just simply look at Mr. 
Valenti. They do not simply look at the recording industry.
    The Chairman. Well, I do not allege that they do.
    Dr. Dyson. Because the recording industry has given them an 
opportunity to express their viewpoints with the United States 
Senate with the exception of Ed Brooke and Carol Moseley Braun 
has not given much opportunity for young African American 
people to have a political career at the highest levels and 
echelons of representative democracy.
    The Chairman. Thank you, Mr. Dyson. And I appreciate our 
exchange.
    Dr. Dyson. Thank you, sir.
    [The prepared statement of Dr. Dyson follows:]

       Prepared Statement of Dr. Michael Eric Dyson, Professor, 
                           Depaul University
    The contentious debate about the relationship between music lyrics 
and societal behavior is surely controversial. The assertion that 
violent lyrics cause violent behavior is neither convincing nor 
conclusive. The obvious causes of social violence--economic inequality, 
racism, and racial profiling--are all but ignored when the focus is on 
the music of (minority) youth. Often the efforts to ``objectively 
investigate'' the roots of social violence amounts to little more than 
racial scapegoating of black and latino youth. In order to avoid such a 
measure, it is necessary to explain the origins of the most 
influential--and controversial--contemporary form of popular culture: 
hip-hop music. By examining the racial sources, social uses and musical 
roots of hip-hop culture, I hope to underscore how simplistic it is to 
blame music lyrics for social violence. And while it is most likely 
illegal to commercially curtail artistic expression, in light of the 
racial subtext of much of this debate, it is certainly unjust.
    For many black and white Americans, hip-hop culture crudely 
symbolizes the problems of urban black youth. The list of offenses 
associated with hip-hop culture is culled from rap lyrics and the 
lifestyles they promote. The list includes vulgar language, sexism, 
misogyny, homophobia, sexual promiscuity, domestic abuse, parental 
disrespect, rejection of authority, and the glorification of violence, 
drug use, rape, and murder. And it's true that even a casual listen to 
a lot of hip-hop will turn up these and other nefarious attitudes. At 
least if you listen to the style of hip-hop known as gangsta rap. The 
gangsta rap genre of hip-hop emerged in the late `80s on the West Coast 
as crack and gangs ruled the urban centers of Los Angeles, Long Beach, 
Compton, and Oakland. Since hip-hop has long turned to the black ghetto 
and the Latino barrio for lyrical inspiration, it was inevitable that a 
form of music that mimicked the violence on the streets would rise.
    It was just as predictable, though not to the degree that it has 
happened, that a huge backlash against gangsta rap and black youth 
would emerge. Among the factors that made black youth culture ripe for 
such an attack is a general ignorance about the range and depth of hip-
hop culture. Ironically, this ignorance helped make gangsta rap an 
economically viable music. Anti-rap crusader C. Delores Tucker can 
shout as loud as she wants, and she's certainly earned the right, but 
she was nowhere to be found when rap group Public Enemy was at its 
revolutionary height calling for a united black nation to fight racism 
and the powers that be. True, their brand of hip-hop brushed too 
closely to anti-Semitism and they certainly could have used a few 
lessons in feminist thought. But few people quit listening to Sinatra's 
``Fly Me to the Moon'' (it was really named ``In Other Words'', but 
Sinatra's Billie Holiday-inspired phrasing was so impeccably memorable 
that he shifted the song's emphasis) because of his occasional racism 
or his denigration of women as broads.
    It's clear that the rise of hip-hop culture has provoked a deep 
black nostalgia for a time when black communities were quite different 
than they are now. When children respected their elders. When adults, 
not young thugs, ruled over neighborhoods. When the moral fabric of 
black communities was knit together by a regard for law and order. When 
people shared what they had, even if it was their last crust of bread 
or drop of soup. When families extended beyond blood or biology to take 
in young people in need of rearing. When communication between blacks 
on the street was marked by courtesy more than cursing. When black folk 
went to church, and even if they didn't, respected the minister as a 
source of moral authority. And on and on.
    A cure for such nostalgia can be found in works like Morals and 
Manners Among Negro Americans, edited in 1914 by W.E.B. Du Bois and 
Augustus Dill. Du Bois and Dill surveyed hundreds of leading blacks 
about the ``manners and morals'' of black youth. Wouldn't you know it? 
Many black leaders lamented the negative impact of popular culture on 
black youth. One leader blamed moral decline on movies, which ``have an 
unwholesome effect upon the young people. Roller skating, ragtime 
music, cabaret songs, and ugly suggestions of the big city are all 
pernicious. The dancing clubs in the big cities are also vicious.'' 
Another leader worried that black youth ``hang around the corners in 
great numbers, especially the boys. Many of them are becoming gamblers 
and idlers.'' Keep in mind that these degenerate black youth make up a 
generation now praised for its high morals. That should stop us from 
writing the epitaph of what has been mislabeled a lost generation of 
black youth. (Even here, racial distinctions prevail. If white kids are 
demonized as ``slackers'', at least they're seen to be slacking off 
from a Protestant work ethic they can recover through hard work. What 
can you do when you're lost? Often, you get written off. That happens 
to too many black youth.)
    The relation of nostalgic blacks to hip-hop culture can be viewed 
in the following way: there is a perception of aesthetic alienation and 
moral strangeness in black youth. Both of these perceptions, I believe, 
depend on a denial of crucial aspects of history and racial memory. 
Amnesia and anger have teamed up to rob many blacks of a balanced 
perspective on our kids. With such balance, we might justly criticize 
and appreciate hip-hop culture. Without the moderating influence of 
historical insight, joined to what might be called the humility of 
memory, we end up mirroring the outright repudiation our kids face 
across this country.
    The aesthetic alienation of hip-hop has partly to do with 
perception. Rap is seen as wildly differing from the styles, themes, 
and tones of previous black music. Well, that's true and not true. 
Certainly the form of hip-hop is distinct. The skeletal rap crew is 
composed of a DJ (disc jockey), a producer, and an MC (master of 
ceremonies, or rapper). (Technology has enhanced, occasionally blurred, 
and sometimes redivided the crew's labor over the last fifteen years.) 
In many cases, there are at least a couple of rappers. In some cases, 
there are several. The DJ commands a pair of phonograph turntables. 
Among other functions, the DJ plays fragments of records through a 
technique called scratching: manually rotating a record in sharp, brief 
bursts of back and forth rhythmic movement over isolated portions of a 
song, producing a scratching sound.
    The producer has several devices at her command, including a beat 
box and a digital sampler. The beat box, or drum machine, is an 
electronic instrument that simulates the sound of a drum set. A digital 
sampler is a synthesizer that stores in its computerized memory a 
variety of sounds (a James Brown scream, a TV theme song, a guitar 
riff, a bass line) that are reproduced when activated by the producer. 
The DJ and the producer work together in laying down backing tracks for 
the MC. The tracks consist of rhythms, scratches, beats, shrieks, 
noise, other sound effects, and loops, which are fragments of existing 
songs reworked and repeated in new musical contexts.
    The MC, or rapper, recites lyrics in a rhythmic, syncopated 
fashion. The rapper's rhetorical quirks, vocal tics, rhyme flow, and 
verbal flourishes mark his or her individual style. In the early days 
of rap, MC's often simulated sonic fragments with their voices, causing 
some rappers to be dubbed human beat boxes. Rappers can use a variety 
of rhyme schemes, from couplets in tetrameter to iambic pentameter. 
Their rhyme schemes can employ masculine and feminine rhymes, 
assonantal and consonantal rhymes, or even internal rhymes. Rappers may 
use enjambment, prosody, and sophisticated syncopations to tie their 
collage of rhymes into a pleasing sonic ensemble.
    But hip-hop's form joins features of black oral culture, especially 
toasts (long narrative poems) and dozens, to a variety of black musical 
styles. As Gil Scott-Heron once remarked, hip-hop fuses the drum and 
the world. Blues music is the style of black artistry most closely 
associated with hip-hop. The blues spawned stock characters within its 
lyrical universe, including the hoochie-coochie man, the mojo worker, 
the lover man, and the bald man bluesman. Their relation to hip-hop's 
(and `70s blaxploitation flicks') macks, pimps, hustlers, and gangsters 
is clear. Plus, the rhetorical marks and devices of blues culture, 
including vulgar language, double entendres, boasting, and liberal 
doses of homespun machismo, link it to hip-hop, especially gangsta rap. 
And in case you're thinking, ``Yeah, but the blues and early jazz 
weren't nearly as nasty as rap,'' think again. There are lyrics 
contained in the songs of the great Jelly Roll Morton, for example, 
that would make Snoop Doggy Dogg wince in embarrassment. You can read 
Morton's lyrics in their most distinguished place of storage, the 
Library of Congress. (Does this mean in the next century that that 
august institution will house the Dogg's Magnum Snoopus, ``Doggystyle'' 
for future generations to lap up or howl at?) Modern technology, 
together with the urban and secular emphases of black culture, has 
helped expose localized traditions of vulgar black speech--including 
agrarian blues, signifying, toasts, and the dozens--to a worldwide 
audience. And millions of blacks are angry and ashamed.
    If black nostalgia has distorted the relation of postmodern black 
youth culture to a complex black past, this is nowhere more powerfully 
glimpsed than in comparing hip-hop with a high point of black 
modernism: jazz music and culture. Critics like Stanley Crouch and 
musicians like Wynton Marsalis have relentlessly attacked hip-hop 
culture for its deficits when compared to jazz. In conversation--in 
truth, they were herculean arguments between us that raged for hours at 
a time--neither of these gifted gentlemen has had anything good to say 
about hip-hop culture.
    Crouch maintains that hip-hop is, in a memorable phrase comparing 
rap to the infamous, racist 1915 D.W. Griffith film, ``Birth of a 
Nation with a backbeat''. Marsalis thinks rap reflects a fascism that 
mars humane art. Plus, rap is rooted in a banal, mindless repetition of 
beat, signaling a lack of musical imagination and invention. Inspired 
by the likes of Ralph Ellison, but especially by Albert Murray, Crouch 
and Marsalis argue that the artistic possibilities of jazz--its heart 
pumping with the blood of improvisation, its gut churning with the 
blues--embody the edifying quest for romantic self-expression and 
democratic collaboration that capture Negro music and American 
democracy at their best. For Crouch and Marsalis, hip-hop negates 
everything jazz affirms.
    Many fans of black music, including stalwarts of soul and R&B, most 
certainly agree. They simply add their music of preference, and perhaps 
their own string of modifiers, to Crouch and Marsalis's list. (That's 
because Aretha ain't about democracy. She's about the imperious demands 
of gospel genius as it baptizes and is transformed by secular 
sentiments. I'm not so sure that Crouch and Marsalis stand ready, 
however, to reciprocate. Whether Aretha, Sam Cooke, Otis Redding, 
Marvin Gaye, Donny Hathaway, or Al Green counts in their reckoning as 
much as, say, early Miles or middle Coltrane, Sarah Vaughan or Ella 
Fitzgerald, or Ellington or Armstrong, is highly doubtful.) Despite the 
issues that separate black musical purists of any sort, their shared 
disdain for hip-hop culture's claims to art unite them as citizens of 
the Republic of Nostalgia.
    The only problem is that, like hip-hop, jazz has a history of 
cultural attack. That history has been buried under an avalanche of 
nostalgia that hides jazz's grittier roots. For instance, during the 
Jazz Age and the Harlem Renaissance, the response to jazz by a large 
segment of the black bourgeoisie, black intellectuals, and black 
artists anticipated the attack on rap. Such responses reflected, and 
were partly driven by, the negative response to jazz of large segments 
of white society. Jazz was viewed as a cultural and artistic form that 
compromised decency and morality. It was linked to licentious behavior 
and lewd artistic gestures. With its ``jungle rhythms,'' its blues 
base, its double entendre lyrics, and its sexually aggressive dancing, 
jazz, like hip-hop today, was the most widely reviled music of the 
1920's and '30s. Headlines in respectable publications asked questions 
like: ``Did Jazz Put the Sin in Syncopation?''. According to the Ladies 
Home Journal, jazz was responsible for a ``holocaust'' of illegitimate 
births. A Cincinnati-based Catholic newspaper railed against the 
``sensuous'' music of jazz. It said that ``the embracing of partners--
the female only half dressed--is absolutely indecent.'' Blues pioneer 
W.C. Handy's daughter, Lucille, was sternly admonished by the Colored 
Girls' Circle of an elite school for ``making a fool'' of herself by 
singing and dancing her father's blues and jazz. ``It [continuing to 
sing and dance] will be under the peril of death and great danger to 
yourself,'' the letter concluded.
    Many Harlem Renaissance intellectuals detested ``gin, jazz, and 
sex.'' The publications of black organizations, from the NAACP's 
magazine, Crisis, edited by W.E.B. Du Bois, to the Socialist Party 
supported magazine, Messenger, edited by A. Philip Randolph and 
Chandler Owens (with assistance from George Schuyler), expressed 
opposition to jazz as well. For many Harlem Renaissance intellectuals, 
jazz was not viewed as a serious artistic achievement on par with 
European classical music. The great irony of blacks worshiping European 
music is that European composers such as Richard Strauss were, at the 
same time, expressing profound admiration for jazz. In 1926, one of the 
most important debates about the relation of black intellectuals to 
black mass culture took place in the pages of the Nation, between 
George Schuyler and Langston Hughes. In his essay, ``The Negro Art 
Hokum,'' Schuyler argued that there was no such thing as a distinct 
Negro art apart from American art. Schuyler said that Negro art 
occurred in Africa, but to ``suggest the possibility of any such 
development among the ten million colored people in this republic is 
self-evident foolishness.'' Schuyler argued that ``slave songs based on 
Protestant hymns and biblical texts'' and ``secular songs of sorrow and 
tough luck known as the blues'' were ``contributions of a caste'' in 
certain sections of America that were ``foreign to Northern Negroes, 
West Indian Negroes, and African Negroes.'' For Schuyler, defining art 
in racial terms was ``hokum''.
    Hughes's response, which ran a week later, became one of his 
signature essays. Entitled ``The Negro Artist and the Racial 
Mountain,'' Hughes's essay lamented the veiled desire of some black 
artists to be white. Such artists feared their own racial identity. 
Hughes argued that the black middle class was denying a crucial part of 
its heritage by denying the ``beauty of [its] own people'' and that 
Negroes should stop imitating ``Nordic manners, Nordic faces, Nordic 
air, Nordic art.'' In their stead, he urged Negroes to embrace ``the 
low-down folks, the so-called common element, and they are the 
majority--may the Lord be praised.'' Hughes argued that the ``common 
people will give to the world its truly great Negro artist, the one who 
is not afraid to be himself.'' For Hughes, the racial mountain was the 
inability of the black bourgeoisie to accept Negro art from the masses, 
Hughes exhorted his fellow Negroes to let ``the blare of Negro jazz 
bands and the bellowing voice of Bessie Smith singing blues penetrate 
the closed ears of the colored near-intellectuals until they listen and 
perhaps understand.'' Hughes's words are still relevant.
    By rehearsing this bit of jazz history--one that is conveniently 
overlooked by Crouch and Marsalis as they attack rap and proclaim jazz 
as America's classical music--I am not arguing that we should 
romanticize black folk culture. Neither am I equating black folk art 
and pop culture. The big business of how black culture is packaged as a 
commodity to be bought and sold in the marketplace with billions of 
dollars at stake prevents such an easy equation. I'm simply arguing 
that all forms of black music have been attacked both within and beyond 
black culture. Blues and jazz, rhythm and blues, and soul have been 
viewed as indecent, immoral, and corrupting black youth. To be 
nostalgic for a time when black music offered a purer aesthetic or a 
higher moral vision is to hunger for a time in history that simply 
doesn't exist. (Of course, another way of stating this is to say that 
all black music has an aesthetic appeal, and a moral vision, that will 
at first be assailed, but whose loss will one day be mourned and 
compared favorably with the next form of hated black music to come 
along.) When Marsalis, Crouch, and other critics perched aloft the wall 
of high black culture throw stones at hip-hop, they forget that such 
stones were once thrown at their music of preference. Bebop was once 
hip-hop. Ragtime was once rap. Bluesmen were once b-boys. What is now 
noble was once notorious.
    Crouch, Marsalis, and other critics have argued against hip-hop 
even being called serious music. Of course, these critics hold the same 
grudge against latter-day Coltrane, Eric Dolphy, Ornette Coleman, Cecil 
Taylor, Albert Ayler, Archie Shepp, Don Cherry, and almost any avant-
garde jazz artist who championed unorthodox harmonies, departure from 
chord-based improvisations, atonal ``noise'', and dissonant melodies. 
Neither Ellington nor Armstrong, heroes for Crouch and Marsalis--and 
for me, too--would be today what they were when they played. To be 
sure, they'd still be geniuses. But the character of their genius would 
be greatly altered. Their relentless reach for the edge of experience 
pushed them to keep growing, experimenting, and improvising. 
Conservative advocates of jazz end up freezing the form, making jazz an 
endless series of explorations of already charted territory. It's a 
process of rediscovering what's already been discovered. Such a process 
led someone to remark that the problem with so much of contemporary 
neotraditionalist jazz is that Thelonius Monk couldn't even win the 
annual contest that's sponsored in his name! The very spirit of jazz--
its imperative to improvise, which can often lead into dangerous, 
unmapped territory--is thus sacrificed in the name of preserving the 
noble, heroic traditions that grow out of a specific time in jazz's 
history. What's really being preserved is the product, not the process, 
of improvisation. But that's another story.
    At base, the perception of the aesthetic alienation of hip-hop 
culture is linked to a perception that black youth are moral strangers. 
I mean by ``moral strangers'' that black youth are believed to be 
ethically estranged from the moral practices and spiritual beliefs that 
have seen previous black generations through harsh and dangerous times. 
The violence of black youth culture is pointed to as a major symptom of 
moral strangeness. Heartless black-on-black murder, escalating rates of 
rape, rising incidents of drug abuse, and the immense popularity of 
hip-hop culture reinforces the perception of an ethical estrangement 
among black youth. In arguing the moral strangeness of black youth, 
many critics recycle bits and pieces of old-style arguments about the 
pathology of black urban culture. Widely popularized in Daniel 
Moynihan's famous 1965 study of the black family--whose pathology was 
partially ascribed to a growing matriarchy in black domestic life--the 
notion that black culture carries the seeds of its own destruction is 
an old idea. The argument for black cultural pathology is really an 
updated version of beliefs about black moral deficiency as ancient as 
the black presence in the New World.
    Still, there's no doubt that terrible things are happening to black 
youth. To pretend otherwise is to ignore the obvious. Black youth are 
killing and being killed. Crime and violence go hand in hand. High 
unemployment is entrenched. Teenage pregnancy is epidemic. How can we 
explain these facts? I think we've moved from a theory of moral 
strangeness to a theory of how power has shifted away from adults to 
young people in many urban homes and communities. Highlighting such a 
shift by no means sidesteps issues of morality, values, or 
responsibility. It simply gives us a handle on specific changes in 
black youth culture that have had a vicious effect on black life.
    I think there is a juvenocracy operating in many urban homes and 
communities. For me, a juvenocracy is the domination of black and 
Latino domestic and urban life by mostly male figures under the age of 
25 who wield considerable economic, social, and moral influence. A 
juvenocracy may consist of drug gangs, street crews, loosely organized 
groups, and individual youths who engage in illicit activity. They 
operate outside the bounds of the moral and political economies of 
traditional homes and neighborhoods. The rise of juvenocracy represents 
a significant departure from home and neighborhood relations where 
adults are in charge. Three factors are at the heart of such a shift.
    The first is the extraordinary violence of American life. As 
historian Richard Slotkin has argued, the frontier myth at the base of 
our country revolves around ``regeneration through violence.'' America 
renews itself at the altar of devotion to violence as a rite of 
national identification. It is important to remember this rite as cries 
go up about the exceptional violence of black youth. Black youth are 
viewed as innately inclined to violent behavior. The lyrics and images 
of hip-hop are used as proof of such a claim. Well, as strong and 
pungent as hip-hop is, as offensive as it can be, it is still art. It 
isn't life, no matter what some hip-hoppers claim about its 
``realness.'' Indeed, without making too strong of a point of it, hip-
hop's existence may be keeping a lot of black youth away from drugs, 
crime, and life on the streets because they get to rap about such 
things in the sound booth. Thank God for what other hip-hoppers 
derisively refer to as ``studio gangstas.''
    It is simply dishonest to paint black youth as the primary source 
of violence in America. In fact, more often than not, black youth are 
the victims, not the perpetrators, of violence. Although they are only 
5.9 percent of the population, black males account for 40 percent of 
homicide victims. Black men over 24 are the victims of homicide at a 
rate of 65.7 per 100,000. For white males in that age group, the figure 
is 7.8 per 100,000. Youth between the ages of 12 and 17 are the most 
common victims of crime in America.
    There were 33,651 Americans killed in the Korean War. There were 
47,364 Americans killed in the Vietnam War. There were 37,155 Americans 
killed with firearms in homicides, suicides, and accidents in 1990. In 
1991, 45,536 Americans were killed in motor vehicle accidents. The same 
year, 38,317 Americans died from gunshot wounds. Now firearm incidents 
surpass motor vehicle accidents as the most likely way Americans will 
die. Among white Americans, 28.4 per 100,000 die from motor vehicle 
injuries; 15.2 per 100,000 die from firearms. For Latinos, 28.7 per 
100,000 die from motor vehicle accidents; 29.6 per 100,000 die from 
firearms; 140.7 out of 100,000 black males between 20 and 24 were 
killed by firearms in the same year. One in 28 black males born in the 
United States is likely to be murdered; 93 percent of black murder 
victims are killed by other blacks. Firearms in the hands of young 
black and Latino men has clearly altered the urban landscape. Firearms 
have given juvenocrats the ultimate weapon of death.
    The American addiction to violence, the political economy of crack, 
and this nation's fetish for firearms account for the rise of a violent 
juvenocracy. Of course, there are ethical dimensions to juvenocracies 
as well. Are juvenocracies corrupt? Yes. Are the people who participate 
in juvenocracies often morally vicious? Yes. Should the destruction 
that juvenocracies leave in their wake, especially in black and Latino 
communities, be opposed? With all our might. But unlike the culture of 
pathology arguments, or even arguments about black nihilism, my theory 
of juvenocracy doesn't locate the source of ethical erosion and moral 
corruption at the heart of black communities. Why? Because the behavior 
of juvenocrats can be explained by generic, or better, universal 
principles of human action. Murder, robbery, assault and battery, and 
drug dealing are not peculiar to black culture. They occur everywhere. 
A theory of black pathology or nihilism confuses the matter by asking 
us to believe that these problems are endemic to black communities. 
They are not.
    Moreover, rap highlights undervalued problems. One of the most 
intriguing and undervalued aspects of contemporary rap is its struggle 
with the problem of evil. In formal theological circles, the branch of 
thought that addresses this question is called theodicy. Theodicy 
attempts to understand and explain why bad things happen to good, or at 
least, innocent, people. It also tries to understand human suffering in 
the light of asserting that God is good. How can a good God allow evil 
to exist and to harm her children?
    Hard core rappers, including Notorious B.I.G., 2 Pac Shakur, and 
Snoop Dogg have all, in varying ways, grappled with the problem of 
evil. Interestingly, this salient dimension of hard-core rap has been 
overlooked, perhaps because it is hidden in plain sight. In addressing 
evil and hard-core rap, it is helpful to remember that theodicy also 
has a social expression. One of sociology's towering thinkers, Max 
Weber, conceived theodicy as the effort gifted individuals to give 
meaning to the suffering of the masses. Indeed, the appeal of King and 
Malcolm X rested largely on their abilities to make sense of the 
suffering that their followers endured. Of course, King's and Malcolm 
X's theodicies had vastly opposed orientations. King argued that the 
unearned suffering of blacks would redeem American society. Malcolm 
believed in mutual bloodshed: if blacks suffered, then whites ought to 
suffer as well. More recently, black leaders as diverse as Colin Powell 
and Louis Farrakhan have urged blacks to take more responsibility in 
dealing with the suffering in their communities. Hard-core rappers, by 
contrast, dismiss such remedies. They celebrate the outlaw as much as 
they denounce the institutions they view as the real culprits: the 
schools, churches, and justice system that exploit poor blacks. 
Paradoxically, the fact that rappers are struggling with suffering and 
evil proves that in fact they are connected to a moral tradition, once 
championed by King, that they have seemingly rejected. Moreover, the 
aggressive manner in which rappers deal with evil--putting forth images 
that suggest that they both resist and embrace evil--is disturbing 
because it encourages us to confront how we resist and embrace evil in 
our own lives.
    The suffering masses that concern hard-core rappers are almost 
exclusively the black ghetto poor. According to many gangsta griots, 
the sources of this suffering are economic inequality, police 
brutality, and white racism. These forces lead to a host of self-
destructive ills: black-on-black homicide, drug addiction, and the thug 
life that so many rappers celebrate and, in a few cases, embrace. For 
instance, in his ``The Ghetto Won't Change,'' hard-core rapper Master P 
expresses the widely held belief among blacks that the carnage-inducing 
drug trade flourishes in the ghetto because of government complicity 
and white indifference. On ``Point Tha Finga,'' Tupac Shakur gives 
voice to the rage many blacks feel when they realize that their hard-
earned wages are subsidizing their own suffering at the hands of 
abusive police. For Shakur, the ethical line drawn between cops and 
criminals is even more blurred by the police's immoral behavior.
    But blurring the lines that divide right from wrong is what seems 
to set these urban theodicists apart from their colleagues in 
traditional religious circles. Even Martin Luther, who shook the 
foundations of the Catholic church, dropped his moral anchor as he 
launched his own theodicy in the form of a question: ``Where might I 
find a gracious God?'' As Luther understood, the purpose of a theodicy 
is, in Milton's words, to ``justify the ways of God to men.'' This is 
especially true when a God whom believers claim to be good and all-
powerful allows evil to occur. The problem with most thuggish 
theodicies is that their authors are as likely to flaunt as flail the 
vices they depict in music. Unlike traditional theodicists such as 
King, hard-core rappers maintain little moral distance from the evil 
they confront. Instead, they embody those evils with startling realism: 
guns, gangs, drugs, sexual transgression, and even murder are 
relentlessly valorized in the rhetoric of gangsta rappers. Although 
gangsta rappers are not the only popular cultural figures to do that, 
their words provoke a special outrage among cultural critics. For 
instance, although the 1996 film Last Man Standing, starring Bruce 
Willis, was filled with gratuitous violence, it was not denounced 
nearly as much as Snoop Doggy Dogg's equally violent 1993 album, 
Doggystyle. Neither did the Arnold Schwarzenegger vehicle True Lies, 
which was swollen by crude ethnic stereotypes, come in for the bitter 
attack aimed at Tupac Shakur's ``2Pacalypse Now.'' When it comes to 
guns, we still feel safer when they are in the hands of white men, even 
if they are thugs.
    Moral ambiguity is at the heart of hard-core rap's struggle with 
evil. When it comes to dealing with that idea, hard-core rappers are 
treated far differently by critics than are the creators of gangster 
films. In The Godfather, for example, Francis Ford Coppola's characters 
pay lip service to a code of respect, loyalty, and honor. Still, they 
are ruthless murderers. Coppola is considered a brilliant artist and 
his characters memorable creations. The hard-core rapper and his work 
are rarely credited with such moral complexity. Either his creations 
are taken literally and their artistic status denied, or he is viewed 
as being incapable of examining the moral landscape. It is frightening 
for many to concede hard-core rap's moral complexity.
    With that, we end up where we began: the rise of juvenocracy has 
been complemented by the cultural fascination with, and revulsion to, 
the pop culture of black youth, especially hip-hop. For many critics, 
the two go hand in hand. But that's a mistaken perception. That's not 
to say that gangsta rappers, for instance, don't identify with real 
gangsters. That they don't feed off one another. That their styles and 
social aspirations are not easily confused. Still, most real gangsters 
don't listen to gangsta rap for inspiration to do what they do. They 
check out old-school grooves. Too many of them have said so for us to 
ignore it. A lot of gangsters prefer Al Green to Snoop Doggy Dogg. Too 
often, then, black youth are all lumped together--in the media, in 
discussions by black intellectuals, in the analyses of cultural 
critics, and in the public imagination.
    Unlike Ralph Ellison's character in his famous novel, and the bulk 
of black folk for a long stretch of our history, black youth suffer, 
not from invisibility, but from hypervisibility. The surplus sighting, 
and citing, of young black bodies--in crime stories on the news, in 
congressional hearings about demeaning imagery in pop music, in 
shopping malls where they hang out, in police profiles where they are 
stigmatized, in suburban communities where they are surveilled--has 
draped paranoia and panic around their very limbs. In all wrong ways, 
black youth are overexposed. (Is it any wonder, then, that they dress 
in oversize clothing to hide their demonized bodies, to diminish the 
measuring of their alleged menace?)
    And unlike James Baldwin and generations of black folk, black youth 
don't suffer from namelessness. They suffer from namefulness, from too 
many names. The sheer nameability of black youth, the ease with which 
they are mislabeled, promotes young black youth a negative solidarity, 
a unity produced by the attacks they have in common. Like Thomas 
Hobbes, black youth understand that human beings wield power through 
calling names and avoiding names. As Hobbes knew, black youth also know 
that names venerate and vilify. Names influence events. Hip-hop culture 
has provoked the naming, really the misnaming, of black youth: 
sadistic, self-destructive, violent, brutal, narcissistic, nihilistic, 
pathological, immoral, and, for some, evil. Hip-hop has fought back. It 
uses strategies of naming, renaming, unnaming, and overnaming its own 
culture and the cultures--racist, rich, elite, bourgeois--against which 
it strives.
    Instead of nostalgia, we need serious, rigorous analysis and 
critical appreciation of black youth. Instead of attacks on hip-hop 
culture, we need sharp, well-informed evaluations of its artistic 
statements and ethical imagination. Black nostalgia must be replaced by 
an even stronger force: the historic black determination to remain 
undefeated by pessimism from within black culture, and paranoia from 
beyond its borders. We must not be prisoners of our present 
circumstances, of current events. We must be prisoners of faith.

    The Chairman. Dr. Borenstein, Dr. Cook and Mr. McIntyre, if 
the present rating system is not satisfactory--first of all, I 
do not know if you have seen this piece that is put out by the 
entertainment software rating board. Have you seen it, Dr. 
Cook?
    Dr. Cook. No, I have not.
    The Chairman. Would you pass it down? And Mr. McIntyre. Not 
only would I like you to glance at that, but what changes need 
to be made to the ratings system to make it more effective and 
more informative for Americans? Maybe I could begin with you, 
Dr. Borenstein. I am not recommending that. I am just noting 
that there are some ideas out there. What do we need to do?
    Dr. Borenstein. Senator, I am not prepared at this moment 
to tell you in detail what more needs to be done.
    The Chairman. I do not expect that.
    Dr. Borenstein. But I think this is a good beginning. 
However, as I think about individual movies, for example, you 
could have the Private Ryan movie, and it shows the horror of 
war and the pain of war. Then you can have glorified violence 
showing in a war movie, but it is glorifying the violence. And 
that is a very different thing. And I think we can begin to 
make some distinctions between movies that show violence in one 
way or violence in a different way. An historical piece is one 
thing if it is done properly. Many movies do not show that 
people are actually hurt when they--the pain and suffering that 
is involved with the violence. They tend to glorify it and 
things like that. And I think we can make those kinds of 
distinctions, and we are willing to work with the entertainment 
industry and others to do so.
    The Chairman. Dr. Cook.
    Dr. Cook. I feel that we need to continue to work to see if 
we cannot simplify this so parents can understand it better. It 
is fairly simple now. But many people do not understand what it 
is. But I am not sure how we can get people to basically react 
to it and learn what these symbols mean. But I think we have 
something lacking in the system now. Parents cannot always tell 
by looking at the symbol that is there exactly what they are 
going to find in the movie or in the video or whatever it is. 
And I think that is what concerns them more than anything not 
being able to read what is there when they see the ratings. We 
need to be a little more careful about getting that explicit 
enough so that they can understand.
    Mr. Lowenstein. Mr. Chairman, can I make a brief comment on 
that?
    The Chairman. Yes, sir.
    Mr. Lowenstein. Since this is the video game rating system 
that you passed out, the Entertainment Software Rating Board. I 
think it is an important point to note that this rating system 
does provide very simple information on age appropriateness and 
content. Moreover, a video game is very different from a movie 
or a CD in terms of how it is marketed. The packaging is a 
primary component of the marketing. It is very difficult to 
pick up a video game package and not have a pretty good idea of 
what the content of the game is. That is supplemented by a 
rating that says the age appropriateness and indicates the 
content, whether it is animated violence, realistic violence, 
suggestive themes, and so on.
    So this system is very simple. It has been tested 
extensively. And the research suggested nearly 80 percent of 
Americans think it is helpful in making decisions. And I would 
just very briefly add that we approached some of these medical 
groups on this panel last fall and asked them for their help in 
getting information out about this rating system. We cannot do 
it alone. And I would reiterate today--unfortunately they were 
not able to help last fall. We will once again offer to work 
with them, to try to get information. I am not asking for them 
to endorse the system. But I think it is, in virtually 
everybody's opinion, a helpful tool for parents to use. And we 
would like to get it out in as many people's hands as we 
possibly can.
    The Chairman. Mr. McIntyre.
    Mr. McIntyre. I think the point actually that Mr. Goldberg 
from Artemis Records made on this morning's panel that all 
children are different and all families are different is an 
important one to consider in the consideration of rating 
systems. All children are different. We know based not only on 
individual situations, but also based on developmental levels. 
In that instance, it is the parent's duty and the parent's 
power, and the parent's power only, to be able to make the 
decisions for healthful habits for their individual children. 
As such, they should have as much information as possible so 
they can make their own decisions for them. Having a ratings 
system that ultimately is based on age categories does nothing 
if I have a young child that is having tendencies towards 
violent actions, is getting into fights in school and whatnot.
    I may have liberal attitudes about language or sexuality or 
whatnot, but I absolutely want to protect that child from 
violence. When I go in and see a ``PG'' or ``PG-13'' movie or 
see a teen rating on a video game, although there are some 
qualifiers if you take the time to dig into it, it does not 
tell parents the amount of information that they need in order 
to take the actions that they and they alone should be taking.
    The Chairman. Thank you. Mr. Valenti, I know that you know 
that I have great respect for your distinguished career, 
including very honorable service during a very difficult time 
of transition in the history of this country you served for 
many years.
    I am also concerned as I said, about this cynicism that 
pervades the country now. We are looking at the lowest voter 
turnout perhaps in history in this upcoming presidential 
election. According to The New York Times yesterday, Mr. 
Valenti dismissed the Democrat's proposal as carefully 
calibrated political posturing. ``Frankly,'' he said, ``if I 
were running for office, I would be trashing the movie industry 
myself.'' What does that mean, Mr. Valenti?
    Mr. Valenti. It means exactly what it says, Mr. Chairman.
    The Chairman. So there is no sincerity.
    Mr. Valenti. No, I am saying to you that realistically--and 
I have been in politics all my life--I know that when you trash 
the entertainment business, your poll numbers go up. I have 
talked to a number of pollsters in this town. And I am not 
being critical, because I would be doing the same thing. But 
that is not the issue. I am as concerned as you are about what 
is going on in this country. And I yield to no man in my 
respect for you, Senator. As I have told you sitting across the 
dinner table, you are one of the few Americans I know, you and 
Senator Inouye, who really define what the word sic means. So 
there is nothing you could say that would ever get me mad at 
you. That is for sure.
    But I would like to discuss what we are doing. There has 
been a dismissal of our rating system. These three gentlemen 
say the rating system is not working. That chart shows a record 
of 31 years of polling in this country. We have an all time 
high in parental endorsement. And it is swept away with casual 
regard. I do not understand that. We are going right to parents 
with children under 13. Nobody at this table--with maybe Doug's 
exception--has children under 13. I am saying to you that 
parents are saying we think what you are doing is useful, very 
useful. Do you think that anything would last that long?
    And by the way, we are the only enterprise in the entire 
country of all business enterprises, not just entertainment, 
that deliberately and voluntarily turns away revenues in order 
to redeem this obligation that we have to parents. I am not 
saying you have to love us, but somebody ought to say, you know 
something? That is not a bad job.
    Dr. Borenstein. Chairman McCain, I must apologize. I have 
to leave to catch an airplane and get back to patient care. I 
thank you very much for the opportunity to appear.
    The Chairman. Thank you for being with us. And I want to 
apologize to you for the delay in your appearance. And I 
appreciate you taking the time and effort to be here. Maybe if 
there is good news in the inconvenience, it is that we have 
forced on you that there is obviously great interest in this 
issue. And your testimony is very important to us.
    Dr. Borenstein. Thank you.
    The Chairman. Thank you. Senator Hollings.
    Senator Hollings. Thank you, Mr. Chairman. I have hung back 
because the office is filled up. We are all behind in our 
schedules. But I wanted out of respect for Mr. Valenti to tell 
him that I would persist in the TV violence measure that we 
will markup here on next Wednesday. There is no one that I have 
greater affection for or respect. Jack Valenti is the smartest 
fellow that I have met up here in 34 years.
    The Chairman. I agree.
    Senator Hollings. He is literate. I read his books. And he 
does a hell of an outstanding job for an industry that in a 
sense ought to be trashed because they trash themselves. We 
(Congress) would have to stand in line to trash them. Look, you 
are a wonderful performer. However, in the history of 
broadcasting, producers said to put in murder and get some more 
violence. We have been knowing this now for 50 years. And to 
come in here and have the unmitigated gall to try to take 
credit for the lowering of the crime rate in this country. 
Whoopee! As I said, I just have to stay back with that 
statement of yours.
    Let me tell you the put offs I have had to go through. 
Because back there when Pastore started, exactly the arguments 
about Euclidean geometry and it is imprecise and there is no 
real causal connection or anything else of that kind. All of 
that is true. It is hard to prove, but we all know it. We all 
know it when we see it as a Supreme Court Justice said.
    In this case, we have had the Surgeon General. We got a 
Surgeon General report. We have had the psychiatric, the 
pediatric, the American Medical, the psychological, all of 
these studies have been, Professor Huron of Michigan has 
written a book. The Institute of Mental Health made a ten year 
study.
    So that was all during the early 1970s and 1980s. By 1995 
when we finally got to a bill--and incidentally, you put me off 
with Paul Simon. I have got the fellow you spotted already on 
this Committee. I know you, and you know me. It was suggested 
then that a study should be conducted. We have got to study. If 
we only give the industry added trust exemption, violence would 
go down and the violent movies would stop for children and that 
kind of thing. Instead, we have got the FTC study saying they 
are marketing it.
    Now, we had that. And in 1995, you asked about the 
constitutionality. We had to get the Attorney General and all 
the law professors because I am sorry Dr. Borenstein just left 
because it has to be very carefully couched in the legislative 
language in the sense that we have got to strand the strictest 
review by the court itself. So it has got to be not just 
violence, but it has got to be gratuitous violence, not 
necessary to the plot. And even then, it has got to be 
excessive gratuitous violence. And incidentally, that does not 
only work in Europe. A Senator from California came and said, 
well, wait a minute. They go from Detroit over to Windsor, 
Canada and they do not seem to have that trouble. So the 
problem is somewhere else. So Windsor, Canada has got the Safe 
Harbor Practice--right, which is similar to my bill.
    But the ratings. You have got the V-chip and the ratings. 
In Canada, I know that the ratings are no good--I mean, the 
ratings might be accurate or whatever it is, but they do not 
respond to reality. And the V-chip does not. The evidence this 
morning is 97 percent have never used the V-chip, only two or 
three percent ever will. So that is not going to help us.
    So you say they love their children, and I know they do. 
But they love money and that is the competition. That is the 
argument we have got on the floor. They love their country, but 
they like to produce overseas. They could care less about the 
jobs overseas. And going over there. Because they make a bigger 
profit. This is the China bill. I am not against China. I am 
against the United States because we do not have a policy.
    It is not mistakes, Mr. Valenti. You say it is mistakes. 
Those mistakes will happen. They have got an affirmative action 
policy to distribute, market and include violence and market 
that violence to children. There is no question in my mind 
watching this thing over the many years. I have got to continue 
to insist, and I wish I could do something to help you because 
you deserve it. You are one of the most talented, deserving 
individuals I have ever known. I say that in all fairness. But 
this has got to continue. We have got to do what we found works 
and that is have a safe harbor bill. I would be glad for you to 
respond.
    Mr. Valenti. Mr. Chairman and Senator Hollings, thank you 
for the kind words and thank you for what I think are probably 
some other truths that you talk about. I had no idea to be 
honest with you--before I answer your question about safe 
harbor--that our companies were actually putting 10- and 12-
year-olds in a focus group. I did not know that. Now I do. And 
I can guarantee you, that is not going to happen anymore.
    On the Safe Harbor bill, I do not know how you define 
gratuitous. The great professor of philosophy, Garnett Hardin, 
said that how do you define enough? And he said, well, enough 
is when it is more than enough. Gratuitous means that there is 
more than enough. But I would think that the courts would have 
as much difficulty doing that, as you pointed out, that Justice 
Potter Stewart said I cannot define pornography, but I know 
what it is when I see it.
    I would think that before you can have such a bill, there 
has to be written down with some precision. Because if you are 
going to employ sanctions against somebody, you ought to know 
what they are being sanctioned for. And it has to be defined 
clearly. Whereas you and I both know, I think the courts would 
not find that congenial.
    So I think that is one of the things that has to be done. 
And we are trying desperately to do what we think is right. I 
have tried to lay before you a rating system. But a rating 
system only works if parents use it. Now, you were involved in 
the organization, the TV ratings. We went with all these child 
advocacy groups and we had D for dialogue, L for language, S 
for Sex, V for violence. And we have a rating system. But you 
cannot force parents to use it. About 40 to 50 million 
television sets are equipped today with a V-chip. How do you 
say, Mr. & Mr. Parent, damnit use that V-chip? I do not know, 
Senator.
    Senator Hollings. Well, if the Chairman will indulge me, 
number one, with respect to precision, that would be a mistake. 
Gratuitous means not necessary to the plot and not necessarily 
under the circumstances of that particular film. Let us say it 
since we are talking about movies. You would allow the Federal 
Communications Commission as they have determined about 
obscenity from time-to-time on an ad hoc basis.
    So generally, we know what is gratuitous violence. We had 
the CBS Vice President come up when you were there one time 
before and were testifying. They had a little bit of violence 
at the bar. But then it became totally gratuitous because it 
was not necessary to the plot. And that is all it was is just 
throwing people through windows, breaking windows over their 
heads, hitting them in the head with a hammer and everything 
else like that. And it was supposed to be a calm show.
    But in any event, you are not going to have that precision. 
Do not ask us to legislate precisely, because we will never 
legislate. You know that. You are smart. That will never 
happen. So we will never get that law. Otherwise, you say how 
are you going to get through to parents? We live in the real 
world. I have got five grandchildren. I have got five TVs 
upstairs, downstairs, down in the workroom and everything else. 
You think I am going to follow the child all the way around the 
house and everything else? I really would be an athlete if I 
did that.
    So you cannot depend on the ratings and the parents. That 
has got to be said. Somebody ought to say it because everybody 
who is a parent around here knows it, you just cannot catch up 
with the children. And the rating, if you got that rating here 
that says VAO, oh, boy. I am a 14, 15-year-old, 12-year-old, 
and I can read that. That is for adults only. That is the one I 
am going to find. I am going to get that one quick. I can tell 
you that right now. So you are advertising. You are upgrading.
    And the V-chip, Hollywood says, well, you have got the V-
chip. Now you can put as much violence as you want because we 
can depend on the parents to use the V-chip. So really the V-
chip has had a counter-productive effect in the sense that they 
put on more violence and come up here and testify. Well, you 
have got the V-chip. It is up to the parents. That is not going 
to work. We have got a real national problem with respect to 
violence in our society. It is not in these other societies. We 
know how they control it. It is worth a try here.
    Mr. Valenti. But, you know, Senator, if I may respond. It 
is just like in the political world--and I keep coming back to 
that because I spent my life in it. Two candidates in my home 
state of Texas----
    The Chairman. Could you summarize? Really, we have three 
other Senators.
    Mr. Valenti. I am sorry. Thank you very much.
    The Chairman. Go ahead. Go ahead. Please.
    Mr. Valenti. I was just going to point out people have 
different views. I might say my opponent is indulging in 
negative advertising. And he says, no, I am not indulging in 
negative advertising. Somebody might say there is too much 
violence. Somebody said, no, there is not too much violence. I 
only point out the incongruity of trying to precisely say this 
has too much violence. That does not. It is a problem of human 
logistics, Senator.
    The Chairman. Thank you, Mr. Valenti. Senator Inouye.
    Senator Inouye. Thank you. Sitting here and listening to 
the witnesses, one can conclude that everyone agrees that 
exposing a child to violence will have a negative impact upon a 
child's development. No one disagrees with that.
    Having said that, I would just like to note a few things. 
About a month ago, I had the privilege of addressing a high 
school class. And in the question and answer period, one of the 
students stood up and said can you suggest some of the best 
movies you have seen? So I said, ``Yes. I would recommend 
Saving Private Ryan.'' I would recommend Schindler's List. And 
recently I saw The Patriot. And the same thing was echoed here 
on the panel. Several witnesses pointed out that Hollywood does 
good work. And they cited specifically those three, Schindler's 
List, Saving Private Ryan and The Patriot.
    And here I am, I recommended these three monumental films. 
I just learned today--because I was just curious. I asked my 
staff sitting in the back here, by the way, what ratings do 
these three get, Schindler's List, Saving Private Ryan and The 
Patriot? She had no idea. So she had to go out and check. You 
know, I had committed a crime. They are all ``R''. I 
recommended to young kids, 14, 15, 16, that they should watch 
these three R-rated movies.
    I cite this to suggest that what we are confronting here is 
not easy obviously. I do not know what the answer is. I hope we 
do not come to a situation like tobacco where we will require a 
retailer to set aside a private room where all our video 
cassettes are going to be displayed and only adults may enter 
the doorway. What would you suggest?
    Mr. Valenti. Well, Senator Inouye, you know we have an 
adults-only rating. It is called ``NC-17'' where children are 
barred from attending the movie. And most video stores will 
have a separate place. If they do sell or rent those, they will 
do it separately. And no child can rent it or no child can buy 
it. The Blockbuster stores and others are very, very serious in 
enforcing that.
    I am saying to you we are dealing with some vagueries of 
the human condition that is beyond the power of any one or two 
people or any one or two groups or any one or two industries to 
be able to fix in somebody's mind how they should react to a 
particular situation.
    I think Mr. Goldberg was talking about that all children 
are different because they come from different backgrounds. And 
all parents are different. I do not believe anybody that is a 
mere mortal can make these judgments about other people. So all 
we do in this free and loving land is to try to give people 
some advance information about what it is they eat, what it is 
they do, what they see, what they read. And then let them make 
those judgments, much as we do in an election booth. We offer 
candidates and we say choose one that you like to vote for. 
That is the only way I know to deal with it. It is imperfect. 
It is clumsy and it is awkward. And sometimes it causes 
frustration, makes us vexed. That is part of being a free 
republic.
    Now, if I were an enlightened despot, I could deal with 
this. And, by the way, that is a thought that is kind of 
congenial to me as a matter of fact. But we do not have that 
kind. When the Soviets were in power, you did not have anything 
on television that the Kremlin did not want.
    You pay a price for that though. And so I am saying to you 
that I do not know of any way that you can inflict upon others 
your own judgments. And your, I mean, the Congress or a group 
or an association, whatever. You cannot do it any more than the 
majority/minority leader can fix upon the members of his party 
how to vote on a particular thing or how to respond. You cannot 
do it.
    Dr. Dyson. Can I add something to the response if I may, 
Senator? You know, what strikes me as intriguing and at least 
worthy of the same sort of intense scrutiny to which we subject 
this whole rating system and about music or videos and movies 
is the fact when we think about television, you know, we cannot 
calibrate the intensity of the psychic violence that was done 
when say back in the 1950s when father knew best, when America 
generally through the haze of nostalgia has a claim that is the 
golden age of television and cinema and filmmaking and so on. 
The reality is that there was so much stuff that was done to 
devastate the minds of the average American, including young 
black kids, young poor white kids, Latino kids, Asian kids, 
minority kids, gay and lesbian kids, my God.
    And during the era of father knew best, the rates of 
domestic violence that were intensely expressed in American 
society were never reflected on television. And what happened 
through the haze of nostalgia, we romanticize the American 
family as the kind of locus classicus of everything that was 
good. When indeed there was so much pathology going on.
    Number two. When you think about that era of father knew 
best and black and white that we now romanticize, Lassie had a 
television program and Nat King Cole could not stay on for a 
year. Now, what does that say to a young person growing up? I 
can look at a dog, look at Timmy and Lassie, Sister June and 
everybody else who was on the show--because I checked it out--
the dog had a program and Lassie was worthy of being followed. 
Bow wow wow. What you saying, girl? Bow wow wow wow. Let us 
follow her out. But a black man of enormous talent, on whose 
back Capitol Records was built, could not stay on television 
because of the revulsion for black skinned skill and talent in 
one segment.
    And I am saying look at the psychologically violent 
consequences to young people. So I am saying all that to say 
this. That when you begin to try to calibrate, it is not only 
about the resistance of a Euclidian geometry or an Archimedean 
point of objectivity from which we can look at television and 
say and radio and say and lyrics and say and movies and say 
that stuff is bad.
    Of course, we have common sense. We know when stuff is 
destructive or not. But the reality is there is so much more 
that is destructive that never shows up on the radar screen. 
There is so much more that does violence to young people who 
are growing up that has nothing to do with whether somebody 
said damn or hell or some other word. It is about the realities 
that they confront and the inability to make those realities 
visible and to make the United States Congress take those 
seriously. I think we have to put those in context as well as 
these other things about which we eloquently discourse here 
today.
    Senator Inouye. Mr. Chairman, I'm happy I was hear to 
listen to this panel here. Dr. Cook, is there a difference in 
violence, say in the three movies that I cited, and other R-
rated movies? When is violence real violence?
    Dr. Cook. No. No, it is not. There is varied--many 
different grades of violence, and some are intentional, some 
violence is intended to harm, some is unintentional. There's 
many different types and grades of violence, and so violence 
isn't violence isn't violence.
    Actually, something that no one has mentioned here today, 
there has been a slight decrease in the amount of violence in 
the United States in the last few years. This is particularly 
true, except in 15- to 24-year-olds. And in that group, the 
violence hasn't decreased. So some of the things we're doing 
somewhere are working. We just need it to work better and more 
effectively so the rate will continue to drop. But the violence 
rate increased up until about 1992 or 1993 and then has begun 
to come down slightly since that time.
    So I think that's important. There are things out there 
that are happening that are positive to make that occur.
    Senator Inouye. Dr. Cook, I want to thank you for your 
contribution. The statistics that you cite among African 
Americans can be duplicated in the Native American----
    Dr. Cook. Yes, sir.
    Senator Inouye. --population of the United States----
    Dr. Cook. Yes.
    Senator Inouye. --in some cases, worse.
    Dr. Cook. Uh-huh, absolutely.
    Senator Inouye. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir. I'm unaware of whether 
Senator Breaux or Senator Kerry arrived first. Senator Kerry?
    Senator Kerry. Mr. Chairman, thank you very much. It's been 
very interesting listening to a lot of this. I apologize that 
some of us have not been able to be here throughout the 
hearing.
    I mean, as I said earlier today, there's some really tricky 
aspects to this that I know Senator Inouye was particularly 
sensitive to, and others, I think, have been.
    And Mr. Dyson, I was particularly struck. I came in--I 
didn't hear all of your testimony, but I couldn't agree with 
you more strongly about the perceptions of young people and the 
difficulties of our trying to amass judgment on some aspects of 
what we hear. Certainly one person's profanity can easily be 
another person's protest.
    Dr. Dyson. Uh-huh.
    Senator Kerry. And that's always been true. It has always 
been true. And I can remember, during the turmoil of the 1960s 
and early 1970s in this country, there was an awful lot of 
profanity that was part of the political protest. And 
obviously, it would be sanctioned by the court under the First 
Amendment.
    And if I were black or Latino or some other minorities in 
America, I could find a lot of four-letter words and a lot of 
other kinds of words of powerful alliteration with which to 
describe this institution and the political system's lack of 
response. I mean, after all, 48 percent of the kids in New York 
City don't graduate from high school.
    Dr. Dyson. Yeah, right.
    Senator Kerry. There are more African Americans in prison 
today than in college.
    Dr. Dyson. Uh-huh.
    Senator Kerry. And if I were a young black person growing 
up in those circumstances in this country, notwithstanding the 
extraordinary opportunities that there are, and there are--I 
mean, there are just amazing opportunities for people. And you 
look at a person like Devall Patrick in Massachusetts, who came 
out of the south side of Chicago, happened to get a great 
scholarship, went to Harvard, became----
    Dr. Dyson. Yeah.
    Senator Kerry. --Assistant Attorney General for Civil 
Rights. I mean, there are people of enormous distinction who've 
made it. But the problem is, systemically there is a sense 
still of much too great a set of hurdles and too many barriers.
    And you look at what was in the paper--I think it was 
yesterday or today--that the reports are now--the surveys 
they're doing on the application of the death penalty----
    Dr. Dyson. Yes.
    Senator Kerry. --that is showing the same kind of very 
disturbing trend lines with respect to race and otherwise.
    Dr. Dyson. Uh-huh.
    Senator Kerry. So I would caution my colleagues a little 
bit with respect to sort of a blanket statement with respect to 
what we hear. Music has always been a form of expression, from 
the beginning of time, and an enormous political tool, I might 
add.
    Dr. Dyson. Right.
    Senator Kerry. And, in many cases, it is. Now, that being 
said----
    Dr. Dyson. Right.
    Senator Kerry. --it is really hard to find any excuse and 
certainly any political redemption----
    Dr. Dyson. Uh-huh.
    Senator Kerry. --in some of the lyrics that we see. There 
is, in fact, a particularly onerous aspect of the anger that is 
expressed in some of the lyrics. It's a kind of anger of 
domination that is particularly violent against women. And I am 
a parent, though my kids have now made it through college and 
seem to be okay, but I would have--I had serious reservations 
about that. And I think any parent has to have serious 
reservations about what they hear.
    And my question to any of the panelists who can answer this 
adequately--and then I want to ask Mr. Valenti something about 
the movies, per se. And, of course, there's a distinction 
between some of the music, between the software, between the 
video games, between movies. I mean, there's a lot of gradation 
here, and we have to also be thoughtful about that--but with 
respect to the music, it does strike me that some of what we've 
heard in the last ten years goes over a line that any 
responsible corporate entity ought to have second thoughts 
about sponsoring notwithstanding some desire in the public at 
large to perhaps buy it.
    I can understand, maybe, pirate companies selling it. I 
could understand an underground network that makes some of it 
available. I find it very hard to understand why the most 
upright, upstanding, respected corporate entities in the 
country are advertising it are--or are in on it, supporting it, 
investing in it. And I wonder if--I mean, isn't there some 
measure--short of legislation and overreach by a legislative 
body, isn't there some way for a more adequate and responsible 
level of restraint to be exercised from the industry itself, or 
is that simply, after all these years, asking too much?
    Ms. Rosen. Well, Strauss Zelnick and Danny Goldberg earlier 
talked a little bit about, as executives, how they evaluate a 
record as it comes across their desk. And there are complicated 
measures that are not always definable, but they start with 
artistic integrity, they start with who the artist is, how 
they're saying what they're saying, how the music affects their 
messaging, and sometimes it really has nothing to do with 
trying to make a point; sometimes it's really just 
entertainment.
    And I think that, to be frank, Senator, it probably is 
expecting too much to think that, at any given point, music is 
somehow going to be acceptable. You know, I've heard, over the 
last few days, this, sort of, ``Well, you have six months to 
clean up your act.'' And with respect to the marketing 
practices and the FTC report and things, that's going to be 
looked at carefully, but I don't make any promises to this 
Committee, and I don't think anyone in the music industry would 
or should somehow suggest that music is going to change, that 
artists will change, that artists are not going to continue to 
seek out their own voice and their own possible distribution 
for that voice.
    And some artists like being on the edge. That's how they--
that's how they experience their emotions, and that is how they 
express their emotions. Other artists don't go there. But I 
wouldn't even know where to suggest that somebody draw the line 
as an abstract occasion. That's why----
    Senator Kerry. Well, it's a self----
    Ms. Rosen. --executives have to do that every day, and they 
do.
    Senator Kerry. Well, I guess it's a self- --I mean, 
obviously, it's a self-drawn line, but there are certainly 
lyrics--and I'm not going to go into them here and now--but, I 
could--I mean, there were some that I just find--I mean, I'm 
pretty open-minded and pretty willing to accept anybody's right 
to be edgy and sometimes even over the edge, but it's hard to 
find any social redemption of any kind--or artistic 
redemption--I mean, yeah, there's a beat, there's--you know, 
you can find that.
    But even in some of them, there seems to me it's very hard 
to find that rationale that I know you can always articulate.
    Ms. Rosen. Well redemption is a lofty goal. I think it's 
sometimes asking too much when you're just talking about 
entertainment. I agree with you----
    Senator Kerry. Well, lots of things are entertaining, but 
they're not always allowed by the law.
    Ms. Rosen. Well, I understand. But in the case of speech, 
that is allowed by law, but what you heard this morning from 
some articulate guys, I thought, was not, ``We'll do anything 
because we can.'' Yes, the First Amendment does allow----
    The Chairman. Obscenity is not allowed by law, Ms. Rosen.
    Ms. Rosen. I'm sorry?
    The Chairman. Obscenity is not, according to the United 
States Supreme Court----
    Ms. Rosen. I understand. I was just going to get there. I'm 
not making a First Amendment argument, and I don't think the 
executives today made a First Amendment argument. I think what 
they said was, we take responsibility for what we put out in 
each piece. It's individually examined. And some piece of it 
has value to those who create it and has an audience, and so 
they put it out.
    So I don't think that there is just sort of this blind 
attachment to free speech. I think it is a sincere desire to 
have a diversity in the marketplace and to pursue that with all 
possible artists.
    Dr. Dyson. Can I add very briefly in regard to that point, 
Senator Kerry? I think that--take for example--what Ms. Rosen 
is saying--take, for example, the album--the first album by 
Notorious B.I.G.--Biggie Small's. Now, on that album, you would 
find stuff, I would find stuff, all of us, most of us would 
find stuff that's pretty repulsive.
    His song celebrating his girlfriend is called, ``Me and My 
B----,'' and we can fill in the blanks there. Now, even though 
he means it as a term of affection, he goes on to iterate how 
this woman has really helped him, and so on and so forth. On 
that same album, he's got many other songs, like ``Things Don't 
Change.'' ``Back in the days our parents used to take care of 
us, look at 'em now. They're even blankin' scared of us, 
calling the city for help because they can't maintain. Darn 
things don't change. If I wasn't in the rap game, I'd probably 
have a key, a kilo, knee deep in the crack game, `cause the 
streets is a short stop. Either you sling and crack rock, or 
you got a wicked jump shot. Damn, it's hard being young from 
the slums, eatin' five-cent gums, not knowing where your meal's 
coming from. What happened to the summertime cookout? Every 
time I turn around, a brother's being took out.''
    Now, if you restrict because of vulgarity and profanity and 
misogyny and unwarranted sexism, the commercial viability of a 
particular album--on that same album is an eloquent 
exhortation----
    Senator Kerry. But that's not what I'm----
    Dr. Dyson. --(inaudible crosstalk)--to deal with.
    Senator Kerry. --that's not what I'm talking about. That--
--
    Dr. Dyson. And I'm saying on the same album, though, the 
complex amalgam----
    Senator Kerry. That's not----
    Dr. Dyson. --of the good and the bad together.
    Senator Kerry. Sure, but that's not what I'm talking about. 
That's a powerful statement. I mean, at easy blush--someone 
would say there's a--I mean, there's a whole lot contained in 
that. I don't think that's what I'm talking about, but I don't 
want to get bogged down here.
    Dr. Dyson. Right.
    Senator Kerry. I think most people--it's exactly what Jack 
Valenti said, you know, when--you can't necessarily define 
pornography, but you know when you see it. People know when 
they are reading a lyric or a paragraph----
    Dr. Dyson. Sure.
    Senator Kerry. --that has absolutely no value except for 
shock value.
    Dr. Dyson. Right.
    Senator Kerry. And I think people can do that pretty well. 
And somehow that stuff finds its way into mainstream marketing. 
And, in many cases--and I think you have to recognize this--we 
all know how celebrity works in America, and we know how the 
marketing and----
    Dr. Dyson. Yeah.
    Senator Kerry. --and sort of, build up is.
    Dr. Dyson. Sure.
    Senator Kerry. You can create a demand for it.
    Dr. Dyson. Yeah.
    Senator Kerry. One can create a sense of acceptability to 
it and build it into something than any, sort of, real movement 
has created or--
    Dr. Dyson. Yeah.
    Senator Kerry. --legitimacy. So again----
    Ms. Rosen. But that----
    Senator Kerry. --I don't want to get into this----
    Ms. Rosen. --that's not really true, with all due respect. 
You can't buy popularity. I mean, artists get popular because 
people are attracted to what they say. If you could buy 
popularity, 85 percent of the records that we put in the 
marketplace wouldn't fail or----
    Senator Kerry. Let me say----
    Ms. Rosen. --or, you know, or something----
    Senator Kerry. --let me say that--you know, you and I are 
good friends. We don't disagree on a lot, but I will disagree 
on the notion that, number one, you can't buy popularity. 
Witness some political races in this country. Number two----
    Ms. Rosen. Well, in our business, you can't.
    Senator Kerry. Yes, indeed, in your business, you can.
    Ms. Rosen. You can----
    Senator Kerry. Remember when the Monkees----
    Ms. Rosen. --you can buy attention.
    Senator Kerry. --the Monkees were completely created out of 
whole cloth----
    [Laughter.]
    Senator Kerry. --completely created out of whole cloth----
    Voice. Oh, no, not the Monkees.
    [Laughter.]
    Senator Kerry. --and they were given a creation and an 
existence that had no----
    Ms. Rosen. But they----
    Senator Kerry. --relationship--built on the popularity of 
the Beatles, correct?
    Ms. Rosen. No, but they were sustained because people 
were----
    Senator Kerry. `Cause it mimicked----
    Ms. Rosen. --attracted to what was offered. There is a 
difference between buying popularity and buying attention.
    Senator Kerry. Of course, because it was pure mimicking of 
what was already there, and I can give you--I can create some 
mimicry and put it out there. That doesn't mean it has 
legitimacy, in and of itself. The original does. But then you 
create--I mean, I don't want to get lost in this argument, 
because it's a----
    Dr. Dyson. Because Mickey Dolenz did have skills.
    [Laughter.]
    Senator Kerry. Let me just ask one last question on a 
different subject. Mr. Valenti----
    The Chairman. Can I make a point, John, very quickly? This 
hearing is about marketing and an FTC report about marketing. 
If we want to have a--hearing about content and whether or not 
it's obscene or not and all that, that is not the subject nor 
the focus of this hearing. This hearing is not about 
censorship. It's about marketing and the conclusions reached by 
the FTC. That's what this is all about. I want to----
    Senator Kerry. That's what I'm----
    The Chairman. --emphasize that again.
    Senator Kerry. --trying to get to, and I agree with that, 
Mr. Chairman, which is why I wanted to ask you, Mr. Valenti, in 
terms of the marketing, the ads that appear in the newspaper on 
a number of movies that have--almost all have some sort of a 
rating, you know, box--very small, usually. But what you can't 
find in this anywhere is sort of a description of the rating. I 
mean, you see the ``R,'' but you don't know if it's rated ``R'' 
for violence or ``R'' for sexual explicitness, et cetera.
    And the question is, when asked, in the FTC report, I 
believe the industry said, ``Well, we don't have space to be 
able to do that.'' Now, even when you go to the Web site 
advertised, again, in extraordinarily small print on these, and 
you try to--you can get the trailer, and you can get some 
information about the movie, but you don't get any linkage to 
the film ratings dot-com site, you don't get any indication of, 
again, what--there's no greater tool, if you will, for a parent 
to be able to understand what the movie might be about.
    And when you look at the ads themselves--I mean, this is, 
you know, a New York Times advertisement--it's pretty hard to 
understand where the space problem is in that ad. And this is a 
Washington Post ad for ``The Watcher''--again, pretty hard to 
understand why there isn't space.
    And I asked my staff to go in and look at the Web sites on 
the marketing and see if they could find any explanations of 
what this might be about. And the best they could find out, it 
was--you know, it seemed to be about the strangulation of a 
woman, but no further kind of light shed on the nature of the--
on the nature of the rating itself.
    I wonder if the industry, I mean, could not be 
spontaneously encouraged to sort of come out and say, ``Well, 
we can do a better job of making certain that people really 
have an explanation at their fingertips.''
    Mr. Valenti. Point's well taken. In fact, that's one of the 
omissions that we're going to fill, that every Web site, I 
think, ought to carry the reasons for the ratings and have 
linkage to parentingguide.org, to filmrating.com, to Moviefone 
and all--and the MPAA Web site, as well, so that they're all 
interconnected by linkage.
    Now, Senator, one of the things that--you saw a full-page 
ad there. Those full-page ads are only in the large newspapers. 
Maybe 80 percent of the country doesn't get full-page ads. It 
would break a company. And when you get into quarter-page ads, 
there's not any room, because that ad--the size of type in that 
ad is all worked out with creative rights committees between 
the writer's guild, director's guild, actor's guild, and the 
producers, so that there is a--there's literally kind of an 
architecture of that ad mutually agreed upon.
    So that if we placed those ratings reasons in the full-page 
ad and somebody--and there will be people say you've got to 
make them bigger, now we've got to go through that whole 
process, because that ad is carefully textured with both the 
creative community and the producers.
    As far as making rating reasons visible, I think you hit a 
point that I've already put down on my notes that I'm going to 
take up with each of the companies. We're going to have rating 
reasons.
    Now, to go beyond violence----
    The Chairman. I'd ask you to summarize your answer, Jack.
    Mr. Valenti. Well, but that's----
    The Chairman. We're in the fifth hour of this hearing.
    Mr. Valenti. --that's all I need to say, Senator.
    The Chairman. Thank you.
    Senator Kerry. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Brownback?
    Senator Brownback. Yes. These are specific and direct to 
Jack, if I could. And I have a great deal of respect for you, 
as well, and your great talents. In the report, on page 13, the 
industry itself, your industry, the MPAA, takes the view that 
children are appropriate targets for such films--these are 
``R'' and ``PG-13''--so long as parental accompaniment or 
guidance is provided. Marketing documents reviewed by the 
Commission indicate extensive marketing and, in many instances, 
explicit targeting of violent ``R'' films to children under the 
age of 17, and of violent ``PG-13'' films to children under 13. 
That's in the report. It's on Page 13 of the report.
    Mr. Valenti. I have it right here, Senator.
    Senator Brownback. My question to you--just really, as an 
industry--we've got a third of our children out there being 
raised by single parents. Do you feel this is appropriate 
industry policy to target market these types of films to that 
audience? This is a policy statement, as I understand, of your 
industry.
    Mr. Valenti. With all due respect to the FTC, that's simply 
wrong. We don't make policy statements about how marketing is 
done. We just make the ratings system, which is not connected 
to the movie industry at all.
    I'm the only person that is connected to the movie industry 
that has any power over the ratings system. I hire the people 
there, and no one can get to that ratings system without 
knocking me down, and they haven't done so in 32 years. This is 
a wrong statement.
    Senator Brownback. You are saying that you do not target 
market ``R'' and ``PG-13'' films?
    Mr. Valenti. I'm saying the ratings system doesn't. We just 
give a rating. Now, what happens after that----
    Senator Brownback. But I'm--well, let me sharpen my 
question, then. Maybe I'm not asking it----
    Mr. Valenti. All right.
    Senator Brownback. --appropriately. These are ``R'' and 
``PG-13'' films.
    Mr. Valenti. Right.
    Senator Brownback. The study says that there's extensive 
marketing to audiences of children under the age of 17 and 
children under 13 of ``R'' and ``PG-13'' rated films, and that 
your industry thinks that's okay.
    Mr. Valenti. Well, now----
    Senator Brownback. Is that correct or incorrect?
    Mr. Valenti. --it says here that the ``MPAA takes the 
view.'' Well, I--are they speaking for all seven companies? Are 
they speaking for me? They're not speaking for me, 'cause I 
don't take that view at all.
    Senator Brownback. Okay, so you say you disagree with this 
view.
    Mr. Valenti. I'm saying this, Senator. I think that all 
``R'' ratings films are different, as I said when I first made 
my statement; and that, therefore, I went on television saying 
I thought children 13 and 14 ought to go see Saving Private 
Ryan--that's an R-rated film--because I thought it would--I 
wanted to let them know where the gift of freedom came from. 
I'm saying to you that we have--we, the MPAA, has no----
    Senator Brownback. But the----
    Mr. Valenti.--authority over that.
    Senator Brownback. --Fight Club, then, I would presume 
you'd say that's inappropriate for children under the age of 
17.
    Mr. Valenti. I do not think--this is my judgment--I do not 
think we ought to target under 17 for any picture that's R-
rated.
    Senator Brownback. Will you be working toward that in your 
association?
    Mr. Valenti. I said it--yes. The answer is yes----
    Senator Brownback. Thank you.
    Mr. Valenti. --that we ought not be targeting under 17.
    Senator Brownback. Very good. I'll look forward to working 
with you on that. Now, Ms. Rosen, we had two of the executives 
in earlier, and they said that they would be willing to work on 
providing lyrics easily to parents, which has been something 
that has been very difficult. And I would like to work with you 
on two items. Number one is getting these lyrics readily, 
easily available to parents. And the second is to have the 
parents involved in the ratings system, which they're not 
currently involved in. Will you be willing to do this, and to 
work your industry forward towards both of those topics?
    Ms. Rosen. Well, I was delighted to have something I could 
finally agree with Lynne Cheney on. I thought it was a 
productive suggestion, and I think that it exactly makes the 
point that if lyrics are available, people can make their own 
determination.
    Senator Brownback. So you will work with us to do both of 
these items?
    Ms. Rosen. No, not the second--tell me the second one 
again, sir?
    Senator Brownback. Parents involved in the rating----
    Ms. Rosen. Yeah.
    Senator Brownback. --process.
    Ms. Rosen. No, I don't support that. I think that the 
current system, as a voluntary system, works. We have 
virtually, in my four years as president of the RIAA, I've 
never had a phone call from a parent saying, ``This record 
should have been stickered, when it wasn't.'' You know, that 
part of the system, I think, works.
    But I do agree that there are some innovative ways we could 
look at to make lyrics available. I'm for that.
    Senator Brownback. Well, I would hope that you would take 
it to your industry to discuss having parents involved in the 
ratings systems and, if you could, to bring that up to your 
board, to have them discuss that very issue. My hope would be 
that they would not be objectionable--object to having parents 
involved in the ratings system.
    Ms. Rosen. Involved in----
    Senator Brownback. If you could do that----
    Ms. Rosen. --what way, Senator?
    Senator Brownback. What's that?
    Ms. Rosen. Involved in what way?
    Senator Brownback. In helping to set the ratings.
    Ms. Rosen. Oh, 74 percent of parents in the FTC's own 
report, which was quite critical in many areas, said that 
parents are satisfied with the system, so I don't think that's 
going to change. I don't want to--I'm certainly willing to 
discuss it with anybody, but I don't want to raise false 
expectations with you.
    Senator Brownback. Well, if you would be willing to discuss 
it with anybody, I would appreciate you discussing it with your 
board.
    Ms. Rosen. Sure.
    Senator Brownback. Thank you. I would note, to Mr. Valenti, 
that your ratings system, while received well by parents, on 
Page 11 of the report, the last question the FTC asked was, 
``How does the ratings system do in informing you about 
violence?'' Good or excellent, 48 percent; fair or poor, 50 
percent.
    I think that probably applies some across the board to your 
ratings systems of the various industries here. So, I would 
hope you would look at that as saying, ``Here's a way we need 
to work harder to get more of this information out and 
available to parents--similar to the lyrics issue.''
    Mr. Lowenstein, I want to applaud your industry for putting 
forward a code of conduct. I appreciate you at least setting 
forward and saying, ``Okay, we're going to put some standards 
here,'' so that the rest of the country can measure you by the 
standards you set for your own industry. I would hope you could 
set them higher than a low bar, but I appreciate the 
willingness of you to come forward.
    The problem is, as I've noted so far, it appears very few 
members of the industry are complying with the code, as this 
report documents. What steps can we expect that the IDSA will 
enact to ensure compliance with the code, and will there be 
consequences for your members if they don't comply with the 
code?
    Mr. Lowenstein. Let me make two comments on that, Senator. 
First, understand that the code is far broader than simply the 
target marketing provision. So when you talk about compliance, 
we're talking about ratings on packaging, we're talking about 
content information on packaging, we're talking about ratings 
in advertising. We recently required members to put content 
information in advertising, as well.
    There is a whole range of provisions in this code, most of 
which are complied with at a very high level. The target 
marketing issue clearly is a problem, and the FTC identified 
it.
    As I indicated in my testimony, we took the initiative last 
September to create a new self-regulatory body within the 
independent ratings board to more aggressively police and 
monitor the advertising practices of our industry.
    The sanctions in there are quite strong--the way this will 
work is that when you ask--when you apply for a rating from the 
ratings board, you sign a document that obligates you to a set 
of terms and conditions, including compliance with the 
advertising code.
    If, in the judgment of the ESRB, you have violated the 
advertising code, it has a range of sanctions it can bring 
against you, including revoking the rating, which would be 
commercially disastrous; you would basically lose your shelf 
space. They can proceed against you on trademark grounds, for 
fraudulent use of and mis- representative use of a trademark. 
They can even refer the matter to the FTC under their own rules 
and regulations.
    So we think we have built some teeth in. I want to make 
sure you understand that the ARC unit really began its 
operations in June or July, so it is, I freely admit, a work in 
progress. We are committed to making sure it's effective, and 
our board, as I said, in September, well before we even knew 
where the FTC was going to come with its findings, moved 
forward to try to address the advertising issues.
    Senator Brownback. I look forward to working that more with 
you. And I would just ask all three of you, as representatives 
of industries that are powerful, important, and key in 
influencing the hearts and minds and souls of young people, to 
think about this: we've got now the entire public health 
community saying that the level of intake of violent 
entertainment in this country is harmful. The entire public 
health community is saying that, and that it's causation--not 
just correlation; they're seeing causation now.
    I would hope that would cause each of you pause as you 
think about your defense lines of basically saying, ``Look, 
it's the parent that has to stop this stuff,'' and that you 
would say to yourselves, ``Do I want to be a part of an 
industry that's freely and willingly pushing products that the 
entire public health community is saying are harmful to 
children? And do I want to push those knowing that about a 
third of our children in the country are in a single-parent 
household that struggles in the first place anyway?'' These 
single parents are really trying to fight back, but you're 
cramming it down there with millions of dollars of advertising 
money.
    So you make it pretty tough on two parents. You make it 
extraordinarily difficult on one. This is an issue the entire 
community says is harmful. So I would hope that you would take 
those thoughts and statements to heart. Thank you, Mr. 
Chairman.
    The Chairman. Senator Breaux?
    Senator Breaux. Thank you, Mr. Chairman. I thank you for 
your patience and for being here all day long and also for this 
particular panel for being the last, but not least, panel to be 
heard. I have just a couple of points that I'd like to explore.
    If--and maybe Ms. Rosen and Mr. Lowenstein and Mr. Valenti 
could perhaps decide who might respond to this--if next week in 
the Senate Finance Committee I offered an amendment to the tax 
code that said no company can deduct the cost of marketing or 
advertising a product to underage children that the company 
itself has rated as unsuitable to underage children, would you 
all be able to support that amendment?
    Mr. Valenti. Well, first, we don't, in any of our ratings 
systems, say anything is unsuitable. We say it may be 
inappropriate, but the parent makes that judgment on ``R'', 
``PG-13'', and ``PG''. On ``NC-17'', we say flatly, ``No child 
should go into this movie.'' The children would be barred.
    Senator Breaux. So if there is advertising that is used to 
promote that product to underage children under the age that 
you have rated it as being unsuitable, would you be able to 
support an amendment that said if any industry does that, that 
they would not be able to deduct the cost of that marketing and 
advertising under the tax code?
    Mr. Valenti. Well, what I'm--I guess my answer, Senator, is 
that the ``R'' rating we don't say is unsuitable. That's a 
parent that makes that judgment. We say there's violence in 
here, there's some sensuality, there's some language, and you 
may not want your child to see it, but you may want your child 
to see it. It's your decision.
    Senator Breaux. The problem I have, Jack, is it seems that 
the FTC report indicates that there is, in fact, advertising 
and marketing of entertainment products to people that the 
industry itself has recommended that a certain group of young 
people not see. And my point is if that's the industry's 
determination, this is not proper for young people to see, then 
if you advertise to that group of children, is it fair to get a 
tax deduction for that advertising?
    Mr. Lowenstein. Senator Breaux, may I just make a brief 
comment? I think it's very important to look at this on a 
number of levels. First of all----
    Senator Breaux. I have a very simple question.
    Mr. Lowenstein. Well, no--except the proposal isn't simple. 
For example, the FTC----
    Senator Breaux. My proposal is very simple. You don't get a 
tax deduction for marketing to children.
    Mr. Lowenstein. Well, we need to define ``marketing with 
children,'' Senator. The FTC----
    Senator Breaux. Advertising----
    Mr. Lowenstein. Well, the FTC would say that if you 
advertise in a publication where 50 percent or fewer of the 
readers are--or more of the readers are under 18, that 
constitutes target marketing. I'm not sure I would agree with 
that standard, because, in fact, you have half the population 
of a publication, or even a majority of a publication, which is 
appropriately targeted--the products are properly targeted to--
--
    Senator Breaux. Well----
    The Chairman. Let me, if I could, interrupt my colleague to 
say--let me simplify it for you. The FTC has said the following 
outlets in the Kansas City market were targeted with flyers 
and/or posters for the films: Campfire Boys and Girls, YMCA of 
Greater KC, Boys and Girls Club of Eastern Jackson. Does that 
simplify it for you?
    Mr. Lowenstein. Well, I--you know, I can't--it simplifies 
it in a specific example, but----
    The Chairman. Specifically distributed flyers to young 
people urging them to see a film that was rated ``R'' or NC-17.
    Mr. Valenti. Let me respond, Senator, by saying----
    The Chairman. I don't want to--I'm sorry, Senator Breaux--
--
    Senator Breaux. That's all right. That's fine.
    The Chairman. --but let's not complicate this, as Senator 
Breaux says. This is pretty simple. They advertise directly to 
young children.
    Senator Breaux. And your argument, Mr. Lowenstein, is 
that-- how do you define advertising to young children? I'm 
asking the principal question.
    And if we can determine how--that the company is, in fact, 
advertising to children--maybe advertising in teen magazines in 
which mostly people under 17 read--you know, is that--if you 
advertise a product that your own company has said is not 
suitable for that group of people that you're advertising to, 
is it proper to continue to get a tax deduction for that 
marketing and advertising expense?
    You apparently say, ``Well, it may not be advertising to 
those children.'' Let's find out where you, in fact, are. Is it 
still proper to get a deduction for advertising to that group?
    Mr. Lowenstein. Well, to be very honest, you know, I 
don't--I want to reserve judgment on that, because----
    Senator Breaux. Okay, that's good. Ms. Rosen?
    Ms. Rosen. I have a simple, but unpopular, answer. And the 
answer is no, I wouldn't support it. Although we don't have an 
age-based system, so it wouldn't affect it directly, but I 
think what you will do is put yourself in a constitutional 
Catch-22.
    Senator Breaux. Well, the point I would make is that this 
is not Congress determining that it's unsuitable.
    Ms. Rosen. No, no. That----
    Senator Breaux. This is a----
    Ms. Rosen. --that's my point.
    Senator Breaux. --this is the industry itself----
    Ms. Rosen. I get it.
    Senator Breaux. --that has made the ratings system that 
determines that this product----
    Ms. Rosen. Let----
    Senator Breaux. --is not----
    Ms. Rosen. --let me just finish my point----
    Senator Breaux. --suitable for a particular----
    Ms. Rosen. --my point.
    Senator Breaux. --group of people and yet apparently 
continues to advertise to the group that the industry itself 
says is not suitable to see this product.
    Ms. Rosen. If Congress enacted that----
    Mr. Valenti. Senator, I'm----
    Ms. Rosen. Let me finish, Jack. If such a statute were 
enacted, regardless of what anyone at this table said, any 
guideline that had an age-based recommendation would be 
withdrawn, because you would be taking away the voluntary 
incentive in the marketplace to create an age-based rating.
    And the constitutional Catch-22 that Congress would be in, 
unfortunately, is that you couldn't impose an age-based rating 
system, because that would be unconstitutional. So you----
    Senator Breaux. So the industry would withdraw their age 
rating recommendations?
    Ms. Rosen. If you created--whether it was a tax issue or 
criminal sanctions that people are talking about the FTC should 
do, whatever it is, that creates disincentives for voluntary 
systems, people are going to react. And it----
    Senator Breaux. It just seems----
    Ms. Rosen. --doesn't make any sense.
    Senator Breaux. --it doesn't--I mean, the inconsistency of 
the FTC report seems to me to be this--they find that companies 
apparently market to the very people that the companies have 
said are unsuitable to view the product. I mean, that is a huge 
inconsistency. Jack, I think you----
    Mr. Valenti. Senator----
    Senator Breaux. I said----
    Ms. Rosen. I'm not saying it's right----
    Senator Breaux. --it earlier, that the marketing----
    Ms. Rosen. --I'm just saying that'll be the response.
    Senator Breaux. --department must not be listening to the 
executives who rate the movies.
    Mr. Valenti. Senator, I've got to respond. I think this is 
one of the most important questions that you--anybody's asked. 
Now, I want to tell you----
    Senator Breaux. It could be the last question, too.
    Mr. Valenti. --let me tell you about what we say, that an 
``NP''--``R'', restricted, under 17 requires accompanying 
parent or adult guardian; signifies that the rating board has 
concluded the filM-rated may contain some adult material. 
Parents are urged to learn more about this film before taking 
their children to see it. An ``R'' may be assigned due to, 
among other things, language, theme, violence, sex, or a 
portrayal of drug use. That's what we say. We don't say 
``unsuitable.''
    Senator Breaux. How about NC-17?
    Mr. Valenti. I beg your pardon?
    Senator Breaux. How about NC-17?
    Mr. Valenti. NC-17 signifies that most parents would feel 
that this film is patently adult, and children 17 and under 
should not be admitted to it, period. That is----
    Senator Breaux. But isn't it inconsistent to say that we, 
as an industry, feel that this is something a certain category 
of people should not view, but yet we're going to spend 
advertising dollars to encourage them to see it?
    Mr. Valenti. Senator, I don't know how to make it simpler. 
I've read to you what our rating category is. It doesn't say 
``unsuitable.'' It doesn't say you can't go. Parents make that 
judgment. We say ``it may''--that parents might--``it may 
contain.'' That's not ``unsuitable,'' Senator, not at all.
    Senator Breaux. Okay, let me use another line in a 
different area. We have warning labels in this country on 
everything. We have warning labels on drugs--how you use them; 
please take them with food--if you don't, it's going to make 
you sick. We have warning labels on food products--how to cook 
the food, how to prepare it so it's still safe. We have warning 
labels on machinery--how to use it so you don't injure 
yourself. We have warning labels on cigarettes.
    They've been out there for a long period of time saying, in 
fact, ``If you use this product, it can kill you,'' in effect. 
Warning labels, in my opinion, are only effective if people 
read them, understand them, and follow them.
    Now, the question I have--it seems to me that we've had 
these warning labels established by Congress, working with the 
industry. Mr. Valenti, you've established it for the motion 
picture industry. The disturbing thing that I have that I think 
that--I don't know how Congress solves this problem--is the 
fact that a recent study indicates that 92 percent of young 
boys play the video and electronic games. They understand the 
industry's ratings system, but 90 percent of these kids say the 
parents never check the ratings systems or what they buy and 
what they bring home.
    On the V-chip issue, which we had hearings on and made a 
great deal to do about the V-chip on televisions, that 91 
percent of the broadcasts and cable televisions are rated by 
the age-based system. This is the Kaiser Foundation study, and 
it went on to say that nearly one in ten parents, 9 percent--
only 9 percent of children ages two to 17 now has a television 
with a V-chip. And one third of these parents, which is 3 
percent of all the parents in the country have programmed the 
chip to block shows they deem unsuitable for their children.
    That tells me that 97 percent of parents are not using the 
tools that we gave them to block out objectionable material 
that they themselves would determine unsuitable based on the 
ratings for their own children.
    The reason I bring this up in this capacity is that it 
seems to me that the ratings systems, no matter how we write 
them, are only going to be good if people use them. And I 
think--and maybe our psychologist friends, Dr. Cook or Mr. 
McIntyre, can comment on this.
    I mean, apparently, what I'm hearing from the Kaiser 
Foundation study is that parents are not really doing what they 
should be and are coming to Congress to tell us to do more than 
perhaps we are capable of doing under the Constitution of this 
United States. I mean, if 97 percent of the families with 
teenage children don't use the V-chip, isn't that a great deal 
of their fault why this is being viewed by underage children?
    Dr. Cook. Absolutely. And I would agree with those figures. 
I'd never seen them before, but just knowing what we see 
parents do many times, I think those are probably correct 
figures. It's appalling that, you know, people don't use the 
tools we give them to protect themselves, but, unfortunately, 
it's the truth, and I believe that.
    Senator Breaux. Mr. McIntyre, any comment on that?
    Mr. McIntyre. I think that the burden of being--the burden 
of parenting in today's society is one that is loaded with a 
lot of potholes to have to work around. I think the----
    Senator Breaux. Isn't a V-chip a major way of getting 
around watching every television in your house? You say you 
plug it in and say, ``You'll never watch this series,'' period.
    Mr. McIntyre. I'm sorry, can you repeat that, please?
    Senator Breaux. That was what we tried to do with the V-
chip, so you didn't have to run around and look at five 
television sets in your house and say, ``Don't watch this, 
don't watch this, don't watch this.'' You use the V-chip, and 
you block out anything that's rated a certain rating that you 
don't want your children to see.
    Mr. McIntyre. Absolutely. And we think that the V-chip and 
the ratings systems that Jack and I actually hammered out after 
several weeks of contentious negotiations is something that 
will still prove to be helpful to parents of this aged----
    Senator Breaux. But what does it say to you that 97 percent 
of the families apparently don't bother to use them?
    Mr. McIntyre. I do not necessarily ascribe that to the 
burden of the parents to--to that. I think that the V-chip and 
the ratings system has not necessarily been advertised in the 
ways that it could be to be most profitably used.
    There have been some ventures out there. We have certainly 
ventured, as an association and as the signatories to the V-
chip agreement, to lobby and to try to teach this to our 
parents and their families, but it is not the end all and be 
all. It also has to be met with better implementation, and it 
also has to be met with better accountability when ratings are 
not assigned appropriately. We have, as I understand--and I'm 
not a member of the----
    Senator Breaux. 91 percent of broadcasts in cable 
television is age related--age rated----
    Mr. McIntyre. That's right.
    Senator Breaux. 91 percent--and yet 97 percent of the 
people who are parents with teenage children don't bother to 
use it.
    Mr. McIntyre. Well, I think that also speaks to the 
inability of an age-based ratings system to be able to truly 
address the needs of today's parents.
    Senator Breaux. They're not using it no matter what the 
rating is, is what I'm saying.
    Mr. McIntyre. How do we know that, sir? We don't have a----
    Senator Breaux. The Kaiser Foundation study. If you have 
something better than that, I'll listen to the numbers.
    Mr. McIntyre. Dr. Roberts of the Kaiser Foundation is an 
APA member. I'm very well associated with the study, sir.
    Senator Breaux. Well, I mean, does that--is there a study 
that says that more than three percent of the American parents 
are using it?
    Mr. McIntyre. We see--no, sir--point-blank.
    Senator Breaux. All right, the final question--I mean, it 
seems to me that ratings can be confusing. If we have ratings 
on labels, on records, or on video games, or on movies--and 
there's an awful lot of things we rate--I mean, I would just 
mention all the warning labels we've got on every other product 
that we use as consumers in this country--can you have a 
uniform ratings system that would make any sense? Could you 
implement something like that? Would it work? Is it a good idea 
to have all entertainment products rated under one ratings 
system? Is that possible? Anybody?
    Mr. Valenti. I'll respond to that, and then my colleagues 
can, also. All of these ratings systems are based on different 
ways to come to a rating.
    We have 13 parents in California who see every movie--466 
of them last year--and they put a rating on it. The music 
people have a mature label they put on it, and I think that's 
done by the record labels, or the--and the video games people 
have their own rating. I think they have three people who rate 
every video game. And the television, as Mr. Dyson and I can 
tell you, we work together with child groups, PTA, and 
everything else, and come up with a ratings system on 
television, but those ratings systems are applied by the 
producer or the distributor of the program. So you have four 
methods of determining ratings.
    Another thing, if you don't have a universal ratings system 
that totally duplicates television, then you have demolished 
the use of 50 million V-chip television sets in America, 
because the manufacturers cannot change the circuitry. So, 
therefore, if you have a universal system, it would have to be 
a duplication of the television system, and you don't have an 
``NC-17'' rating in television.
    And by the way, Senator, we don't market ``NC-17'' movies. 
I want you to know that.
    Having said that, I believe that you cannot have that kind 
of a rating system to fit one-size-fits-all. It can't be done. 
And I will tell you this, I would be reluctant to abandon a 
ratings system that has a 32-year record. I just don't think we 
ought to do it with 81 percent--and by the way, that's exactly 
what the FTC finds--and satisfied people, 81 percent of 
parents.
    So I would be reluctant to abandon something that has 
worked and is working for some mystical one-size-fits-all 
that's not going to work because of the different ways that 
these things are gauged.
    Senator Breaux. Can I ask one short question of Dr. Cook, 
Mr. Chairman?
    The Chairman. Whatever you'd like.
    Senator Breaux. It's the last one. Dr. Cook, you had 
indicated some statistics on violent crime and crime among 
teenagers, in particular.
    Dr. Cook. Yes.
    Senator Breaux. Some of the facts that I've seen, and some 
of the testimony that's been here today, it seems to be 
contrary to what you indicated. And I'd give you a chance to 
comment on that.
    Between 1993 and 1998, according to the National Crime 
Victimization Survey of the Justice Department, violent crime 
rates fell 27 percent, and property crime rates dropped 32 
percent. That represents the lowest level recorded since the 
survey's inception, in 1973.
    And in particular to what we were talking about, violent 
crime committed by children and teens is at its lowest since 
1987 and has fallen 30 percent from 1994 to 1998. The arrest 
rate for weapon violations among juveniles also saw a 33 
percent drop between 1993 and 1998. And school violence--
fights, injuries, and weapons carried through the door--has 
been steadily falling since 1991, according to studies by the 
Centers for Disease Control and Prevention.
    It seems that is contrary to what I think I heard you say 
about it spiking up.
    Dr. Cook. No. No, I don't think so. I said that the general 
rate of violence in the country has decreased since 1992 or 
1993, and the figures that I have--and I must admit that the 
last figures I have I got out of The Denver Post, which isn't 
necessarily maybe the most accurate thing in the world--but 
they indicated that the figures for the 15- to 24-year-old age 
group had not decreased like the rest, that it had continued on 
a slightly upward rate.
    Senator Breaux. Yeah.
    Mr. Valenti. Actually, it's gone down.
    Dr. Cook. Yeah. Well, that----
    Mr. Valenti. It fell 28 percent in the last five years--
juveniles under 17.
    Mr. McIntyre. Mr. Breaux, if I may----
    Dr. Cook. That doesn't jibe with what I----
    Mr. Valenti. That's the FBI statistics.
    Dr. Cook. --you know, with what I have.
    Senator Breaux. Those were Justice Department figures. I'm 
sorry.
    Mr. McIntyre. Senator Breaux?
    Mr. Valenti. FBI, sir.
    Mr. McIntyre. Senator Breaux?
    If I may interject just a moment.
    The Chairman. Could I----
    Mr. McIntyre. I'm sorry. Go ahead.
    The Chairman. --could I ask, Senator, Mr. McIntyre to 
respond, and then anyone else who wishes to respond? Go ahead.
    Mr. McIntyre. Thank you, Mr. Chairman. I'm quoting from the 
Centers for Disease Control and Prevention Report on Youth 
Violence in the United States that violent injury and death 
disproportionately affect children, adolescents, and young 
adults in the United States. And homicide is the second leading 
cause of death for persons 15 to 24 years of age. It is the 
leading cause of death for African Americans. Homicide is the 
second leading cause of death for Latino youths.
    If that does not--is considered a problem, sir, I would 
like to----
    Senator Breaux. No, that's not what I----
    Mr. McIntyre. --have an evaluation of the criteria there.
    Senator Breaux. Don't try and put words in my mouth, 
McIntyre. What I said was that--what I quoted was from the 
Justice Department, saying violent crime rates among teenagers 
and juveniles and school crimes had been consistently dropping 
since 1992. I'm not saying that homicides among teenagers is 
not disproportionately higher than other parts of the country.
    What you've cited is totally consistent with the figures 
I've cited. They're not inconsistent in any way. I'm talking 
about--violent crimes among juveniles, school violence in 
schools, arrests among juveniles have all dropped. Homicides 
among teenagers are disproportionately higher than the rest of 
the public. That statement is totally consistent with what I 
read initially.
    Mr. McIntyre. It is my belief, sir, since 1977, we've had 
an average of 17 youth homicide victims per day in the United 
States. If, in fact, this is consistent with what you've said, 
then we are in agreement that this constitutes a problem. And 
regardless of anything----
    Senator Breaux. The point I'm asking Dr. Cook was--he said 
it was--violent crimes among teenagers was increasing as media 
violence increased. That is not what the statistics showed from 
the Justice Department and the Center for Disease Control. 
Those numbers have consistently, over the last seven years, 
been declining at a pretty steady rate. Is it still too high? 
Of course it is; but it's not increasing, it is decreasing. And 
that, I don't think can be contradicted.
    The Chairman. Could Dr. Cook respond?
    Dr. Cook. Senator Breaux, I think what we're doing is using 
different age groups when we're talking about our statistics. 
Those that I talked about, the one group, if you lump them 
together, are the 15- to 24-year age group that have not 
dropped.
    Now, the U.S. crime rate, I think which is the FBI rate, 
says that this is dropping, under age 18. So we're really 
talking about two different sets of statistics.
    But generally, I agree with you a 100 percent, that overall 
violence has dropped in the United States since 1992 if you put 
everybody together in one thing. It's just a small sliver that 
hasn't gone down yet.
    Senator Breaux. I thank all the----
    The Chairman. Senator Breaux, I think----
    Senator Breaux. --members of the panel.
    The Chairman. --I think Mr. Lowenstein wanted to respond.
    Mr. Lowenstein. I just want to make one comment, not on 
this issue. You asked what can be done to get parents to use 
the systems, and I don't have a magic answer to that. But one 
thing I come back to, it's in the FTC report, it's something I 
think everybody at this table can continue to work together on, 
and that's public education.
    We, for example, had a PSA that Tiger Woods filmed for us 
telling people to use the video game ratings system, last fall. 
We could barely get that on network television, I will tell 
you. It was very difficult to get that PSA on.
    I would hope that these medical groups here will take a 
proactive effort and work with us to get word out to their 
members and out to consumers about these ratings systems. I 
think we can start to make a difference, but we need to 
continue the public education effort.
    The Chairman. Thank you, Senator Breaux.
    This hearing is approaching its sixth hour, so I want to 
thank the witnesses for their patience, for their input. We 
will be having another hearing in a couple of weeks. Thank you 
for your cooperation, and I obviously appreciate the spirited 
dialog and exchanges that we had. I think all of us are better 
informed.
    This hearing is adjourned.
    [Whereupon, the proceedings were adjourned at 4:25 p.m.]
                                APPENDIX

 Prepared Statement of Hon. Patrick J. Leahy, U.S. Senator from Vermont
    In the wake of the tragic Columbine High School shootings in 
Littleton, Colorado, where 14 students and a teacher lost their lives 
on April 20, 1999, public concern about the causes of violent acts by 
children in our country reached an all-time high. The President and the 
Congress tried to respond to this concern.
    Within two months, both the House and the Senate took up and passed 
juvenile justice legislation, which included studies proposed by 
Senator Lieberman, and others, on the marketing practices and guideline 
systems used by the entertainment industry and on the causes of and 
ways to prevent youth violence. These proposals never become law, 
however, because the Republican majority in Congress has refused to 
proceed with the juvenile justice conference for over a year.
    Senate and House Democrats have been eager for more than a year to 
reconvene the juvenile justice conference and work to craft an 
effective juvenile justice conference report and law. Indeed, on 
October 20, 1999, all the House and Senate Democratic conferees wrote 
to Senator Hatch, the Chairman of the juvenile justice conference, and 
Congressman Hyde, the Chairman of the House Judiciary Committee, asking 
that the conference be reconvened immediately. In April 2000, 
Congressman Hyde joined our call for the juvenile justice conference to 
meet as soon as possible in a letter to Senator Hatch, which was also 
signed by Congressman Conyers.
    Months ago, the President of the United States took the 
extraordinary step of inviting House and Senate members of the 
conference to the White House to urge us to reconvene and proceed to 
final enactment of legislation before the anniversary of the Columbine 
tragedy. The Republican majority has rejected his pleas for action, as 
they have those of the American people.
    The Clinton-Gore Administration did not wait for the Congress to 
act. Instead, the White House energized a number of federal agencies to 
convene experts and examine the issue of youth and school violence. On 
June 1, 1999, the President ordered the Department of Justice and the 
Federal Trade Commission to conduct a joint study of the marketing 
strategies and practices of the motion picture, recording, and video 
game industries to determine whether these industries are marketing to 
children violent material rated for adult viewing. This comprehensive 
study of major record companies, Hollywood studios and video game 
manufacturers was released earlier this week and contains important 
findings and recommendations. This is the report, requested by the 
President, that is the subject of these hearings.
    But that is not all the Clinton-Gore Administration did to respond 
to the concerns of the American people on the issue of youth violence. 
On May 10, 1999, the President ordered the United States Surgeon 
General to prepare a report on the causes of youth violence and ways to 
prevent it. The Surgeon General is bringing together experts to review 
and evaluate existing research on the root causes of youth violence, 
with special emphasis on media that have emerged since previous 
reports. We anticipate this report by the end of the year.
    Moreover, the President directed the Department of Education and 
the Department of Justice to develop a guide to help school personnel, 
parents, community members and others identify early indicators of 
troubling and potentially dangerous student behavior. This guide, 
called Early Warning, Timely Response: A Guide to Safe Schools, was 
prepared by an independent panel of experts in the fields of education, 
law enforcement and mental health and completed and released in the 
summer of 1998 free of charge to every school in the nation.
    In addition, the Department of Justice has provided important 
financial assistance through the COPS in Schools Grant Program 
throughout the last two years. The Department of Justice, the 
Department of Education and the Surgeon General have promoted a Safe 
Schools/Healthy Students Initiative to provide 50 communities with up 
to $3 million per year for three years to link existing and new 
services and activities into comprehensive community-wide approaches to 
promote healthy childhood development, prevent school violence and 
juvenile drug abuse. This is a constructive way to alert everyone in a 
community to available resources for addressing youth violence and 
crime prevention.
    Most recently, the Department of Justice has made available a 
threat assessment perspective on school violence developed by the 
Critical Incident Response Group and the National Center for the 
Analysis of Violent Crime of the FBI. Just last week, components of the 
FBI made available a study entitled ``The School Shooter,'' pointing 
out a number of factors that contribute to violence.
    We all recognize that there is no single cause and no single 
legislative solution that will cure the ill of youth violence in our 
schools or in our streets. Focusing exclusively on violence in 
entertainment as a cause of youth violence would be ineffective and 
misleading.
    Yet all of us as parents, and many of us as grandparents, are 
frustrated by the violence, obscenity and other inappropriate material 
available to children in multiple media, on film, on TV, in video games 
or on the Internet, and parents are looking for help in protecting 
their children. The easy way out for both parents and eager-to-please 
legislators would be to adopt some form of government censorship that 
simply banned inappropriate material. The Congress has taken the easy 
way out before--for example, by broadly banning so-called ``indecent'' 
material over the Internet.
    We have to remember that films like The Patriot, Saving Private 
Ryan, Schindler's List and The Hurricane are among those receiving 
``R'' ratings that invite parental permission before a teenager sees 
them. Many parents chose to have their teenagers see those films, 
although they include graphic scenes, and to consider the important 
values, lessons and human history those motion pictures involve.
    Our Constitution, thankfully, does not allow the easy way out, as 
the Congress learned when the Supreme Court unanimously struck down the 
Communications Decency Act. The First Amendment rightly restricts 
Congressional efforts to dictate what others may say or believe and 
leaves to parents the responsibility for helping their children choose 
appropriate entertainment.
    Interestingly, the FTC report noted, in parents' responses to who 
selects and purchases movies, that an adult or an adult and the child 
together do so almost 97 percent of the time. To the extent that there 
are gaps in the enforcement of the various ratings systems adopted by 
the entertainment industry, this report should serve as a wake-up call 
to all.
                                 ______
                                 
 Prepared Statement of Hon. Bart Peterson, Mayor, City of Indianapolis
    Mr. Chairman, Senator Hollings, and distinguished Members of this 
panel, I would like to thank you for calling this hearing and 
presenting me with the opportunity to share my views and experiences 
with you regarding the marketing of violent materials to our nation's 
youth by the entertainment industry. In the wake of the conclusions 
reached by the Federal Trade Commission in its recently released 
report, I am pleased to share with you a step that we have taken in 
Indianapolis to help reduce children's exposure to violent video games.
    We live today in a culture steeped in violence. From movies and 
television to music and video games, violent images so pervade American 
popular culture that many of us feel immune to their effects.
    But recent studies show we are anything but immune. Even more 
disheartening, violent media--including violent video games--is 
especially popular with the most impressionable and the least mature 
consumers of popular culture: our children. As the Federal Trade 
Commission's recent investigation found, the home video game industry 
has marketed its products to children under age 17, despite ratings 
indicating the games are unsuitable for children that young. In another 
disturbing trend, many of the school shooters of the past few years 
were avid violent video game players. Investigators have attributed 
several of the shooters' accuracy to the ``training'' they received 
from playing realistic violent video games.
    Studies show that playing violent video games increases people's 
aggressive thoughts and behaviors. In a study published in the April 
2000 issue of the Journal of Personality and Social Psychology, Drs. 
Craig A. Anderson and Karen E. Dill found that repeated exposure to 
violent video games increased players' aggressive thought patterns, 
which can lead to increased aggressive behavior. Drs. Anderson and Dill 
also noted that the active nature of violent video games may well make 
them even more dangerous than other forms of media violence, such as TV 
and movies. Likewise, in a joint statement on the impact of 
entertainment violence on children, the American Medical Association, 
the American Psychiatric Association, and several other prominent 
health organizations concluded that viewing violence can desensitize 
children, possibly leading them to engage in real life violence, and 
that the effect of violent video games and other interactive media may 
be ``significantly more severe'' than other forms of violent media.
    In my own experience, I have found that when I share excerpts of 
popular violent video games with concerned parents, they are generally 
shocked at the level of violence in them. The days of Pac-Man are long 
over, but even the most conscientious parents often seem unaware of the 
kinds of games their children play and how violent these games actually 
are.
    Nonetheless, nothing generally stops an unsupervised child from 
walking into an arcade and playing horribly violent video games. 
Parents can control whether their children play violent video games at 
home or watch violent TV shows; they should also be able to control the 
kinds of video games their children play outside the home.
    That's why I proposed a city ordinance to restrict children under 
age 18 from playing video games with graphic violence or strong sexual 
content without parental consent. The ordinance--which is widely 
considered to be the first of its kind in the nation--requires 
businesses to label all games that contain graphic violence or strong 
sexual content. In addition, video arcades must erect a partition to 
separate these games from other games. Recently, the Indianapolis City-
County Council passed the ordinance unanimously, with the support of a 
broad coalition of citizens and community groups.
    I believe this ordinance puts parents back in the driver's seat 
when it comes to violent video games. It enables parents--not video 
game marketers--to decide whether their children should play a 
particular game. As studies show, violent video games affect different 
children differently. Some parents may decide certain violent video 
games are suitable for their children, but the choice should lie with 
them. Regardless of whether parents allow their children to play these 
games, this ordinance will both raise their awareness about the games 
and encourage them to play more active roles in monitoring their 
children's activities.
    The recent report released by the Federal Trade Commission clearly 
shows that the entertainment industry, including video game 
manufacturers, is not effectively regulating themselves. Alternative 
solutions are needed to allow parents to make informed decisions 
regarding their children's access to violent materials. I firmly 
believe that a small amount of local regulation, such as the ordinance 
recently passed in Indianapolis, can play a large role in reducing a 
problem that is increasingly plaguing our society.
    I would like to again thank the Chairman and distinguished Members 
of this panel for allowing me to express my views. I would be happy to 
answer any questions, and to assist the Committee in any way in its 
efforts to address this important issue.
                                 ______
                                 
  Prepared Statement of Hon. Jennifer Dunn, U.S. Representative From 
                               Washington
    Mr. Chairman,
    With the release of the Federal Trade Commission report on 
marketing violence to teens, serious damage has been done to the 
relationship between the entertainment industry and American families. 
Parents in America have come to depend on the voluntary ratings system 
used by the industry as a marker for what they will and will not let 
their children read, see, and listen to. By intentionally advertising 
materials to children that are inappropriate for their viewing, this 
industry runs the risk of government intervention to monitor their 
marketing practices.
    As the Co-Chair of the Bipartisan Working Group on Youth Violence, 
I want to bring the work we have already done on this issue to bear. 
After careful deliberation and consultation from outside experts, the 
24 Republicans and Democrats on the Working Group agreed that 
``ultimately parents are on the front line in trying to protect our 
children from violent images. But Congress can play a role in 
encouraging our schools and communities to help educate parents about 
the resources that are available.'' These resources include the V-Chip 
and TV ratings to help parents limit their children's access to 
inappropriate content on TV. In addition, many television stations are 
airing Public Service Announcements to educate kids and parents about 
the connection between youth violence and intolerance.
    Nevertheless, it's unconscionable that at the same time parents are 
using the industry rating system to gain more control over what their 
children see and hear, the entertainment industry is undermining these 
systems by advertising adult images during TV shows intended for 
general audiences. For instance, why advertise for the excessively 
violent movie The Way of the Gun during an episode of the teen drama 
Dawson's Creek? The Working Group on Youth Violence recognizes the 
efforts of the entertainment industry to monitor itself. By 
deliberately appealing to young people with their violent material, 
however, the industry dissipates the good will extended for their 
voluntary deeds. I do not approach the issue of government regulation 
lightly. Yet when the private sector fails to provide the necessary 
leadership to protect children from inappropriate materials, parents 
have a right to demand accountability.

                                <greek-d>

</pre></body></html>
